<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2014 BUDGET FOR TRIBAL PROGRAMS</title>
<body><pre>[Senate Hearing 113-7]
[From the U.S. Government Publishing Office]







                                                          S. Hrg. 113-7

      THE PRESIDENT'S FISCAL YEAR 2014 BUDGET FOR TRIBAL PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2013

                               __________

         Printed for the use of the Committee on Indian Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                  U.S. GOVERNMENT PRINTING OFFICE

80-593 pdf                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 24, 2013...................................     1
Statement of Senator Barrasso....................................     3
Statement of Senator Begich......................................    27
Statement of Senator Cantwell....................................     1
Statement of Senator Franken.....................................     5
Statement of Senator Johnson.....................................     3
Statement of Senator Murkowski...................................     4
Statement of Senator Schatz......................................     6
Statement of Senator Tester......................................     4

                               Witnesses

Abramson, Cathy, Chairperson, National Indian Health Board.......    42
    Prepared statement...........................................    44
Keel, Hon. Jefferson, President, National Congress of American 
  Indians........................................................    29
    Prepared statement...........................................    31
Miller, Lloyd B., Counsel, National Tribal Contract Support Cost 
  Coalition......................................................    53
    Prepared statement...........................................    55
Roubideaux, Hon. Yvette, M.D., M.P.H., Director, Indian Health 
  Service, U.S. Department of Health and Human Services..........    12
    Prepared statement...........................................    13
Sirois, Hon. John, Chairman, Confederated Tribes of the Colville 
  Reservation....................................................    49
    Prepared statement...........................................    51
Washburn, Hon. Kevin, Assistant Secretary--Indian Affairs, U.S. 
  Department of the Interior; accompanied by Thomas D. Thompson, 
  Deputy Assistant Secretary--Management.........................     7
    Prepared statement...........................................     8

                                Appendix

Allen, Hon. W. Ron, Tribal Chairman/CEO, Jamestown S'Klallam 
  Tribe, prepared statement......................................    63
Anketell, Thomas ``Stoney'', Councilman, Assiniboine and Sioux 
  Tribes, Fort Peck Reservation, prepared statement..............    83
Bean, David Z., Councilman, Puyallup Tribe of Indians, prepared 
  statement......................................................    86
Brown-Schwalenberg, Patty, Executive Director, Chugach Regional 
  Resources Commission, prepared statement.......................    80
Clement, Charles, President/CEO, SouthEast Alaska Regional Health 
  Consortium, prepared statement.................................    97
Cox, Angela, Vice-President of Administration, Arctic Native 
  Slope Association, LTD., prepared statement....................    79
Diver, Hon. Karen R., Chairwoman, Fond du Lac Band of Lake 
  Superior Chippewa, prepared statement..........................    65
Frank, Jr., Billy, Chairman, Northwest Indian Fisheries 
  Commission, prepared statement.................................   126
Galbreath, Dr. Donna, Medical Director--Quality Assurance, 
  Southcentral Foundation, prepared statement....................    94
Intertribal Timber Council.......................................    71
Maulson, Hon. Tom, President, Lac du Flambeau Band of Lake 
  Superior Chippewa Indians, prepared statement..................    68
Miller, Tom, President, Association of Community Tribal Schools 
  Inc. (ACTS); Superintendent, Hannahville Indian School, 
  prepared statement.............................................   106
Northwest Portland Area Indian Health Board, prepared statement..    75
O'Neill, Gloria, President/CEO, Cook Inlet Tribal Council, 
  prepared statement.............................................   115
Pavel, Hon. Joseph, Vice-Chairman, Skokomish Tribe of Washington 
  State, prepared statement......................................    91
Response to written questions submitted by Hon. John Barrasso to:
    Hon. Jefferson Keel..........................................   129
    Lloyd B. Miller..............................................   130
    Hon. Yvette Roubideaux.......................................   134
    Hon. John Sirois.............................................   131
    Hon. Kevin Washburn..........................................   142
Response to Written Questions Submitted to Hon. Yvette Roubideaux 
  by:
    Hon. Maria Cantwell..........................................   132
    Hon. Brian Schatz............................................   136
Response to Written Questions Submitted to Hon. Kevin Washburn 
  by:
    Hon. John Barrasso...........................................   142
    Hon. Maria Cantwell..........................................   138
    Hon. Mike Crapo..............................................   153
    Hon. Brian Schatz............................................   149
    Hon. Tom Udall...............................................   151
Roberts-Hyslop, Julie, Vice President, Tanana Chiefs Conference, 
  prepared statement.............................................   101
Shepherd, Hon. Robert, Tribal Chairman, Sisseton Wahpeton Oyate, 
  Lake Traverse Reservation, prepared statement..................   119
Smith, Hon. Dennis, Chairman, Shoshone-Paiute Tribes, Duck Valley 
  Reservation, prepared statement................................    88
St. Francis Indian School, prepared statement....................   123
Teuber, Andy, Chairman/President, Alaska Native Tribal Health 
  Consortium, prepared statement.................................    78
Thomas, Hon. Edward K., President, Central Council of the Tlingit 
  and Haida Indian Tribes of Alaska, prepared statement..........   109
Quetawki, Sr., Hon. Arlen, Governor, Zuni Tribe, prepared 
  statement......................................................   103
White Bull, Frank, Tribal Councilman, Standing Rock Sioux Tribe, 
  prepared statement.............................................    98
Zorn, James E., Executive Administrator, Great Lakes Indian Fish 
  and Wildlife Commission (GLIFWC), prepared statement...........   120

 
      THE PRESIDENT'S FISCAL YEAR 2014 BUDGET FOR TRIBAL PROGRAMS

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. The Oversight Hearing on the President's 
Fiscal Year 2014 Budget for Tribal Programs will come to order.
    I welcome our witnesses today.
    The President's overall request for Indian Affairs of the 
Department of Interior is $2.6 billion, which represents a $31 
million increase over the Fiscal Year 2012 enacted level. And 
the Indian Health Service budget was increased $124 million for 
a budget total of $4.4 billion.
    Although we look at these increases, we also much 
acknowledge the difficult financial times that we are in and on 
March 1, 2013 sequestration took effect and mandated automatic 
cuts across the board in Federal programs. Sequestration will 
have a significant impact on tribal governments and an 
anticipated cut of $120 million in programs at the Department 
of Interior and $220 million in reductions to programs at 
Indian Health Services.
    At the Indian Health Services, sequestration cuts will 
reduce the number of patients to be able to be seen, both 
inpatient and outpatient visits, and at the Department of 
Interior, tribal schools will be forced to furlough employees 
and significant cuts will be made to general assistance 
programs which provide things like food and rent and clothing 
to some who are in the most need. To me, if we are cutting 
these valuable programs, there is more that we need to do.
    It is important in our discussions here today to 
acknowledge the unique legal obligations the Federal Government 
has toward Indian tribes. The trust responsibility is grounded 
in the United States Constitution and treaties and Federal 
statutes and the Supreme Court decision. So, it is important 
that we look at how we fund tribal programs. We understand the 
tribal programs are acknowledgment of a government-to-
government relationship that exists between tribes and the 
Federal Government.
    Despite the budgetary constraints we face, there are some 
positive highlights in the President's Fiscal Year 2014 Budget. 
I am pleased to see the Administration focus on the stewardship 
of natural resources in Indian Country and, in addition, 
applaud the Administration's constant support for Indian health 
programs, energy development and public safety.
    There are some areas, however, that are not receiving the 
attention they deserve and hopefully at today's hearing we can 
illuminate some of these issues.
    For tribal communities to thrive for now and into the 
future, they must be given economic development opportunities 
and workforce opportunities. I note that this year's budget 
request contains a decrease in economic development funding for 
Indian Country, despite a moderate increase in overall 
education funding. And it contains no funding for school 
construction.
    My colleagues and I have heard at numerous committee 
hearings of the poor conditions at many of the Bureau of Indian 
Affairs schools across our Nation. But for the past two years, 
the Administration has not requested any funding for school 
construction. In fact, if we compare the two federally-operated 
systems like the Department of Defense Schools and the Bureau 
of Indian Affairs, you can see that the spending for the 
Department of Defense Schools is now $753 million where the 
Bureau of Indian education construction remains at $0. So, I am 
certain we are going to be asking questions about this today 
and working with the agency on this issue.
    The President's budget request also contains two 
legislative recommendations. One recommendation is to clarify 
the Secretary of Interior's authority to take land into trust 
for tribes and it is familiar as many of my colleagues here 
have talked about a Carcieri fix. Since the 2009 Supreme Court 
decision, the Committee has held numerous hearings and passed 
legislation out of this Committee both in the 111th and the 
112th Congress and I am pleased that resolving this issue will 
be one of our top priorities and I know it is for the 
Administration as well.
    The second legislative issue is the Ramah v. Salazar case. 
In that case, the court decided that the Government is 
responsible for full payment of contract support for those 
tribes who take over the programs for the Federal Government. 
The courts further stated that it is up to Congress to either 
fully fund this appropriation or to address this issue 
legislatively. This is an important issue that impacts every 
tribe in the Country since every tribe has had at least one 
self-determination contract with the Indian Health Services or 
the Department of Interior.
    The Administration has proposed a legislative solution. 
However, this Committee has not conducted oversight on it so I 
think it is just safe to say we are going to have to drill down 
on this and have lots of conversation about this issue.
    I look forward to hearing from all of the witnesses today, 
including those on the Second Panel. And I would like to extend 
a special welcome to John Sirois from my home State of 
Washington. He is the Chairman of the Confederated Tribes of 
the Colville Reservation. We will see him on the First Panel.
    So, I now would like to turn to my colleague, the Vice 
Chairman of the Committee, Senator Barrasso, for his opening 
statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you, Madam Chairwoman, and 
thank you for holding this important hearing to examine the 
President's Fiscal Year 2014 Budget Request for Indian 
Programs.
    This budget represents the Administration's policies with 
respect to funding for important programs for tribes and their 
members and addressing an unprecedented Federal deficit. We 
need to examine and evaluate those policies very carefully. Do 
the proposed funding levels reflect sound decisions in terms of 
the priorities and the needs of Indian Country? That is what we 
need to know.
    We need to know what the justifications are for funding 
certain programs more or less than others, and we need to see 
if the proposals reflect the need to use American tax dollars 
in the most effective, efficient and accountable manner.
    So I appreciate your leadership, Madam Chairwoman, in 
signaling the need for greater fiscal responsibility in light 
of widely-shared concerns over the Federal deficit. All 
agencies are called upon to control spending. The agencies must 
also prioritize the use of funding as wisely as possible. 
Everything cannot be a top priority when funding is 
insufficient to cover all the needs.
    So, Madam Chairwoman, I hope to hear recommendations from 
all of our witnesses about spending priorities. We will hear 
from both the agencies as well as the tribes. I want to welcome 
the witnesses and look forward to their testimony.
    Thank you.
    The Chairwoman. Thank you. Further opening statements? 
Senator Johnson.

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Chairwoman Cantwell, for 
holding this important hearing.
    I would like to welcome Dr. Roubideaux, who has ties to my 
home State of South Dakota. As Director of the Indian Health 
Service, Dr. Roubideaux has provided tremendous expertise to 
help alleviate health disparities affecting Indian Country.
    As you know, Madam Chairwoman, many challenging issues face 
Indian Country. The United States Federal Government has a 
treaty and trust responsibility to help hold on making these 
important budgetary decisions. Changes to tribal programs can 
create both positive and negative impacts on tribal 
governments, schools and healthcare programs.
    I am pleased that the Fiscal Year 2014 includes a number of 
critical funding increases. There is, however, plenty of work 
left to be done and I look forward to working with my fellow 
colleagues on this Committee to further strengthen Indian 
programs.
    I look forward to the testimony today.
    Thank you again, Madam Chairwoman, for holding this 
hearing.
    The Chairwoman. Thank you. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madam Chairman, and welcome 
Dr. Roubideaux, Mr. Washburn, thank you, and Mr. Thompson, I 
appreciate your being here.
    Madam Chairman, I just want to state for the record here 
this afternoon how very disappointed I am with the 
Administration's decision to alter the operation of Indian 
self-determination contracts.
    Indian tribes fought and won a huge victory in the Supreme 
Court's Ramah decision and rather than delivering justice to 
tribes in the adequate payment of contract support costs for 
the operation of Federal Indian programs, the Administration, 
in my view, has decided to forego justice and hand the issue 
over to Congress to address in the appropriations process, a 
decision that dramatically alters the Federal Indian Self-
Determination statute without consultation of the tribes nor 
this authorizing Committee.
    Must I remind the Obama Administration that self-
determination contracts are the core of our Nation's Federal 
trust relationship with Indian tribes? Through thousands of 
contracts throughout the Bureau of Indian Affairs and the 
Indian Health Service, tribes operate the Federal programs 
promised to Indians for the removal of their lands. This is a 
Federal trust relationship that exists in strong budget times 
and most importantly in difficult budget times as well.
    I do understand that Director Roubideaux and Assistant 
Secretary Washburn will meet with the tribes tomorrow and I 
look forward to hearing from the tribes after that visit.
    But I cannot stress enough to you, Madam Chairman, and to 
our witnesses, the impact that this decision and this budget 
proposal will have on the delivery of healthcare to Alaska 
Natives and to our Native Americans. I think we need to look at 
this very, very critically. And I appreciate the opportunity to 
do so.
    Thank you.
    The Chairwoman. Thank you. Senator Tester, do you have an 
opening statement?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. It is going to be very, very quick.
    First of all, the budget is about priorities and I look 
forward to hearing from the witnesses today why money was put 
where as far as priorities go.
    Most importantly, though, I want to recognize, this is the 
second meeting in a row three Montanans are here, Tracy 
``Ching'` King, Bum Stiff Arm and Donovan Archambeaux. Thank 
you guys for being here. I appreciate it.
    The Chairwoman. Thank you. Senator Franken, did you wish to 
make an opening statement?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Yes, I do, Madam Chair.
    Thank you for holding this hearing. This is always an 
important hearing.
    As we consider this budget, we should remember that Native 
communities have been under funded for decades. For instance, 
on other committees that I sit on we often talk about budgets 
in terms of billions of dollars. Only on Indian Affairs do we 
get sometimes to levels of like $100,000 and I find it almost 
embarrassing.
    I hope that as we examine the budget this Committee looks 
for ways to make up for the sequester cuts that we have been, 
that have unfairly burdened Native Americans although it is 
under Education, the Department of Education, and not Indian 
Affairs. We have seen the impact aid cuts to schools. You were 
talking about Indian schools. Schools in Indian Country 
obviously rely on the impact aid because there is no tax base 
there. It is Federal land and so, no local property tax.
    These are also during the sequester included cuts in health 
benefits under Indian Health Services, Dr. Roubideaux knows 
that, whereas Medicaid, Medicare and Veterans Health benefits 
are all exempt from sequestration cuts, as they rightly should 
be.
    Singling out Native American programs for sequestration 
cuts is unfair and at odds with the Federal Government's trust 
responsibilities. That is why I was pleased that the 
President's Fiscal Year 2014 Budget proposes an increase for 
the Indian Health Service. It does not make up for 
sequestration but it is a move in the right direction.
    I also am happy to see a proposed increase in funding for 
energy development, natural resources, sciences, public safety 
and justice and Indian education. These areas are top 
priorities for tribes and they are vital to tribal economic 
development and self-determination.
    But I am concerned, as is the Chairwoman, by some severe 
cuts proposed in the President's Budget and the proposal to 
zero out, eliminate funding, for Indian schools that need to be 
rebuilt is frankly, in my mind, just sad.
    The Bureau of Indian Affairs lists 46 schools in poor 
condition that need to be rebuilt. With the lack of funding 
over the years, there is now a backlog of $1.3 billion in 
Indian schools construction projects.
    One such school, and I have talked to Secretary Washburn 
about this a number of times, is the Bug-O-Nay-Ge-Shig School 
at Leech Lake Reservation in my home State of Minnesota. The 
Bug School is desperately in need of replacement. This is a 
pole barn. This is a structure that was built to house animals. 
This structure is so unsafe that when the wind blows at a 
certain velocity, the kids have to leave the school. This is in 
Northern Minnesota. So, when it gets down to 30 or 40 below and 
when the wind is blowing especially hard, the kids have to 
leave the school.
    Despite the many schools that need to be rebuilt, this 
year, like last year, the President requested that no funding 
go to rebuilding these schools, leaving thousands of Indian 
children to stay in crumbling, dangerous buildings. This is 
just simply unacceptable. No caring parent would let their 
children study in a building infested with mold and vermin as 
the Bug School is. How can we expect Indian children to succeed 
and Native communities to flourish under these conditions? We 
simply have to do better.
    I hope that my colleagues on this Committee join me in 
pushing to restore funding for Indian school replacement.
    I want to thank all the witnesses for coming today and I 
look forward to your testimony.
    Thank you.
    The Chairwoman. Thank you. Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairwoman Cantwell and Vice 
Chair Barrasso for holding this important oversight hearing on 
the President's Fiscal Year 2014 Budget Request for Native 
Programs.
    Everyone in this room and members of the Committee have 
expressed the health and education disparities, the double 
digit unemployment numbers, the disproportionate substandard 
housing conditions and levels of homelessness and the many 
other difficult challenges faced by American Indian, Alaskan 
Native and Native Hawaiian communities in our Nation. And that 
is why I am particularly interested in the testimony of 
witnesses representing tribal governments, tribal organizations 
and Native communities.
    The United States has a duty to uphold its trust 
responsibilities to Native people, even in challenging times. 
It is vital for this Committee and this Congress to fully 
understand the real impacts to Native Americans of the 
sequester as well as the potential impacts of the Fiscal Year 
2014 requests. So, thank you for traveling to Washington, D.C. 
to contribute your expert testimony.
    I also want to welcome our Federal witnesses. In 
particular, I want to acknowledge Assistant Secretary for 
Indian Affairs Kevin Washburn. I have read the positive remarks 
you made during your confirmation hearing before this Committee 
regarding parity for Native Hawaiians. On September 14, 2012, 
you stated ``The Native Hawaiians are in a very similar 
situation to the Native Alaskans and American Indians on the 
mainland. There is every reason to believe that they should 
also have a government-to-government relationship with the 
United States. I personally fully support that.'`
    I also want to thank you very much for voicing your support 
for the passage of Senator Akaka's bill, S. 675, as amended, 
and for indicating that you would look forward to fully 
implementing such a bill. I look forward to working with you to 
ensure fairness and equal treatment under Federal policy and 
law for Native Hawaiians.
    I also look forward to working with the members of the 
Committee, the witnesses here today and all of the stakeholders 
to ensure that the special political relationship between the 
United States and all Native Americans remains strong and that 
meaningful consultation and the policy of self governance 
continues to guide our actions.
    Thank you, Chairwoman Cantwell.
    The Chairwoman. Thank you, Senator Schatz.
    And now we will turn to our witnesses. Again, welcome to 
all of you, Assistant Secretary Washburn, Director Roubideaux 
and Deputy Assistant Secretary Thompson.
    I think we are going to start with you, Mr. Washburn, and 
then follow with Ms. Roubideaux. Thank you both very much for 
being here.

          STATEMENT OF HON. KEVIN WASHBURN, ASSISTANT 
       SECRETARY--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
         INTERIOR; ACCOMPANIED BY THOMAS D. THOMPSON, 
             DEPUTY ASSISTANT SECRETARY--MANAGEMENT

    Mr. Washburn. Thank you, Madam Chairwoman. By your opening 
comments I can tell you were a quick study in Indian Affairs 
and we are grateful to have your leadership of this Committee.
    To the members of the Committee who have been here for a 
while, I want to thank you for the swift confirmation that I 
received in October. This is my first return trip to the 
Committee.
    And for our new member, I would like to say thank you for 
taking on this assignment. This is, I think, one of the most 
important committees in the U.S. Senate because of the trust 
responsibility to American Indians and Alaska Natives. So, 
thank you for taking on that role.
    I am here with Tommy Thompson, the Deputy Assistant 
Secretary for Management who is our chief budget person, Monty 
Russell who is the Acting Director of the Bureau of Indian 
Education, and Mike Black who is the Director of the Bureau of 
Indian Affairs. And for certain questions I may call on these 
gentlemen because they have been here longer than me and they 
may be able to answer some questions better than I can.
    I am here to humbly ask this Committee's support for the 
President's Budget for the Department of the Interior. It is 
not a perfect budget. It is, I know that there are parts of it 
that have not been well received. But it is better than a flat 
budget. It is an increase, the request, for meeting our trust 
responsibilities in Indian Country and we hope that we get that 
increase because we desperately need that increase.
    The Budget Request is roughly $2.6 billion for Indian 
Affairs in the Department of the Interior and it is about a $30 
million increase over prior, the Fiscal Year 2012 Budget and 
frankly, because of sequestration, it is about a $171 million 
increase over the budget that I am currently living under.
    I have to tell you sequestration, as the Chairwoman 
recognized, has been absolutely brutal. It has not only 
impacted tribes very directly through their contracts with the 
Federal Government, it has devastated our ability to provide 
services to tribes.
    We have been working very, very hard to meet the impact of 
sequestration. We have stopped virtually all hiring. We have 
stopped virtually all travel that is not absolutely mission 
critical. We have ended all conferences, including training 
conferences, unless they are absolutely necessary, and taken 
numerous other steps to save money. And so, we are trying to 
meet our budget under sequestration but it is really hampering 
our ability to meet our very important mission, serving Indian 
Country.
    The budget that we have before you in the green book, this 
is my first time to this rodeo but I am learning how the 
process works, there is a lot of good in the budget. It 
increases our contract support cost funding by $10 million over 
the 2012 level. I understand that is not considered fully 
adequate because, frankly, it only funds about 90 plus percent 
of what is due, it is not quite funding the full contract 
support costs that the tribes are entitled to under that law.
    However, it does some other good things as well. It 
increases funding for rights protections, for helping tribes 
protect their treaty rights, it increases funding for all sorts 
of law enforcement functions, such as police, both tribal 
police and BIA police, it increases funding for detention 
centers and tribal courts.
    We also have increases in several smaller areas, smaller 
increases each of which is not probably worthy of discussion 
alone but each of which is important. So, we actually, there is 
a lot more green in this budget increase in black than there is 
red in the budget.
    There are some key places where there are cuts, where there 
is red in this proposed budget as several of you recognized, 
school construction being one of the most notable. And, 
honestly, some of these cuts are more defensible than others. 
We have heard a lot from Indian Country just in the last few 
days since we have put the green book out there and we have 
been getting a heck of a lot of feedback and I have been 
learning probably more from the feedback than I have from the 
process of putting the budget together. And I am very, very 
happy to be before you here today.
    It is, as several of your have recognized, you know, a good 
budget in some ways. It is an increase over past budgets and 
during these difficult fiscal times, it will be, we think that 
it may be hard for us to get an increase. But we are 
desperately hopeful that we will get the increases that we have 
recognized, or we have asked for, and I will very much look 
forward to the Committee Members' questions during the rest of 
the hearing.
    Thank you so much for having me and thank you for 
considering supporting the President's Budget.
    [The prepared statement of Mr. Washburn follows:]

Prepared Statement of Hon. Kevin Washburn, Assistant Secretary--Indian 
                Affairs, U.S. Department of the Interior
    Good afternoon, Chairwoman Cantwell, Vice Chairman Barrasso, and 
Members of the Committee. Thank you for the opportunity to provide a 
statement on behalf of the Department of the Interior (Department) on 
the fiscal year (FY) 2014 President's Budget request that was released 
on April 10, 2013. The FY 2014 budget request for Indian Affairs 
programs within the Department totals $2.6 billion, which is $31.3 
million more than the FY 2012 enacted level.
    The FY 2014 Budget Request includes nearly $120 million in program 
increases for President Obama's continued initiative of Strengthening 
Tribal Nations. This initiative continues to support advancing Nation-
to-Nation relationships, protecting Indian Country, advancing Indian 
education and improving trust land management. The budget focuses on 
these priority areas in Indian Country and honors the Federal 
Government's obligations to tribal nations in a focused and informed 
manner.
    As the Assistant Secretary for Indian Affairs, I have the 
responsibility to oversee the numerous programs within the Bureau of 
Indian Affairs (BIA) and the Bureau of Indian Education (BIE), along 
with other programs within the immediate Office of the Assistant 
Secretary for Indian Affairs. The Office of the Assistant Secretary for 
Indian Affairs, BIA, and BIE programs expend over 90 percent of 
appropriated funds at the local level. Of this amount, at over 62 
percent of the appropriations are provided directly to Tribes and 
tribal organizations through grants, contracts, and compacts for Tribes 
to operate government programs and schools. Indian Affairs' programs 
serve the more than 1.7 million American Indian and Alaska Natives 
living on or near Indian reservations.
Protecting Indian Country
    Improving public safety and promoting safer Indian communities is a 
top priority for the president and Tribal leaders. The BIA Office of 
Justice Services supports 188 law enforcement programs throughout 
Indian Country of which approximately 75 percent are tribally operated. 
The BIA Division of Corrections funds 95 detention programs of which 73 
are tribally operated. In addition, there are almost 300 tribal courts. 
The 2014 request provides programmatic increases of $19.9 million for 
Public Safety and Justice programs. These increases will provide $5.5 
million to hire additional tribal and bureau law enforcement personnel 
and $13.4 million to staff new tribally operated detention centers in 
Indian Country. The funding for detention center operations is an 
important request because, although incarceration is not the answer to 
all offenses, offenders are more effectively rehabilitated when held in 
a location closer to his or her community than when removed to a 
distant location. The budget also includes an increase of $1.0 million 
for tribal courts which are expected to see an increase in case loads 
pursuant to the Tribal Law and Order Act, and now, the new provisions 
of the recently reauthorized Violence Against Women Act. The budget 
includes $3.0 million to address the needs of Indian communities with 
elevated levels of domestic violence within the BIA Human Services 
program which will partner with the Law Enforcement program to expand 
services that help stem domestic violence and care for its victims.
Contract Support Costs
    In response to the Salazar v. Ramah Navajo Chapter Supreme Court 
decision on contract support costs funding, the FY 2014 budget proposes 
to fund contract support in an account separate from the Operation of 
Indian Programs account. In total, $231.0 million is requested for 
contract support costs, which is an increase of $9.8 million over 2012. 
The increase strengthens the capacity of Tribes to manage Indian 
Affairs programs for which they contract.
    The Administration is proposing that Congress appropriate contract 
support costs funding to Tribes on a contract-by-contract basis. To 
ensure as much clarity as possible regarding the level of contract 
support funding, the Administration will provide Congress a contract-
by-contract funding table for incorporation into the appropriations 
act. The Administration proposes this change as an interim step towards 
a more comprehensive solution. The broader goal is to develop a longer-
term solution through consultation with Tribes, as well as streamline 
and simplify the contract support costs process, which is considered by 
many as overly complex and cumbersome to both Tribes and the Federal 
Government. This interim solution will balance funding for contract 
support costs with direct programs for tribes, such as health care 
services and law enforcement, and other tribal priorities.
Land and Water Claims Settlements
    The FY 2014 budget request for Indian Land and Water Claim 
Settlements is $35.7 million. The budget proposes $8.8 million for the 
first year of discretionary funding for the Taos Pueblo Indian Water 
Rights Settlement authorized as part of the Claims Resolution Act of 
2010, P.L. 111-291. A total of $7.8 million, including a program 
increase of $3.4 million, is included for the San Juan Conjunctive Use 
Wells and San Juan River Navajo Irrigation Project Rehabilitation, both 
part of the Navajo-Gallup Water Supply Project.
    The budget includes $12.0 million for the Shoshone-Paiute Tribes of 
the Duck Valley Reservation Water Settlement, the last of five payments 
to satisfy this requirement. The budget also includes $6.0 million for 
the Navajo Nation Water Resources Development Trust Fund. The final 
payment for the Nez Perce/Snake River settlement was made in FY 2013 
and is not included in the FY 2014 budget.
Advancing Indian Education
    The 2014 budget request continues the Department's commitment to 
Indian education. Education is critical to ensuring a viable and 
prosperous future for tribal communities and American Indians. It is 
this Department's goal to improve Indian education and provide quality 
educational opportunities for those students who attend the 183 BIE 
funded elementary and secondary schools and dormitories located on 64 
reservations in 23 States. BIE funded schools serve nearly 48,000 
individual K-12 students and residential borders, which equates to an 
average daily attendance of approximately 41,000 students due to 
transfers, absences and dropout rates.
    The budget provides $651.9 million for elementary and secondary 
school education activities funded by BIE, which is supplemented by 
over $200 million from the Department of Education for specific 
educational purposes. Increases include $2.0 million for Tribal Grant 
Support Costs, which funds administrative and indirect costs of 
operating tribally run schools under contract or grant authorization. 
The budget includes $15.0 million to fund a pilot program based on the 
Department of Education turnaround schools model and concepts. Grants 
will be awarded to schools that demonstrate the strongest commitment 
for using the funds to substantially raise the achievement of students. 
The increases are offset by a $16.5 million reduction in Indian School 
Equalization Program funds, which are distributed by formula, usually 
based on the number of students, to BIE funded schools for operations. 
Additionally, the Budget funds a $2.0 million independent evaluation of 
the BIE to determine future needs and structure of the system.
    The FY 2014 budget includes increases totaling $6.2 million for 
BIE-funded post-secondary programs. The budget provides an additional 
$2.5 million to meet the needs of growing enrollment at BIE-funded 
tribal colleges. Tribal colleges and universities provide local 
communities with the resources and facilities to teach community 
members the skills they need to be successful and overcome the barriers 
to Indian higher education. To further achieve this goal, the request 
also provides increases of $3.0 million for post-graduate scholarships 
in science fields and $710,000 for other higher education scholarships 
and adult education.
Supporting Stewardship of Natural Resources and Science in 
        Indian Country
    The 2014 budget includes programmatic increases of $32.4 million 
for science and technical support to Tribes for the sustainable 
stewardship and development of natural resources. The funding will 
support resource management and decisionmaking in the areas of energy 
and minerals, climate, oceans, water, rights protection, endangered and 
invasive species, resource protection enforcement, and post-graduate 
fellowship and training opportunities in science-related fields. Of 
this funding, $2.5 million will focus on projects that engage youth in 
the natural sciences and will establish an office to coordinate youth 
programs across Indian Affairs.
Improving Trust Land Management
    The United States holds 55 million surface acres of land and 57 
million acres of subsurface mineral estates in trust for Tribes and 
individual Indians. Trust management is vital to tribal and individual 
Indian economic development. The management of Indian natural resources 
is a primary economic driver in many regions within the country. For 
example, some Tribes with forestry resources operate the only sawmills 
in their region and are major employers of tribal members as well as 
non-tribal members who live in or near their communities.
    The 2014 budget includes an additional $18.4 million in 
programmatic increases for improving trust land and water management 
activities. In Trust Natural Resources, BIA requests program increases 
for the Rights Protection Implementation and Tribal Management and 
Development programs to support fishing, hunting, and gathering rights 
on and off reservations. The budget request also provides program 
increases for the Forestry, Invasive Species, and Wildlife and Parks 
programs. In addition, the request supports greater BIA and tribal 
participation in the Landscape Conservation Cooperatives.
    Within Trust Real Estate Services, a total of $7.7 million in 
program increases is directed toward improving trust land management 
activities, including a $5.5 million increase to provide a total of 
$7.0 million to continue authorized activities related to the Klamath 
Basin Restoration Agreement. The 2014 request also provides increases 
for Rights Protection Litigation Support/Attorney Fees to assist Tribes 
in managing tribal trust resources and the Real Estate Services program 
to meet workload demands associated with the Administration's New 
Energy Frontiers initiative. In addition, the Construction account 
includes an increase of $2.3 million for operation and maintenance of 
the Fort Peck Water System, a new water treatment plant facility.
    The 2014 budget continues to propose language to clarify the 
Department's authority to take Indian land into trust. As in the FY 
2013 budget proposal, the President's FY 2014 budget proposal includes 
Carcieri fix language signaling his strong support for a legislative 
solution to resolve the issue of securing tribal homelands for all 
tribes.
Improved Management
    Over the last few years, Indian Affairs has taken significant steps 
to reduce the administrative costs associated with the wide range of 
services delivered through its programs. The request includes $13.8 
million in savings from reductions to contracts, fleet management, 
awards, and travel. Indian Affairs has also identified opportunities to 
reduce costs and improve efficiency through streamlining and 
consolidations. The 2014 budget request includes a reduction of $19.7 
million to reflect anticipated savings from streamlining and 
consolidations effected in 2013.
    Inherent in any consolidation is the need to identify and eliminate 
duplicative or overlapping functions and processes, identify more 
efficient ways to conduct business, and reduce associated positions. In 
2013, Indian Affairs will use early retirement and voluntary separation 
incentives to manage full time employment reductions along with other 
position management techniques. Such an ambitious undertaking can only 
be successful with the full support and participation of the Tribes. To 
this end, Indian Affairs has engaged in extensive consultation with the 
Tribes to identify strategies to ensure tribal needs and priorities are 
addressed.
Program Reductions and Eliminations
    The 2014 budget request includes $72.3 million in program 
decreases. The request includes a reduction of $2.6 million for Law 
Enforcement Special Initiatives reflecting decreased participation in 
activities such as intelligence sharing. In administrative related 
activities, the budget reduces $7.1 million for Information Resources 
Technology as standardization occurs. The request includes a decrease 
of $16.5 million for the Indian Student Equalization Program in 
education to offset a $15.0 million increase for a turnaround school 
pilot program.
    The 2014 budget requests $107.1 million for Construction including 
$52.3 million for Education Construction. The request does not include 
funding for Replacement School Construction, as the program will 
address improving the physical conditions of existing school facilities 
through the Facilities Improvement and Repair program. From 2002 
through 2012, $2.0 billion, including about $300 million in ARRA 
funding, has been invested in construction, improvement, and repair 
projects that have reduced the number of schools in poor condition from 
more than 120 to 63. This includes 42 complete school replacements and 
62 major renovations, which are either completed, funded or under-
construction. The Construction request also includes $11.3 million for 
Public Safety and Justice Construction, $32.8 million for Resources 
Management Construction, and $10.8 million for Other Program 
Construction.
    The budget provides $5.0 million for the Indian Guaranteed Loan 
Program, a $2.1 million reduction while Indian Affairs seeks to improve 
performance and conducts a results-oriented independent evaluation to 
determine how to achieve its intended objectives through Indian Affairs 
or other Federal loan programs. This requested funding level will 
guarantee $70.2 million in loans.
    The budget proposes to eliminate $12.6 million in funding for the 
Housing Improvement Program (HIP). Tribal housing authorities are not 
precluded from using available funding to provide assistance to HIP 
applicants.
Conclusion
    This 2014 budget supports the Administration's objectives to 
strengthen tribal nations through economic development, protect Indian 
communities through public safety and justice programs and social 
services, improve Indian education to secure the long-term health and 
vitality of Indian Country, and improve the constitutionally-based, 
government-to-government relationship between tribal nations and the 
United States. The 2014 budget request maintains the President's 
commitment to meet our obligations to tribal nations while exercising 
fiscal responsibility and improving government operations and 
efficiency.
    Madam Chairwoman and Members of the Committee, thank you for the 
opportunity to appear before you today. I am happy to answer any 
questions you may have.

    The Chairwoman. Thank you,
    Director Roubideaux, thank you very much for being here.

      STATEMENT OF HON. YVETTE ROUBIDEAUX, M.D., M.P.H., 
DIRECTOR, INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. Roubideaux. Thank you, Madam Chairwoman and Members of 
the Committee.
    My name is Dr. Yvette Roubideaux and I am the Director of 
the Indian Health Service. I am pleased to have the opportunity 
to provide testimony on the Fiscal Year 2014 President's Budget 
Request for the Indian Health Service.
    The President's Budget Request for the Indian Health 
Service in Fiscal Year 2014 is $4.4 billion, an increase of 
$124 million or a 2.9 percent increase over Fiscal Year 2012. 
The request includes priority increases, $77.3 million to staff 
and operate newly-constructed healthcare facilities, $35 
million for Purchased and Referred Care Program which is our 
proposed new name for the Contract Health Services Program, $6 
million for pay increases for Federal and tribal staff, and a 
$5.8 million increase for contract support costs for ongoing 
contracts and compacts. This budget request also includes new 
appropriations language for both IHS and the Bureau of Indian 
Affairs.
    The budget proposal also includes $85 million to continue 
construction at the Kayenta, Arizona facility and to complete 
construction on the San Carlos, Arizona facility and the 
Southern California Youth Regional Treatment Center.
    Thank you so much for our progress on this budget which has 
been critical to our progress in accomplishing our agency 
priorities and our work to change and improve the Indian Health 
Service. If this proposed budget is enacted, IHS appropriations 
will have increased by 32 percent since Fiscal Year 2008. The 
appropriations increases received in the past few years are 
making a substantial difference in the quality and quantity of 
healthcare that we are able to provide.
    For example, increased Contract Health Service funding is 
making a difference. Four years ago, almost all of our CHS 
programs were funding only Medical Priority 1 or life or limb 
referrals. Now, almost half, 29 out of 66 Federal Contract 
Health Service programs, are now funding referrals beyond 
Medical Priority 1. This means more patients are accessing the 
health services they need, including preventive services such 
as mammograms and colonoscopies.
    The increased funding also means that the Catastrophic 
Health Emergency Fund, or CHEF, which used to run out of 
funding for high-cost cases in June, is now able to fund cases 
through August.
    IHS has made considerable progress in adjusting our agency 
priorities and reforms and the details are available in my 
testimony. Briefly, we have made several improvements in tribal 
consultation that have resulted in better decision making and 
more effective progress on our agency reforms.
    IHS is focused on planning for implementation of the 
Affordable Care Act, insurance marketplaces and Medicaid 
expansion in 2014. And we continue to make progress on the 
implementation of the permanent reauthorization of the Indian 
Health Care Improvement Act.
    IHS is also making progress on our internal IHS 
organizational and administrative reforms including improved 
budget planning, financial management, performance management, 
more consistent business practices throughout the agency and 
system-wide accountability for progress on these agency 
reforms.
    IHS has responded with corrective actions to the findings 
of the Senate Committee on Indian Affairs' investigation of the 
Aberdeen Area and we have completed reviews in all other IHS 
areas.
    We have focused on improving the quality of and access to 
care with a number of customer service and quality improvement 
strategies including establishment of a patient-centered 
medical home model within the Indian Health System.
    In 2011, we successfully met all of our clinical GPRA 
indicators which was the first time for our agency in its 
history. Our system-wide focus on quality improvement has, for 
example, helped increase receipt of mammograms from the low 40 
percent to over 50 percent last year. The Special Diabetes 
Program for Indians has resulted in improved access to quality 
diabetes care and has helped to reduce diabetes complications 
such as end-stage renal disease.
    The impact of sequestration on IHS will be significant. 
However, IHS is committed to continuing our reform efforts 
regardless of the current fiscal environment.
    In summary, we are making progress in changing and 
improving the Indian Health Service. Thank you so much for your 
support and your partnership. It has been essential to our 
progress and efforts to ensure that our American Indian and 
Alaska patients receive the quality healthcare that they need 
and they deserve.
    Thank you very much. I am willing to answer questions.
    [The prepared statement of Ms. Roubideaux follows:]

 Prepared Statement of Hon. Yvette Roubideaux, M.D., M.P.H., Director, 
  Indian Health Service, U.S. Department of Health and Human Services
    Good morning Madam Chairwoman and Members of the Committee. It's an 
honor to testify before you today. I am Dr. Yvette Roubideaux, Director 
of the Indian Health Service. I am pleased to provide testimony on the 
FY 2014 President's Budget request for the Indian Health Service (IHS), 
and to update you on our accomplishments in the past four years in 
addressing our agency mission to raise the physical, mental, social, 
and spiritual health of American Indians and Alaska Natives (AI/ANs) to 
the highest level.
Indian Health System
    IHS is an agency within the Department of Health and Human Services 
(HHS) that provides a comprehensive health service delivery system for 
approximately 2.2 million AI/ANs from 566 federally recognized Tribes 
in 35 states. The IHS system consists of 12 Area offices, which are 
further divided into 168 Service Units that provide care at the local 
level. Health services are provided directly by the IHS, through 
tribally contracted and operated health programs, through services 
purchased from private providers, and through urban Indian health 
programs.
FY 2104 President's Budget Request
    The FY 2014 President's budget request in discretionary budget 
authority for the IHS is $4.4 billion; an increase of $124 million, or 
2.9 percent, over the FY 2012 enacted funding level.
    The request includes priority increases: $77.3 million to staff and 
operate newly constructed health facilities, $35 million to fund 
medical inflationary cost for the Purchased/Referred Care program (the 
proposed new name for Contract Health Services), $6 million for pay 
increases for federal and Tribal staff, and $5.8 million for contract 
support costs for ongoing contracts and compacts. In addition, to 
balance the priorities of all Tribes with the available appropriations, 
and in accordance with the Supreme Court's decision in Salazar v. Ramah 
Navajo Chapter, the budget request also includes new appropriations 
language for both IHS and the Bureau of Indian Affairs to provide a 
specific amount for contract support costs funding for each Indian 
Self-Determination and Education Assistance Act contract.
    The budget proposal also includes $85 million for health care 
facility construction to continue construction on the Kayenta, AZ 
facility and to complete construction on the San Carlos, AZ facility 
and the Southern California Youth Regional Treatment Center.
    At the Program Level, the budget also includes an estimated 
increase in third party collections of $119.5 million for Medicare, 
Medicaid and Private Insurance. The IHS anticipates this will include 
an estimated additional $95 million in collections as a result of the 
Medicaid expansion and an additional $5 million in collections from 
insurance through the Health Insurance Marketplaces included in the 
Affordable Care Act (ACA).
IHS--A Good Investment
    Over the past few years, we have been working to change and improve 
the IHS. The IHS budget is critical to our progress in accomplishing 
our agency priorities and improvements. If this proposed budget is 
enacted, IHS appropriations will have increased by 32 percent since FY 
2008. The appropriations increases received in the past 5 fiscal years 
are making a substantial difference in the quantity and quality of 
healthcare we are able to provide to AI/ANs. While the FY 2014 Budget 
proposes a smaller increase than in previous Budgets, IHS remains a top 
Administration priority. Most importantly, IHS was one of a few 
increases within the HHS discretionary budget that is not directly 
related to implementation of the ACA.
    IHS has made considerable progress in addressing our agency 
priorities and reforms. Our first priority is to renew and strengthen 
our partnership with Tribes. This priority is based on our belief that 
the only way we can improve the health of Tribal communities is to work 
in partnership with them. Over the past few years, we have made several 
improvements in national, Area, and local Tribal Consultation and 
communication. These improvements have resulted in better 
decisionmaking and more effective progress on our agency reforms.
    For example, Contract Health Service (CHS) funding, which we are 
proposing be renamed the Purchased/Referred Care (PRC) program, is a 
top priority of IHS and Tribes, and has increased by 52 percent since 
2008. This funding is making a difference. Four years ago, most 
programs were funding only Medical Priority 1, or ``life or limb'' 
referrals. Now, the increased CHS (PRC) funding means that almost half 
(29 out of 66) of Federal CHS (PRC) programs are now funding referrals 
beyond Medical Priority 1. This means these programs are paying for 
more than just life or limb care and more patients are accessing the 
health services they need, including preventive services such as 
mammograms and colonoscopies. The increased CHS (PRC) funding also 
means that the IHS Catastrophic Health Emergency Fund (CHEF), which 
used to run out of funding for high cost cases in June, now is able to 
fund cases through August.
    In addition, our Tribal Consultation for improving the CHS (PRC) 
program has resulted in the implementation of several of our Tribal 
workgroup's recommendations to improve the business of the CHS (PRC) 
program and the referral process. We have developed training modules 
for CHS (PRC) staff in federal and Tribal programs, conducted annual 
best practices sessions, gathered more comprehensive and accurate data 
on denied and deferred services, conducted more meetings with outside 
providers, and are currently consulting with Tribes on whether to 
change the CHS (PRC) funding distribution formula.
    Tribal consultation has also helped IHS work more effectively with 
the Department of Veterans Affairs (VA) to improve coordination of care 
for AI/AN veterans eligible for both IHS and VA. In 2010, IHS and VA 
signed an updated Memorandum of Understanding (MOU) and implementation 
is ongoing at the national, Area and local levels. Tribal consultation 
was essential to the development of the IHS-VA National Reimbursement 
Agreement that was signed on December 5, 2012. This agreement, 
authorized by the Indian Health Care Improvement Act (IHCIA), allows VA 
to reimburse IHS for direct care services provided to eligible veterans 
who receive services from IHS. The VA and IHS are beginning to 
implement the reimbursement agreement in federal and Tribal sites.
    Our second agency priority is to bring reform to the IHS. The 
Affordable Care Act is an important part of reform for IHS since the 
law has many new benefits for AI/ANs. The insurance reforms in the law 
protect those with insurance, and the State-based and Federally 
Facilitated Marketplaces, or Exchanges, will make purchasing affordable 
insurance easier in 2014. The Medicaid expansion, in states that choose 
to implement this option, will cover more AI/ANs, including parents 
with income above current Medicaid eligibility thresholds and adults 
without dependent children, so more adults will have access to health 
insurance. And AI/ANs can still use IHS since the Affordable Care Act 
extends authorizations of appropriations indefinitely. This year, IHS 
is focused on planning for implementation of the Marketplaces and 
Medicaid expansion in 2014.
    IHS continues to make progress on implementation of the permanent 
reauthorization of IHCIA included in the Affordable Care Act. Several 
provisions are already in place, such as Tribal providers being able to 
be licensed in one State; outside providers not being able to seek 
payments from patients who have referrals authorized to be paid by CHS 
(PRC); and third-party reimbursement resources staying at the Service 
Unit where they were generated.
    IHS is also making progress on our internal IHS organizational and 
administrative reform efforts. We have set a strong tone at the top 
that we will change and improve, and we have made a number of 
administrative improvements, including improved budget planning, 
financial management, performance management and more consistent 
business practices throughout the agency. We are implementing 
improvements in human resources, including improving hiring times, 
supervisor training, and recruitment and retention strategies.
    IHS has responded to the findings of the Senate Committee on Indian 
Affairs investigation of the Aberdeen Area and corrective actions and 
improvements have been implemented. Improvements in pre-employment 
background checks, credentialing of providers, reductions in use of 
administrative leave, improved administrative controls, improved 
pharmacy security and development of a more consistent, coordinated 
approach to training and maintenance of accreditation are among the 
areas of improvement in the Aberdeen Area. The Senate Committee on 
Indian Affairs also requested that IHS conduct reviews in all other IHS 
Areas on the same issues investigated in the Aberdeen Area, and those 
reviews have been completed and corrective actions are in progress. The 
Agency is establishing an oversight focus to continue accountability 
and progress to date.
    One area where IHS has made significant improvements is in the 
management and oversight of personal property. Much of the work in the 
past four years has concentrated on senior level accountability and 
policy level attention to improving agency-wide property management. 
National and local systems have been structured to prevent problems 
and/or to detect fraud, waste or abuse in a timely manner, and to hold 
individuals personally accountable. We have invested resources in 
personal property management over the past two years to implement new 
policies and internal control strategies. Corrective actions are 
ongoing to ensure that improvements over the past 4 years continue.
    Our third agency priority is to improve the quality of and access 
to care. We have focused our efforts on a number of customer service 
and quality improvement strategies over the last few years. The 
Improving Patient Care (IPC) program aims to establish a patient 
centered medical home model within the Indian health system. In the 
past four years, IPC has completed two more phases and added 89 sites 
for a total of 127 participating sites. The IPC program implements a 
variety of strategies to provide patient centered care including the 
use of multidisciplinary provider teams, continuous quality improvement 
strategies, empanelment of patients (i.e., linking patients to specific 
providers) so that they see the same provider team each time they 
access the facility, improvements in the process and flow of the 
outpatient clinic, use of registries, case management and quality 
measures. In the most recent phase, IPC sites have increased access to 
care by empanelling 261,180 active patients to a primary care team, 
compared to 85,079 empaneled patients in the preceding phase. In 
addition, patient experience of care surveys from IPC sites have shown 
patients' satisfaction has increased overall from 55 percent in April 
2011 to 72 percent in December 2012.
    In 2011, the Resource and Patient Management System (RPMS), the 
IHS' comprehensive health information system, became the first 
Federally-sponsored Electronic Health Record (EHR) to be certified 
under the criteria established by the Office of the National 
Coordinator for Health Information Technology. The RPMS is certified as 
a Complete EHR for use in both ambulatory and inpatient settings. IHS 
has also implemented the Electronic Dental Record through a commercial 
system that interfaces with the RPMS at 134 IHS, Tribal, and urban 
Indian health programs.
    In 2011, the Indian Health Service successfully met all national 
Government Performance and Results Act (GPRA) clinical performance 
indicators, an accomplishment never before achieved by the IHS. 
Improvements in GPRA indicators have resulted from a system-wide focus 
on strategies to meet targets and increased access to care from recent 
funding increases. For example, receipt of mammograms by women for many 
years was in the low to mid 40 percent range, and by FY 2012 it had 
increased to 51.9 percent. In 2012, 66.7 percent of our diabetic 
patients received follow up nephropathy assessments, demonstrating a 
33.4 percent increase over 2008. The Special Diabetes Program, too, has 
resulted in improved access to quality diabetes care, and has helped 
drastically to reduce diabetes complications such as end-stage renal 
disease.
    The IHS Domestic Violence Prevention Initiative has resulted in 
over 151,000 screenings and more than 11,000 referrals for victims of 
domestic violence to date. Over 19,000 individuals received crisis 
counseling and related services and over 6,000 professionals were 
trained on domestic violence prevention at 478 training events. Medical 
forensic equipment necessary for evidence collection has been provided 
to 45 IHS and Tribal hospitals. A total of 344 Sexual Assault Forensic 
Examination (SAFE) kits have been submitted to Federal, State, and 
Tribal law enforcement.
    The Methamphetamine and Suicide Prevention Initiative (MSPI) 
funding has resulted to date in nearly 5,000 individuals entering 
treatment for methamphetamine abuse and the delivery of 7,000 substance 
abuse and mental health encounters via tele-health. More than 7,400 
professionals and community members have been trained in suicide crisis 
response and more than 200,000 encounters with at-risk youth have been 
provided as part of evidence and practice-based prevention activities.
    Our collaborations with other agencies have resulted in expanded 
access to care for AI/ANs. For example, IHS has partnered with the 
Health Resources and Services Administration to expand the number of 
IHS, tribal, and urban Indian health program sites eligible for 
National Health Service Corps (NHSC) scholarship and loan repayment 
placement. Such efforts are critical to filling provider vacancies. At 
the end of the FY 2012, Indian health programs had 588 active sites 
(IHS federal, tribally-operated sites, and urban Indian health clinics 
plus dual-funded tribal health clinics). The NHSC programs (Loan 
Replacement and Scholarships) had placed 305 clinicians/providers.
    Our final agency priority is to ensure that our work is 
transparent, accountable, fair, and inclusive, and this includes more 
communication about agency progress and activities at the national, 
Area and local levels. We continue our focus on accountability of our 
staff and our programs, and IHS has implemented a performance 
management process that ensures all senior executives at Headquarters, 
the 12 Area Offices and all federal Chief Executive Officers have 
performance plans with specific and measurable objectives based on 
agency priorities. This improved performance management process serves 
as an important tool to ensure system-wide accountability for progress 
on agency reform efforts.
    The impact of sequestration on IHS will be significant. Overall, 
the $220 million reduction in the IHS' budget for FY 2013 is estimated 
to result in a reduction of 3,000 inpatient admissions and 804,000 
outpatient visits for American Indians and Alaska Natives (AI/ANs). The 
implementation of efficient spending initiatives, e.g., reducing travel 
and conference spending, has also changed the way IHS conducts its 
business, and IHS is committed to continuing these efforts regardless 
of the current fiscal environment.
    In summary, we are making progress in changing and improving the 
IHS. Thank you for your support and partnership--it has been essential 
to our progress thus far. Although we are in a challenging fiscal 
environment, the work of the past few years has clearly established 
that by working together, our efforts can change and improve the IHS to 
ensure that our AI/AN patients and communities receive the quality 
health care that they need and deserve.
    Thank you and I am happy to answer questions.

    The Chairwoman. Thank you. And it is my understanding that 
Mr. Thompson is here for consultation or did you wish to make a 
statement?
    Mr. Thompson. Just consultation.
    The Chairwoman. Okay, thank you. Well, let us get started.
    Director Roubideaux, given that Indian Health Services has 
requested $5 million for contract support, however, it is 
estimated that contract support would require $138 million, why 
hasn't the agency requested more funds?
    I mean, the court has decided that we should fully fund 
these, so, you know, we are getting locked in a bunch of words 
like contract support. Isn't the reality here a lot of people 
are not getting healthcare that we were obligated to deliver?
    Dr. Roubideaux. Well, the reality is that there is an 
incredible amount of need. In this difficult fiscal 
environment, the Administration has chosen to propose this 
President's budget which helps us reduce the Federal deficit 
and avoid sequestration if enacted. However, there are 
difficult choices in the budget. But we are actually very 
thrilled that the Indian Health Service is a priority and the 
$124 million increase is significant.
    But difficult choices had to be made and from the 
consultation that I have had with tribes, there is not one 
single line item that they want fully funded. They would prefer 
to have as many budget priorities as we can address with the 
increases that we have. So, for example, Contract Health 
Service is a huge priority. That is how we pay for our 
referrals.
    The Chairwoman. But with sequestration, sorry to interrupt, 
but with sequestration, I mean that is basically going to be 
wiped out and nowhere does the request come close to serving 
it. Or am I missing something here?
    Dr. Roubideaux. Well, actually the President's 2014 Budget 
gets us back up to where we want to be which is it sort of 
eliminates the sequestration cuts and then gets us to a higher 
level. So, for 2012, sequestration cut us on that level. The 
budget we are requesting in 2014 puts us even higher, so it 
helps take away the sequestration and continue increases.
    The Chairwoman. I appreciate you reminding me what is in my 
budget information. But I think I am asking something more 
directly. Do you think that represents full contract support?
    Dr. Roubideaux. Well, the contract support costs that we 
have in our budget justification, we have shown that the total 
need for 2014 is $576 million. So, by us funding it at $477 
million, that means there is an approximate $100 million 
shortfall after, if our President's budget is enacted.
    The Chairwoman. Mr. Washburn, could you explain to me what 
you think is going on as far as school construction?
    Mr. Washburn. Well, I am told that we have, you know, we 
have a lot of buildings that we already have responsibility for 
and not all of which are we properly caring for. We have got a 
lot of buildings that are currently listed in poor condition.
    We have improved over the years. We have, in the last 10 
years or so the Department has been able to improve a lot of 
these buildings. So, the number in poor condition has fallen 
dramatically. But the general sense is, I think, that we should 
not be building more buildings if we cannot take care of the 
ones we already have. And so, the general sense is to try to 
protect the budget for repairs to school buildings.
    But there has been a decision to zero out construction of 
new buildings. We have a needs list of new buildings that was 
created in 2004 that identified 17 schools as the most severe 
and 14 of those schools have been replaced, have been rebuilt 
and replaced.
    There are still three schools on that list that deserve 
attention and I am, you know, confident that they are in a 
similar condition or worse to the one Senator Franken 
mentioned, the Bug O Nay Ge Shig School in Northern Minnesota. 
And we are not going to be making progress on that issue this 
year if this budget is passed. But it is something that we care 
about and I will, you know, we will be talking about it a lot 
as we formulate our 2015 budget request.
    The Chairwoman. So, none of those schools that are on the 
list that are your top priorities will get funded this year? 
And where is the school that Senator Franken is referring to? 
Where it is on the list?
    Mr. Washburn. Well, the list that we have, we have a list 
of 17 schools which we have completed 14 of those. Those were 
the 17 most serious schools and this list was created in 2004 
so almost 10 years ago. Over 10 years we have taken 14 of these 
most serious schools off that list by improving them or 
actually rebuilding them.
    There are still these three schools left. Two of them are 
in Arizona and one is in Maine that are on that priority list 
to taken care of those. We have just had----
    The Chairwoman. But you have not requested any funds, 
right, for increase in repairing either, right? Is that 
correct?
    Mr. Washburn. That is correct.
    The Chairwoman. So, how would you fix anything?
    Mr. Washburn. Well, I will say, I will tell you that we do 
spend tens of millions of dollars each year, you know, trying 
to keep all of the schools going and we will not be building 
new schools----
    The Chairwoman. But you do not have any money for 
improvements or repairs.
    Mr. Washburn. Well, we do have money for improvements and 
repairs. We just do not have money for construction of new 
schools. We have even got construction money. It is just not 
for new schools. And so, we will be trying to patch these 
schools and keep them operating, you know, in the substandard 
condition that they are in. I understand that and I do not feel 
good about it, but it is, these are difficult budget times.
    The Chairwoman. Well, I want to get on to my other 
colleagues but I will just give you my impression. First of 
all, we need to spend a lot more time on this issue. I have 
felt like the school construction issue is the big black hole 
and mystery question, you know, for all times. It does not need 
to be this complicated. You either have a list and you adhere 
to it and here is how much money every year goes to it and we 
get it done, or you tell us what is not going to get done or 
you come to Congress.
    But I feel like there is, it is too opaque for us. And even 
in your testimony now I feel like you have said two different 
things. So, I want to see the list. I think it is unacceptable 
to have zero funds for school construction. If Senator 
Franken's school is, in fact, in this case, if that is the 
state of the school that it is barely able for the occupants to 
occupy it, I think, you know, I think we have an issue and we 
need to give them an answer about what to do.
    So, we will look forward to talking to you more about this.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madame Chairwoman.
    Just to agree with you and your comments, I think you are 
exactly right and I welcome the opportunity to work together to 
delve into this further and possible additional hearings or how 
to deal with the question that you raise because I think it is 
very timely, very appropriate and important for our future. So, 
thank you, Madam Chairwoman.
    Mr. Washburn, I have a question. The Bureau of Indian 
Affairs Irrigation Program delivers irrigation water to 16 
irrigation projects around the Country, including the Wind 
River irrigation project in Wyoming. In 2012, the Bureau of 
Indian Affairs reported that the total deferred maintenance on 
these projects is about $609 million and $35 million of that is 
for the Wind River irrigation project.
    I have raised the issue of these backlogs with your 
predecessor, Assistant Secretary Larry Echo Hawk, and former 
Secretary Salazar. Yet this budget, past budget requests, have 
not addressed this backlog in any meaningful way. What is your 
plan for action to address this backlog?
    Mr. Washburn. Vice Chairman, thank you for raising that. 
You know, I do not know, I have not really been briefed on this 
irrigation project issue. I know that one of the issues with 
sequestration is how can be keep the ditches clear if we cannot 
afford to keep people, you know, working in those positions. 
And so that is one of the things that we have, that I have been 
focused on with regard to irrigation recently.
    I was not aware of your concerns about this particular 
project of this particular area and I would be happy to get 
briefed on that and speak to you at a time when I know a little 
bit more.
    Senator Barrasso. Well, that would be terrific. I have a 
very capable staff who would be delighted to spend some time in 
that briefing. So I welcome that opportunity.
    Mr. Washburn. Thank you.
    Senator Barrasso. Dr. Roubideaux, first I want to 
congratulate you. I know yesterday the President indicated his 
intent to nominate you for a second term. I do not know the 
difference between if that means you have been nominated or if 
he intends to do it at some later date, but congratulations. 
You do a wonderful job. You have a difficult job, many daunting 
challenges and issues that you need to deal with. We have 
talked about those in the past. Obviously, one issue in 
particular is Contract Health Services that we have visited 
about.
    You know, for at least the last two budget hearings I have 
raised with you the matter of including morbidity and mortality 
rates in the distribution formula for Contract Health Services. 
So, when you return for your confirmation hearing I am going to 
ask that again so perhaps, and I do not want you to, I know you 
are not prepared to go into that today, but I will ask about 
what progress has been made in finding a role for those rates 
in the distribution formula.
    So, thank you and congratulations.
    Dr. Roubideaux. Thank you very much.
    Senator Barrasso. Thank you, Madam Chairwoman.
    The Chairwoman. Senator Johnson.
    Senator Johnson. Mr. Washburn, I am greatly concerned about 
the elimination of the Housing Improvement Program, a program 
that provides housing assistance to those who have no other 
means. The Bureau justified the program's elimination by 
stating that individuals can simply apply for HUD Grants. 
However, no corresponding increases have been added to the HUD 
Grant Program. Please further explain how the Bureau will 
address the dire need of housing in Indian Country.
    Mr. Washburn. Thank you, Senator Johnson. This is one of 
the most tragic budget decisions that the Administration has 
made this year which is to zero out the Housing Improvement 
Program. That program had been funded at about $12.6 million a 
year, admittedly not anywhere near the HUD programs which are 
upwards of $650 million per year but nevertheless important to 
a certain group of people, a very vulnerable group of people 
within Indian Country.
    The decision, this budget was scoured very carefully for, I 
guess, to be reduced. You know, these are tough times and the 
President and the Administration really worked hard to try to 
eliminate anything they thought they could eliminate and this 
one was one of the programs that was targeted, partially in 
deference to the fact that HUD does have a huge program that, 
you know, this program represents about 2 percent of the budget 
of NAHASDA. It is, you know, it is a tiny little program 
compared to where most of our housing money goes. It targets a 
slightly different group of people.
    The NAHASDA Program is public tribal housing that targets, 
you know, poor people in Indian Country. The HIP Program 
targets those who are specially needy who do not have any 
income to provide. It is not a decision that we would have 
reached in a year when there was a lot of money available. But 
it was, I gather that it was in some ways felt it was almost 
too small to save. Ultimately, a program that is only $12.6 
million does not end up reaching very many people. And so, that 
was zeroed out and that money was distributed for other 
purposes within our budget.
    Senator Johnson. Dr. Roubideaux, the Sanitation Facilities 
Construction Program provides critical water supply and 
disposal for individual homeowners and projects. As Chairman of 
the Banking, Housing and Urban Affairs Committee, it is 
important to me to find solutions to our critical housing 
needs. With a tremendous need for water systems in Indian 
Country, how will IHS continue to work with tribes and other 
agencies to address the need for this critical infrastructure 
without a budgetary increase?
    Dr. Roubideaux. Well, the Sanitation Facilities 
Construction Program is extremely important to the Indian 
Health Service. We know it does a lot to improve the health 
status of the communities if they can get access to clean water 
and sewage disposal and solid waste disposal facilities. We 
were grateful for the funding received in the Recovery Act that 
has helped us make progress on our deficiency list. However, 
there is still a $2.8 billion need.
    One significant step that we have taken recently is to sign 
an MOU with other Federal agencies, with EPA, HUD, DOI and 
Department of Agriculture to improve agency coordination in 
providing safe drinking water and basic sanitation in tribal 
communities. Indian Health Service is sort of a central point 
for all of those efforts and other agencies because we are the 
keepers of the deficiency list and therefore it is essential 
that we are working closely with all of these other agencies. 
So, I am happy to talk with you more about some of our specific 
programs.
    Senator Johnson. Thank you, Dr. Roubideaux.
    The Chairwoman. Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman, and thank you 
for bringing up the issue with Dr. Roubideaux earlier about the 
shortfall within the contract support costs, $100 million, 
particularly after the Supreme Court decision in Ramah. It is 
just not acceptable and I mentioned in my opening comments that 
this really fundamentally alters Indian self-determination and 
with no consultation.
    I am really very troubled by it. I know that we have got on 
the Second Panel Mr. Lloyd Miller who will speak more to this. 
But, Madam Chairman, know that I want to work with you on this. 
The tribes in Alaska are just fit to be tied. They do not know 
what to do on this. So, we clearly have a little more work to 
do.
    Ms. Roubideaux, I want to ask you a question here on the 
annual shortfall reports. It is a statutory requirement to 
inform Congress and the tribes of the annual shortfall report 
on past and anticipated contract underpayments. We should 
receive this report May 15 of every year. That is coming up.
    I understand that Fiscal Year 2011's report is now two 
years late. The reports for 2009 and 2010 were received but 
they were three years late. What is going on here? We cannot 
operate unless we have the information. Why has there been such 
a failure to deliver this information in a timely manner?
    Dr. Roubideaux. Well, actually we have made a number of 
improvements because before this Administration the contract 
shortfall reports were not sent to Congress at all and so----
    Senator Murkowski. Where are we now? If Fiscal Year 2011 is 
two years late, what is happening with Fiscal Year 2012?
    Dr. Roubideaux. So, with, in the last four years we have 
officially sent to Congress the 2003 to 2011 CSC need reports 
to Congress. The 2012 report is in final clearance in the 
department and should be coming to the Congress shortly.
    Senator Murkowski. So, you think we are going to make our 
May 15 deadline? That would be great.
    Dr. Roubideaux. We would love to and it is in clearance and 
we are working very hard. We have made a number of improvements 
in the way that we are handling the processing of the shortfall 
reports, doing more of a back and forth with the tribes so that 
they know their numbers and that they, if there are any changes 
we let them know and so, as a result, the other thing is that 
the shortfall reports several years ago were not sent to 
Congress and were not official agency documents. So now the 
improvement is that you are getting an official agency document 
that is consistent, that has the information that has been run 
by the tribe that gives you the estimated numbers.
    The shortfall reports are a historical document in a way 
because the 2012 report will tell us the shortfall in 2011 and 
there are a number of factors that----
    Senator Murkowski. I understand that but I am also very 
worried that as we are dealing with these determinations now in 
your budget in terms of where that shortfall is, if there is a 
discrepancy in the numbers we need to know in a timely manner 
what IHS believes those shortfalls to be. So, timeliness is 
going to be key.
    I have got two more questions that I want to get to here.
    As you know, as the Ranking Member on the Interior 
Appropriations Subcommittee, I was able to help secure an 
additional $53 million in the IHS joint venture staffing 
packages for the IHS service hospitals, hugely important to us.
    Can you tell me what the status of the transfer of the 
Fiscal Year 2013 funds provided by the CR that we just moved 
forward, give me the status of that and then noting in the 
budget here I am pleased to see $77 million for the staffing 
for the new facilities. But when you look into the fine print 
there, it would appear that the requests for the amount of 
Fiscal Year 2014 include Fiscal Year 2013 dollars.
    So, can you diagram for me how much the facilities in 
Alaska are expected to receive and the timing of the status of 
the transfer?
    Dr. Roubideaux. Yes. We will be happy to provide the 
details to you and your staff at another time. But basically we 
are very pleased with $53 million that we received and----
    Senator Murkowski. Well, let me just back you up because I, 
too, am pleased that we have been able to get there. But our 
concern is the timing of all of this and making sure that we 
get it quickly. So, when you say that you are going to provide 
that to my staff, if we could make, set up a meeting to do that 
very soon I would like to do that.
    Dr. Roubideaux. Absolutely.
    Senator Murkowski. I would like to ask you, Assistant 
Secretary Washburn, this is as it relates to Eisenbeck Road and 
the residents of King Cove. I appreciate your commitment to 
travel to King Cove to meet with the residents there, to meet 
with the many Aleut people who are, of course, so concerned 
about access to a safe airport so that they have access to some 
of the same things that you and I would consider to just be the 
norm.
    I know that the residents of King Cove are excited to have 
you there. In fact, I was just out on the steps with about a 
dozen young kids from King Cove who have come as part of a 
close-up program. They know you are coming, they are anxious, 
they are going to give you good food and make you feel plenty 
welcome.
    Can you tell me when, what your plans are in terms of 
timing, moving forward on your visit to King Cove? But also, 
with regards to the meetings that you might be setting up and 
the further attention to the detail that was outlined in the 
letter from Secretary Salazar that we worked through on March 
21st?
    Mr. Washburn. Yes, Senator, thank you. And I am very much 
looking forward to my trip. It sounds like a wonderful 
community.
    Senator Murkowski. It is an amazing community.
    Mr. Washburn. Thank you. I really look forward to seeing 
them in their own environment because I have met with them in 
Anchorage and then here in Washington, D.C.
    As we speak, there is a meeting with the Secretary to kind 
of talk about these issues. I was supposed to be meeting with 
the Secretary. She wanted to get right on this. She has been in 
office, what is this, the eighth day, I think, work day in the 
office? And we had set a meeting for this time and it just, the 
Committee set the hearing.
    And so, I do not want to get out in front of her at all, 
but I anticipate that it will be the early part of the summer 
at the latest to get out there and start doing my work. I have 
been given a clear assignment and I am really looking forward 
to digging into it.
    Senator Murkowski. Well if there is any way that we can 
help you in advance of that, we certainly stand willing to. But 
I appreciate the time that you will give the residents of King 
Cove and I hope that you listen, listen not only with your ears 
but with your heart.
    Mr. Washburn. Thank you.
    Senator Murkowski. Thank you.
    The Chairwoman. Senator Tester.
    Senator Tester. Thank you, Madam Chair.
    Kevin, first of all I want to thank you. In your budget you 
allocated some money for O&M for Fort Peck. I appreciate that 
very, very much. Now we will get into the other stuff.
    [Laughter.]
    Senator Tester. Look, last year was a tough fire season, 
particularly in Southern Montana. The Northern Cheyenne Tribe 
got smoked pretty hard. And a lot of BLM land got smoked pretty 
hard. And a lot of Forest Service land. It is not your guys' 
budget.
    But I look at the DOI's budget for hazardous, this is DOI's 
budget but you guys play in this game and you know where I am 
going. Their budget for hazardous fuels reduction two years ago 
was $206 million. Last year, it was $183 million. This year it 
is $96 million. And the drought still continues. The climate 
change actions that are happening around the world are also 
happening in Montana. We are still going to have fires. And if 
it is not in Montana is it going to be somewhere else and it is 
going to impact some other Indian reservation.
    You have got to fight Bureau of Rec and BLM and National 
Parks Service to name a few within the Interior for the money 
for Indian Country. What is the thought process for cutting 
this to less than half in two years?
    Mr. Washburn. Thank you, Senator. I am getting up to speed 
on these issues. I will tell you that everywhere I have been 
when times get tight what you stop doing is doing the 
preventative type work. You know, I was at the University of 
New Mexico for three-and-one-half years before I took this job 
and whenever budgets got tight, as they did around 2009, we 
stopped doing maintenance on the buildings. Eventually, that is 
going to come back and bite that school because you have got to 
keep things up.
    And the thing about the hazardous fuels is it is kind of 
maintenance, it is kind of preventative maintenance. It is 
actually really good preventative maintenance because what it 
does is it keeps the fires from being as bad when they happen 
and sometimes prevents them.
    Senator Tester. Correct.
    Mr. Washburn. But it is preventative type work and we have 
been spending so much more on fighting the fires that that 
money has got to come from somewhere and to some degree, they 
have been taking it out of the preventative maintenance 
program.
    This is part of the Department of Interior's overall fire 
program and I do not, I am a little less schooled on that at 
this point. I am still trying to get a hold of our green book 
which, as you know, is that thick.
    But I am learning about these issues and we do have, you 
know, people on board who are using their elbows within the 
Department of Interior to try to ensure that tribes get their 
part of that because, you know, the forests do not know 
boundaries and the fires do not know boundaries and so we all 
have to be in this together on these.
    Senator Tester. And just so you know, when the time is 
right on the Interior Subcommittee on Appropriations we will be 
asking the new Secretary about this because the fact is, you 
are right, it is preventative maintenance but you spend a 
little money early it saves a lot of money late.
    Yvette, thank you for being here. I appreciate the work all 
of you guys do and you are in that mix.
    Your request for medical inflation is 3.7 percent. And 
according to the Consumer Price Index, inpatient care inflation 
is 7 percent, outpatient care is 5 percent. How did IHS arrive 
at the 3.7 percent figure?
    And I will just tell you what my next question is. I think 
in your opening remarks you said the life and limb was no 
longer going to be in June, it is going to be in October. It 
looks to me like we are losing ground, not gaining ground, when 
inflation is higher than the amount of increase that you are 
asking and I guarantee you medical inflation is going to be 
there because it always is.
    So, number one, how did you come to 3.7? Number two, well, 
answer that one first and we'll get to number two real quick. 
Go ahead. Thanks.
    Dr. Roubideaux. Thank you. During the budget formulation 
process, the medical inflation rate is set by OMB when we get 
down to working on the budget. So, we can get you further 
information on how they calculate that out.
    Senator Tester. So, what you are telling me is maybe I 
ought to call OMB up and find out how they could, I mean, that 
is some pretty good new math they are working with there.
    Dr. Roubideaux. We would be happy to provide you with the 
specifics of that.
    Senator Tester. Yes, okay, that is fine.
    I do want to talk about getting sick after June. That is 
real and you know it. You know it as well as anybody that sits 
on this side of the dais. Did I hear you correct in your 
opening that you said that would be extended out into the fall?
    You have got enough money here to do that?
    Dr. Roubideaux. There are two things that we talk about. 
The tribal advocates have used the do not get sick after June 
as a way to talk about the limited funding that is there. The 
only piece of the Contract Health Service funding that we use 
in terms of timing is the CHEF, the Catastrophic Health 
Emergency Fund. We used to reimburse cases through June. Now, 
we are reimbursing through August.
    The measure to look at with Contract Health Service is how 
much we are using the medical priorities. So, four years ago 
only four Federal CHS programs funded beyond Medical Priority 
1. Now, 29 of 66 fund beyond Medical Priority 1 and actually in 
the Billings area I think most if not all of the Federal CHS 
programs are funding at Priority 3. So, that means there is 
more, the volume of referrals and the types of referrals of 
issues that are being funded are greater.
    Senator Tester. Okay.
    Dr. Roubideaux. There is still an incredible need, though.
    Senator Tester. Okay. I was just, and my time has long run 
out, but first of all I want to thank you guys for the work you 
do. I know where your heart is and I can also tell you when we 
do things like sequestration, for when you are looking to shave 
money and we are telling you every day you have got to shave 
money, and then when you shave money we holler at you about it. 
But the bottom line is in Indian Country, there is not a lot of 
extra money to shave and we all know that. So, when you cut a 
little bit, it cuts to the bone.
    Thank you for the work you do and we just have to do better 
work as a Congress to try to get this fixed.
    Thank you.
    The Chairwoman. Senator Franken.
    Senator Franken. Well, I think I kind of said my piece 
during the opening on the Bug school. And, like Senator Tester, 
I know where you heart is. And so I do not want to pound it 
anymore. But I know where my heart is and my heart is with 
these kids. So, let me not----
    Mr. Washburn. Thank you, Senator, and I know where your 
heart is, too.
    Senator Franken. Thank you. Let us talk about energy, 
renewable energy. There is a lot of renewable energy potential 
in Indian Country. Indian lands make up just 2 percent of the 
United States but contain 5 percent of America's renewable 
resources.
    I hear from tribes that tapping these resources are a major 
priority and distributed energy seems particularly promising 
for tribes that cannot get to the grid. Distributed energy is 
simply an energy project that is self-contained. They are 
providing energy for that area that is producing it.
    Some tribes are already developing clean energy on their 
land in Minnesota. White Earth Nation, Red Lake Nation are both 
developing renewable projects on their reservations. But for 
many tribes there are still too many barriers to renewable 
energy.
    I was glad to see that the President's budget requested 
increased funding for tribal energy development at the 
Department of Interior, but I also know that it is going to 
require coordination between the Department of Energy and your 
department.
    Mr. Washburn, can you talk about how the Department of 
Energy is coordinating with the Department of Energy and other 
agencies to streamline the permitting process and help tribes 
to access the resources on their land?
    Mr. Washburn. Thank you, Senator Franken, absolutely. We 
have been working, you know, this is one of the complications 
for tribes as they try to develop projects. There are so many 
different Federal agencies that they have to work with. You 
know, there is an EIS component, environmental component, 
sometimes an Endangered Species component, there is land. You 
know, an energy project does not do any good unless the energy 
is transmitted, except for the smallest community scale----
    Senator Franken. Through distributed energy.
    Mr. Washburn. Yes, distributed energy. But they have to, 
you know, there's often all kinds of permitting required, as 
you know. And one of the things that we have been doing, we 
are, when I got here, the Department of Interior, my goal was 
to first get a handle on things myself within my own department 
and then to start reaching out better to first, other units 
within the Department of Interior because the Bureau of Land 
Management ends up having, sometimes, some approval 
requirements, permitting requirements, and certainly Department 
of Energy. And we are starting to coordinate better. It took a 
little longer than I thought but one of the things we have been 
doing in my office is having a weekly meeting where we, it is a 
national conference call where everybody brings their projects 
that are, you know, in some stage of development and we are 
trying to figure out what can we use our office to do to keep 
moving those forward. And they might be wind, they might be 
solar, they might be biomass, they might be conventional energy 
programs as well. And so, we have been giving that sustained 
attention now for several months, weekly meetings. And that is 
starting to help.
    We are interested in starting to have a joint meeting now 
and then, perhaps monthly, with the Department of Energy 
because DOE tends to have money for feasible studies and that 
sort of thing. So, they are very much the front end of a lot of 
these projects because they grant the tribes money for 
feasibility and if it looks like it is a thumbs up, if it is a 
go, it can start to go into development in which case it is 
often our role becomes important there because we probably have 
some of the responsibilities to help the tribes develop that 
and to approve permits.
    So, we are gradually, not as fast as I would like, but 
gradually improving our coordination with Department of Energy 
and other units.
    Thank you for the question.
    Senator Franken. Thank you for the answer. I cannot tell 
you, just the coordination is so crucial there because that has 
been the barrier, or one of the barriers.
    Dr. Roubideaux, I just want to ask you a little bit about 
oral health and oral health is so important to overall health. 
In Minnesota, because there are unmet needs in rural Minnesota 
and in Indian Country in Minnesota, we started a program of 
dental therapists who serve halfway in between a doctor and 
hygienist or something.
    One-third of American Indian and Alaska Native school 
children report missing school because of dental pain. That is 
unacceptable to me. In healthcare law, we provided increased 
flexibility for tribes to participate in the dental health aid 
therapist program but, as far as I know, tribes in only two 
States, Minnesota and Alaska, where the program started, have 
participated.
    What more can we do to support the use of dental therapists 
and what else could the Federal Government do to increase 
access to dental care for tribes?
    Dr. Roubideaux. Well, sir----
    The Chairwoman. And if you could, sorry to interrupt, if 
you could try to be succinct on that because I do want to get 
to the last question by Senator Begich and then get to the next 
panel.
    Senator Franken. I apologize for going over.
    The Chairwoman. Thank you.
    Dr. Roubideaux. Well, we are very supportive of the work 
that has been done in Alaska and Minnesota. We are reviewing 
the evaluation of those and are working to find ways to help 
support and improve dental care in the Indian Health Service. I 
would be happy to provide further details.
    Senator Franken. Thank you very much, Dr. Roubideaux.
    The Chairwoman. Thank you. Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Let me quickly fall on that. When you say 
you are reviewing the impacts, is that something that you are 
doing through some process that you could share with us in real 
data?
    Dr. Roubideaux. Yes. The Indian Healthcare Improvement Act 
required an evaluation and so we have looked to the Kellogg 
evaluation of the Dental Health Aid Therapist Program and it 
meets almost all of the requirements of the evaluation. There 
is one additional requirement and we are forming a work group 
to look at that.
    Senator Begich. Okay. And your timetable?
    Dr. Roubideaux. That, as far as I know, is underway or 
ready to be underway.
    Senator Begich. Okay. And the other question on that, I 
will just add to that, that program, the dental aid program, is 
not actually part of the whole Contract Services reimbursement 
and all of that. It is its own separate line, is it not?
    Dr. Roubideaux. There is currently no line item or specific 
funding for the Dental Health Aid Therapy Program. We do try to 
help fund it through our Dental Centers of Excellence.
    Senator Begich. So, it is always at risk because it is not 
part of the main program. Correct?
    Dr. Roubideaux. Right. It is a part of the funding that we 
give to Alaska for the Dental Centers of Excellence.
    Senator Begich. Let us assume for a second that the review 
is positive, as I think it will be. Are you and the 
Administration prepared to make that part of the overall health 
care delivery system for Indian Health Services instead of 
worrying about just some single funding source for it, but part 
of the overall?
    Dr. Roubideaux. Well, that is a part of our review of the 
evaluation and----
    Senator Begich. But that is not the question. Let me stop 
you. I want to be positive. Let us assume it says this is 
really good. It is making a difference. It is having good 
health outcomes. Are you prepared to propose it as a mainstay 
of the overall healthcare delivery system for Indian Healthcare 
Services?
    Dr. Roubideaux. Well, I believe to implement it would 
certainly require more resources than we have to work----
    Senator Begich. That is not what I am asking you. I 
understand that. But do you think that it should be part of it? 
If that is true that it is successful. Yes or no?
    Dr. Roubideaux. I would need to consult with tribes on that 
matter in all States.
    Senator Begich. Okay. No answer. Let me try something else. 
Well, let me just pause that. That is not really an acceptable 
answer. Because, if it is working, I do not know, seems like 
people would want it. But I will just leave it as a commentary. 
I am not happy with that answer, just so you know.
    Dr. Roubideaux, let me ask you also about universal caps 
that you have proposed for tribal contract support costs. How 
did you get to the conclusion that that is the best approach 
when what I understand in some of the court action is that 
there were four or five other recommendations on how to 
approach this? Why did you pick that one and then what analysis 
did you do on the other options, or not options but other 
recommendations? How did you get to this answer?
    Dr. Roubideaux. Well, the Administration made the choice of 
that particular Supreme Court option in the context of a 
difficult budget climate and other tribal priorities needed to 
be funded, as well as looking at all of the various options. It 
was a, I cannot speak to the specifics of the final decision on 
it, but I do know that it was an Administration decision.
    Senator Begich. Were you involved in that decision at all?
    Dr. Roubideaux. It is an Administration decision.
    Senator Begich. You work for the Administration. So again, 
were you involved in that decision to make the determination 
that was the best approach?
    Dr. Roubideaux. The decision was by the Administration for 
both the Indian Health Service and the BIA.
    Senator Begich. Okay, so you did participate. Madam 
Chairwoman, I am just trying to ask simple questions and it is 
like I am, I do not know what it is. I am pulling teeth here. 
But so I just want to assume yes.
    I think this is a severe problem in how the funding will 
happen in the future and I would be interested in that, if this 
was a decision made, any documentation that shows how you 
analyzed this compared to the other recommendations that were 
in the report or the court issue. If you could provide that, I 
would be very anxious, you or whoever in this Administration 
that you worked with, I would be very happy to have that.
    Dr. Roubideaux. I would be happy to meet with your staff 
and you.
    Senator Begich. Okay, I am accepting that as a yes that 
that will be brought forward. I do not need more meetings. I 
just want the information.
    Mr. Washburn, I have a question. I want to follow up on the 
Chairwoman's question on a broader sweep. Do you do, and I 
think there is a problem not putting more money into capital 
construction, but do you do a capital kind of lay of the land 
of what major replacements you need to do and kind of major 
maintenance and then kind of minor maintenance schedule or is 
that more of just kind of ad hoc?
    And the reason I ask you this, I am not sure, because you 
are new to this, I think this would be a huge plus that I think 
we are kind of struggling, you know, we do not have the issue 
here as much as other States, but it just seems like if there 
is a capital plan then it gives some planning effort to figure 
out these things in an appropriate way.
    Is there a document that is done like that on an annual 
basis or every three years or----
    Mr. Washburn. Well, for schools, education, there is a 
program that we have and we actually have a negotiated rule-
making committee that is composed of tribal leaders, primarily, 
and some Federal officials, and they are the ones who create a 
formula for us to determine which schools are in bad shape, 
basically----
    Senator Begich. Got you.
    Mr. Washburn. And they have just finished their work fairly 
recently. And we have not convened, we have not run the formula 
to see what the list is going to be because we still have three 
schools on that old list, the 2004 list----
    Senator Begich. But that will drive the future list----
    Mr. Washburn. That will drive the future list. It will help 
define our priorities. And so if there is money, it will go to 
those priorities.
    Senator Begich. Understood. Thank you very much.
    Thank you, Madam Chair.
    The Chairwoman. Thank you, Senator Begich.
    I would just say, we want to go the next panel, and we 
thank you for being here and you know, we definitely want to 
work with you on all of these issues. And we would hope that 
you would take back to the Administration that, you know, a 
zero school construction budget and this contract support 
issue, these are impacting real lives today. And we are not 
satisfied with where they are.
    We appreciate other things about the budget but, you know, 
we have to be tough because these are people that we represent 
and without services the health of these individuals or the 
education opportunities are curtailed. So, we want to get to 
the bottom of this. So, thank you so much for being here to 
present to the President's Budget.
    So, we are going to call up the next panel, if we could. 
The Honorable Jefferson Keel, President of the National 
Congress of American Indians, Ms. Cathy Abramson, Chairperson 
of the National Indian Health Board of Washington, D.C., the 
Honorable John Sirois, Chairman of the Business Council of the 
Confederated Tribes of the Colville Reservation, and Dr. Lloyd 
Miller, Legal Council for the National Tribal Contract Support 
Cost Coalition of Washington, D.C.
    So, we thank all of you for being here this afternoon for 
our Second Panel and we appreciate the fast transition 
everybody is trying to make to get us through our next panel. 
And whenever you are ready, I think Jefferson Keel, I think we 
are going to start with you.

STATEMENT OF HON. JEFFERSON KEEL, PRESIDENT, NATIONAL CONGRESS 
                      OF AMERICAN INDIANS

    Mr. Keel. Good afternoon, Madam Chair.
    As President of the National Congress of American Indians, 
I want to thank you, Chairwoman Cantwell, for holding this 
meeting, Senator Barrasso, thank you for your work, and 
Committee members for listening to the voices of tribal leaders 
from across the Nation.
    The National Congress of American Indians represents tribal 
governments and since 1944 we have fought termination efforts 
to curtail our sovereign rights. As we continue to fight to 
preserve treaty rights and our tribal ways of life, we urge you 
to continue to be guided by the solemn agreements made between 
our ancestors and to take our current pleas to your heart.
    As Congress develops the Fiscal Year 2014 budget, we call 
on you to make investments in programs that fund trust and 
treaty obligations, support tribal self determination and 
promote economic recovery in Indian Country.
    We have provided specific recommendations in our written 
testimony that address many programs in the Federal budget. I 
want to share with you the very dangerous threats to Indian 
self determination, tribal economies and well-being due to the 
reductions from the current sequester and if the Fiscal Year 
2014 appropriations bills do not address some of those impacts.
    The Committee knows well but I must reiterate the point 
that the sequester reductions and other cuts to tribal programs 
undermine Indian treaty rights and obligations, treaties which 
were ratified under the Constitution and considered the supreme 
law of the land.
    Tribes deliver all the range of services that other 
governments provide. Federal funds provide much needed 
investments in tribal physical, human and environmental 
capital. For many tribes, the majority of tribal governmental 
services is financed by Federal sources.
    Tribes lack parity and tax authority to raise revenue to 
deliver services. If Federal funding is reduced sharply for 
State and local governments, they may choose between increasing 
their own taxes and spending for basic services or allowing 
their services to take the financial hit. Half of State and 
local government revenue is from their own taxes while one-
quarter is Federal.
    On the other hand, up to 60 to 80 percent of the revenue 
for tribal governmental services come from Federal sources. Not 
only will reductions to our base programs and TPA, Indian 
Health Service or caps on contract support costs violate the 
trust responsibility to the tribes, but it will hurt the 
regional economies in which tribes are major players.
    Economists show that Federal funds to tribes represent high 
powered spending when they enter our local economies and 
provide a relatively large economic impact. In Oklahoma, 38 
tribal nations have a $10.8 billion impact on the State every 
year, supporting an estimated 87,000 jobs or 5 percent of all 
of the jobs in the State. Interrupting tribal revenue flow will 
increase unemployment for the region.
    Federal cuts disproportionately impact Indian Country. 
Tribal nations are well prepared to take on additional 
responsibilities for the management of their resources but need 
the United States to seek to fill its trust responsibilities in 
order to do so.
    Some of the Administration proposals that we oppose include 
the elimination of the Housing Improvement Program and Indian 
school replacement funding. Proposals that we support include 
the Carcieri fix, apparent increases for our BIA natural 
resources which we have been requesting for a long time, 
investment in tribal public safety and BIA and the Department 
of Justice, and increase for tribal courts which is a good 
first step but is far below the amount needed, especially with 
the historic passage of the Violence Against Women Act.
    We have many more recommendations in the Fiscal Year 2014 
Indian Country Budget Request which we would ask be included in 
the record.
    Another major issue is contract support costs. NCAI opposes 
the Administration's unilateral proposal to fundamentally alter 
the nature of tribal self governance by implementing individual 
statutory tribal caps on the payment of contract support costs. 
This funding is essential to the operation of contracted 
Federal programs administered under federally-issued indirect 
cost rate agreements.
    No change of such a fundamental character should be 
implemented until there has been a thorough consultation and 
study process jointly undertaken by the Indian Health Service, 
the Bureau of Indian Affairs and tribal leaders, and formed by 
a joint technical working group and coordinated through 
possibly NCAI. Such a consultation process must be scheduled to 
permit opportunity for full tribal participation.
    While NCAI believes that overall caps on contract support 
costs should be eliminated, at the very least Congress should 
maintain in Fiscal Year 2014 and 2015 the status quo statutory 
language enacted in Fiscal Year 2013 so that tribally developed 
changes in contract support costs funding mechanisms, if any, 
can be included in the Fiscal Year 2016 budget.
    Again, reductions to tribal trust obligations, public 
safety, education, healthcare, social services and tribal 
governmental services are reductions to high powered spending 
for local economies which will impede economic recovery in 
addition to causing increased poverty for Indian Country.
    The stakes are high for tribal governmental services and 
programs in the Federal Budget, only some of which are 
highlighted here. But trust obligations should be protected 
from further reductions.
    I want to thank you for your consideration and we look 
forward to working with the Committee to ensure that the 
agreements made between our forefathers are honored in the 
Federal Budget.
    Thank you.
    [The prepared statement of Mr. Keel follows:]

Prepared Statement of Hon. Jefferson Keel, President, National Congress 
                          of American Indians
Introduction
    On behalf of the National Congress of American Indians (NCAI), I'd 
like to thank you for holding this important hearing on the President's 
Fiscal Year 2014 Budget for Tribal Programs. NCAI is the oldest and 
largest American Indian organization in the United States. Tribal 
leaders created NCAI in 1944 as a response to termination and 
assimilation policies that threatened the existence of American Indian 
and Alaska Native tribes. Since then, NCAI has fought to preserve the 
treaty rights and sovereign status of tribal governments, while also 
ensuring that Native people may fully participate in the political 
system. As the most representative organization of American Indian 
tribes, NCAI serves the broad interests of tribal governments across 
the nation. As Congress debates elements of various budget proposals 
for FY 2014 and beyond, leaders of tribal nations call on decision-
makers to ensure that the promises made to Indian Country are honored 
in the federal budget. This testimony will address the impact of the 
sequester, and address specific FY 2014 budget issues including Indian 
Affairs, contract support costs, natural resources and environment, 
health care, public safety and justice, and homeland security. In 
addition to this testimony, NCAI has partnered with national, regional, 
and issue specific tribal organizations to develop comprehensive 
recommendations included in the FY 2014 Indian Country Budget Request, 
and we request for the document to be entered into the record.
Sequester
    Although we are submitting testimony on FY 2014, we must comment on 
the FY 2013 sequestration of discretionary programs. NCAI passed a 
unanimous resolution that trust and treaty obligations to tribes should 
not be subject to sequestration. Although the United States, 
businesses, and workers hoped that an economic recovery was finally 
taking off, the nation will begin absorbing automatic spending cuts 
known as sequestration in the next few months, creating an economic 
drag. The sequester cuts pose particular hardship for Indian Country 
and the surrounding communities who rely on tribes as employers, where 
the recession struck especially hard. \1\ Tribal leaders urge Congress 
to protect the federal funding that fulfills the trust responsibility 
to tribes in the face of difficult choices. The sequester reductions to 
tribal programs undermine Indian treaty rights and obligations--
treaties which were ratified under the Constitution and considered the 
``supreme law of the land.'' At its most basic level, the economic 
success of the United States is built upon the land and natural 
resources that originally belonged to tribal nations. In exchange for 
land, the United States agreed to protect tribal treaty rights, lands, 
and resources, including provision of certain services for American 
Indian and Alaska Native tribes and villages, which is known as the 
federal Indian trust responsibility. Indiscriminate cuts sacrifice not 
only the trust obligations, but thwart tribes' ability to promote 
economic growth or plan for the future of Native children and coming 
generations.
---------------------------------------------------------------------------
    \1\ Economic Policy Institute, Different race, Different recession: 
American Indian Unemployment in 2010, November 18, 2010.
---------------------------------------------------------------------------
    The 2013 sequester and potential reductions due to the Budget 
Control Act caps will hurt law enforcement, education, health care and 
other tribal services, which have been historically underfunded and 
have failed to meet the needs of tribal citizens.
Federal Cuts Disproportionately Impact Indian Country
    In their role as governments, tribes deliver all the range of 
services that other governments provide. Tribal governments maintain 
the power to determine their own governance structures and enforce laws 
through police departments and tribal courts. Tribes provide social 
programs, first-responder services, education, workforce development, 
and natural resource management. They also build and maintain a variety 
of infrastructure, including roads, bridges, housing, and public 
buildings. Yet, tribes need adequate resources to exercise their self-
determination and serve as effective governments. Government funds 
provide much-needed investments in tribal physical, human, and 
environmental capital.
    For many tribes, a majority of tribal governmental services is 
financed by federal sources. Tribes lack the tax base and lack parity 
in tax authority to raise revenue to deliver services. If federal 
funding is reduced sharply for state and local governments, they may 
choose between increasing their own taxes and spending for basic 
services or allowing their services and programs to take the financial 
hit. On the other hand, many tribes have limited ability to raise 
substantial new revenue, especially not rapidly enough to cover the 
reduction in services from the across the board reductions of the FY 
2013 sequestration.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    States and localities finance their own areas of spending and state 
and local taxes provide the majority of the funding for most of their 
services. The Census of Governments shows that half of state and local 
government revenue is from their own taxes, while a quarter of their 
revenues come from the Federal Government. Like other governments, 
there is much diversity among tribes and regions in the proportion of 
federal sources of revenue to tribal taxes and tribal enterprise 
profits. As an example, Figure 1 shows tribal revenue sources for 
Montana's reservations compared to the average state and local 
government revenue sources. More than 60 percent of the revenue for 
tribal governmental services in Montana is from federal sources, 2.5 
times higher than for state and local governments.
Cuts Will Impact Regional Economies
    Not only will reductions to discretionary programs violate the 
trust obligations to tribes, but cuts will hurt the regional economies 
in which tribes are major players. A tribal government in Southeast 
Alaska, representing more than 27,000 tribal citizens, attracted 
between $25 million and $27 million in annual funding to the region to 
support 200 programs and services that enhance the lives and well-being 
of tribal citizens, families, and communities. These services affect 
employment, health, education, and cultural identity. The $22.5 million 
in direct expenditures generated an additional $9 million in indirect 
and induced economic activity, for an estimated total regional impact 
of $31.6 million. \2\ Reductions to Bureau of Indian Affairs, Head 
Start, as well as to Departments of Justice and Education will exact a 
heavy toll on the region's economy.
---------------------------------------------------------------------------
    \2\ McDowell Group, Contributions of Central Council Tlingit and 
Haida Indian Tribes of Alaska, (Juneau, AK), March 2010.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    In 2009, the five tribes of Idaho provided total employment 
statewide for 10,676 jobs, including multiplier effects. \3\ The tribes 
report that they ``receive Federal Government revenues to support 
tribal government operations, health services, education, fish and 
wildlife projects, law enforcement, environmental quality, economic 
development programs and projects, and other activities. U.S. federal 
agencies serving as funding sources include the Bureau of Indian 
Affairs, U.S. Fish and Wildlife Service, U.S. Department of Health and 
Human Services, U.S. Department of Energy, U.S. Department of 
Agriculture, Bonneville Power Administration, U.S. Environmental 
Protection Agency, and U.S. Department of Transportation. Those federal 
funds represent ``high powered'' spending when they enter the local 
economies, and provide a relatively large economic impact.'' \4\
---------------------------------------------------------------------------
    \3\ Steven Peterson, 2010 Economic Impacts of the Five Tribes of 
Idaho On Idaho's Economy, 2010.
    \4\ Peterson, 2010.
---------------------------------------------------------------------------
    In Oklahoma, 38 tribal nations have a $10.8 billion impact on the 
state every year, supporting an estimated 87,000 jobs, or five percent 
of all jobs in the state. Interrupting tribal revenue flow is likely to 
increase unemployment for the region. In Washington State, a recent 
economic analysis showed that, in total, $3.5 billion of the total 
gross state product can be attributed to the activity on American 
Indian reservations. Also, tribes paid $1.3 billion in payroll to more 
than 27,000 Washington residents, many of whom were non-Indian. 
Although some tribes have implemented strategies that enhance economic 
development for their communities to supplement federal sources, that 
does not supplant the Federal Government's duty to fulfill its trust 
responsibility.
Tribal Economies
    The sequester cuts pose particular hardship for Indian Country and 
the surrounding communities who rely on tribes as employers, where the 
recession has struck especially hard. Census Bureau data show that each 
employed American Indian supported more than three others who were not 
employed. By contrast, the proportion for the entire US population is 
about one to one. Tribal leaders and planners have been working to 
address the economic inequity represented in the employment-to-
population ratio.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The labor force participation rate--the proportion of able-bodied 
civilians of working age that are working--also shows much unmet 
potential for tribal citizens to enter into the economy. Four of ten 
Indians receive a paycheck, versus nearly two-thirds of total 
population.
Impact on Employment
    Sequester reductions in FY 2013 and beyond will likely a greater 
effect on employment in Indian Country than in other communities. 
Figure 4 shows industry sector of people who are employed for the 
entire population compared to the Native population on reservations. A 
third of Native people are employed in education, health care, and 
social services delivery. Many of the health, education, and social 
services in Indian Country receive federal funds, including through the 
Indian Health Service, Bureau of Indian Education, Impact Aid, and 
through the Bureau of Indian Affairs.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The second largest sector employing Indian Country is public 
administration. One out of five employed American Indians on tribal 
lands works in public administration, compared to one out of 20 for the 
entire country.
Impeding Recovery
    Examining the trends in poverty rates on and off tribal lands is 
informative to the debate on how to address fiscal challenges. From 
1990 to 2007, tribes reduced the percentage of tribal citizens in 
poverty on tribal lands by more than one-third. The poverty rate for 
all reservation American Indians and Alaska Natives (AIAN) in 1990 was 
51 percent (see figure 6). That dropped to 39 percent in 2000, and was 
recently lowest at 33 percent in the 2008 Census American Community 
Survey (ACS) estimate. That has gone back up to 40 percent in the 2011 
ACS 1-year estimate (see figure 6). The poverty rate for AIAN 
nationally, on and off reservation lands, was 20 percentage points 
lower in 1990 than the on-reservation rate, 10 percentage points lower 
in 2000, and 10 percentage points lower in 2010. So tribes dramatically 
lowered the gap between reservation and total AIAN poverty, but the 
recession halted the narrowing of the gap.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Tribes were reversing what were once considered insurmountable 
challenges, due to increased self-determination, but the recession 
undermined some of those gains. Tribes want to continue improving 
economic conditions so that young Native people will want to return to 
economies that provide work on their homelands.
Specific Recommendations on the FY 2014 President's Budget
    With a basic overview of the role of federal funding in Indian 
Country covered, this testimony will address some specific funding 
priorities and address components of the President's FY 2014 proposed 
budget. NCAI, in collaboration with national, regional, and issue 
specific tribal organizations, has developed comprehensive program 
recommendations included in the FY 2014 Indian Country Budget Request, 
and we request for the document to be entered into the record. \5\ The 
document addresses many more programs and agencies than are included in 
this testimony.
---------------------------------------------------------------------------
    \5\ National Congress of American Indians. (January 2013). Fiscal 
year 2014 Indian Country budget request: Supporting tribal economic 
security and prosperity. Washington, DC: Author.
---------------------------------------------------------------------------
Bureau of Indian Affairs in Context
    NCAI appreciates recent support for some tribal programs over the 
last few years, especially for the Indian Health Service and law 
enforcement. However, we must mention that comparing budget increases 
for the six largest Interior agencies between FY 2004 enacted to FY 
2014 Presidents' Request shows that BIA has received the smallest 
percentage increase.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The increase for BIA from the FY 2004 enacted level to the FY2014 
President's requested level is about 11 percent, the smallest percent 
increase compared to the six largest Interior agencies over that same 
time period. The Department of Interior's budget overview acknowledges 
that ``the Congress has placed the trust responsibility for Indian 
matters in the Department of the Interior, primarily within the Bureau 
of Indian Affairs.'' The President's budget provides $11.7 billion in 
discretionary funding for the Department of the Interior (DOI), an 
increase of over four percent above the FY 2012 enacted level. The DOI 
(without BIA) request for FY 2014 is a 5.1 percent increase of 
$455,109,000, while the Bureau of Indian Affairs budget would increase 
by $31 million, or 1.2 percent, or $21 million without the indirect 
cost increase. A $134 million increase to BIA funding would be needed 
to be equitable to overall FY 2014 Department of the Interior 
increases.
Changes Proposed to Contract Support Costs
    NCAI opposes the Administration's unilateral proposal, in its FY 
2014 budget request, to fundamentally alter the nature of tribal self-
governance by implementing individual statutory tribal caps on the 
payment of contract support costs. Contract support cost funding is 
essential to the operation of contracted federal programs administered 
under federally issued indirect cost rate agreements. No change of such 
a fundamental character should be implemented until there has been a 
thorough consultation and study process jointly undertaken by the 
Indian Health Service (IHS), the Bureau of Indian Affairs (BIA), and 
tribal leaders, informed by a joint technical working group and 
coordinated through NCAI. Such a consultation process must be scheduled 
to permit opportunity for full tribal participation. While NCAI 
believes that overall statutory caps on contract support costs should 
be eliminated, at the very least Congress should maintain in FY 2014 
and FY 2015 the status quo statutory language enacted in FY 2013 so 
that tribally-developed changes in contract support cost funding 
mechanisms, if any, can be included in the FY 2016 Budget.
    NCAI further recommends that the Committee either eliminate the 
current caps (as was the case with the IHS appropriation until FY 1998, 
and with the BIA until FY 1994), or raise the IHS cap to $617 million 
and the BIA cap to $242 million. Whatever funding levels are fixed in 
the bill, tribal contractors should not be denied the remedies that 
every other government contractor possesses, and which the Supreme 
Court in the Ramah and Cherokee cases confirmed protect Indian 
contractors, too.
    NCAI also requests that the Committee take firm action to force the 
disclosure of IHS data that the Secretary has failed to share with 
Congress and the Tribes, contrary to federal law.
Other Recommendations for Indian Affairs
    Carcieri Fix: Language to provide a no-cost economic development 
and jobs creation solution for restoring land to tribal governments 
impacted by the Carcieri Supreme Court decision is included in the 
Department of the Interior general provisions of the President's 
budget. NCAI urges Congress to retain this language.
    Replacement Schools: The FY 2014 President's budget does not 
include funding for Bureau of Indian Education (BIE) replacement school 
or replacement facility construction. NCAI urges Congress to restore 
funding for this program. The FY 2013 Continuing Resolution increased 
Department of Defense school replacement by $30 million above FY 2012 
levels while zeroing out funds for new BIE school construction. Indian 
Country urges Congress to ensure that dilapidated BIE schools also 
receive much-needed attention. There must be parity between the two 
federally-funded school systems. BIE schools are in overwhelmingly 
horrific conditions across the United States. Rodent infestations, 
buckling walls, water leaks near electrical outlets, and exposed 
asbestos, lead paint, and mold are abundant in facilities that serve 
Native students. Providing safe and secure schools for Native students 
is a matter of basic equity and a fundamental element of the Federal 
Government's trust responsibility to tribes.
    The President's budget eliminates the Housing Improvement Program 
(HIP) budget. NCAI opposes HIP's elimination because the program serves 
the neediest of the needy in Indian Country and losing the program 
altogether would be difficult for tribes to absorb or cover in other 
ways.
    Natural Resources and Trust Lands: Federal investment in tribal 
natural resources management helps to sustain tribal land and people, 
grow economies, and support continued prosperity. Many of the BIA Trust 
natural resources programs discussed in this section experienced 
substantial cuts over the past decade. Further reductions in FY 2013 
under the Budget Control Act of 2011 would eliminate jobs, stymie 
economic activity at a critical time for tribes, and curtail combined 
tribal, federal, state, and community collaboration as well as the 
valuable perspective in natural resource management that tribes 
contribute to the national natural resources and the economy. The most 
supportive role for the Federal Government is as a resource-provider 
and enabler-facilitating independent decisionmaking and true self-
governance for tribal nations. When tribes are free to make decisions, 
they have the opportunity to align policy and planning with established 
tribal priorities.
    One of the largest increases in the proposed FY 2014 BIA budget is 
for sustainable tribal stewardship and development of natural 
resources. The proposed budget includes increases of $32.4 million for 
this initiative. The funding is proposed for resource management and 
decisionmaking in the areas of energy and minerals, climate, oceans, 
water, rights protection, endangered and invasive species, resource 
protection enforcement, and post-graduate fellowship and training 
opportunities in science-related fields. $2.5 million of this funding 
will focus on projects engaging youth in the natural sciences and will 
establish an office to coordinate youth programs across Indian Affairs. 
Programmatic changes in Trust Natural Resources include increases of 
$9.8 million to cooperative landscape conservation, $7.7 million to 
Rights Protection Implementation, $5.1 million to Forestry, $3 million 
to Fish, Wildlife and Parks, and $2 million to Tribal Management and 
Development. NCAI supports such increases, but the increases are below 
the recommended levels for various natural resources programs at BIA 
included in the FY 2014 Indian Country Budget Request which contains 
expanded tribal justification for each program. \6\
---------------------------------------------------------------------------
    \6\ National Congress of American Indians. (January 2013). Fiscal 
year 2014 Indian Country budget request: Supporting tribal economic 
security and prosperity. Washington, DC: Author.
---------------------------------------------------------------------------
Environmental Protection Agency
    Tribal General Assistance Program (GAP): The President requested an 
increase of approximately $5 million over FY 2012 appropriations to 
$72.6 million for the Tribal General Assistance Program. Program 
capacity building is a top environmental priority identified by tribes 
as part of the EPA National Tribal Operations Committee National Tribal 
Caucus. GAP is unique among federal programs in that it provides a 
foundation which tribes can leverage to support other greatly-needed 
programs, such as planning for natural resource management, energy 
efficiency activities, and small scale renewable energy projects. 
However, GAP funding has not kept pace with the growth of tribal 
environmental programs over the years, forcing tribes to perform the 
increased duties of maturing programs with fewer funds. Furthermore, 
the average cost for tribes to sustain a basic environmental program 
was set at $110,000 per tribe in 1999 and has not been adjusted for 
inflation since then. Tribal demand for program implementation across 
various media includes a very pressing need to establish climate change 
adaptation plans. A $175,000 per tribe distribution (totaling 
approximately $98 million) reflects an equitable adjustment. Tribes 
request $96 million for GAP funding in FY 2014. Expanded justification 
on tribal EPA programs can be found in the NCAI FY 2014 Indian Country 
Budget Request.
Indian Health Service
    NCAI urges Congress to uphold the federal trust responsibility by 
protecting the IHS budget and developing a long-term plan to fully fund 
the IHS, including an advanced appropriations scheme. These 
recommendations parallel the National Indian Health Board's testimony--
which NCAI supports--and are high priorities of tribal governments and 
tribal leaders.
    Indian Country recommends that Congress fully fund IHS contract 
support costs (CSC) in FY 2014, either by eliminating the current caps 
or raising the IHS cap to $617 million. The choice of tribes to operate 
their own health care systems and their ability to be successful in 
this endeavor depends upon the availability of CSC funding to cover 
fixed costs. Without full funding, tribes are forced to reduce direct 
services in order to cover the CSC shortfall. Adequate CSC funding 
assures that tribes, under the authority of their Self-Determination 
Act contracts and Self-Governance compacts with IHS, have the resources 
necessary to administer and deliver the highest quality health care 
services to their members without sacrificing program services and 
funding.
    NCAI also recommends that this Committee reject the 
Administration's proposed restructuring of the appropriations Act.
    Most importantly, full funding of contract support costs is a 
contract obligation that the Federal Government must honor by law. The 
total amount required to fully cover contract support cost requirements 
in FY 2014 was estimated to be $617 million
Public Safety and Justice
    The problems that continue to plague public safety providers on 
tribal lands are the result of decades of gross underfunding for tribal 
criminal justice systems; a uniquely complex jurisdictional scheme; and 
a centuries-old failure by the Federal Government to fulfill its public 
safety obligations on American Indian and Alaska Native lands. In 
recent years, a broad representation of tribal leaders highlighted the 
shortcomings in the current justice system during numerous government-
to-government consultations, informal dialogues, conference calls, 
meetings, and Congressional hearings. At each turn, they emphasized 
that the current lack of resources for law enforcement on tribal lands 
poses a direct threat to Native and non-Native citizens alike, and to 
the future of all tribal nations. These concerns culminated in the 
passage of the extremely comprehensive Tribal Law & Order Act (TLOA) in 
2010.
    Highly-functioning law enforcement and basic police protection are 
fundamental priorities of any government; tribal governments are no 
different. Tribes have some of the most valuable resources in the 
nation--natural and human--and tribal lands are prime locations for new 
business ventures and economic development. Yet, issues of perceived 
safety on the reservation continue to hinder successful growth of 
tribal economies. Further, the severe lack of public safety resources 
has served as a welcome mat for criminal activity on the reservation.
    BIA Office of Justice Services: The President's budget includes a 
$19 million increase for BIA public safety and justice. These increases 
will provide $5.5 million to hire additional tribal and Bureau law 
enforcement staff and $13.4 million to staff recently constructed 
tribally-operated detention centers. An increase of $1 million is for 
tribal courts, which are expected to see an increase in case loads. 
$3.0 million is to meet the needs of tribal communities with elevated 
levels of domestic violence.
    NCAI welcomes these increases, but notes that a $1 million increase 
for tribal courts is far below the amount needed. It is well-documented 
by entities such as the U.S. Commission on Civil Rights and the 
American Bar Association that tribal courts have been historically 
underfunded by the Federal Government and that this underfunding 
negatively impacts their law enforcement operations. Although there 
have been federal grants issued--particularly through the US Department 
of Justice--to address discrete justice and safety concerns, those 
grants are time-limited and do not support the ongoing and daily 
operating needs of tribal courts. Enacted in 1993, the Indian Tribal 
Justice Act authorized an additional $50 million per year for each of 
seven years for tribal court base funding. Despite numerous 
congressional reauthorizations of the Act over the past couple of 
decades--most recently through FY 2015 in TLOA--not a single penny has 
been appropriated. The promise of this much-needed base funding must 
finally be fulfilled.
    Further, the method by which BIA supplemental court funding is 
distributed is seriously flawed and needs to be overhauled. Currently, 
in order to obtain necessary additional operating funds, a tribal court 
must undergo--and fail--a court evaluation. This deters tribes from 
seeking additional funding because they must be assessed as being sub-
standard; and this information becomes public, undermining the 
reputation and credibility of the tribal court. In addition, the 
innovative tribal courts that achieve success with pilot programs are 
unable to obtain funding to continue the programs or to allow for 
replication as best practices by other tribal nations. A confidential 
evaluation process and award system that allow for under-functioning 
courts to receive additional funding and also support successful pilot 
programs should be developed and implemented.
    Department of Justice: The President's FY 2014 Budget requests 
$389.5 million for the Department of Justice (DOJ) public safety 
initiatives in Indian Country (including $369.5 million in 
discretionary funds and $20 million from the Crime Victims Fund, a 
mandatory account). This is a significant increase compared to the 
President's FY 2013 DOJ request, and it demonstrates the 
Administration's continued commitment to improving the criminal justice 
system on tribal lands.
    This substantial increase in requested funding for Indian Country 
initiatives within DOJ is due in large part to the new $20 million set-
aside for tribal victim assistance within the Crime Victims Fund. The 
Crime Victims Fund, administered by the Office for Victims of Crime 
(OVC) within DOJ's Office of Justice Programs (OJP), was initially 
established to address the need for victim services programs, and to 
assist tribal, state, and local governments in providing appropriate 
services to their communities. The Fund is financed by collections of 
fines, penalty assessments, and bond forfeitures from defendants 
convicted of federal crimes, but until now, tribes have only been 
eligible to receive a very small portion of the discretionary funding 
from the Fund. Over the past year, OVC and OJP officials have 
recognized the great need to strengthen victims services on tribal 
lands and, thus, are proposing this new set-aside to help meet that 
need. The new tribal funding is requested as part of OVC's Vision 21 
Initiative, a strategic planning initiative based on an 18-month 
national assessment by OJP that systematically engaged the crime victim 
advocacy field and other stakeholder groups in assessing current and 
emerging challenges and opportunities facing the field. The initiative 
focuses on supplemental victims services and other victim-related 
programs and initiatives in areas like research, legal services, 
capacity building, national and international victim assistance, and--
of course--tribal assistance.
    Similar to the President's 2012 and 2013 requests, the Department 
again proposes bill language for a 7 percent tribal set-aside from all 
discretionary Office of Justice Programs to address Indian country 
public safety and tribal criminal justice needs. Under the FY 2014 
request, the 7 percent set-aside totals approximately $102.5 million--
more than a $20 million increase from last year's request and far more 
comparable to the numbers found in the President's 2012 budget request. 
Although the details of how these funds will be administered are yet to 
be determined, the goal is to provide a more flexible grant structure 
for tribes. To offset this new policy, the Department proposes to 
eliminate bill language contained in prior years' Appropriations Acts 
that had specific funding amounts for traditional tribal justice 
programs--such as tribal prison construction, tribal courts initiative, 
tribal alcohol and substance abuse reduction assistance, and tribal 
youth.
    The President's DOJ budget requests $412.5 million for the Office 
on Violence Against Women (OVW), $42.7 million of which will be aimed 
at addressing the high victimization rates of American Indian and 
Alaska Native women for the crimes of domestic violence, sexual 
assault, dating violence, and stalking on tribal lands. Of these funds, 
about $35.3 million is requested for disbursement through the VAWA 
Grants to Indian Tribal Governments Program, while $3.6 million would 
be funneled to tribal coalitions through the VAWA Tribal Coalitions 
Grants Program and $2.3 million would go to tribes under VAWA's Sexual 
Assault Services Program. Also within these OVW funds, the President 
has requested that $500,000 be available for an Indian Country Sexual 
Assault Clearinghouse that will offer a one-stop shop for tribes to 
request free on-site training and technical assistance. The FY 2014 
budget request also sustains funding for Analysis and Research on 
Violence Against Indian Women at $1 million.
    This year's DOJ budget also requests a total of $1.6 million for 
the Office of Tribal Justice (OTJ) to, among other things, help fund a 
total of six attorney positions in FY 2014. This request for additional 
staffing resources was made in recognition of the increased workload 
and duties of OTJ staff in recent years, particularly since the Tribal 
Law & Order Act of 2010 established OTJ as a permanent component of the 
Department. Hundreds of federal cases, in addition to other conflicts 
needing resolution are generated in Indian country each year, and OTJ 
serves as the primary point of contact between all 566 federally 
recognized tribes and DOJ on these matters. OTJ coordinates these 
complex matters, the underlying policy, and emerging legislation 
between more than a dozen DOJ components active in Indian country. As 
such, it is imperative that OTJ has the necessary resources to 
sufficiently fulfill all of these obligations.
    Additionally, the FY 2014 budget request for tribes under the 
Community Oriented Policing Services (COPS) program to fund tribal law 
enforcement expenses is $20 million, the same as the FY 2013 requested 
amount. This program provides funding and resources to meet the public 
safety needs of law enforcement and advance community policing on 
tribal lands. The President requested $15 million for tribes under the 
COPS Hiring Program, identical to his FY 2013 request, but 
substantially lower than his request in FY 2012 (which was closer to 
$42 million). These funds are critical for the hiring and retention of 
tribal law enforcement officers.
    DOJ's FY 2014 Budget Request for Indian Country programs is a 
substantial increase over its FY 2013 numbers, which is particularly 
encouraging given the current budget climate in Washington, DC. 
Moreover, DOJ's request provides tribes with more flexibility in how 
they spend their DOJ grant dollars, demonstrating the Justice 
Department's continued commitment to tribal self-determination and the 
improved administration of justice on Indian lands.
Department of Homeland Security
    Tribal government homeland security and emergency management 
capacity has increased in recent years despite inequitable funding and 
support by the Department of Homeland Security (DHS). NCAI and the 
tribes were successful in having DHS create the Tribal Homeland 
Security Grant Program (THSGP) but it has been severely underfunded. In 
the FY 2013 budget request, DHS proposed the creation of the National 
Preparedness Grant Program (NPGP) which would have eliminated the 
tribal program and placed tribes in competition with states for 
funding, and asked some tribes to submit grant proposals to states and 
have the funds managed by state governments. NCAI strongly urged DHS to 
not implement NPGP until tribal consultation took place but 
consultation has not occurred.
    The DHS is re-proposing the NGPG for FY 2014. The NPGP gives high 
preference to states with Emergency Management Assistance Compacts 
(EMAC). While tribes are beginning to develop emergency assistance 
compacts with surrounding jurisdictions there are currently no state-
tribal EMACs. The NPGP also utilizes a complicated process for 
assessing regional and national capability requirements though the 
Threat and Hazard Identification and Risk Assessment and capability 
estimation processes.
    The DHS FY 2014 budget document request states that tribes will 
continue to apply directly to the Federal Emergency Management Agency 
(FEMA) under a competitive process and that FEMA will ensure a portion 
of the overall funding is dedicated to tribal nations. However it also 
states that tribal funding is contingent on tribal governments proving 
they are contributing to overall national preparedness and the main 
criteria is that tribes have established memoranda of understanding or 
the protection of national critical infrastructure and that they have 
completed their own THIRA.
    Tribal concerns persist that tribal funding may be inadequate. 
However, based on tribal/FEMA relations in the recent past there is a 
significant possibility of a positive outcome. Tribes, NCAI, and the 
Federal Emergency Management Agency worked together to secure passage 
of legislation that authorizes tribes to seek a direct presidential 
disaster declaration under the Stafford Act. Currently tribes are 
submitting comments on implementation of the Stafford Act tribal 
provisions, but FEMA has yet to reach out to tribes regarding tribal 
eligibility in myriad programs contained in the Hurricane Sandy Relief 
Act which included the tribal amendments.
Federal Communications Commission
    The FY 2014 budget request of the Federal Communications Commission 
(FCC) is $359.3 million. This proposed budget will enable the FCC to 
support ongoing reforms of the Universal Service Fund, maximization of 
spectrum allocation, ensure consumer protections, and promote public 
safety communications services.
    In August of 2010 the FCC created the Office of Native Affairs and 
Policy (FCC-ONAP) as the responsible entity for the FCC's consultation 
and training efforts with tribal nations. However, this office was 
never provided a dedicated, annual budget to ensure continuity in its 
consultation efforts on behalf of the FCC. During NCAI's 2013 Executive 
Council Winter Session in Washington, DC tribal leaders became aware 
that FCC-ONAP has relied primarily on the FCC's travel budget, which as 
of March 1, 2013 has been frozen due to sequestration. Unfortunately, 
the FCC has not mentioned whether it will provide FCC-ONAP with FY 2014 
funding.
    Reinstatement of an operating budget for FY 2013 and providing a 
dedicated, annual budget beginning in FY 2014 is crucial to advancing 
the government-to-government relationship between tribes and the FCC. 
Numerous proceedings have been initiated since FCC-ONAP's creation in 
2010, which have included reforms to universal service programs 
impacting tribal nations.
    Implementation of the Mobility Fund, Tribal Mobility Fund, Tribal 
Government Obligation Engagement Provisions, Intercarrier Compensation 
benchmarks, and reforms to the Tribal Lifeline and Link-Up Programs 
necessitate the continued existence of this office. The FCC is also 
positioned to increase much needed tribal nation access to commercial 
wireless spectrum.
Conclusion
    Reductions in funding to meet trust obligations to tribal nations--
public safety, education, health care, social services, and tribal 
governmental services--are reductions to ``high powered'' spending for 
local economies, which will impede economic recovery in addition to 
causing increased poverty and hardship for Indian Country.
    The stakes are high for tribal governmental services and programs 
in the federal budget that support the trust responsibility, only some 
of which are highlighted here, but trust obligations should be 
protected from further reductions. Tribal programs, as part of the 
discretionary budget, have already done their part to reduce the 
deficit through the bipartisan Budget Control Act. Continued cuts will 
have severe consequences for every tribal citizen. Tribes urge the 
President and Congress to uphold the solemn promises of the trust 
responsibility throughout the federal budget in FY 2014 and future 
years.

    The Chairwoman. Thank you very much.
    Ms. Abramson, thank you so much for being here.

   STATEMENT OF CATHY ABRAMSON, CHAIRPERSON, NATIONAL INDIAN 
                          HEALTH BOARD

    Ms. Abramson. Thank you.
    Chairwoman Cantwell, Ranking Member Barrasso and Members of 
the Committee, thank you for having this hearing today. My name 
is Cathy Abramson and I am Chairperson of the National Indian 
Health Board and I am a tribal council member from the Sault 
Ste. Marie Tribe of Chippewa Indians.
    The NIHB offers the following comments regarding the 
President's Fiscal Year 2014 Budget Request.
    First of all, I would like to thank Congress for the 
increases to Indian health that its members have provided over 
the last several years. As you may know, American Indians and 
Alaska Native populations suffer disproportionately from a 
variety of health disparities that include diabetes, heart 
disease, tuberculosis, alcoholism and suicide. It is the 
commitments that you and your colleagues have made to improve 
Indian health in the last several years that are starting to 
turn these figures around.
    There is still much more than can be done for Indian 
Country's access to healthcare. In my written comments, you 
will see detailed budget priorities that NIHB has for Fiscal 
Year 2014 including contract support costs, contract health 
services and behavioral health programs for American Indians 
and Alaska Natives.
    Today, however, I would like to focus my remarks on the 
biggest immediate threat to our tribal health and that is 
sequestration. I thank the Chairwoman and the Members of this 
Committee for their public acknowledgment of the injustice done 
to tribal communities by including IHS in the 5.1 percent 
sequester for Fiscal Year 2103. Because these cuts must be 
achieved over seven months instead of 12, the effective 
percentage of reductions is approximately 9 percent. IHS will 
lose $220 million in Fiscal Year 2013.
    Additionally, the 2 percent rescission further reduces IHS 
budgets in the amount of $8 million for a total of $228 million 
from the IHS 2013 budget. This combined with the Government 
rescission since Fiscal Year 2011 means that IHS has lost $240 
million in the last three years alone. As the chart 
demonstrates, over here, it almost completely erases the gains 
that IHS, that were made to IHS since 2009.
    But these figures do not tell the human stories. The 
sequestration cuts are literally a matter of life and death for 
American Indians and Alaska Natives. For example, my tribe, our 
tribal membership is over 44,000 and we provide services in 
seven eastern counties of Michigan's Upper Peninsula which 
represent part of our tribe's original lands.
    In 2012, our health division provided 43,000 primary care 
visits. This includes medical, dental and optical treatment. 
Our tribe also provided over 11,000 behavioral health visits. 
This equals 54,500 visits for tribal members.
    A 9 percent sequestration cut would be about $1.5 million 
for our tribe. This means the elimination of two dentists, four 
dental technicians, three family practice physicians and three 
registered nurses. The amount of people we could actually treat 
would be reduced by 12,400 or 23 percent of primary care 
visits. It also decreases third-party revenue by over $700,000.
    Currently, we are only funded at 46 percent of identified 
level of need. A 9 percent cut will increase the unfunded 
portion 37.8 percent of need and will be detrimental to members 
and these needed services in order to survive.
    The Alaska Native Tribal Consortium announced that it will 
discontinue the Community Health Aid Training Program as a 
result of the sequester and they will close the Bill Brady 
Healing Center that provides alcohol and drug treatment to 
Alaska Natives.
    The Pine Ridge Reservation told NIHB that likely will 
severely cut behavior health services which will be devastating 
in a community that suffers regularly from suicide, alcoholism 
and other substance abuses. Since the beginning of the year 
there have been 100 suicide attempts in 110 days on Pine Ridge. 
Because of sequestration, they will not be able to hire two 
mental health service providers. As one tribal health official 
told NIHB, we cannot take any more cuts. We just cannot.
    Across Indian Country tribal leaders and our health care 
administrators have to make decisions on how to make the cuts. 
And they should not have to. NIHB asks you to work with your 
colleagues in Congress to restore the $240 million in IHS 
funding eliminated due to sequestration and rescissions since 
Fiscal Year 2011 and enact legislation that permanently exempts 
IHS from sequestration.
    Thank you for this opportunity.
    [The prepared statement of Ms. Abramson follows:]

  Prepared Statement of Cathy Abramson, Chairperson, National Indian 
                              Health Board
    Chairwoman Cantwell, Vice Chairman Barrasso, and Members of the 
Committee, thank you for holding today's important hearing on the 
President's FY 2014 budget. My name is Cathy Abramson, and I serve as 
the Chairperson for the National Indian Health Board (NIHB) and as a 
Tribal councilperson for the Sault Ste. Marie Tribe of Chippewa 
Indians. The NIHB, in service to the 566 federally recognized Tribes, 
offers the following written comments regarding the President's FY 2014 
Budget request for the Indian Health Service (IHS).
    First, I would like to thank Congress for the increases to Indian 
Health it has provided. In the last three years, the IHS has received 
an increase of 29 percent which is enabling Indian Country to live with 
better health outcomes. As you may know, American Indian/Alaska Native 
(AI/AN) populations suffer disproportionally from a variety of health 
disparities including diabetes, heart disease, tuberculosis, alcoholism 
and suicide. It is the commitments that this Congress has made to 
improving Indian Health in the last several years that are starting to 
turn these figures around.
    It is critical that even in a time of tough fiscal choices that 
Congress continue to prioritize Indian Health. This is not only a human 
issue, but the fulfillment of the federal trust reasonability 
reinforced by 200 years of legislation, treaty agreements and case law. 
Furthermore, the dramatic cuts affecting IHS due to the federal 
sequestration process and rescissions will put the health of AI/AN 
people at risk and create a health care crisis across Indian Country. 
NIHB asks you to restore the $240 million in funding already lost due 
to sequestration and rescissions and create a permanent legislative 
exemption for IHS from sequestration.
    NIHB appreciates the President's budget request of $4.4 billion for 
IHS, but believes that this figure could go much further. To fulfill 
the total need in Indian Country, appropriations for the IHS would be 
$26.1 billion. However, due to the difficult fiscal environment, NIHB 
supports the recommendation of the National Tribal Budget Formulation 
Workgroup and requests IHS to be funded at $5.3 billion.
Sequestration and the 2 percent Continuing Resolution Recession
    On March 1, 2013, IHS became subject the federal sequestration 
process. As discussed in an oversight hearing on Indian Health before 
the House Appropriations Subcommittee on Interior Environment, and 
Related Agencies on March 20, 2013, NIHB and the Tribal community 
believe that this is a grave oversight that will drastically affect the 
lives of every AI/AN. Although the American Taxpayer Relief Act reduced 
the level of the sequester reduction for the IHS from 8.2 percent to 
5.1 percent, these cuts must be achieved over seven months instead of 
twelve, making the effective percentage of reductions approximately 9 
percent. The amount reduced out of the IHS budget through the sequester 
is $220 million. Additionally the 2 percent rescission enacted by the 
recently-passed Consolidated and Further Continuing Appropriations Act 
(P.L. 113-06) further reduces the IHS budget in the amount of $8 
million for a total cut of $228 million from the IHS' FY 2013 budget. 
For FY 2013, combined with government rescissions since FY 2011, means 
that the IHS has lost $240 million in the last three years alone.
    The chart below depicts the actual amount of enacted funding for 
IHS since FY 2010 compared with the funding eliminated through 
rescissions and sequestration:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    As you can see, the increases in IHS that have been made over the 
last several years have been almost completely erased when accounting 
for rescissions and sequestration. When accounting for medical 
inflation rates of between 5 and 7 percent, and population growth of 
the AI/AN community the IHS is actually operating with slightly less 
money than it did before FY 2009. In order to reverse the health 
disparities of AI/AN people, it is critical that not only Congress 
continue to make increases in IHS funding, but that they restore 
funding that has been taken away from the IHS through rescissions and 
sequestration.
    Health care provided through the Indian Health Service is not just 
another discretionary program. These services for AI/ANs are the 
fulfillment of a federal trust responsibility. Unlike other federal 
program cuts, the reductions to IHS are not about forcing government to 
run more efficiently. The sequestration cuts are literally a matter of 
life and death for AI/AN people and a deliberate abrogation of federal 
trust reasonability. Other medical service programs such as Medicaid, 
Medicare, the Children's Health Insurance Program, and medical care for 
Veterans have been exempt from the full sequester. NIHB strongly 
believes that the IHS should have the same exemption.
    Overall, the White House predicted that the cuts will mean 3,000 
fewer inpatient admissions and 804,000 fewer outpatient visits each 
year, though detailed budget numbers have not been released. The vast 
majority of programs treating Native Americans, especially those 
treating the sickest, most needy peoples will cut service. Alaska 
Native Tribal Health Consortium announced that it will discontinue its 
Community Health Aid training program as a result of the sequester and 
they will close the Bill Brady Healing Center that provides alcohol and 
drug treatment to Native Alaskans.
    Seventy-three percent of Direct Services in the Aberdeen Area are 
implemented by IHS facilities. The automatic cuts will have a greater 
impact in our region. Already, examples from this area speak volumes of 
the automatic cuts. The Pine Ridge reservation's behavioral health 
staff has told NIHB that it will likely have severely cut back 
behavioral health services, which will be devastating in a community 
that suffers regularly with suicide, alcoholism and other substance 
abuse issues. There have been 100 suicide attempts in 110 days on Pine 
Ridge. Last year there were 563 suicide attempts on this reservation 
alone. Because of sequestration they will not be able to hire two 
mental health service providers. As one Tribal health official told 
NIHB, ``We just can't take any more cuts.'' For example, Contract 
Health Services alone translates to 4,300 fewer approved referrals and 
1,700 increase in denials. The proposed cuts will literally deny 6,000 
fewer Tribal members ability to receive Priority 1 (Life or limb) 
services. This is Life or Death.
    Across Indian Country, Tribal leaders and health administrators are 
facing tough decisions on how to make cuts, but they should not have 
to.
    NIHB thanks those on this Committee that have publicly recognized 
the unjust nature of these cuts. Therefore, NIHB asks you to work with 
your colleagues in Congress to restore the $240 million in IHS funding 
eliminated due to sequestration and rescissions since FY 2011 and enact 
legislation that permanently exempts the Indian Health Service from 
sequestration. Now is not the time to completely erase the positive 
gains made by IHS in the last several years.
Contract Support Costs (CSC)
    In June 2012, the Supreme Court issued a ruling in Salazar vs. 
Ramah Navajo Chapter that held that the U.S. Government must pay each 
Tribe's contract support costs even if the full amount to fund this has 
not been appropriated by Congress. As a result, the Administration has 
proposed an overhaul of the current Contract Support Cost system. The 
FY 2014 Budget recommends that the government enter into individual 
contracts with each Tribe for CSC funds that each Tribe will receive. 
NIHB stands with the Tribes in opposing this unilateral policy change. 
The Administration has proposed this change without thorough and 
specifically focused consultation from Indian Country, which is a 
violation of a several federal laws and guidelines. While NIHB supports 
the overall elimination of statutory caps on CSC, this change should 
only be undertaken with a full comprehensive study by Congress, the 
IHS, and Tribal advisors. The Administration's proposal is destructive 
to Tribal self-governance and NIHB calls for extensive Tribal 
consultation on CSC. NIHB requests no major policy changes regarding 
CSC occur without Tribal consultation and a study process jointly 
undertaken by the Indian Health Service, the Bureau of Indian Affairs, 
and tribal leaders, informed by a joint technical working group.
    FY 2014 Budget requests an increase of $5.8 million (1.3 percent) 
for CSC in the total amount of $477,205,000 for FY 2014. In addition, 
the Budget requests $500,000 for CSC associated with new or expanded 
compacts or contracts. NIHB agrees that it is critical to increase 
funding for CSC. This funding enables Tribes to receive the essential 
infrastructure support needed to administer federal programs. Without 
full funding, Tribes are forced to redirect funds and reduce services 
in order to cover these costs. This is especially devastating for AI/
ANs during a time of difficult budget reductions. CSCs are a critical 
part of health care delivery for AI/AN people and an affirmation of 
Tribal self-governance. Without funding this line at the full amount, 
Congress is abrogating this right to Tribal self-governance, and 
severely impacting health outcomes for AI/AN people. Therefore, NIHB 
asks that CSCs are increased by $109.2 million from FY 2012 levels, as 
recommended by the National Tribal Budget Formulation Workgroup.
Purchased/Referred Care (formerly known as Contract Health Services)
    The Purchased/Referred Care (PRC) Program (formerly known as the 
Contract Health Service Program) allows IHS to purchase health care 
from outside providers when no IHS-funded direct care service is 
available. NIHB is deeply appreciative of the dramatic increase in 
funding this program has seen in the last several years. Since FY 2005, 
funding for CHC has increased from $498 million to $845 million, or 69 
percent. The FY 2014 Administration Budget requests funding of $879 
million, an increase of $35 million, or 4 percent, over FY 2012.
    However, this increase in funding does not adequately address the 
rate of medical inflation, nor does it provide adequate funding to meet 
the needs of the program. Adjusting funding for medical inflationary 
costs helps maintain the current level of services and offsets the 
rising cost in providing health care. The increase of $35 million is 
the calculated need based on a 3.7 percent medical inflation rate. 
However, according to the Consumer Price Index, inpatient hospital care 
is at 7 percent and outpatient hospital care is at 5 percent. PRC is 
grossly underfunded and IHS cannot purchase the care it needs. 
Currently, most IHS programs and Tribal health programs are only 
recommending the most desperate cases to be treated by PRC (e.g. ``life 
or limb'' situations) and less urgent or preventative care patients are 
deferred. As a result, Indian patients are left with untreated and 
often painful and preventable conditions that, if treated early, would 
result in better health outcomes at a lower cost. This is not a 
fulfillment of the federal Tribal trust obligation, but an outright 
denial of services to a large portion of the AI/AN population.
    For PRC, NIHB requests a $171 million increase over the FY 2012 for 
a total amount of $1.01 billion. NIHB feels that this amount will allow 
IHS recipients to receive modest gains in access to care. For FY 2011, 
the estimate of PRC unmet need was over $800 million and with health 
care costs rising, this figure is only expected to grow. Without 
increases to this program or significant reform AI/ANs will continue to 
live shorter and die sicker than other Americans.
    A Government Accountability Office (GAO) study released on April 
11, 2013 also noted that IHS losing a lot of funding for PRC by failing 
to negotiate lower payment rates with nonhospital providers as Medicare 
and private insurance do. GAO recommends that Congress consider capping 
rates for nonhospital providers like other federal programs. While NIHB 
feels that this could enable IHS to provide more services for the 
amount appropriated by Congress, NIHB expresses concerns about access 
to care. While GAO did not express immediate concerns about patient 
access under payment caps, some rural areas served by IHS may only have 
one specialist or provider. To risk excluding patients from care 
through payment caps, would again, put the health of AI/ANs at risk. 
Because the GAO study was relatively limited in scope, NIHB recommends 
that Congress thoroughly study any issues resulting from access to care 
before enacting legislation that would cap PRC rates to nonhospital 
providers.
Definition of Indian in the Affordable Care Act
    AI/ANs must be able to access the new benefits offered under the 
Affordable Care Act (ACA) (P.L. 111-148). The ACA contains numerous 
favorable procedural rules, cost-sharing protections, and mandatory 
enrollment exemptions that apply specifically to AI/ANs.
    However, the Act references several different definitions of the 
word ``Indian.'' Though HHS has officially stated that these 
definitions are ``operationally'' similar but not exactly the same, it 
is expected that AI/ANs will experience many administrative setbacks 
before they can fully access ACA programs. This will create enormous 
potential for confusion and inefficiency in the implementation of the 
ACA. One consequence will be that certain AI/ANs would face tax 
penalties for not enrolling in an Exchange though they are already 
receiving health care from the IHS or a Tribally-administered program.
    Officials and HHS have stated that there must be a legislative fix. 
The NIHB recommends that the definition of ``Indian'' adopted by the 
Centers for Medicare & Medicaid Services (CMS) (at C.F.R.  447.50 and 
effective on July 2, 2010) in its implementation of the Medicaid cost-
sharing protections should be adopted uniformly in its implementation 
of the ACA for both the health insurance marketplace plans and the 
Medicaid expansion.
Special Diabetes Program for Indians (SDPI)
    The Special Diabetes Program for Indians (SDPI) is a mandatory 
spending program which provides grants for diabetes treatment and 
prevention services to 404 IHS, Tribal and Urban health system 
programs. Currently this program is authorized at $150 million per year 
through September 30, 2014. The SDPI program is subject to a 2 percent 
sequestration cut as of March 1, 2013. This translates into a $3 
million budget reduction for SDPI and will force SDPI grantees to make 
difficult choices on how to use SDPI funding to address the primary, 
secondary and tertiary prevention of diabetes in American Indian and 
Alaska Native (AI/AN) communities.
    SDPI is making a real difference in the lives of people who must 
manage diabetes on a daily basis. As a result of intensive SDPI program 
data collection analysis, we are able to demonstrate remarkable 
outcomes from SDPI programs, including: a decrease in the average blood 
sugar level from 9.0 percent in 1996 to 8.1 percent in 2010; and a 56 
percent increase in weight management activities targeting children and 
youth. Additionally, end stage renal disease (ESRD) has decreased by 
27.7 percent between 1995 and 2006--the lowest for any other ethnic 
group. Because this program is outcome driven, and focuses on 
individual grants which enable health professionals to tailor program 
activities to specific communities and cultural sensitivities, the 
success of SDPI is only expected to grow.
    SPDI is also saving money for IHS and Tribal programs. The cost to 
treat someone with diabetes is 2.3 times higher than a non-diabetes 
patient. By engaging in interventions to prevent this disease, costs 
for health care services also plummet and providing savings for other 
government programs such as Medicare, and Medicaid. NIHB requests that 
Congress continue to support reauthorization of SDPI.
Advanced funding to Indian Health Service Budget
    Since FY 1998, appropriated funds for medical services and 
facilities through IHS have not been provided before the commencement 
of the new fiscal year, causing IHS and Tribal providers great 
challenges in planning and managing care for AI/ANs.
    The lateness in enacting a final budget ranges from five days (FY 
2002) to 197 days (FY 2011). Even after the enactment of an 
appropriations bill, there is an apportionment process involving OMB 
and then a process within IHS allocation of funds to IHS Area offices. 
In FY 2010, the Veterans Administration (VA) medical care programs 
achieved advance appropriations. The fact that Congress has implemented 
advance appropriations for the VA medical programs provides a 
compelling argument for Tribes and Tribal Organizations to be given 
equivalent status with regard to IHS funding. Both systems provide 
direct medical care and both are the result of federal policies. Just 
as the veterans groups were alarmed at the impact of delayed funding 
upon the provision of health care to veterans and the ability of VA to 
properly plan and manage its resources, Tribes and Tribal Organizations 
have those concerns about the IHS health system. If IHS funding was on 
an advance appropriations cycle, Tribal health care providers, as well 
as the IHS, would know the funding a year earlier and would not be 
subject to continuing resolutions.
    Delayed funding significantly hampers Tribal and IHS health care 
providers' budgeting, recruitment, retention, provision of services, 
facility maintenance, and construction efforts. Advanced funding enable 
IHS and Tribal leaders to make decisions on health care for AI/ANs well 
in advance, and contribute to greater health outcomes. As a result of 
these greater efficiencies created by advanced funding, IHS have a 
cost-savings that would allow the agency to redirect much needed 
funding into other areas, and build up the overall health of AI/AN 
patients. Providing sufficient, timely and predictable funding is 
needed to ensure the Federal Government meets its obligation to provide 
health care for AI/ANs.
Other Programs
    FY 2014 Budget requests $196,405,000 for the Alcohol and Substance 
Abuse, which is an increase of $2,108,000 over the FY 2012 enacted 
level. NIHB supports this increase but believes that federal funding 
for this program should be $203.7 million. This funding supports 
integrated behavioral support to reduce substance abuse in Indian 
Country, which is one of the most critical health epidemics for AI/ANs.
    In a related matter, the FY 2014 Budget request for Mental Health 
is $79.9 million, an increase of $185,000 for pay costs and $4.1 
million for mental health staffing at newly constructed healthcare 
facilities. AI/ANs are at higher risk for certain mental health 
disorders than other racial or ethnic groups. More funding is needed to 
increase the incidence of suicidal behavior reporting by health care 
(or mental health) professionals. NIHB requests $121 million (or an 
increase of $45.8 million over the FY 2012 enacted level) for FY 2014.
Conclusion
    In closing, I would like to reiterate my deep appreciation for this 
Congress' commitment to Indian Health in last several years. With your 
help, Tribes and IHS have been able to make great strides in Indian 
Health and these increases will help to ensure that AI/ANs remain a 
healthy and vibrant people for generations to come.
    There is still much work to be done. NIHB recommends that Congress 
work to restore previous cuts to the IHS by federal budget rescissions 
and sequestration and establish permanent legislative exemption for IHS 
from the sequestration process. Cuts of this magnitude will only result 
in increased disease and sickness for AI/ANs. NIHB also appreciates the 
President's request for increased funding in these difficult fiscal 
times. However, in order to address these great inequalities and 
fulfill the Federal Government's trust obligation to native 
communities, FY 2014 appropriations for IHS should be at $5.3 billion.
    Thank you again for this opportunity to testify regarding the FY 
2014 IHS budget. I look forward to answering your questions.

    The Chairwoman. Thank you very much. Thank you for your 
testimony.
    Mr. Sirois, thank you very much for being here and we look 
forward to your testimony.

STATEMENT OF HON. JOHN SIROIS, CHAIRMAN, CONFEDERATED TRIBES OF 
                    THE COLVILLE RESERVATION

    Mr. Sirois. [Greeting in native language.]
    Good afternoon, Chairman Cantwell, Vice Chairman Barrasso 
and Members of the Committee, I am really thankful that you are 
here and spending time and listening to us. On behalf of the 
Confederated Tribes of the Colville Indian Reservation, I truly 
appreciate the opportunity to testify here today before you.
    [Speaking in native language.] My given name is John Sirois 
and I am Chairman of the Colville Business Council and I want 
to also say [speaking in native language]. Thank you for 
listening. I heard members talking about where our heart is and 
I wanted to thank you for listening to our hearts here today on 
these very important issues.
    Today, my testimony will focus on economic development. 
Specifically, I have three recommendations for the Committee to 
consider when looking at the Fiscal Year 2014 Budget. I worked 
with and consulted the Affiliated Tribes of Northwest Indians 
in developing this testimony and will have a written form to 
give to the Committee as well.
    The Colville Indian Reservation is located in North Central 
Washington and we are slightly larger than the size of 
Delaware. More than 9,500 members live on or near the 
reservation and two-thirds of our reservation is covered with 
commercial timber. So, historically we have survived on 
revenues to operate our government and governmental services 
through those timber sales and that timber operation.
    I want to acknowledge from the outset as Senator Franken 
stated that almost every Federal Indian program has been 
historically under funded for decades and, unlike other Federal 
discretionary funding spending, funding for Indian programs 
provide essential governmental services, tangible services like 
healthcare, law enforcement and housing to tribal communities.
    The current budget climate and the imposition of 
sequestration for the current fiscal year have made a bad 
situation much worse. This is why facilitating economic 
development in Indian Country should go hand in hand with 
protecting funding levels for all Indian programs.
    As the Committee evaluates this Fiscal Year 2014 request, I 
offer three recommendations.
    First, increase coordination between Federal agencies to 
maximize resources and appropriations. The Federal Government's 
role in economic development in Indian Country is not limited 
to Indian programs at the Department of the Interior. Many 
other Federal Agencies outside DOI have economic development 
programs and activities that tribes may otherwise participate 
in. Too often, however, these programs are underutilized by 
Indian Country because they are decentralized, buried within 
other programs or simply not effectively promoted within Indian 
Country.
    For example, the Bureau of Indian Affairs administers the 
Indian Guaranteed Loan Program, a successful program that has 
allowed Indian tribes and Indian enterprises to obtain 
financing for commercial development. This program makes 
efficient use of funds and the demand for those loan guarantees 
under this program routinely exceed the available funds that 
are appropriated. This Fiscal Year 2014 request includes $5 
million for this program, a $2 million decrease from the Fiscal 
Year 2012 enacted levels. So, it is not meeting, this year's 
budget is not meeting two years ago demand.
    So, in contrast, the USDA Rural Development has several 
loan programs that tribes and tribal enterprises are eligible 
for. The appropriations for these programs collectively total 
almost $1 billion. Despite the high level of interest in the 
BIA Guaranteed Loan Program, these USDA programs are often 
overlooked because they are not considered Indian programs or 
they do not have the right connection with the USDA.
    In the current budget climate, we believe that existing 
appropriations for economic development can be leveraged and 
maximized with more formal coordination with these Federal 
agencies. You know, sometimes many of these Federal programs 
fail to launch because they do not have the right outreach and 
in some cases do not fully understand how to interact with 
Indian Country. So, we think this would be an excellent 
opportunity to coordinate.
    Number two, continue promoting legislation that eliminates 
burdensome regulations. Last year, the HEARTH Act was a prime 
example of doing that, which allows Indian tribes to develop 
leasing regulations to enter into leases with third parties 
under those regulations without the need for BIA approval.
    This Committee can play a key role in continuing to promote 
legislation like the HEARTH Act that streamlines administrative 
processes and eliminates outdated requirements. In that regard, 
we are very encouraged that Chairman Cantwell and Vice Chairman 
Barrasso are working to develop the Indian Energy legislation 
that is coming up for reintroduction in this Congress.
    Last year, the Confederate Tribes and ATNI and this 
membership strongly supported S. 1684, the Indian Tribal Energy 
Development and Self-Determination Act of 2012. We are 
particularly supportive of this biomass project and I would 
love to answer more questions about that project if it is so 
desired.
    And then third, structural reforms. As the Committee is 
aware, deliberations are underway in both Chambers to overhaul 
the Internal Revenue Code. Various provisions of the Internal 
Revenue Code fail to treat Indian tribes like governments. 
Other provisions valued by the private sector need to be made 
permanent to improve their usefulness.
    We encourage this Committee to collaborate with the Senate 
Finance Committee and other committees of jurisdiction and to 
advocate for these and other changes to the Tax Code that will 
encourage investment in Indian Country.
    Apart from tax reform, there are other structural reforms 
that would promote economic development. One of them is S. 165, 
the Indian Trust Asset Reform Act of 2013 introduced by Senator 
Mike Crapo and it is going to be referred to this Committee. It 
would authorize Indian tribes with natural resources like 
timber and agriculture to direct the management of those 
resources to achieve tribally-focused objectives. That is so 
important moving forward for economic development.
    At this time, that concludes my testimony and I would be 
happy to answer any questions that you have.
    Thank you.
    [The prepared statement of Mr. Sirois follows:)

 Prepared Statement of Hon. John Sirois, Chairman, Confederated Tribes 
                      of the Colville Reservation
    Good afternoon Chairwoman Cantwell, Vice-Chairman Barrasso, and 
members of the Committee. On behalf of the Confederated Tribes of the 
Colville Reservation (``Colville Tribes'' or the ``CCT''), I appreciate 
the opportunity to testify today on the President's FY 2014 budget 
request for Indian programs.
    My testimony today will focus on economic development. 
Specifically, I have three recommendations for the Committee to 
consider as it reviews the FY 2014 request. The Colville Tribes 
consulted with the Affiliated Tribes of Northwest Indians (ATNI) in 
preparing this testimony to provide the Committee with a regional 
perspective on these issues.
Background on the Colville Tribes
    First, I would like to provide some background on my people and our 
land. Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is, as the name states, a 
confederation of twelve aboriginal tribes and bands from all across the 
plateau region of the Northwest and extending into Canada. The present-
day Colville Reservation encompasses approximately 1.4 million acres 
and is located in north-central Washington State. The Colville Tribes 
has more than 9,500 enrolled members, making it one of the largest 
Indian tribes in the Pacific Northwest. About half of the CCT's members 
live on or near the Colville Reservation, which has more than 800,000 
acres of forest land. Forestry and wood products have been the CCT's 
traditional sources of revenue.
The FY 2014 Request and Economic Development
    I want to acknowledge at the outset that almost every federal 
Indian program has historically been underfunded. The current budget 
climate and the imposition of sequestration for the current fiscal year 
have only made a bad situation worse. Unlike other federal spending, 
funding for Indian programs provides tangible services like health 
care, law enforcement, and housing to tribal communities. I believe I 
can speak for most tribal leaders when I say that prioritizing these 
activities is an impossible task because to rank one above another 
would imply that reductions to some Indian programs are somehow 
acceptable.
    This is why facilitating economic development in Indian country 
should go hand in hand with protecting funding levels for Indian 
programs. Vigorous economic development and the creation of new jobs 
will empower Indian country to chart its own destiny. As the Congress 
evaluates the FY 2014 request, the Colville Tribes offers three 
recommendations:
(1) Increase Coordination between Federal Agencies to Maximize Program 
        Resources and Appropriations
    The Federal Government's role in economic development in Indian 
country is not limited to Indian programs at the Department of the 
Interior (DOI). Many other federal agencies outside DOI have economic 
development programs and activities that tribes are eligible for or may 
otherwise participate in. Examples include the Office of Native 
American Programs (Department of Housing and Urban Development), Rural 
Development (Department of Agriculture), the Economic Development 
Administration (Department of Commerce), and several programs within 
the Department of Energy, to name a few.
    Too often, however, these programs are underutilized by Indian 
country because they are decentralized, buried within other programs, 
or simply not effectively promoted. For example, the Bureau of Indian 
Affairs (BIA) administers the Indian Guaranteed Loan Program, a 
successful program that has allowed Indian tribes and Indian 
enterprises to obtain financing for commercial development. This 
program makes efficient use of its funds, with the demand for loan 
guarantees under this program routinely exceeding available 
appropriations. The FY 2014 request includes $5 million for this 
program, a $2 million decrease from FY 2012 enacted levels.
    In contrast, the FY 2014 request includes $741 million for the 
Business and Industry Guaranteed Loan Program administered by USDA 
Rural Development. Indian tribes and tribal enterprises are among the 
entities eligible for loan guarantees under this program. Despite the 
high level of interest in the BIA Guaranteed Loan Program, this and 
other USDA programs are often overlooked because they are not 
considered ``Indian'' programs.
    In the current budget climate, we believe that existing resources 
for economic development can be leveraged and maximized with more 
formal coordination between federal agencies. This type of coordination 
should also extend to other program activities that straddle different 
executive branch departments.
    For example, there is a constant need for additional funding for 
the Criminal Investigations and Police Services account within the 
BIA's budget, which funds tribal and BIA police officer salaries. There 
are occasions when there is only a single tribal officer on duty for 
the entire 1.4-million-acre Colville Reservation. Repeated requests by 
the Colville Tribes to renegotiate its law enforcement 638 contract 
with the BIA have been rejected because of the lack of additional base 
funding. We understand that the BIA and the Department of Justice have 
begun to communicate on these issues, and we are hopeful that these two 
agencies can coordinate their respective resources to ensure that as 
much money as possible from both departments is available for tribal 
officer salaries.
    I would be remiss if I did not mention that, in the Colville 
Tribes' view, DOI's Office of Indian Energy and Economic Development 
(OIEED) has proven to be a positive example of a federal agency 
consolidating economic development functions in a single program. Over 
the years the Colville Tribes has utilized this program for technical 
assistance, grants, and capacity building as we have planned and 
developed renewable energy projects. The Colville Tribes is pleased to 
see that the FY 2014 request includes an increase for OIEED 
specifically for tribal energy development activities.
(2) Continue Promoting Legislation that Streamlines Administrative 
        Processes and Eliminates Burdensome Regulations
    Tribes face a number of barriers in persuading outside investors to 
do business in Indian country. As a result, Indian tribes in remote 
areas are often the largest employers in their geographic region. The 
Colville Tribes, together with our affiliated enterprises, are 
collectively one of the largest employers in north-central Washington 
State. Still, businesses are often hesitant to locate their operations 
on Indian lands because of the administrative burdens, both real and 
perceived, that accompany federal approval requirements applicable to 
many activities on Indian land.
    Last year Congress enacted the HEARTH Act, which allows Indian 
tribes to develop tribal leasing regulations and to enter into leases 
with third parties under those regulations without the need for BIA 
approval. The HEARTH Act recognizes the policy of self-determination by 
respecting tribes and trusting their judgments on the types of leases 
they believe can be appropriately expedited and those that should 
proceed through the existing BIA approval process.
    The HEARTH Act proceeded through this Committee and was the only 
Indian bill of general applicability to become law in the last 
Congress. This Committee can play a key role by continuing to promote 
legislation like the HEARTH Act that streamlines administrative 
processes and eliminates outdated requirements.
    In that regard, the Colville Tribes is very encouraged that 
Chairwoman Cantwell and Vice-Chairman Barrasso are working to develop 
Indian energy legislation for re-introduction in this Congress. Last 
year the Colville Tribes and ATNI and its member tribes strongly 
supported S.1684, the Indian Tribal Energy Development and Self-
Determination Act Amendments of 2012. We are particularly supportive of 
the Tribal Biomass Demonstration Project provisions, which could enable 
us to secure financing for a planned biomass facility on the Colville 
Reservation. We look forward to working with the Committee on this 
important legislation with an eye on enactment this calendar year.
(3) Structural Reforms as a Means to Promote Economic Development
    As the Committee is aware, deliberations are underway in both 
chambers to overhaul the Internal Revenue Code (IRC). Indian tribes and 
individual Indians have much at stake in any broad tax reform 
initiative. For example, various provisions of the IRC fail to treat 
Indian tribes like other governments, such as providing the ability to 
issue tax-exempt bonds to the same extent that state and local 
governments can.
    Other IRC provisions valued by the private sector need to be made 
permanent to improve their usefulness. The accelerated depreciation and 
Indian employment tax credit provisions are examples of IRC provisions 
that are underutilized because Congress extends them only on a year-to-
year basis, if at all. Quite simply, because a would-be investor cannot 
count on these provisions being renewed prior to a deal closing, they 
are simply not factored into a given transaction. We encourage this 
Committee to collaborate with the Senate Finance Committee and other 
committees of jurisdiction and to advocate for these and other tax 
provisions that will encourage investment in Indian country.
    Apart from taxation, there are other structural reforms that would 
promote economic development. One of them is the Indian Trust Asset 
Reform Act of 2013 (S.165, and its House counterpart, H.R. 409), which 
was introduced by Senator Mike Crapo and has been referred to this 
Committee. This bill would establish a voluntary mechanism for Indian 
tribes to prioritize the management and funding of their trust assets. 
It would authorize Indian tribes with natural resources like timber and 
agriculture to direct the management of these resources to achieve 
tribally focused objectives. These objectives might include managing 
forests in a manner to maximize fair market value or, on the other 
hand, rendering forested areas off-limits to encourage off-reservation 
tourism. Most of the text of S.165 was drafted by this Committee's 
staff in the 109th Congress after extensive outreach to Indian country. 
The ATNI Trust Reform Committee updated the bill last fall and ATNI 
enacted a resolution endorsing it at its 2012 annual conference. We 
hope the Committee will swiftly take it up in the weeks ahead.
    I appreciate the Committee's consideration of this testimony and 
the Colville Tribes looks forward to working with the Committee on 
these and other issues. At this time I would be happy to answer any 
questions the members of the Committee may have.

    The Chairwoman. Thank you very much. And last, but not 
least, Mr. Miller. Thank you very much for being here.

STATEMENT OF LLOYD B. MILLER, COUNSEL, NATIONAL TRIBAL CONTRACT 
                     SUPPORT COST COALITION

    Mr. Miller. Thank you, Chairwoman Cantwell, Vice Chairman 
Barrasso, Senator Begich and distinguished Member of the 
Committee.
    My name is Lloyd Miller and today I appear on behalf of the 
National Tribal Contract Support Cost Coalition. This is a 
coalition that represents 250 tribes across 11 States 
administering $400 million in self determination contracts and 
self governance compacts. It includes the Northwest Portland 
Area Indian Health Board and many Northwest, Midwest and Alaska 
tribes.
    Let me get right to the point. The Administration's budget 
proposal regarding contract support costs asks Congress to 
surrender its lawmaking function, in particular its Article 1 
appropriations power, to the Indian Health Service and the 
Bureau of Indian Affairs.
    Once Congress enacts a final bulk appropriation, once every 
Member of Congress has had an opportunity to read the 
appropriation, only after that appropriation is signed by the 
President would the agencies then submit tables which the 
agencies propose would then have the force of law without any 
Congressman, without any Congresswoman, without any Member of 
the Senate every having read that table, never having vetted 
that table before this Committee. That is a usurpation of the 
Congress' power to appropriate funds.
    This is an unprecedented and truly shocking overreaction to 
the Supreme Court's decision in the Ramah case. I know this 
because I was co-class council in the Ramah case. I still am 
today.
    The Supreme Court in that case said something quite simple. 
It said `'Consistent with long-standing principles of 
Government Contract Law, we hold that the Government must pay 
each tribes contract support costs in full.'` One of those 
long-standing principles of contract law is this. When a 
contractor, any contractor, an Indian contractor, does a job, 
the contractor is entitled to be paid. That is it. And if they 
are not paid, they are entitled to recover damages if they 
choose to file the lawsuit.
    The Administration's proposal is an extraordinary 
overreaction to this very ordinary rule of law. Instead of 
trying to comply with the law, the Administration proposes to 
change the law.
    First, it was developed under a complete veil of secrecy. 
There was absolutely no tribal consultation with the tribes 
that administer 60 percent of the Indian Health Service and 55 
percent of the Bureau of Indian Affairs, tribes that are 
running these programs under contracts.
    I hasten to add that if the Sisters of Providence were 
operating Indian Health Service hospitals, IHS would not dare 
underpay the Sisters of Providence for the cost of running that 
hospital.
    If the Corrections Corporation of America were running the 
BIA detention facilities on our reservations, the BIA would not 
dare underpay the Corrections Corporation of America for the 
cost of running that jail.
    But when it comes to Indian contractors, somehow that is 
just fine.
    Madam Chair, Senator Inouye called attention to this in a 
1987 hearing and he said this will stop and the 1988 amendments 
were crafted in order to stop precisely this action.
    The National Contract Support Cost Coalition offers five 
recommendations to the Committee.
    First, Congress should reject the Administration's proposed 
rewriting of the appropriations act.
    Second, Congress should reject all caps on contract support 
cost payments and return to the situation that existed in 1997 
and before then. It is clear that IHS and the BIA thought that 
the caps protected the U.S. States from liability and protected 
them from having to budget to pay the contracts they award. It 
turns out not to be so. The caps do not work. The caps should 
be eliminated.
    Third, Congress should direct the Administration to engage 
tribes in true government-to-government consultation. This will 
take some time. As the President of NCAI mentioned, this cannot 
be done before the 2015 Budget process is completed and 
submitted to Congress because that is only a couple of months 
away before that process starts to close. So, it will take more 
time than that. It should involve NCAI, it should involve 
tribal experts. And proposals should only go to an 
appropriations committee if they have been vetted by this 
Committee.
    Fourth, Congress should force the disclosure of IHS data. 
The Director of the Indian Health Service testified earlier 
that the 2012 report is almost ready. It was due a year ago. It 
is the 2012 report about 2011 data. It was due a year ago. Why 
is it not here?
    And lastly, Congress should demand that the annual budget 
of the President include the full estimated costs of running 
these contracts. Congress routinely did that, excuse me, the 
President routinely did that until 2010 and stopped doing it 
thereafter. Only thanks to the questioning of this Committee 
did we hear today the answer from the Indian Health Service on 
how much they expect contracts to cost post-sequester.
    By any measure, the Indian Self-Determination Act has been 
a stunning success, most importantly, of course, to the Indian 
citizens served but also for the tremendous growth and 
maturation of the tribal administrations across Indian Country. 
Now is not the time to adopt changes that will inevitably drive 
tribes to retrocede their programs back to the Government and 
turn back the clock on the absolutely most successful Federal 
Indian policy every adopted by Congress.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Miller follows:]

    Prepared Statement of Lloyd B. Miller, Counsel, National Tribal 
                    Contract Support Cost Coalition
    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Miller and Munson, LLP. I appear here today 
as counsel to the National Tribal Contract Support Cost Coalition. The 
Coalition is comprised of 20 Tribes and tribal organizations situated 
in 11 States and collectively operating contracts to administer $400 
million in IHS and BIA services on behalf of over 250 Native American 
Tribes. \1\ Its work is devoted exclusively to matters pertaining to 
contract support costs, and, as this Committee is well aware, the 
payment of contract support costs is essential to the proper 
administration of federal contracts awarded under the Indian Self-
Determination Act.
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the: Alaska Native Tribal Health 
Consortium (AK), Arctic Slope Native Association (AK), Central Council 
of the Tlingit & Haida Indian Tribes (AK), Cherokee Nation (OK), 
Chippewa Cree Tribe of the Rocky Boy's Reservation (MT), Choctaw Nation 
(OK), Confederated Salish and Kootenai Tribes (MT), Copper River Native 
Association (AK), Forest County Potawatomi Community (WI), Kodiak Area 
Native Association (AK), Little River Band of Ottawa Indians (MI), 
Pueblo of Zuni (NM), Riverside-San Bernardino County Indian Health 
(CA), Shoshone Bannock Tribes (ID), Shoshone-Paiute Tribes (ID, NV), 
SouthEast Alaska Regional Health Consortium (AK), Spirit Lake Tribe 
(ND), Tanana Chiefs Conference (AK), Yukon-Kuskokwim Health Corporation 
(AK), and the Northwest Portland Area Indian Health Board (43 Tribes in 
ID, WA, OR).
---------------------------------------------------------------------------
    In 1988 former Chairman Inouye noted that no single enactment has 
had a more profound effect on more tribal communities than has the 
Indian Self-Determination Act, and no issue was more critical to its 
success than the payment of contract support costs. Today we celebrate 
the fact that, over the course of nearly four decades, Tribes and 
inter-tribal organizations have taken over control of vast portions of 
the Bureau of Indian Affairs and the Indian Health Service, including 
Federal Government functions in the areas of health care, education, 
law enforcement and land and natural resource protection. Today, not a 
single Tribe in the United States is without at least one self-
determination contract with the IHS and BIA. Collectively, the Tribes 
administer some $2.8 billion in essential Federal Government functions, 
employing an estimated 35,000 people. Contract support cost issues thus 
touch every Tribe in the United States.
    In 1988 this Committee enacted Public Law 100-472, eliminating any 
possible doubt that self-determination contracts are fully enforceable 
under the Contract Disputes Act. The Committee did so by adding Section 
110 to the Indian Self-Determination Act. In one hearing on this issue, 
Senator Inouye pointedly noted how the agencies historically had failed 
to treat tribal contractors on a par with other contractors, and he 
vowed to press on with amendments which would guarantee real remedies 
for real contracts. In making this historic change, the Committee 
explained it was overruling contrary court decisions like Busby School 
of the Northern Cheyenne Tribe v. United States, 8 Cl. Ct. 596 (1985), 
which had treated these contracts as if they were mere discretionary 
grants and, on that basis, had denied a Tribe the right to any damages 
for the agency's failure to pay full contract support costs. S. Rep. 
No. 100-274, at 34-35 (1987) (discussing Busby).
    Last year the Supreme Court once again vindicated this Committee's 
actions, agreeing that, ``[c]onsistent with longstanding principles of 
Government contracting law, we hold that the Government must pay each 
tribe's contract support costs in full.'' Salazar v. Ramah Navajo 
Chapter, 132 S. Ct. 2181, 2186 (2012) (discussing and reaffirming 
Cherokee Nation v. Leavitt, 543 U.S. 631 (2005)). The Court emphasized 
that ``the Government's obligation to pay contract support costs should 
be treated as an ordinary contract promise.'' Id. at 2188. Two months 
later, the U.S. Court of Appeals for the Federal Circuit applied this 
ruling to the Indian Health Service, concluding that ``[t]he Secretary 
[was] obligated to pay all of ASNA's contract support costs for fiscal 
years 1999 and 2000.'' Arctic Slope Native Ass'n, Ltd. v. Sebelius, No. 
2010-1013, Order at 6, 2012 WL 3599217 (Fed. Cir. Aug. 22, 2012). In 
short, it is today beyond any reasonable debate that the payment of 
contract support costs is a binding contractual obligation due all 
Tribes that operate BIA and IHS contracts.
    In its FY 2014 Budget, I am saddened to say that the Administration 
has not embraced the rule of law; it has instead sought to change it.
    Second, the Administration has proposed a statutory ``amendment 
appropriation,'' seeking to cut off all future contract rights. It has 
done this by proposing to give legal effect to a ``table'' which each 
Secretary would someday provide to the appropriators, specifying the 
maximum amount each tribal contractor would be entitled to be paid. 
Since each tribal contract is ``subject to the availability of 
appropriations,'' the Administration hopes this language will limit 
what is ``available'' to the amount in the ``table.'' The 
Administration does not propose that a Tribe cut back on its 
administration of a contracted hospital or clinic, or a police 
department or detention center. The Administration only proposes to cut 
off what the government would pay a Tribe to provide those services.
    This is an extreme and unwarranted overreaction by the 
Administration to another loss in the courts. But it is not surprising. 
For years the agencies have kept their heads in the sand about their 
contract obligations to the Tribes. They have acted as if these 
contracts were just another program to be balanced against other 
programs or activities the agencies felt were important to prioritize, 
including protecting and growing their internal bureaucracies. They 
have treated these self-determination contracts as second-class 
contracts, and the Indian Tribes as second-class contractors.
    They would never behave in this fashion if an IHS hospital were 
contracted out to Sisters of Providence, or a BIA detention center were 
contracted out to the Corrections Corporation of America. Yet they find 
it perfectly acceptable to do so when the contract is with an Indian 
Tribe.
    What is perhaps most striking is that the Administration has 
proposed converting these contracts into second-class contracts only 
months after the Supreme Court declared these to be ``ordinary contract 
promise[s]'' which must be paid in full. It is not honorable--indeed, 
it is discriminatory--for the Administration now to propose a special 
limitation applicable to Indian contracts only. I am also concerned 
that it may be confiscatory, and thus unconstitutional under the Fifth 
Amendment, as well as improper under the Appropriations Clause, because 
the proposed amendment essentially tells the Tribes they must do their 
contracted work and must accept less-than-full payment, to be set at 
the agency's whim and with no recourse.
    It is, of course, the ``no recourse'' aspect of this new idea that 
is most troubling. For over 120 years it has been bedrock law that if 
the government cannot, or will not, pay a contractor, the contractor 
has recourse through the courts. Ferris v. United States, 27 Ct. Cl. 
542, 546 (1892). If an overall appropriation is capped (as has been the 
case with contract support costs), there is always recourse in the 
courts for those tribal contractors who suffer underpayments.
    A judicial remedy for any underpayment permits a cap to withstand 
legal, and constitutional, scrutiny. But once that relief valve is shut 
off, the risk of unconstitutional action rises. In Cherokee Nation v. 
Leavitt, the Supreme Court warned that ``[a] statute that retroactively 
repudiates the Government's contractual obligation may violate the 
Constitution.'' 543 U.S. 631, 646 (2005). The Court also warned against 
the ``practical disadvantages flowing from governmental repudiation.'' 
Id.
    Consider what it is the Administration is actually proposing. The 
Administration is not proposing that the Appropriations Act include a 
line-item specifying the maximum amount of funding available to pay a 
given contractor. That is what occurred in Sutton v. United States, 256 
U.S. 575 (1921), and that is one of the options the Supreme Court 
described in Ramah, 132 S. Ct. at 2195 (``Congress could elect to make 
line-item appropriations, allocating funds to cover tribes' contract 
support costs on a contractor-by-contractor basis.''). Instead, the 
Administration is proposing that the agencies, and not Congress, will 
specify how much each Tribe would be paid--but just in contract support 
costs--and the agencies would do so only after the contract support 
cost appropriation is enacted, and after the agencies have made an 
assessment about how they wish to divide up that appropriation. They 
would do all this long after the Tribes had signed their contracts, 
long after the Tribes had substantially performed those contracts, and 
long after the Tribes had incurred costs carrying out those contracts.
    In essence, the Administration proposes that a Tribe should 
contract to run a hospital, clinic or detention center for a full year, 
but that if any shortfall occurs in the required administrative costs--
costs that the government, itself, set in the first place--then the 
Tribe must somehow contribute the unpaid balance. That sort of forced 
volunteer services may well violate the Appropriations Clause, by 
effectively taking away from Congress the power to regulate spending on 
federal projects. Serious constitutional problems are also implicated 
when the agency makes an after-the-fact determination that the 
government is not going to pay for services rendered. These are 
certainly not the straightforward ``line-item appropriations'' that the 
Supreme Court said were possible if Congress wanted to limit the 
government's exposure for contract damages.
    For the foregoing reasons, the National Tribal Contract Support 
Cost Coalition respectfully urges this Committee to recommend that the 
Senate Appropriations Committee reject the Administration's effort to 
radically alter both the structure of the annual appropriations bill 
and the fundamental nature of Indian Self-Determination Act contracts. 
If a sea change in federal Indian policy is to be considered by 
Congress, and if the change potentially implicates issues of 
constitutional dimension, due deliberation should begin with this 
Committee. Such changes should not be worked through stealth amendments 
made to appropriations laws.
    I testified earlier today before the House Appropriations 
Subcommittee and offered the following five recommendations which we 
also hope this Committee will consider forwarding to the Senate 
Appropriations Committee:

        1. Congress should reject the Administration's proposed 
        restructuring of the annual appropriations Acts.

        2. Congress should either eliminate the current earmarking caps 
        on contract support cost payments (as was the case with the IHS 
        appropriation until FY 1998, and with the BIA until FY 1994), 
        or raise the IHS cap to $617 million and the BIA cap to $242 
        million. But whatever funding levels end up being fixed in the 
        bill, Congress should not deny Indian Tribes the very same 
        contract remedies that every other government contractor 
        possesses; which the Supreme Court in the Ramah and Cherokee 
        cases confirmed protect Indian contractors, too; and which this 
        Committee put into law 25 years ago.

        3. The Administration should be directed to engage Tribes in 
        true and thoughtful government-to-government consultation, 
        consistent with President Obama's November 5, 2009 Memorandum 
        directing full implementation of Executive Order 13175 
        (``Consultation and Coordination with Indian Tribal 
        Governments''), 65 Fed. Reg. 67,249 (2000). In so doing, we 
        recommended that the Administration also be directed to work 
        with the National Congress of American Indians, impacted tribal 
        organizations, and experts in the field. We explained that if 
        legislative changes are jointly deemed necessary, the goal 
        should be the development of a joint federal-tribal proposal. 
        To assure full and adequate consultation, we also urged that 
        the Administration be directed not to bring any proposal back 
        to the Appropriations Committees sooner than the FY 2016 
        appropriations cycle, to be sure that any federal-tribal 
        proposal has been fully vetted in advance with this Committee 
        and the House Natural Resources Committee.

        4. On a related topic, the Coalition requested the 
        Subcommittee's assistance in forcing the disclosure of IHS data 
        which the Secretary has failed to share with Congress and the 
        Tribes, contrary to federal law. Section 106(c) of the Indian 
        Self-Determination Act requires that an annual shortfall report 
        on past and anticipated contract underpayments be delivered to 
        Congress by May 15. The IHS report on FY 2011 data--two year 
        old data--has still not been submitted to Congress. The 2009 
        and 2010 Reports were only submitted last Fall, the former 
        report having thus been submitted three years late.
        Without accurate data, this Committee cannot perform its 
        constitutional oversight function. Without accurate data on 
        appropriations expenditures, the appropriations committees 
        cannot perform their constitutional function. And without 
        accurate data, Tribes cannot know what the agencies are doing 
        with their contract funds. To be clear, all of these contract 
        support cost funds belong to the Tribes. They are not the 
        agencies to keep and spend for themselves. The agencies 
        therefore have a special duty to account promptly and fully on 
        how the Tribes' funds have been spent.
        Since the agencies routinely invoke the ``deliberative process 
        privilege'' under 5 U.S.C.  552(b)(5) to resist disclosure, we 
        requested the insertion of language waiving that provision for 
        all CSC data not disclosed on or before May 15. Past data 
        errors are a reason to disclose data, not to keep data secret 
        long until after it is useful. The recent withholding of CSC 
        payment data must stop.

        5. Finally, we noted that the President's Budget now routinely 
        omits any mention of the total projected amounts required for 
        IHS and BIA contract payments. Until the FY 2011 Budget, such 
        projections were routinely included in the Budget narrative. 
        The Coalition asked that the Subcommittee direct the 
        Secretaries to include this data in future Budget submissions, 
        so that it is plain from the face of the Budget precisely how 
        well--or how badly--the agencies are proposing to honor their 
        contractual commitments to the Tribes.

    By any measure, the Indian Self-Determination Act has been a 
stunning success, most importantly for the Indian citizens served, but 
also in the strengthening and maturing of modern tribal government 
institutions. This Committee has had everything to do with bringing 
about the conditions necessary for that success. Now is not the time to 
adopt changes that will inevitably drive Tribes to retrocede their 
contracted activities to the Federal Government, turning back the clock 
on the most successful initiative the United States has ever launched 
in Indian affairs. And it is certainly not the time to do so through 
stealth appropriations initiatives which are not first aired fully 
before this Committee.
    This Committee wrote the Indian Self-Determination Act, and it is 
for this Committee, alone, to decide whether circumstances warrant 
weakening its protections for Indian Tribes.
    It is a rare privilege to appear here today. On behalf of the over 
250 federally-recognized Tribes represented by the National Tribal 
Contract Support Cost Coalition, I humbly thank the Committee for this 
opportunity to testify on the Administration's proposed FY 2014 Budget.

    The Chairwoman. Thank you, Mr. Miller. And I thank all of 
the witnesses today.
    I wanted to start with you, Mr. Keel. There is one thing we 
really did not really hear of about in detail. Well, we heard a 
little bit about economic development but part of the 
Administration's proposal is making sure that we fix the land 
into trust, a Carcieri decision. Can you talk about what you 
think that means for economic development in various parts of 
Indian Country across the Nation?
    Mr. Keel. Absolutely. Thank you, Madam Chair, for that 
question. Taking land into trust is absolutely critical to the 
Indian tribes, not just for economic development but for 
housing, for a lot of other reasons. But economic development, 
there are arguments about whether or not a parcel of land taken 
into the trust comes off of the tax roles of the county or 
local State tax roles. But the benefit to development of say 
one acre of land, if you put a business there that creates jobs 
then that totally overshadows the loss of a few tax dollars to 
that local area.
    But in particular it is more a matter of principle. The 
Supreme Court's decision was made, actually contained a 
statement in error, we believe, and needs to be fixed so that 
the tribes do not have to worry and be concerned about whether 
or not the Secretary of the Interior can take land into trust 
for any tribe.
    The Chairwoman. Thank you. Thank you.
    Ms. Abramson, you mentioned in your testimony the idea of 
forward funding, something that the Department of Veterans 
Services does. How does that help us deliver services in Indian 
Health Service?
    Ms. Abramson. Excuse me, what was that?
    The Chairwoman. Forward funding.
    Ms. Abramson. Forward funding?
    The Chairwoman. Okay, maybe that was not in your testimony.
    [Laughter.]
    Ms. Abramson. No. Sorry.
    The Chairwoman. One of the issues is, obviously, making 
sure that we get a medical home and one of the things that you 
mentioned were how much the cutbacks were already impacting 
Indian Country right now, particularly in the area of mental 
health and mental health services.
    Ms. Abramson. Yes.
    The Chairwoman. So, what do you think that Indian Health 
Services needs to do to adequately assess the need out there 
for mental health services?
    Ms. Abramson. Well, obviously we need more funding and it 
needs to, I believe that tribes have given consultation, we 
give recommendations for budgets and IHS just obviously needs 
to request more funding so that we can go ahead and provide 
those services.
    The Chairwoman. But do you think there is an accurate 
assessment of what is going on? Your statistics are shocking, 
on the number of suicides.
    Ms. Abramson. Yes. And this is coming from our tribes. We 
are gathering information from our various tribes so that they 
can tell our stories. And this is what NIHB is working along 
with NCAI, gathering information so we can tell our stories. We 
are going to continue to do that so that you can hear from us 
just exactly what is coming from us.
    The Chairwoman. Thank you.
    Mr. Miller, you, being intimately being involved in this 
overall effort, do you have a suggestion on what a solution 
would be to this issue on contract funding?
    Mr. Miller. Well, first of all I think, as I mentioned in 
the testimony, it is important to remove the caps. The caps are 
really a vestige of history. They were placed there at the 
request of the agencies to try to protect them from liability. 
It is time to remove them.
    Now, once that is done, the agency can make its own choice 
about whether it pays its contracts just like people every day 
make a choice about whether they pay their bills. If the agency 
does not pay its contracts, the remedies that this Committee 
provided in Section 110 of the Act needs to stay in place. 
There needs to be a remedy for those tribes who suffer severe 
enough impacts due to underpayments that they are persuaded to 
file an action against the United States in the court of law. 
That is how we deal with contractors.
    I do think in the long term there needs to be a planning 
process. We cannot have a situation where the contract support 
cost budget within the Indian Health Service is anywhere 
between $100 and $160 million depending on whose math you use, 
whether it is on the sequester, the 2012 level, whether is it 
the 2014 level or the sequester.
    I have heard a lot of numbers here today and all three 
numbers can be explained. It is madness. It needs to be a 
coherent projection provided to the Congress, this Committee 
and your counterpart in the Senate Appropriations Committee, 
and then we need to have a plan to close the gap. It is time to 
comply with the law and stop fooling around.
    The Chairwoman. Thank you. Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chairwoman. I had a 
series of questions but they have been so well-addressed in the 
comments by the testimony regarding the Indian Self-
Determination Act. And the shortfalls that, I have as high as 
$160 million for Indian Health Service and $22 million for the 
Bureau of Indian Affairs contracts, I think you clearly, you 
know, the reference to the Sisters of Providence, I mean that 
was----
    [Laughter.]
    Senator Barrasso. That was good.
    The Chairwoman. I wanted to say, you know, I am sure there 
are times here that I do not want to pay my Pepco bill but that 
is not the luxury you get. You know, you have got to pay. Okay? 
So, you can complain about service but it is the same. It is a 
contract.
    Senator Barrasso. Yes. I did have a question for Mr. 
Sirois, and thank you for your comments about the HEARTH Act 
that we worked closely together on in a bipartisan way, our 
efforts on energy which we continue to work on.
    There are a number of natural resource management programs 
within the Bureau of Indian Affairs. These programs have 
received some of the larger increases in the Fiscal Year 2014 
Proposed Budget. And I wonder how those will assist, you know, 
your tribal economy as you talked about economic development.
    Mr. Sirois. Thank you, Vice Chair. There is a number of 
different ways. You know, we are really grateful that there is 
some increases in those funding. We are really tied to the 
forest as well as looking at irrigation for farming.
    The hazardous fuels reduction within our forest is one 
example that really is going to benefit not just the forest, 
but it is going to put people back to work. When the lumber 
market went down about four years ago, we lost about 400 jobs 
in our community and those are, you know, families, 400 
families that lost their main source of income. So, putting 
some of those people back to work is a huge benefit.
    Senator Barrasso. Your written testimony noted that there 
are occasions when there is only a single tribal law 
enforcement officer on duty for, you know, a 1.4 million acre 
reservation. We have a similar situation in Wyoming.
    I know that your repeated requests to renegotiate the 
tribal law enforcement contract with the Bureau have been 
rejected, I think because of a lack of additional base funding. 
Do you think that the base funding allocation method needs to 
be changed, and do you know of other tribes that have the same 
difficulties with the BIA?
    Mr. Sirois. Certainly. There have been a number of 
different tribes that have had this problem. And I think, 
looking at law enforcement, especially for large areas like 
ours, you know, our original reservation is 1.4 million acres, 
our ceded reservation that goes to the Canadian border is 
another 1.5 million. So, we have our natural resources officers 
patrolling those areas as well. So, it can be a real challenge 
trying to address drug traffic that is coming down through BC 
to, you know, a whole host of things that are going on.
    I know that a number of other tribes, especially in the 
Northwest, are having those same problems. Getting enough 
officers to provide that protection for the community to enact 
something that we fully supported and pushed for was the 
Violence Against Women reauthorization. We cannot implement it 
if we do not have the officers on the ground.
    So, it is so important, that part, looking at some way to 
address that formula would be really helpful.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairwoman.
    The Chairwoman. Well, I want to thank all of the witnesses 
for their testimony today. And obviously we have a lot of work 
to do here on overall budget agreement within Congress and 
certainly from this member's perspective do not want to see the 
continuation of sequestration but a more strategic approach.
    Mr. Sirois, I very much appreciate your perspective today 
of saying let us make sure that we are getting efficiencies out 
of this program and coordinate and consolidate where possible 
as a way to save. So, I very much appreciate that.
    But for Indian Country, we definitely want to get these 
issues addressed and, Mr. Miller, I think you said it best. 
This should not be about everybody having a different number or 
proposal. We should all look at the same impact and make sure 
we are describing the same impact and I think that would be 
certainly helpful for members to understand exactly how these 
proposals work.
    And we have the same situation with housing where I felt 
like we, you know, had one witness and testimony about how 
there are all these great programs and then you know the fate 
that in Indian Country it is not that way. So, I feel like the 
same thing on school construction.
    So, if we can get some common ground on data, we might 
actually get some common ground on solutions.
    Anyway, we are adjourned. Thank you all.
    [Whereupon, at 4:17 p.m., the Committee was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. W. Ron Allen, Tribal Chairman/CEO, Jamestown 
                            S'Klallam Tribe
    My name is W. Ron Allen and I am the Tribal Chairman and Chief 
Executive Officer of the Jamestown S'Klallam Tribe, located in 
Washington State. The focus of my testimony is the need for Congress to 
address the chronic underfunding of the Indian Health Service (IHS) 
Contract Support Costs ($617 million total), the Bureau of Indian 
Affairs (BIA) Contract Support Costs ($242 million total) and to reject 
the Administration's proposal to limit recovery of contract support 
costs.
    The U.S. Supreme Court recently affirmed that Tribes carrying out 
federal programs under the Indian Self Determination and Education 
Assistance Act (ISDEAA) are entitled to full payment of their contract 
support costs. Tribes are entitled to be paid what the statute and 
contract promised and to be treated on an equal basis with every other 
federal contractor. Despite the Supreme Court decision, the Bureau of 
Indian Affairs and Indian Health Service have refused to negotiate in 
good faith with the Tribes to reach a final resolution of this issue 
which has been ongoing for the past twenty years. To further exasperate 
the situation, the President's FY 2014 Budget Request will 
fundamentally alter the nature of Tribal Self-Governance by imposing 
individual statutory caps on the payment of Tribal contract support 
costs. The Jamestown S'Klallam Tribe opposes the Administration's 
unilateral proposal, in its FY 2014 budget request.
    Contract support cost funding is essential to the operation of 
contracted federal programs administered under federally issued 
indirect cost rate agreements. No change of such a fundamental 
character should be implemented until there has been a thorough 
consultation and study process jointly undertaken by the Indian Health 
Service (IHS), the Bureau of Indian Affairs (BIA), and tribal leaders, 
informed by a joint technical working group and coordinated through 
NCAI. Such a consultation process must be scheduled to permit 
opportunity for full tribal participation. While we firmly believe that 
overall statutory caps on contract support costs should be eliminated, 
at the very least Congress should maintain in FY 2014 and FY 2015 the 
status quo statutory language enacted in FY 2013 so that tribally-
developed changes in contract support cost funding mechanisms, if any, 
can be included in the FY 2016 Budget.
IHS Contract Support Costs Shortfall
    We appreciate the recent increases provided by Congress for 
Contract Support Costs (CSC) owed to tribes and tribal organizations 
under the Indian Self-Determination and Education Assistance Act 
(ISDEAA) and federal case law. Even so, there remains an ongoing 
shortfall of CSC, which continues to impose significant hardships on us 
and on other tribes/tribal organizations and our ability to provide 
adequate health services to our patients.
    However, the President has proposed only $477,205,000 for IHS CSC, 
far below the estimated need of $617 million. In addition, the 
Administration proposes to limit CSC payments to tribal contractors by 
submitting a list of contractors to the House and Senate Appropriations 
Committees, with recommended, individual appropriations for each 
contractor. This proposed system is wholly unworkable. And--as it is 
created without any input from ISDEAA contractors--we fear the list 
will fail to reflect true CSC needs since the Administration has proven 
itself unable to properly account for contract support costs. The 
simplest and most fair answer is to fully fund tribal contractors' CSC.
    We urge the Congress to reject the President's proposal outright, 
and fully fund IHS contract support costs at $617 million.
BIA Contract Support Costs Shortfall
    The President proposes $230 million for Bureau of Indian Affairs 
contract support costs. This amount is closer to the estimated full 
need of $242 million than the IHS proposal, but still falls short of 
the actual need. Additionally, The President proposes the same system 
to cap BIA CSC as he did for the IHS. The Jamestown S'Klallam Tribe 
rejects this misguided proposal, and urges Congress to fully fund the 
BIA contract support costs at $242 million, which will erase the need 
for the Administration's contortionist attempts to handle CSC 
shortfalls.
Unreleased IHS CSC Shortfall Reports
    IHS must submit CSC shortfall reports to Congress no later than May 
15 of each year, per section 106(c) of the Indian Self-Determination 
and Education Assistance Act (25 U.S.C.  450j-1(c). Yet, the IHS has 
failed to submit CSC shortfall reports for FYs 2011 and 2012. Tribes 
have repeatedly asked the agency to release this data, which is 
critical for our ability to understand the IHS's view of the 
underfunding, and to pursue full payment of CSC, to which the Tribe is 
legally entitled. The IHS has refused to release these reports time and 
again, most recently in March of this year.
    We ask this Committee to direct the IHS to release the shortfall 
data for FYs 2011 and 2012 immediately--and to submit future reports on 
time--as required under the law.
Costs Incurred Approach
    The IHS recently communicated to tribal leaders that it believes 
that the amount due each tribal claimant is limited to CSC ``actually 
incurred'' as opposed to the amount obligated by the contract and 
statute. This approach would punish the Tribe for fiscal prudence in 
the face of CSC underfunding and reward the Government for its chronic 
underfunding of tribal health care. More fundamentally, it treats 
ISDEAA agreements as cost-reimbursable contracts, for which the price 
is determined retrospectively, while the ISDEAA requires that Tribes be 
paid in advance the funds they use to carry out the programs.
    IHS's approach if implemented would be not only unfair and 
inconsistent with the law, but also wasteful of federal and tribal 
resources. Re-auditing every contract is not a rational or efficient 
way to resolve CSC claims, especially since reliable data on CSC 
shortfalls already exists, on a Tribe-by-Tribe basis, in the form of 
IHS's annual reports to Congress. These CSC shortfall reports, required 
by the ISDEAA and certified as accurate by the agency, should provide 
the basis for settlement of past CSC shortfall claims, as Senator 
Begich wrote in a recent letter to President Obama. IHS should be asked 
to explain to the Senate Committee on Indian Affairs why it resists 
using the best available data as the starting point for a fair and 
efficient settlement process.
    The Tribal attorneys have begun discussions with IHS and their 
lawyers about the problems associated with using a cost accounting 
methodology to fairly and rapidly settle these historic claims. We are 
hopeful that those discussions will result in the agency changing its 
mind and returning to using the shortfall reports as starting points 
for negotiations. We hope that a hearing will help the agency move in 
that constructive direction.
Future Resolution
    In Ramah, the Supreme Court described BIA (and IHS) as facing a 
``dilemma'': while the ISDEAA requires full payment of CSC, the annual 
appropriations acts for many years have unjustly ``capped'' aggregate 
CSC spending at levels insufficient to fully fund every tribal 
contractor. Tribes suffering shortfalls can recover the underpayments 
from the Judgment Fund through contract claims against the U.S., but no 
one wants an annual cycle of litigation.
    The amounts needed for full CSC each year can be estimated with a 
fair degree of accuracy, as IHS demonstrated for years, based on the 
previous year's shortfall report and projected program funding. 
Removing this ``caps'' language is a simple way to force the Agency to 
ensure that the full amount necessary to fund CSC is included in the 
administration's budget request.
    For many years IHS followed the practice, required by its CSC 
policy manual, of releasing Tribe-by-Tribe data on direct program 
costs, indirect cost rates, CSC requirements, and CSC shortfalls as the 
agency prepared its shortfall reports for Congress each year. In a 
reversal of this longstanding practice, and in contravention of its own 
policy manual, IHS now states that it will not release this vital 
information until after the final reports are cleared for submission to 
Congress, which can take years. Despite repeated tribal requests--and a 
pending Freedom of Information Act lawsuit--IHS has yet to release data 
for fiscal years 2010, 2011, or 2012. This undermines agency 
transparency and accountability for the expenditure of appropriated 
public funds. The Senate Committee on Indian Affairs should ask IHS why 
the agency no longer follows the practices dictated by the ISDEAA, 
agency policy, and principles of fiscal accountability.
Conclusion
    Thank you for allowing us to provide this testimony. We need the 
involvement of this Committee to help us resolve past CSC claims and to 
move forward to reach resolution in addressing future CSC issues.
                                 ______
                                 
Prepared Statement of Hon. Karen R. Diver, Chairwoman, Fond du Lac Band 
                       of Lake Superior Chippewa
    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. We would like to thank the Committee for inviting 
Tribes to submit testimony on the President's FY 2014 Budget Proposal, 
and for the Committee's commitment to and leadership in seeking to 
address the needs of Indian country. The Fond du Lac Band provides 
health, education, social, public safety and other governmental 
services to approximately 6,700 Indian people living on or near our 
Reservation in northeastern Minnesota. These programs are essential to 
our ability to educate our children, care for our elderly and infirm, 
prevent crime, and protect and manage natural resources. The federal 
funds that are provided through agencies like the Bureau of Indian 
Affairs (BIA) and Indian Health Service (IHS) play a critical role in 
our ability to meet the needs. Because of this, we wish to express our 
deep concerns about the adverse impact of sequestration on our ability 
to provide these basic governmental services. We urge Congress to reach 
solutions on budget matters, and to fully fund the programs that are so 
critical to Indian county so that the most vulnerable communities are 
not hurt and the Federal Government fulfills its trust responsibilities 
to our people.
BIA: Public Safety and Justice and Construction
    We support the President's proposal to increase BIA funding for law 
enforcement as increased funding for law enforcement personnel is 
essential. We also urge Congress to increase funding for BIA 
Construction, as the facility that houses our Law Enforcement 
Department is completely inadequate for that purpose.
Public Safety and Justice
    We continue to face massive unmet needs for law enforcement. We 
provide law enforcement with a combination of tribal and available 
federal funds and cooperative agreements with local law enforcement 
agencies. But methamphetamine, alcohol, illegal prescription drug use, 
and gang-related activity create huge demands on our Law Enforcement 
Department. Recently, we have seen a rather large and fast increase in 
gang activity. The convictions of several Native Mob members in March 
2013 appear to have left a void in gang leaders, so, while gang 
activity has been on the rise over the years, lately gang activity has 
intensified with gang members trying to make names for themselves by 
whatever means necessary. The increase in crime is further illustrated 
by the fact that Fond du Lac had its first homicide since 2000 last 
year which, though not directly gang-related involved gang members and 
drugs. Another homicide occurred in Carlton County near the Reservation 
in 2012 which involved two tribal members and drugs.
    We also face an epidemic in prescription drug abuse. Many of our 
elders and others are the victims of assaults and robberies that are 
drug-related. Our law enforcement officers must respond to a large 
number of drug overdoses and deaths, as well as juvenile offenses 
involving drugs, alcohol, thefts, assaults and burglaries. They also 
respond to a wide range of other matters, for example, reports 
involving domestic disputes, disturbances, disorderly conduct, property 
damage, theft, medical emergencies, fire, neglected children, runaways, 
suicide threats, as well as numerous traffic-related matters. In 2012, 
our Law Enforcement Department responded to close to 5,100 incidents 
and requests for assistance--an increase from 4,900 in 2011.
    To address these problems and ensure effective law enforcement 
coverage 24/7, we need to increase our law enforcement staff but lack 
sufficient funds to do this. We employ 13 patrolmen, 1 investigator, 1 
school resource officer (assigned to the Ojibwe School), a Chief of 
Police, and 3 administrative staff. To the extent possible we schedule 
3 officers per shift, but we do not have sufficient funds to do this 
around the clock. In fact, to effectively patrol the Reservation we 
should have 4 officers working each shift and a second investigator, 
for a total of 20 officers. Fewer officers on duty poses serious safety 
issues for both officers and the people we need to protect. The large 
number of calls for police assistance also means that we need more than 
one investigator.
BIA Construction
    Funding should be increased for BIA Construction. Fond du Lac needs 
a new facility for our law enforcement department. The Department is 
still housed in a 6-room building, which we share with the Band's 
housing program. It has neither room for investigative interviews, nor 
office space for specialty positions such as investigators. The 
evidence room and reception area are all completely inadequate for law 
enforcement purposes and, with the increased number of calls we are 
receiving, are becoming more inadequate each day. A new building with a 
garage, along with a larger evidence room, storage room for record-
keeping, and a training room for officers, is essential.
BIE: Education
    We urge Congress to increase funding for Bureau of Indian Education 
(BIE) Elementary/Secondary School Programs. We rely on BIE funding for 
the operation of the Band's pre-K through grade 12 Ojibwe School which 
serves approximately 340 students most of whom are tribal members or 
descendants of tribal members. Most of our students come from very low 
income households, illustrated by the fact that more than 90 percent of 
our students qualify for free or reduced rate lunches. Although the 
President, in Executive Order 13952 (Dec. 2, 2011) found ``an urgent 
need'' for federal agencies to help improve educational opportunities 
for American Indian students because there has been ``little or no 
progress in closing the achievement gap'' between our students and all 
other students, funding for the BIE Elementary/Secondary School 
Programs is stagnant and seriously under-funded. The modest funding 
increases made in FY2012 have been lost as a result of sequester. This 
is illustrated by the following table:

----------------------------------------------------------------------------------------------------------------
                                                              Tribal
                                                              Grant        School       School        Student
                                                  ISEP       Support      Facility     Facility   Transportation
                                                              Costs      Operations  Maintenance
----------------------------------------------------------------------------------------------------------------
FY08........................................                   $43.373      $56.504      $50.745
FY09........................................        $375.      $43.373      $56.972      $50.745          $50.5
FY10........................................     $391.699      $43.373      $59.410      $50.745        $50.808
FY11........................................     $391.142      $43.373      $59.263      $50.746        $52.798
FY12........................................     $392.306      $46.373      $58.659      $50.746        $52.739
FY13 w/sequester............................       $369.9        $45.8        $55.7        $48.4          $50.3
----------------------------------------------------------------------------------------------------------------
*Numbers in millions

    Applying statute-generated needs formulas, we ask that BIE 
Elementary/Secondary School Program funding be increased as follows:

<bullet> ISEP. Increase ISEP to $479,758,000. ISEP is the primary 
        source of school funding, covering salaries for teachers, 
        teacher aides, and administrative personnel. ISEP is critical 
        to our ability to recruit and retain qualified teachers and to 
        cover shortfalls in other budget areas, such as transportation, 
        facilities and maintenance.

<bullet> Tribal Grant Support Costs (TGSC). Increase TGSC to 
        $67,270,000. TGSC helps pay for accounting, insurance, 
        background checks, legal and record-keeping requirements. 
        Inadequate funding of TGSC forces us to use ISEP and other 
        funds to meet these needs.

<bullet> School Facility Operations and School Facility Maintenance. 
        Increase School Facility Operations to $61,913,000, and School 
        Facility Maintenance to $79,137,000. Such funds keep our 
        building in safe condition, pay for preventative and 
        unscheduled maintenance, and cover insurance and increasing 
        utility costs. Past funding has not kept pace with rising costs 
        or the growing backlog of schools needing repair.

<bullet> Student Transportation. Increase Student Transportation to 
        $56,212,000. This program has been historically underfunded. 
        Without increased funding, the costs to maintain, repair, and 
        replace buses and cover rising fuel costs must be paid from 
        education program funds which are already over-obligated. 
        Located in a rural area, Fond du Lac relies on buses to provide 
        a safe and reliable means to get students safely to and from 
        school.

<bullet> School Construction and Repair. Provide an additional 
        $20,000,000 million for School Construction above current 
        levels to stay ahead of BIE's reported $70,000,000 million 
        annual deterioration rate. BIE reports a $3.4 billion school 
        replacement need. Research studies continue to document a link 
        between inadequate facility conditions and poor performance by 
        students. Not addressing these critical infrastructure needs 
        will only jeopardize student and staff safety.

BIA: Trust--Natural Resources Management
    We very much appreciate the funding for BIA Natural Resource 
programs that Congress has provided in past years and strongly support 
the proposed increase for these programs contained in the President's 
FY 2014 Budget. Natural resources are vitally important to our Tribal 
members. They provide the foundation for our culture, meet subsistence 
needs, and provide employment. The Fond du Lac Band's right to access 
natural resources within and outside our Reservation was reserved by 
Treaties with the United States in 1837, 1842, and 1854 and reaffirmed 
by the courts. In connection with these Treaty rights, the Band is 
responsible for managing natural resources and for enforcing Band 
conservation laws that protect those natural resources by regulating 
Tribal members who hunt, fish and gather those resources both within 
and outside the Reservation.
    Base program funding is essential for that work. Fond du Lac 
routinely partners with state, federal, and tribal organizations to 
conduct research and management activities. We request that $2 million 
be added to our base budget for Resource Management programs, as funds 
for this program have not been increased since 1991. We also request 
that Congress provide funding to BIA Tribal Government account as 
recommended in the President's FY 2014 Budget. This account provides 
Self Governance funding that is vital to the operation of our Forestry, 
Fisheries, Wildlife, and Natural Resources Programs.
    We urge Congress to increase funding for the U.S. Fish and Wildlife 
Service's State and Tribal Wildlife Grant Program, and we support the 
President's proposed funding for Tribal Historic Preservation Offices 
and the EPA Great Lakes Restoration Initiative. Finally, as a member of 
the Great Lakes Indian Fish & Wildlife Commission, the Band supports 
the Commission's request for BIA Great Lakes Area Management funding of 
$7.067 million and EPA funding of $1.2 million to continue its long-
standing treaty rights protection and implementation program on behalf 
of its member Tribes.
BIA: Human Services
    We urge Congress to increase funding for Human Services programs to 
address the impact that the methamphetamine epidemic has on not only 
public health and safety, but also on child protection, child welfare 
and foster care services.
Indian Health Service
    We fully support the President's proposed increase in funding for 
the Indian Health Service and appreciate the commitment that the 
Administration and Congress have made to address the funding needs for 
health care in Indian country. The President's proposed increase is 
essential to address the high rates of medical inflation and the 
substantial unmet need for health care among Indian people. Indians at 
Fond du Lac, like Indians throughout the Nation, continue to face 
disproportionately higher rates of diabetes and its associated 
complications, than the rest of the population. Heart disease, cancer, 
obesity, chemical dependency and mental health problems are also 
prevalent among our people. All Indian tribes should receive 100 
percent of the Level of Need Formula, which is absolutely critical for 
tribes to address the serious and persistent health issues that 
confront our communities. The Band serves over 7,000 Indian people at 
our clinics, but the current funding level meets only 42 percent of our 
health care funding needs.
    As the epidemic of prescription drug abuse grows across the 
country, the IHS needs resources to expand its treatment and community 
education capacity. We are especially disappointed with the Pharma-
driven position SAMHSA has followed for the past several years 
regarding Methadone Assisted Therapy (MAT). Many poorly administered 
MAT programs are pouring unprecedented amounts of cheap, liquid 
Methadone into Indian communities with very destructive results. In 
3013, 2/3rds of the babies delivered by Fond du Lac Nurse-midwives were 
born to Methadone dependent mothers. Research has shown that methadone 
users are cognitively impaired, but no research has been done on 
children born to Methadone users. Meanwhile, thousands of American 
Indians are falling victim to the chemical slavery now sponsored by 
SAMHSA. Additional funding for the Methamphetamine, Suicide Prevention 
Initiative should be made available to tribes and the IHS so that this 
``new sickness'' can be addressed. Best practices in pharmacy inventory 
and prescription monitoring need to be modeled and replicated 
throughout Indian Country. Related to this is the fact that more and 
more government agencies are expecting local units of governments, 
including Tribes, to address these problems and the increasing number 
of individuals who become homeless as a result of them, through the 
operation of supportive housing. But Fond du Lac, like most tribes, 
lacks the financial resources to establish new program initiatives, 
like supportive housing, without assistance from the Federal 
Government. We urge Congress to support programs through the IHS or the 
BIA that would fund supportive housing for tribes in every area of the 
country.
    Miigwech. Thank you.
                                 ______
                                 
Prepared Statement of Hon. Tom Maulson, President, Lac du Flambeau Band 
   of Lake Superior Chippewa Indians Before the House Appropriations 
     Subcommittee on Interior and Related Agencies--April 25, 2013
    My name is Tom Maulson, I am President of the Lac du Flambeau Band 
of Lake Superior Chippewa Indians, located in Wisconsin. I am pleased 
to submit this testimony, which reflects the needs of our Tribal 
members for Fiscal Year 2014. I would like to thank the Subcommittee 
for its leadership and commitment to Tribes and the programs that are 
critical to us.
Sequestration
    We would first like to express our strong objection to 
sequestration of discretionary programs. An across the board sequester 
was proposed not as a sensible policy, but because it was so 
universally viewed as unreasonable that it was expected to spur 
Congress and the President to get together on the budget to make sure 
it never took place. Yet here we are, with a sequester in place for FY 
2013--and likely to continue unless Congress and the President can 
agree otherwise for FY 2014.
    The sequester is terrible policy for the country overall, but it 
has a special impact on tribes. The United States has both Treaty 
obligations and a trust responsibility to Indian tribes. The tribes 
gave up the lands on which this country was built, in return for the 
solemn promises of the United States to protect tribal treaty rights, 
lands and resources and to provide various services to tribal members. 
The United States' promises to the tribes should be kept--and not 
reduced by sequestration. The indiscriminate cuts from sequestration 
harm tribes, as we continue our ongoing effects to promote economic 
growth and build a better future for our children. Tribal programs 
should not be subject to sequestration.
Changes Proposed Regarding Contract Support Costs--For BIA and IHS
    The Lac du Flambeau Band also opposes the Administration's proposal 
for FY 2014 regarding payment of contract support costs. Here again, 
this is a matter of the United States keeping its promises. When a 
tribe enters a contract with the United States under the Self-
Determination Act, the United States promises to pay full contract 
support costs--various costs necessary for the tribe to successfully 
run the program. The courts have held that if the United States does 
not fulfill its promise regarding payment of contract support costs, 
the tribe can file a claim and recover the shortfall. But now, the 
Administration is proposing a new system--which would impose for the 
first time caps for each tribe regarding contract support costs. The 
whole purpose of these new tribal-specific caps is to protect the 
United States from having to pay full contract support costs. The 
effect of this provision would be to make it more difficult for tribes 
that enter contracts or compacts under the Self-Determination Act to 
succeed, and to penalize tribes that wish to enter new contracts or 
compacts. The Administration's proposal should be rejected. Congress 
should fully fund all contract support costs and resolve all prior year 
contract support cost claims.
Indian Health Service
Purchased/Referred Care
    We want to call particular attention to the need for purchased/
referred care (which was previously called contract health care) 
funding, which is a need that we have expressed to the Subcommittee for 
several years. This category of health care funding is so important to 
the basic health and well-being of our communities, where a very 
significant portion of our health care must be referred out. Despite 
its importance, historically this category has been tragically 
underfunded--with funds running out before the year ends. We would like 
to express our appreciation to the Subcommittee for providing increases 
to contract health care funding over the past couple of years, and we 
strongly support the $35 million increase for purchased/referred care 
services proposed for the FY 2014 Budget.
Mental Health
    At Lac du Flambeau there is a rapidly expanding need for resources 
to address a range of mental health problems. Funding has simply failed 
to keep pace with our needs--as our mental health funding remains a 
very small portion of our annual health care funding. We strongly 
support the Administration's proposal to add $4.2 million for Mental 
Health.
Bureau of Indian Affairs
    The Tribe is disappointed that the BIA's proposed budget for FY2014 
is essentially level funding for most programs. The Tribe recognizes 
the difficult fiscal times the Nation is in and thus, is pleased that 
the BIA did not propose decreases to many BIA's programs. The 2014 
Budget does include an initiative called ``horizontal consolidation''--
a $33.5 million cut that would be imposed by reducing BIA personnel at 
the Headquarters, Regional and Agency offices through attrition, 
buyouts and other means. We are concerned that will leave the BIA 
inadequately staffed to meet its trust obligations of the tribes. We 
are seeing this with respect to BIA Natural Resource personnel--as key 
people leave and are not replaced, the level of services to the tribes 
may decline and key tasks may be delayed or omitted entirely. It is 
vital that BIA personnel reductions be undertaken with full tribal 
consultation and sensitivity to the needs of tribes and the BIA's 
ongoing obligations. We urge the Subcommittee to monitor these changes 
carefully.
    Today we want to focus on the funding needs for the BIA Education, 
Public Safety and Natural Resource Programs.
Tribal Education Programs
    Education is a top priority for the Tribe. We believe that it is 
through investment in education that we will be able to restore 
stability to our Nation's economy. To continue the progress Indian 
Country has made in participation and control of education programs and 
schools, it is imperative that funding for tribal higher education 
programs be increased. We support the Administration's proposed small 
increase for the BIA scholarship and adult education program, as well 
as the newly proposed $3.0 million for post-graduate study in science 
fields. This funding supports Indian students working for higher 
education and advanced degrees. Tribal communities have made great 
strides in educating their youth. Those strides are evident in the fact 
that more Indian students are attending and graduating from colleges 
and other post-secondary institutions. However, tribal communities must 
continue to evolve with other communities. The national and global 
economy has changed--students must earn college and graduate degrees to 
remain competitive.
Public Safety
    The Tribe supports the Administration's proposal to increase 
funding for BIA Public Safety and Justice Programs. Among the many 
challenges facing law enforcement at Lac du Flambeau is an increasing 
threat from a range of illegal drugs--including synthetic cannabinoids 
and others. The rapid growth in the use of these illegal drugs has led 
our Tribal government recently to declare a state of emergency. We are 
taking broad steps to address the problem in a multi-dimensional way--
including education, prevention and rehabilitation. A key component of 
this effort is to prosecute those who sell these illegal drugs that are 
so significantly harming our young people and our communities. This is 
just one example of the need for an effective law enforcement presence 
at Lac du Flambeau.
Tribal Natural Resource Management and Development
    Tribes are leaders in natural resource protection and BIA natural 
resource funding is essential to maintain our programs. Lac du Flambeau 
has a comprehensive Natural Resources Department and dedicated staff 
with considerable expertise in natural resource and land management. 
Our activities include raising fish for stocking, conservation law 
enforcement, collecting data on water and air quality, developing well 
head protection plans, wildlife habitat protection and enhancement, 
conducting wildlife surveys and administering timber stand improvement 
projects on our 86,000-acre Reservation. In addition to being important 
cultural and environmental resources for current and future 
generations, natural resources provide many Tribes and surrounding 
communities with commercial and economic opportunities. It is with this 
understanding of the importance of our natural resources, that the 
Tribe strongly supports the Administration's proposed increase of $2.0 
million for the Tribal Natural Resource Management and Development. 
Specific proposed increases in Fishing, Wildlife and Parks, Endangered 
Species, Rights Protection and Cooperative Landscape Conservation are 
all very important to us. We also support the Administration's 
initiative to engage Indian youth in the natural sciences.
Conservation Law Enforcement Officers
    One of the critical elements of our Natural Resource program is our 
Conservation Law Enforcement Officers. These officers are primarily 
responsible for enforcing hunting and fishing regulations related to 
the exercise of treaty rights, but they also have a much larger role in 
law enforcement. They are often the first to respond to emergency 
situations. These officers play an integral part in protecting our 
cultural and economic resources, as well as assisting with the most 
important role of protecting public safety. We urge the Subcommittee to 
support increased funding for Conservation Law Enforcement for FY2014, 
as an acknowledgement of the importance of Tribal conservation law 
enforcement officers to the federal law enforcement family.
Circle of Flight: Wetlands Waterfowl Program
    We urge the Subcommittee to continue to provide support for the BIA 
Circle of Flight Program, by providing at least the $800,000 funding 
level proposed by the Administration. This program supports Tribal 
efforts throughout the Great Lakes Region to restore and preserve 
wetlands and waterfowl habitat within Tribal territories. This program 
also gives the Great Lakes Region Tribes, States, USFWS, USDA, Ducks 
Unlimited and other private sector groups an opportunity to work 
cooperatively in projects that provide wetland protection, flood 
control, clean water and recreation in the Great Lakes Region. The 
Subcommittee's strong support of this program over two decades has 
resulted in tremendous successes in restoring wetlands and waterfowl 
habitat throughout the Mississippi Flyway.
Great Lakes Indian Fish and Wildlife Commission
    Related to the Tribe's natural resource needs, we would like to 
voice our continuing support for the Great Lakes Indian Fish and 
Wildlife Commission (GLIFWC). The Tribe is a member of the Commission, 
which assists the Tribe in protecting and implementing its treaty-
guaranteed hunting, fishing and gathering rights. We urge the 
Subcommittee to fully support the programmatic funding for GLIFWC in 
the amount of $6.367 million from BIA, plus $1.2 million from EPA to 
continue its vital treaty-rights protection/implementation programs. 
GLIFWC has played an invaluable role in providing science and sound 
management practices for our off-reservation resources. This role could 
not be filled by any other agency.
Environmental Protection Agency
Tribal General Assistance Program
    The Tribe strongly supports the proposed $5 million increase for 
the Tribal General Assistance Program (``Tribal GAP''). This program 
provides base environmental funding to assist Tribes in the building of 
their environmental capacity to assess environmental conditions, 
utilize available data and build their environmental programs to meet 
their needs. This funding is critical for Tribes in the Great Lakes as 
our region begins to examine resource extraction issues, in particular 
mining. While we understand the need for job creation, we believe any 
action must be done in a way that does not destroy our natural 
resources, which are the basic foundation of our way of life and 
economies today.
    Great Lakes National Program Office. We continue to support the 
Great Lakes Restoration Initiative (GLRI) and in particular, the 
funding set-aside for tribes. The Great Lakes represent three quarters 
of the world's supply of fresh water. But for us, the indigenous people 
of Wisconsin, the Great Lakes represent the life blood of our economies 
and our culture. The protection and preservation of the Great Lakes is 
necessary to the protection and preservation of the tribal communities 
that have made the Great Lakes their home since time immemorial.
Clean Water Program
    The Clean Water Program provides grants to tribes under Section 106 
of the Clean Water Act to protect water quality and aquatic ecosystems, 
and the Tribe supports the proposed $20.3 million increase in section 
106 grants. The Lac du Flambeau Clean Water program monitors, maintains 
and improves water quality for the tremendous amount of surface and 
ground water within the exterior boundaries of our Reservation. There 
are 260 lakes covering 17,897 acres, 71 miles of streams, and 24,000 
acres of wetlands within the Reservation. Surface waters cover nearly 
one-half of the Lac du Flambeau Reservation. Funding to maintain clean 
waters on our Reservation has already decreased below the minimum 
required to maintain our program. We ask the Subcommittee to protect 
funding for this program.
Air Quality
    In Wisconsin, a major recent change in state law creates the 
likelihood of a new, large-scale iron-mining, which would have 
extensive environmental impacts on both the Reservation and the Tribe's 
ceded territory, where we have Treaty-protected hunting, fishing and 
gathering rights. To protect our lands and Treaty rights from pollution 
associated with new iron mining, we will need baseline air quality data 
which demonstrates the conditions we are seeking to protect. We urge 
the Subcommittee to support increased funding for Tribal air quality 
monitoring activities and associated staffing.
Brownfields
    The 2002 Brownfield Bill authorizes $50 million for State and 
Tribal Response Programs. Appropriations have been slightly less than 
the authorized $50 million. The 2002 authorization expired in 2006. 
Like many programs, expired authorizations have continued to be 
allocated. Both States and Tribes are competing for the same pool of 
money. Every year more tribes apply for funding. There is a critical 
base needed just to operate a program. Both the needs of a state 
cleanup program and the needs of new tribal cleanup programs cannot be 
met by the authorized $50 million or the allocated amounts.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council
ITC Background
    The ITC is a 37 year old association of some 60 forest owning 
tribes and Alaska Native organizations that collectively manage more 
than 90 percent of the 18 million acres of BIA trust timberland and 
woodland. These forests cover about one third of the Indian trust land 
base and provide thousands of jobs and many millions of dollars in 
economic activity in and around Indian Country. Beyond their economic 
importance, forests also store and filter the water and purify the air 
to sustain life itself. They sustain habitats for the fish and 
wildlife, produce foods, medicines, fuel, and materials for shelter, 
transportation, and artistic expression. In short, our forests are 
vital to our economies, cultures and spiritual well being.
BIA History of Funding Inequity
    Overall, the ITC supports the Administration's requested FY 2014 
funding for BIA Natural Resources Programs as a long-overdue start on 
moving funding for these programs toward parity with funding provided 
other federal agencies for similar functions. For years, both the 
requested and enacted annual appropriations for Bureau of Indian 
Affairs Natural Resource Programs have, by almost any comparator, been 
significantly less than those for similar federal functions. Examples 
of this disparity are:

  <bullet> BIA TPA Forestry, where two independent reports (IFMAT I, 
        1993 and IFMAT II, 2003) have documented that BIA Forestry per-
        acre management support is less than half that for the National 
        Forest System (IFMAT III is due to be released this June). 
        Other recent and specific reviews have shown that BIA TPA 
        Forestry, which is primarily for on-going forest and harvest 
        management, has fallen further and further behind both 
        inflation and increases for other similar federal programs. 
        Funding for management of woodlands is urgently needed. 
        Woodlands are vital to many tribal communities, providing 
        foods, medicines, fuel, grazing, and water. Woodlands are 
        coming under increasing treat from invasive species, wildfire, 
        and climate change.

  <bullet> BIA funding for Forest Development is needed for site 
        preparation, reforestation, and thinning on 750,000 acres of 
        forest land (4 percent of the Indian forestland base).

  <bullet> BIA Forest Projects funding for essential forest functions 
        such as management inventories and planning, woodland 
        management, Integrated Resources Management Planning, and 
        Forest Development, has experienced outright budget decline 
        from FY 2005, when it was funded at $18.5 million, to $17.3 
        million in FY 2013 (not including the 5 percent sequester), a 
        decline of $1.2 million without taking into account 8 years of 
        inflation.

  <bullet> BIA Endangered Species Act funding has declined from $3.0 
        million in FY 1995 to $1.2 million for FY 2013, without 
        counting 18 years of inflation. Based on BLM's 9 cents-an-acre 
        ESA funding, BIA should be funded at $5.0 million.

  <bullet> BIA Cooperative Landscape Conservation in FY 2012 received 
        just $200,000 for BIA's 52 million acres of trust land. With 10 
        percent of the Interior Department's total land holdings, BIA 
        CLC should have received $17.5 million of the Department's $175 
        million total CLC funding.

Trust Settlements and BIA's Continued Inadequate Budget
    Underscoring the funding inequity and insufficiency of BIA's 
Natural Resources programs are the more than 50 tribal trust fund and 
natural resource mismanagement law suits that the U.S. settled last 
year, paying more than $1 billion to quiet mismanagement claims. While 
the settlements were confidential and the settlement amounts 
unattributed to specific resources, the settlements provide clear 
evidence that the U.S. has been failing to live up to its trust 
obligations, including for the management of natural resources. Yet 
federal budgets for those trust programs, including forestry and 
related activities, have failed--and still fail--to provide funding 
levels necessary to fulfill the federal fiduciary responsibility to 
protect the health and productivity of the trust corpus. Despite the 
U.S. settlements' implicit acknowledgement that it has failed to 
properly provide for its fulfillment of the trust, BIA budgets for 
Forestry and other natural resource trust management programs are being 
proposed at levels that, even while slightly increased, are still 
insufficient for the BIA's obligations and less than amounts requested 
by other agencies for similar functions.
Insufficient Budgets Thwart Tribal Involvement in Landscape Management
    Climate and natural resource issues cannot be addressed by 
fragmented approaches to management. Cooperation, collaboration, and 
active partnerships in landscape-scale approaches are essential. The 
necessity of broader management that extends beyond property boundaries 
is increasingly reflected in both public and private practices and 
policies. Tribes, with a history of holistic natural resource 
management, traditional knowledge, and contemporary legal and cultural 
rights and interests in their reservations and extensive surrounding 
lands, have a primary role to play in landscape-scale management of 
natural resources and are well poised to play a significant, and 
perhaps leadership, role in local and regional issues like water, fish 
and wildlife management and global issues such as climate change. 
Natural resource management is critical biologically, ecologically and 
economically. The ITC is now investigating the possibilities of 
broader, landscape-based forest management, referred to as the ``Anchor 
Forest'' program in Washington State, that seeks to coordinate 
resources and infrastructure across the forested landscape in a manner 
that sustains and nurtures the forest while also providing for the 
continuation of local forest dependent communities and economies.
Insufficient Budgets Pose Resource Management Threats and Undermine 
        Self-
        Determination
    Federal budgets for tribal natural resources must be sufficient for 
sustainable management and economic and cultural continuity. Failure to 
provide adequate funding to manage their resources both on and off 
their reservations will deprive the tribes of the management capacity 
needed to sustainably realize the benefits of the land and its 
resources, diminishing the tribal economy and result in degradation of 
health and productivity of the trust corpus. Starving tribal natural 
resource budgets will also hinder the needed and rightful tribal 
participation in landscape-based management, potentially isolating the 
tribes at the moment they need to be full landscape participants. Of 
particular concern is inequity in pay cost increases for tribal 
programs compared to those provided for BIA staff. Pay cost 
discrepancies are impeding recruitment and retention of tribal staff. 
Without adequate budgets to manage natural resources, tribes could be 
forced to retrocede the Forestry and other natural resource programs 
they now administer under Self-Determination and Self-Governance, 
turning them back to the BIA rather than trying to continue to operate 
financially crippled programs.
Insufficient Budgets for Natural Resources Negatively Affect Tribal 
        Communities in Untold Ways
    Natural resources have supported the cultures and economies of 
tribal communities for countless generations, providing foods, fish, 
wildlife, water, medicines, and products for subsistence and commerce. 
Unless the health and productivity of natural resources is maintained, 
the very essence of tribal lifeways will be placed in jeopardy. Sorely 
needed jobs will disappear, economic opportunities will be lost, and 
social problems will worsen. Federal budgets must be sufficient for the 
sustainable management of natural resources and to sustain the economic 
and cultural continuity of tribal communities.
    Today, as the United States completes an historic round of trust 
mismanagement cases with tribes, it is essential that the Federal 
Government truly turn the page by stepping up its funding of tribal 
trust-based programs, including those for natural resources. At the 
least, an initial step must be to provide tribes and BIA with funds 
equal to those provided other agencies for similar tasks. To not do so, 
to continue the insufficient funding practices of the past, will stifle 
the progress the tribes and the U.S. have made. Tribal economies will 
suffer, tribal jobs will suffer, and the tribal land base will degrade. 
Should tribes choose to turn fatally underfunded programs back to the 
U.S., tribal self-determination will suffer. And over time, tribes may 
have little choice but sue the U.S. again for it trust failures.
    A repetition of past failures must be avoided. Adequate resources 
must be made available to enable the United States to fulfill its 
fiduciary obligations for protecting and managing the trust corpus. 
Funding the BIA and tribal trust and natural resources programs at 
least at levels provided other federal agencies will help cement the 
progress made and offer a route to a progressive and promising future.
BIA's FY 2014 requested budget for Natural Resources Management
    Against the backdrop of the Federal Government's history of 
inadequate and inequitable funding, the ITC is very encouraged by the 
$32 million increase requested by the Administration for BIA Natural 
Resources Management programs in FY 2014. While this increase by itself 
will not correct years of insufficient funding of these programs, FY 
2014's proposed increase is significant both as an acknowledgement that 
additional support is needed and as an initial financial commitment to 
move BIA Natural Resource Management programs up to adequate and 
equitable funding.
    Within or related to the BIA's FY 2014 requested budget for Natural 
Resources Management, the ITC makes the following specific comments and 
recommendations:

        1.) In BIA TPA Forestry, support the Administration's $5.1 
        million increase, and further the increase by $5 million to 
        begin moving BIA Forestry toward parity with similar federal 
        forestry budgets.

         The ITC urges this Committee to support the $5.1 million FY 
        2014 increase requested for BIA Forestry, and to further add an 
        additional $5 million to begin moving BIA Forestry toward 
        parity with other federal forestry budgets. The independent 
        1993 and 2003 IFMAT reports documented that the BIA Forestry 
        per-acre management funding is far less than half that provided 
        for National Forests and state and private forests, and we 
        believe the 2013 IFMAT report will update and corroborate those 
        findings. IFMAT I and II reports also document that Indian 
        forestry is the most productive and innovative on federal 
        lands. Tribes tend to keep their saw mills open and their 
        forest products workforce engaged. Yet the long-documented 
        underfunding has taken a toll, as demonstrated in the many 
        recent tribal trust fund and resource mismanagement lawsuit 
        settlements. Supporting the proposed $5.1 million BIA Forestry 
        increase and supplementing that with an additional $5 million 
        will start to shore-up the eroded federal trust responsibility, 
        make a needed investment in the single most productive federal 
        timber program, and provide jobs and countless social and 
        economic benefits for tribal communities. In addition, the ITC 
        recommends the full funding of pay cost increases for tribal 
        forestry programs and indirect costs of program administration.

        2.) Review the upcoming IFMAT III report, the Congressionally 
        required independent review of Indian trust forests and 
        forestry, and the ITC Report on implementation of the TFPA, and 
        consider their recommendations in FY 2014.

         With particular regard to the adequacy of the BIA Forestry 
        program, we urge the Committee to review and hold a hearing on 
        the upcoming IFMAT III report, due out in June. The IFMAT 
        report is an independent assessment of Indian forest lands and 
        forestry practices required by Section 312 of P.L. 101-630 to 
        be conducted every ten years. In 1993, 2003, and now in 2013, 
        ITC facilitated the assembly of a blue-ribbon team of forestry 
        experts, referred to as the Indian Forest Management Assessment 
        Team (IFMAT), to independently evaluate the status of tribal 
        forests and forestry. The 2013 IFMAT report will examine eight 
        areas required by statute and will be delivered to the Interior 
        Secretary and the U.S. Congress with Findings and 
        Recommendations. To our knowledge, the IFMAT report is only 
        required independent periodic review of any federal forest 
        lands and will provide valuable insight into both tribal and 
        other forests.

         The 2004 Tribal Forest Protection Act (TFPA) was enacted to 
        provide a means for Tribes to propose projects on USFS and BLM 
        lands to reduce threats to tribal resources and rights 
        resulting from hazardous conditions on the lands under agency 
        jurisdictions. Thus far, only eleven TFPA projects have been 
        accepted by the U.S. Forest Service (USFS) and only six have 
        been implemented. The ITC recently completed a cooperative 
        study with the USFS and the BIA to improve utilization of the 
        TFPA authority. The lack of incentives, such as designated 
        funding for TFPA projects for the USFS, was identified as one 
        of several funding-related impediments to utilization of the 
        TFPA authority. We urge the Committee to review this report and 
        work with tribal governments to implement its recommendations.

        3.) For BIA Cooperative Landscape Conservation, support the 
        Administration's $10 million request and direct that those 
        funds serve tribally-based activities.

         The ITC supports the FY 2014 requested increase in BIA 
        Cooperative Landscape Conservation (CLC) to $10 million. As the 
        principal trustee delegate of the United States, the BIA has 
        responsibility to care for 10 percent of the Interior 
        Department's total 500 million acres. The Indian people's 
        reliance upon their land and resources makes them among the 
        most vulnerable to climate change. Yet there has been little or 
        no funding for substantive tribal participation in Interior's 
        previous CLC initiatives. Interior's FY 2014 CLC proposal for 
        BIA finally begins to correct that gross disparity. In 
        supporting the $10 million, we also urge the Committee to 
        assure that all or at least most of that funding be directed to 
        tribal projects on the ground.

        4.) For BIA ESA, support the Administration's proposed $2.7 
        million budget.

         The ITC asks that the Committee support the $2.7 million 
        requested for BIA ESA funding. On a dollar-per-acre basis, BIA 
        ESA funding has long been far below any other Interior land 
        management agency. Tribal governments and individual tribal 
        members depend on their lands and resources for income, jobs 
        and subsistence. Adequate funding to evaluate proposed 
        activities for ESA-related impacts is needed to fulfill federal 
        trust obligations and enable Indian peoples to benefit from 
        their resources.

        5.) Within BIA Natural Resources, support increased funding to 
        combat invasive species.

         The ITC supports the $3.0 million increase in BIA Agriculture 
        and Range to combat and reduce adverse impacts of invasive 
        species.

        6.) For DoI Wildland Fire management: Restore DoI hazard fuels 
        funding to $206 million, and remove BIA/tribal projects from 
        the DoI HFPAS funding formula and set an annual minimum BIA/
        tribal allocation at 25 percent of the DoI hazard fuel 
        allocation but no less than $50 million.

         Forested tribes and the BIA are also engaged in the Department 
        of the Interior's Wildland Fire program, which is funded 
        through the Department-wide Office of Wildland Fire Management. 
        For FY 2014, the proposed Office of Wildland Fire budget is 
        directly contrary to the goals in the federally sponsored 
        National Cohesive Wildland Fire Management Strategy Phase II 
        report, namely to ``Restore and Maintain Landscapes''. The FY 
        14 budget proposes funding runaway suppression costs with a 
        significant increase while cutting by 50 percent the budget for 
        proactive and effective hazardous fuel treatments. Not only is 
        reducing fuel funding likely to ultimately increase suppression 
        costs, it is contrary to the goal of reducing potential 
        wildfire and restoring and maintaining landscapes. We urge the 
        restoration of FY 2014 DoI hazard fuels funding at its FY 2012 
        level of $206 million.

        Furthermore, the DOI process of allocating these funds through 
        the Hazardous Fuels Prioritization and Allocation System 
        (HFPAS) is severely flawed and discriminates against tribes. 
        During 2012, the ITC and our member Tribes identified systemic 
        problems with the DoI HFPAS model that seriously biased hazard 
        fuels funding against tribal projects and increased threats to 
        tribal forests and communities. The untested HFPAS allocation 
        model was used to allocate hazard fuel funds despite tribal 
        objections and concerns provided to DoI well before funds were 
        allocated. This process was implemented in violation of the DoI 
        Tribal Consultation Policy. Now, after the funds have been 
        diverted, the DoI is just beginning to consult with Tribes on 
        the HFPAS process. We ask this Committee's support in directing 
        the DoI to recognize its duty to protect trust resources and 
        provide stability and equity to a critical component of tribal 
        resource management strategies by separating tribal/BIA funding 
        from the HFPAS process and allocating 25 percent of the 
        Department's annual national fuels funding to the tribal/BIA 
        hazard fuels program, but in no event less than $50 million, 
        which represents the historical level of support.

        7.) Significantly extend or make permanent authority for 
        Stewardship Contracting.

         Finally, the ITC asks that the Committee support the extension 
        or permanency of the Stewardship Contracting authority first 
        established in the 1999 Interior Appropriations Act (16 USC 
        2104 note, Public Law 105-277) (as amended by section 323 of 
        the FY 2003 Interior Appropriations Act (117 Stat. 275)) and 
        originally due to expire at the end of 2013. Stewardship 
        contracting authorizes parties to engage in forest restoration 
        projects on U.S. Forest Service or BLM lands on a ``goods-for-
        services'' basis. This effective and inexpensive authority is 
        often essential for tribes, local communities, and others to 
        perform needed forest management activities on USFS or BLM 
        land. For tribes in particular, stewardship contracts can be 
        key in carrying out protective forest health activities on 
        adjacent USFS or BLM land under the Tribal Forest Protection 
        Act (P.L. 108-278).

    In closing, the ITC would like to express our appreciation of the 
leadership provided by this Committee in understanding and protecting 
the BIA and IHS budgets. Across the great breadth of the federal 
budget, Indian Affairs funding is only a very minor fraction, but the 
United States has a long and well established duty to honor its special 
relationships to tribes and its fiduciary trust obligations to care for 
our land and resources. We thank you for your commitment to these 
historic and enduring responsibilities.
    For FY 2014, the Administration's proposed BIA budget reflects 
recognition of and support for long-needed improvement in management of 
our trust resources. Investments in improving the health and 
productivity of our natural resources will have far-reaching economic 
and cultural benefits for tribal communities.
    We believe it is vitally important for Indian Tribes to be 
substantively engaged as full partners in the dialogue as to how to 
address fiscal challenges in light of federal trust responsibilities. 
Our experience with HFPAS and BIA streamlining efforts has been far 
from satisfactory. We ask this Committee to direct the DoI to recognize 
its duty to protect trust resources and provide stability and equity to 
a critical component of tribal resource management strategies.
    That concludes the ITC testimony. Thank you.
                                 ______
                                 
 Prepared Statement of the Northwest Portland Area Indian Health Board
    Established in 1972, NPAIHB is a P.L. 93-638 tribal organization 
that represents 43 federally recognized Tribes in the states of Idaho, 
Oregon, and Washington on health care issues. Over the past twenty-one 
years, our Board has conducted a detailed analysis of the Indian Health 
Service (IHS) budget. It is used by the Congress, the Administration, 
and national Indian health advocates to develop recommendations on the 
IHS budget. It is indeed an honor to present you with our 
recommendations.
Indian Health Disparities
    The Indian Health Care Improvement Act (IHCIA) includes a 
declaration of national Indian health policy for the Congress and this 
Nation, in fulfillment of its special trust responsibilities and legal 
obligations to Indians, to ensure that the highest possible health 
status for Indians is achieved and to provide all resources necessary 
to effect this policy. \1\ This declaration recognizes that Congress 
has a duty to elevate the health status of American Indian and Alaska 
Native (AI/AN) people to parity with the general U.S. population and to 
provide the resources necessary to do so.
---------------------------------------------------------------------------
    \1\ 25 USC  1601.
---------------------------------------------------------------------------
    While there has been success at reducing the burden of certain 
health disparities, evidence continues to document that other types of 
diseases are on the rise for Indian people. \2\ An analysis of Medicaid 
data in Washington State indicates that infant mortality among AI/ANs 
was twice the rate for the Medicaid population as a whole. Compared to 
the rest of the world, the AI/AN infant mortality rate was higher in 
Washington State than in Poland, Slovakia, Estonia, Malaysia, Thailand, 
and Sri Lanka. Contributing factors included deaths due to Sudden 
Infant Death Syndrome (SIDS) at a rate 3 times higher among Indians 
compared to the total Medicaid population, deaths due to injuries at a 
rate 5 times higher among Indians, and a rate of deaths from 
complications of pregnancy and delivery 50 percent higher than the 
total Medicaid population.
---------------------------------------------------------------------------
    \2\ Please note findings in, The Health of Washington State: A 
Statewide Assessment of Health Status, Health Risks, and Health Care 
Services, December 2007. Available: http://www.doh.wa.gov/hws/
HWS2007.htm.
---------------------------------------------------------------------------
    Medicaid data from Washington State also provided an analysis of 
the risk factors that lead to poor pregnancy outcomes. Compared to all 
pregnant women on Medicaid, Indian pregnant women were 2.7 times more 
likely to have a mental health diagnosis, 3.3 times the rate of alcohol 
and substance abuse, a 70 percent higher rate of smoking, and a 30 
percent higher rate of obesity. According to the most recent reports 
from IHS, AI/ANs die at higher rates than other Americans from 
tuberculosis (500 percent higher), alcoholism (514 percent higher), 
diabetes (177 percent higher), unintentional injuries (140 percent 
higher), homicide (92 percent higher) and suicide (82 percent higher). 
\3\ A number of factors contribute to persistent disparities in AI/AN 
health status. AI/ANs have the highest rates of poverty in America, 
accompanied by high unemployment rates, lower education levels, poor 
housing, lack of transportation and geographic isolation. All of these 
factors contribute to insufficient access to health services.
---------------------------------------------------------------------------
    \3\ Website http://www.ihs.gov/Public Affairs/IHSBrochure/
Disparities.asp. AI/AN data from 2004-2006 are compared with U.S. All 
Races data for 2005.
---------------------------------------------------------------------------
    As the Committee understands, it is the historic and persistent 
under-funding of the Indian healthcare system that has resulted in a 
lack of access to health care, and has limited the ability of the 
Indian healthcare system to provide the full range of medications and 
services that would prevent or reduce the complications of health 
disparities. This is why our recommendations are so important to the 
work of this Committee.
Per Capita Spending Comparisons
    The most significant trend in the financing of Indian health over 
the past ten years has been the stagnation of the IHS budget. With 
exception of a notable increase of 9.2 percent in FY 2001 and last 
year's 14 percent increase, the IHS budget has not received adequate 
increases to maintain the costs of current services (inflation, 
population growth, and pay act increases). The consequence of this is 
that the IHS budget is diminished and its purchasing power has 
continually been eroded over the years. As an example, in FY 2011, we 
estimated that it would take at least $474 million to maintain current 
services . The final appropriation for the IHS was a mere $16.5 million 
increase, falling short by $454 million. This meant that Tribes had to 
absorb unfunded inflation and population growth by cutting health 
services. \4\ The IHS Federal Disparity Index (FDI) is often used to 
cite the level of funding for the Indian health system relative to its 
total need. The FDI compares actual health care costs for an IHS 
beneficiary to those costs of a beneficiary served in mainstream 
America. The FDI uses actuarial methods that control for age, sex, and 
health status to price health benefits for Indian people using the 
Federal Employee Health Benefits (FEHB) plan, which is then used to 
make per capita health expenditure comparisons. It is estimated by the 
FDI, that the IHS system is funded at less than 60 percent of its total 
need. \5\ The Tribal Needs Based Budget estimates that $26 billion 
would fully fund the health care needs of Indian people through the IHS 
budget.
---------------------------------------------------------------------------
    \4\ FY 2011 IHS Budget Analysis and Recommendations, Northwest 
Portland Area Indian Health Board, March 12, 2010; available: 
www.npaihb.org.
    \5\ Level of Need Workgroup Report, Indian Health Service, 
available: www.ihs.gov.
---------------------------------------------------------------------------
Recommendation No. 1: NPAIHB Recommends That Congress Restore the $228 
        Million Sequestration to the IHS Appropriation in FY 2014
    We respectfully request that the Committee include a recommendation 
in its Views and Estimates letter to restore sequestered funds to the 
IHS and include an appropriations amendment to correct this issue. The 
Budget Control Act of 2011 (BCA) established procedures designed to 
reduce the federal budget deficit. The BCA triggers a sequestration of 
discretionary and mandatory spending since the Joint Select Committee 
on Deficit Reduction and Congress failed to enact legislation to reduce 
the deficit. This has triggered automatic spending reductions, which 
include a sequestration of discretionary spending through FY 2021. The 
BCA includes references to requirements in the Balanced Budget and 
Emergency Control Act of 1985 (BBECA or P.L. 99-177), at Section 256, 
``Exceptions, Limitations, and Special Rules,'' which establishes 
limitations on the amount of funds that can be sequestered for certain 
programs (Subsection 256(k)). This section stipulates that IHS health 
services and facilities funds can be sequestered at no more than 2 
percent.
    However when the sequestration was carried out, OMB and Congress 
both interpreted that the IHS appropriation was subject to a full 
sequestration and that Subsection 256(k) did not apply. This resulted 
in a $228 million reduction to the IHS appropriation. Both the 
Administration and Congress have indicated that they believed the IHS 
appropriation was protected from a full sequestration and could only be 
reduced by the 2 percent cap contained in Subsection 256(k).
    It is the position of Northwest Tribes that this was a drafting 
error and unintended consequence. Other federal health care programs 
were protected up to a 2 percent sequestration in accordance with 
Subsection 256(k). It does not make sense to have a similar protection 
not apply to the IHS appropriation. IHS also provides expensive and 
vital health care services. Most importantly, we emphasize that while 
deficit reduction may be targeted at discretionary spending and 
recognize that the IHS appropriation falls into this funding 
classification however, IHS funding is not ``discretionary'' by its 
mere nature. This funding is provided in recognition of the United 
States federal trust responsibility to fulfill treaty obligations. To 
sequester this funding abrogates Congress' legal and moral 
responsibility under the federal trust relationship.
Recommendation No. 2: Maintain Current Services by Funding Inflation 
        and Population Growth
    The fundamental budget principle for Northwest Tribes is that the 
basic health care program must be preserved by the President's budget 
request and Congress. Preserving the IHS base program by funding the 
current level of health services should be a fundamental budget 
principle of Congress. Otherwise, how can unmet needs ever be addressed 
if the existing program is not maintained? Current services estimates' 
calculate mandatory costs increases necessary to maintain the current 
level of care. These ``mandatories'' are unavoidable and include 
medical and general inflation, federal and tribal pay act increases, 
population growth, and contract support costs.
    Inflation and population growth alone using actual rates of medical 
inflation extrapolated from the Consumer Price Index (CPI) and IHS user 
population growth predict that at least $302 million will be needed to 
maintain current services in FY 2014. Compound this with the fact that 
$77 million of the President's proposed $124 million increase is 
directed at staffing ten new facilities, will only leave $47 million to 
cover current services. The President's request will fall short by $255 
million.
Recommendation No. 3: Fully fund IHS Contract Support Costs
    NPAIHB recommends that Congress fully fund IHS CSC in FY 2014. The 
choice of tribes to operate their own health care systems and their 
ability to be successful in this endeavor depends upon the availability 
of CSC funding to cover fixed costs. Without full funding, tribes are 
forced to reduce direct services in order to cover the CSC shortfall. 
Adequate CSC funding assures that tribes, under the authority of their 
Self-Determination Act contracts and Self-Governance compacts with IHS, 
have the resources necessary to administer and deliver the highest 
quality health care services to their members without sacrificing 
program services and funding. Most importantly, full funding of 
contract support costs is a contract obligation that the Federal 
Government must honor by law. The total amount required to fully cover 
contract support cost requirements in FY 2014 was estimated to be $617 
million in December of 2012 by the National Tribal Contract Support 
Costs Coalition.''
    NPAIHB also notes that the IHS FY 2014 Congressional Justification 
proposes damaging language on contract support costs that is intended 
to cap contract support cost (CSC) payments to Tribes and tribal 
organizations. This is a radical and unfortunate reaction to a recent 
court decision. The proposed language by the Administration is intended 
to block Tribes and tribal organizations from pursuing any contract 
claims for underpayments which occur next year. The proposal makes 
reference to a ``table'' that has been submitted to the appropriations 
committees showing each Tribe's and tribal organization's capped amount 
of CSC for 2014. The tables have not been disclosed with Tribe nor 
included any form of Tribal consultation. This proposed policy is 
inconsistent with the President's Executive Order on Tribal 
Consultation and in violation of the IHS own Tribal Consultation 
policy.
    Thus, we respectfully request that the Committee reject the 
recommended changes by IHS until the Agency and Administration have 
consulted with Tribes about the proposed changes. We further recommend 
that the Indian Affairs Committee convene an oversight hearing on 
contract support cost issues to address future CSC funding issues in 
light of the recent Ramah decision.
Recommendation No. 4: Halt Facilities Construction as a Deficit 
        Reduction Strategy
    The NPAIHB recommends that the Committee recommend in its Views and 
Estimates letter to the appropriators to place a moratorium on 
facilities construction funding including staffing packages for new 
constructed facilities as a deficit reduction measure. Congress must 
recognize that when new facilities are constructed it carries a 
liability for a staffing package that must be funded annually. The 
inequity of facilities construction funding is that it provides a 
disproportionate share of funding to a few select Tribal communities at 
the expense of the entire Indian health care system. The significance 
of facilities funding, both for construction and staffing new 
facilities, is that it removes funds necessary to maintain current 
services (pay costs, inflation, contract support costs, and population 
growth) from the IHS budget increase. While Congress undergoes deficit 
reduction and the Administration sequestration, it is inefficient to 
take valuable health care resources to build and staff new facilities 
at a select few Tribal communities while health services of Indian 
Country must be reduced to absorb budget cuts. It is more appropriate 
to maintain the current health care program by directing this funding 
to fund inflation and population growth in all health care programs.
    On behalf of our forty-three in the Portland Area, we thank you for 
this opportunity to provide our recommendations on the FY 2014 IHS 
budget.
                                 ______
                                 
 Prepared Statement of Andy Teuber, Chairman/President, Alaska Native 
                        Tribal Health Consortium
    My name is Andy Teuber, I am the Chairman and President of the 
Alaska Native Tribal Health Consortium (ANTHC). For the FY 2014 Indian 
Health Service (IHS) budget we are requesting full funding for contract 
support costs (CSC). ANTHC also requests that the Administration's 
proposed statutory language regarding CSC-which would be a statutory 
``amendment-by-appropriation'' effectively cutting-off the future 
contract rights of tribes--be rejected.
    ANTHC is a statewide tribal health organization that serves all 229 
tribes and over 140,000 American Indian and Alaska Natives (AI/AN) in 
Alaska. ANTHC and Southcentral Foundation co-manage the Alaska Native 
Medical Center (ANMC), the tertiary care hospital for all AI/ANs in 
Alaska. ANTHC also carries out virtually all non-residual Area Office 
functions of the IHS that were not already being carried out by Tribal 
health programs as of 1997.
Full Funding for Contract Support Costs
    Indian tribes and tribal organizations are the only federal 
contractors that do not receive full CSC. There is a clear obligation 
on the part of the Federal Government to fully fund CSC. But more 
importantly, lack of full funding for CSC has a very real and 
detrimental impact on our programs that are already substantially 
underfunded.
    CSC is used to reimburse our fixed costs for items that we are 
required to have but are not otherwise covered by the IHS budget, 
either because another governmental department is responsible or 
because the IHS is not subject to that particular requirement. Examples 
include federally-required annual audits and telecommunication systems. 
We cannot operate without these things, so when CSC reimbursements are 
underfunded we have to use other program funds to make up the 
shortfall, which means fewer providers that we can hire and fewer 
health services that we can provide to our patients.
    The best projection available shows that the CSC shortfall for FY 
2014 will be approximately $140 million. Given these significant 
shortfalls, IHS's request for only a $6 million increase in CSC for FY 
2014 is extremely disappointing. Our disappointment is particularly 
acute when we consider that the BIA has requested near full funding for 
CSC for its programs.
    The inadequate IHS request could return us to a situation similar 
to the one we endured from 2002 to 2009, when there were virtually no 
increases for IHS CSC appropriations and the CSC shortfall increased by 
over $130 million. During that period, as our fixed costs increased 
every year, all major tribal health programs in Alaska were forced to 
lay off staff due to lack of funds.
    The opposite is also true: when CSC reimbursement increases occur, 
vacant positions are filled. If ANTHC had full funding of our CSC 
requirements, we would be able to fill scores of provider and support 
positions, including enrollment technicians, financial analysts, 
medical billing staff, professional recruiters, maintenance 
technicians, security officers, information technology support and 
professional support staff.
    ANTHC respectfully requests that the Federal Government honor its 
legal obligations to tribes and tribal organizations and fully fund CSC 
reimbursements by providing full funding for IHS CSC reimbursements in 
FY 2014.
Rejection of Administration's Proposal to Cut-off Tribal Contract 
        Rights
    Perhaps more worrisome than the inadequate funding requested by IHS 
for CSC in FY 2014 is IHS's proposal to give legal effect to a table 
that the Secretary, HHS, would provide to appropriators--the table 
would specify the maximum amount that each tribal contractor is 
entitled to be paid. Since tribal contracts are ``subject to 
appropriations,'' this proposal by the Administration could limit the 
amount that is ``available'' to tribes to the amount listed in the 
table.
    This proposal to cap CSC is an unnecessary and unfair overreaction 
by the Administration to recent Supreme Court decisions that directed 
the Federal Government to pay tribes their full CSC. While the 
Administration seeks to limit CSC payments to tribes by this proposal, 
there is no similar proposed limit on the amount of services for which 
tribes have to perform under their compacts/contracts with the Federal 
Government. This is another example of how tribal contractors are 
unfairly singled-out from and treated adversely compared to any other 
federal contractors.
    If adopted, the Administration's proposal would effectively make 
tribal contracts second-class contracts. While the Federal Government 
would pay all non-tribal contractors in-full, this proposal would 
direct tribes do carry-out their full contract responsibilities, yet 
receive less-than-full payment.
    I appreciate your consideration of our recommendations to not 
accept any new statutory language that would limit the contract right 
of tribes for CSC and for additional CSC funding to improve the level, 
quality and accessibility of desperately needed health services for AI/
ANs whose health care status continues to lag far behind other 
populations in Alaska and in this Nation.
                                 ______
                                 
  Prepared Statement of Angela Cox, Vice-President of Administration, 
                 Arctic Native Slope Association, LTD.
    Chairwoman Cantwell, Vice Chairman Barrasso and other distinguished 
members of the Committee, thank you for the honor and opportunity to 
offer this testimony regarding the FY 2014 budget for the Indian Health 
Service (IHS). My name is Angela Cox. I am an Inupiaq from the northern 
most Tribe in the United States, and I am the Vice President of 
Administration for the Arctic Slope Native Association (ASNA). We are 
an inter-tribal health organization based in Barrow, Alaska and we are 
controlled by and serve eight federally recognized Tribes situated 
across Alaska's North Slope.
    The anchor for all of our services is the IHS Samuel Simmonds 
Memorial Hospital in Barrow. Since 1996 we have operated this IHS 
facility under a self-governance compact with IHS, now compacted under 
Title V of the Indian Self-Determination Act. The region we serve is 
quite large, equal in size to the State of Minnesota.
    I am here to provide testimony about our new IHS hospital, which is 
in the final stages of completion. This new 100,000 square foot state-
of-the-art hospital is replacing the 25,000 square foot hospital which 
IHS built in1963. We are excited about our new facility and must pause 
to thank this Committee's longstanding support of tribes and tribal 
organizations.
    I am particularly proud to say that we contracted for the 
construction of this hospital under Title V, and that we are completing 
the project within budget. Next month (May 2013) we will receive our 
certificate of beneficial occupancy. In five months (September 2013) 
actual patient services will begin in the new hospital.
    But, a brand new hospital is of little use if it there is no new 
staffing. This is one reason why I am here to testify about IHS's 
proposed FY14 budget. The most significant impacts for ASNA in that 
budget are staffing for new facilities and contract support costs.
New Hospital Staffing
    Our staffing requirements for the new hospital were developed over 
the course of several years, and IHS signed our final staffing package 
in May 2011. The new IHS hospital is four times larger than our 
existing facility and many more services will be available--assuming we 
have the staffing--including CT-scan, physical therapy, and optometry, 
as well as expansions of existing services. Many of the new services 
are currently only available by flying to Anchorage, which is over 700 
air miles south of Barrow. Practically speaking, that means only some 
patients receive this care, and others simply go without. Providing 
this care locally will enhance patient health while producing 
considerable savings over travel and lodging costs in Anchorage.
    Our existing staffing package for the old hospital is 116 FTEs 
(full time equivalent employees). IHS calculated the new hospital 
staffing package--granted, only at the standard 85 percent-of-capacity 
formula--to be 256 FTEs. That is a 140 FTE increase in staff. (If IHS 
were staffing the hospital at the level for which it was designed, 
based upon IHS's patient need methodology, the staffing would actually 
be 301 FTEs. As I said a moment ago, 256 FTEs is only 85 percent of 
full staffing.)
    Although we require 140 new FTEs for a total of 256 FTEs, the FY14 
budget only requests 49 new FTEs for a total of 165 FTEs. That is only 
35 percent of the personnel required to bring the hospital online at 85 
percent capacity. In other words, about half of the hospital will be 
empty and unused. (As a matter fact, even though we are commencing 
patient services in current fiscal year 2013, ASNA is not slated to 
receive any FY 2013 IHS staffing funds.)
    It makes little sense for Congress to finance the construction of a 
high priority new facility, and then to leave the facility half-staffed 
and unable to provide the care for which it was designed. We support 
immediate corrective action to staff the Barrow Hospital by adding 140 
new FTEs, not a mere 49 FTEs.
Contract Support Costs
    The underfunding of the staffing package is compounded by the 
underfunding of our contract support requirements. These are the funds 
which IHS is required, by contract, to pay ASNA for the cost of 
operating the Barrow Hospital and outlying village clinics.
    ASNA's contract support has been underfunded since 1996. Each year 
since then we have had to redirect health care monies, including FTE 
staffing funds, to cover for IHS's failure to pay these costs in full. 
This Committee has always supported efforts to close the national gap 
in funding all tribal contract support cost requirements, and we thank 
this Committee for its hard work.
    We appreciate that it is extremely difficult to find new funds and 
to reorder priorities in a ``sequester'' environment. But with all due 
respect to the President, the Administration, and to Director 
Roubideaux, honoring a contract in full is not a choice among 
priorities; it is a legal obligation.
    I say this from direct experience. The Committee is well aware of 
the recent Supreme Court decision involving BIA contract underpayments, 
called Salazar v. Ramah. What may be less well known is that for 9 
years we have been litigating identical claims against IHS. When the 
Supreme Court decided the Ramah case, the Supreme Court also issued an 
Order reopening our Arctic Slope case. A few weeks later, the Court of 
Appeals said we would be able to recover the unpaid portion of our 
contracts though the federal Judgment Fund, just like any other 
government contractor. Just this month, we finally settled our 1999 
claim for $1.4 million plus interest.
    The proposed Budget would prevent us from securing justice on our 
contract claims in FY 2014. It would cap contract payments to ASNA and 
deprive us of our day in court for any losses. That is its stated 
purpose. We are shocked that the agency would propose this, 
particularly after having just lost decades of litigation in the 
Supreme Court. The answer when you lose a case in the Supreme Court is 
to honor the ruling, not look for a way to get around it.
    I am particularly disappointed to see IHS call its new proposal a 
Supreme Court ``recommendation.'' The Supreme Court never recommended 
cutting off our claims. The Supreme Court vindicated our claims. The 
agency has turned the Court's words in order to avoid paying our 
contracts in the future. The agency and the Department are not 
proposing to cut off the contract rights of its many non-Indian 
contractors, and it should not treat Indian contractors any 
differently.
    Worse yet, the Administration has done this in secret, without any 
consultation whatsoever with the impacted Tribes. We understand the 
importance of the current fiscal challenges and would like to be part 
of the solution; this is the value of supporting tribal consultation.
    In short, in the wake of the Ramah and Arctic Slope decisions, 
contract support costs should be fully funded at $617 million. However, 
regardless of funding levels, no new language should be added that 
would cut off our contract rights under the Indian Self-Determination 
Act. If any proposal is going to be advanced to alter our contract 
rights under the Indian Self-Determination Act, it should be done 
through an open and transparent process that is led by the authorizing 
committees which wrote the Act, beginning with this Committee.
    In my language we end our public statements by simply saying, 
Quyanaqpak, or Thank you very much.
                                 ______
                                 
  Prepared Statement of Patty Brown-Schwalenberg, Executive Director, 
                 Chugach Regional Resources Commission
    As Executive Director of the Chugach Regional Resources Commission 
(CRRC), located in Alaska, I am pleased to submit this testimony 
reflecting the needs, concerns and requests of CRRC regarding the 
proposed FY 2014 Budget. As is everyone, we are aware of the ongoing 
economic problems in the United States, and the growing concern over 
the federal deficit. While the government is trimming its spending, the 
Federal Government must still fulfill its legal and contractual 
spending obligations. The Bureau of Indian Affairs (BIA) not only has a 
legal and contractual obligation to provide funding for the CRRC, but 
the CRRC is able to translate this funding into real economic 
opportunity for those living in the small Alaska Native villages 
located in Prince William Sound and Lower Cook Inlet.
    We have reviewed the President's FY2014 Budget and while we 
recognize and can appreciate the economic challenges, we urge this 
Committee to support an appropriations bill before the fiscal year end 
on September 30, 2013. The CRRC has yet to receive any of its FY2013 
funding from the BIA. We are a small Alaska Native nonprofit 
organization and as such, do not have the capital to carry the projects 
in the villages for an extended period of time. In order to keep the 
projects running, we had to obtain a $100,000 line of credit from the 
bank. Given the time taken to pass a budget and the Department of 
Interior's change to an electronic financial reporting system, the 
operations of CRRC projects and those of other tribal organizations 
have been placed in jeopardy. The process currently in place that 
allows this amount of time to pass before getting the much needed 
funding to the tribes must be improved.
    We describe first, our specific requests and recommendations on the 
budget, and then why these are so important to us and the Alaska Native 
Villages and their members who we serve.
1. Budget Requests and Recommendations
CRRC Funding
    We are once again very pleased that the BIA has recognized the 
importance of natural resource funding for CRRC and has requested 
$350,000 for CRRC in FY 2014 as part of the Trust-Natural Resources 
program, Tribal Management/Development subactivity. In its FY 2014 
Budget Justification, the BIA recognized CRRC's role in developing the 
capabilities of its member Alaska Native Villages to better facilitate 
their active participation in resource use and allocation issues in 
Alaska. We urge the Committee to support CRRC funding as proposed by 
the BIA.
BIA Trust-Natural Resources Management
    We support the President's overall proposal to increase the BIA's 
Trust--Natural Resources Management programs, particularly the 
increases to Fish, Wildlife and Parks, and funding for projects that 
engage youth in the natural sciences. We urge the Committee to support 
this funding.
U.S. Fish & Wildlife
    The President is proposing a significant increase to the U.S. Fish 
& Wildlife Service budget. Currently, tribes in Alaska manage migratory 
birds through the Alaska Migratory Bird Co-Management Council (AMBCC), 
a regulatory body comprised of state, federal and Native 
representatives who develop regulations for the spring-summer harvest 
of migratory birds. The funding for this management program is provided 
and administered by the U.S. Fish & Wildlife Service; however, this 
funding is provided by decision of the Region 7 Regional Director on an 
annual basis and is financially inadequate to address all of the 
migratory bird issues currently being addressed by the AMBCC. We are 
recommend that $1 million of the proposed increase to the USFWS budget 
be designated to the Alaska Migratory Bird Co-Management Council.
Contract Support Costs
    In regards to Contract Support Costs (CSC), the Administration is 
proposing to cap FY 2014 CSC payments to each Tribe. This action would 
reverse Supreme Court victories that directed the United States to 
honor fully Indian Self-Determination Act contracts and agreements. We 
do not support this proposed cap, nor do we support any amendments to 
the Indian Self-Determination through the appropriations process 
without any advance consultation with Indian and Alaska Native tribes.
2. Justification for CRRC's Budget Requests
    The importance of adequate funding for these programs is based on 
the following.
Chugach Regional Resource Commission History and Purpose
    CRRC is a non-profit coalition of Alaska Native Villages, organized 
in 1987 by the seven Native Villages located in Prince William Sound 
and Lower Cook Inlet in South-central Alaska: Tatitlek Village IRA 
Council, Chenega IRA Council, Port Graham Village Council, Nanwalek IRA 
Council, Native Village of Eyak, Qutekcak Native Tribe, and Valdez 
Native Tribe. CRRC was created to address environmental and natural 
resources issues and to develop culturally-sensitive economic projects 
at the community level to support the sustainable development of the 
region's natural resources. The Native Villages' action to create a 
separate entity demonstrates the level of concern and importance they 
hold for environmental and natural resource management and protection--
the creation of CRRC ensured that natural resource and environmental 
issues received sufficient attention and focused funding. The BIA, in 
its FY Budget Justification, summarizes CRRC's work, stating

         Initially, the emphasis of the CRRC natural resource program 
        was on the development of fisheries projects that would provide 
        either an economic base for a village or create economic 
        opportunities for tribal members. In FY 1996, CRRC initiated a 
        natural resource management program with the objective of 
        establishing natural resource management capabilities in the 
        villages to facilitate their active participation in resource 
        use and allocation issues that affect the tribes and their 
        members. The success of these programs from both an economic 
        and a social standpoint have made them an integral part of 
        overall tribal development.

    Through its many important programs, CRRC has provided employment 
for up to 35 Native people in the Chugach Region annually--an area that 
faces high levels of unemployment--through programs that conserve and 
restore our natural resources.
    An investment in CRRC has been translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
to support their families, thereby removing them from the rolls of 
people needing state and federal support. In turn, they are able to 
reinvest in the community, supporting the employment and opportunities 
of other families. Our programs, as well, support future economic and 
commercial opportunities for the region--protecting and developing our 
shellfish and other natural resources.
Programs
    CRRC has leveraged its $350,000 from the BIA into almost $2 million 
annually to support its several community-based programs. Specifically, 
the $350,000 base funding provided through the BIA appropriation has 
allowed CRRC to maintain core administrative operations, and seek 
specific projects funding from other sources such as the Administration 
for Native Americans, the State of Alaska, BIA, U.S. Forest Service, 
U.S. Fish & Wildlife Service, the U.S. Department of Education, the 
Exxon Valdez Oil Spill Trustee Council, the North Pacific Research 
Board and various foundations. This diverse funding pool has enabled 
CRRC to develop and operate several important programs that provide 
vital services, valuable products, and necessary employment and 
commercial opportunities. These programs include:
Alutiiq Pride Shellfish Hatchery
    The Alutiiq Pride Shellfish Hatchery is the only shellfish hatchery 
in the State of Alaska. The 20,000 square foot shellfish hatchery is 
located in Seward, Alaska, and houses shellfish seed, brood stock and 
algae production facilities. Alutiiq Pride is undertaking a hatchery 
nursery operation, as well as grow-out operation research to adapt 
mariculture techniques for the Alaskan Shellfish industry. The Hatchery 
is also conducting scientific research on blue and red king crab as 
part of a larger federally-sponsored program. Alutiiq Pride has already 
been successful in culturing geoduck, oyster, littleneck clam, and 
razor clam species and is currently working on sea cucumbers. This 
research has the potential to dramatically increase commercial 
opportunities for the region in the future. The activities of Alutiiq 
Pride are especially important for this region considering it is the 
only shellfish hatchery in the state, and therefore the only 
organization in Alaska that can carry out this research and production.
Natural Resource Curriculum Development
    Partnering with the University of Alaska, Fairbanks, and the 
National Oceanic and Atmospheric Administration, CRRC has developed and 
implemented a model curriculum in natural resource management for 
Alaska Native students. This curriculum integrates traditional 
knowledge with Western science. The goal of the program is to encourage 
more Native students to pursue careers in the sciences. In addition, we 
are working with the Native American Fish & Wildlife Society and tribes 
across the country (including Alaska) to develop a university level 
textbook to accompany these courses.
    In addition, we have completed a K-12 Science Curriculum for Alaska 
students that integrates Indigenous knowledge with western science. 
This curriculum is being piloted in various villages in Alaska and a 
thorough evaluation process will ensure its success and mobility to 
other schools in Alaska.
Alaska Migratory Bird Co-Management Council
    CRRC is a member of the Council responsible for setting regulations 
governing the spring harvest of migratory birds for Alaska Natives, as 
well as conducting harvest surveys and various research projects on 
migratory birds of conservation concern. Our participation in this 
state-wide body ensures the legal harvest of migratory birds by 
Indigenous subsistence hunters in the Chugach Region.
Statewide Subsistence Halibut Working Group
    CRRC participates in this working group, ensuring the halibut 
resources are secured for subsistence purposes, and to conduct harvest 
surveys in the Chugach Region.
Conclusion
    We urge the Committee to support the $350,000 included in the BIA's 
FY 2013 budget for CRRC. We further ask the Committee to support the 
President's requests for increased funding for the BIA's Trust Natural 
Resources Management and to for Fish and Wildlife Service, but to 
designate $1 million of the proposed increase to the USFWS budget to 
the Alaska Migratory Bird Co-Management Council. We also urge the 
Committee to oppose the Administration's proposal to cap CSC.
    We appreciate the opportunity to submit this important testimony.
                                 ______
                                 
     Prepared Statement of Thomas ``Stoney'' Anketell, Councilman, 
          Assiniboine and Sioux Tribes, Fort Peck Reservation
    Chairwoman Cantwell, Vice Chairman Barrasso and Members of the 
Committee, my name is Thomas ``Stoney''Anketell, I am a member of the 
Executive Board of the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation. On behalf of the Fort Peck Tribes and Chairman Floyd 
Azure, I am pleased to present testimony on the President's Fiscal Year 
2014 Budget. We are a large, land-based tribe located in northeastern 
Montana. The Fort Peck Reservation encompasses 2.0 million acres. Our 
Native American population is over 8,000 and our Tribal enrollment is 
over 12,000 members. Many of our members continue to live in poverty.
    I will focus my testimony on the following Tribal priorities:

        1.  Support the President's FY 2014 budget request for the BIA 
        Construction account which includes a $2.3 million increase for 
        operation and maintenance of the Assiniboine and Sioux Rural 
        Water System (Other Program Construction);

        2.  Support and increase FY 2014 funding of $1.865 billion for 
        the Indian Health Service (IHS) Services budget for essential 
        health care to Native Americans;

        3.  Support and increase funding of $365 million for BIA Public 
        Safety and Justice programs;

        4.  Oppose the Administration's unilateral changes to Contract 
        Support Cost (CSC) policies.

Sequestration
    Before I address these issues, I want to address the harmful 
effects that sequestration is having on our Reservation. If Congress 
does not find common ground, further reductions to Federal 
appropriations will occur in Fiscal Year 2014, and wipe out any funding 
increases Congress may include in the Interior, Environment and Related 
Agencies Appropriations bill. Already, we have begun to see reductions 
to our FY 2013 funding, early retirements of BIA and IHS officials, and 
the consolidation of agency offices. The indiscriminate across-the-
board cuts and resulting ``streamlining'' efforts by federal agencies 
have harmful consequences to our members. Sequestration as a budget 
policy does not work. It is a terrible policy, especially for Indian 
Country.
    The United States has a continuing trust responsibility to 
strengthen and empower tribal governments. Efforts to strengthen tribal 
governments and grow reservation economies are impeded when the budgets 
of the federal agencies we interact with are cut, when essential 
personnel take early retirement and are not replaced, and when the 
United States asks tribal governments to subsidize federal programs or 
refuses to honor our contracts and pay us our full amount of funding as 
required by law.
Operation and Maintenance of the Assiniboine and Sioux Rural Water 
        System
    The High Plains have historically suffered from poor quality water 
supplies that have contributed to health problems for Indian tribes and 
surrounding communities. To correct this problem and to ensure an ample 
supply of municipal and industrial water, Congress passed the Fort Peck 
Reservation Rural Water System Act of 2000, Pub. L. 106-382. The Act 
authorized the construction of a rural water system to serve the Fort 
Peck Reservation and off-reservation communities with water from the 
Missouri River.
    Since 2000, the United States has invested over $130 million in 
construction of water intake, pump stations, and a now operational 
30,000 square feet Water Treatment Plant, plus hundreds of miles of 
pipeline to serve the Fort Peck Reservation and off-reservation Dry 
Prairie communities. Under the statute, operation and maintenance of 
the Tribal rural water facilities is the obligation of the BIA to fully 
fund. Until the FY 2014 budget, the BIA has lagged behind in requesting 
adequate operation and maintenance funding to cover the operation and 
maintenance costs for our rural water system. As Congress has 
appropriated more funding for construction of our system--
appropriations for the Bureau of Reclamation--the BIA has not kept pace 
and funded our increased operating costs at 100 percent as mandated by 
the Act.
    This year, if the BIA awards us $750,000 in FY 2013 operation and 
maintenance funds, we still anticipate a $182,000 budget shortfall 
before the end of the fiscal year. To date, we have received about 
$175,000 in FY 2013 operating funds from the BIA and the Office of 
Facilities Management and Construction (OFMC), and only in the last few 
weeks. With over $130 million in Federal appropriations invested in the 
project, we ask the Committee to urge appropriators to support the 
President's Budget and fund the $2.5 million we require to properly 
operate and maintain our rural water system. The President's request 
for operations funding is less than two percent of the federal 
investment.
    BIA operations funding is critical if we are to interconnect the 
Assiniboine and Sioux Rural Water System this year with the Dry Prairie 
Rural Water System, as required under the statute. Furthermore, future 
Bureau of Reclamation construction funding is dependent upon our 
ability to safely operate and maintain the Water Treatment Plant, 
intake, pump stations and existing water lines that we have contracted 
to maintain under the ISDA. Our ability to safely deliver municipal and 
industrial water to the Fort Peck Reservation and to Dry Prairie is 
dependent on operating funds from the BIA Construction account.
Indian Health Service
    Like clean water, the programs and services of the Indian Health 
Service (IHS) are critical to the health and vitality of our members. 
The Fort Peck Tribes appreciates the Committee's strong commitment to 
Indian health and supporting increases to the IHS budget in recent 
years. We support and urge the Committee to support the President's 
request for additional funding for IHS Services (Hospitals and Health 
Clinics) (+$54.6 million over the FY 2012 enacted amount) to address 
the urgent health care needs of Indian Country which continues to 
suffer higher rates of infant mortality, diabetes, heart disease and 
substance abuse than the general population.
    We also encourage the Committee to support an increase in funding 
within the IHS Facilities account for Maintenance and Improvement 
(unchanged from FY 2012 at $53.7 million), Health Care Facilities 
Construction (unchanged from FY 2012 at $85 million), Equipment 
(unchanged at $22.5 million) and Sanitation Facilities Construction 
(increased by $7.7 million to $207 million). With increases for 
staffing of health clinics and hospitals, the IHS Facilities budget 
must keep up to maintain and expand existing facilities and add 
additional equipment to serve tribal communities. As noted above, 
without adequate funding, IHS-supported health facilities will 
deteriorate more rapidly than they can be replaced.
A. Fort Peck Dialysis Center
    Our dialysis center is at full capacity at 41 patients and over 100 
pre-renal patients. We have over 1,000 diabetics on the Fort Peck 
Reservation. Our dialysis machines are old and parts are very 
expensive. Unless we can expand or build a new dialysis center on the 
Reservation, we will have to turn away patients from this life-giving 
care. They will need to travel great distances to reach the nearest 
dialysis center in Billings, MT, more than 300 miles away. We ask the 
Committee to support increased appropriations for equipment and 
facility expansion and to direct the IHS to provide the Rocky Mountain 
Region Indian tribes detailed information on the dialysis services to 
Indian patients in the Region.
B. Purchased/Referred Care (formerly CHS)
    The need for Purchased/Referred Care continues to be of great 
concern to the Fort Peck Tribes in light of the fact that so many of 
our members require additional health care not provided by the IHS or 
Tribally operated programs. The Tribes fully support the President's 
proposal to increase funding for Purchased/Referred Care $35 million 
above the FY 2012 enacted amount of $843.5 million. With rising medical 
costs, we exhaust our $5 million CHS allocation long before the fiscal 
year ends. In too many instances, Tribal members are not referred by 
IHS officials to private health care treatment because the IHS 
restricts the use of such funds to life threatening illnesses and 
injuries. Early detection and prevention can save lives. We urge the 
Committee to support an increase in FY 2014 funding levels for 
Hospitals and Clinics and Purchased/Referred Care so that more 
preventive care and services can be provided to detect and treat 
illnesses before they are life threatening. This will lower health 
costs in Indian Country.
Public Safety and Detention
    As the Tribes noted last year, the need for increased funding for 
law enforcement and Tribal Courts remains a continuing priority for the 
Fort Peck Tribes. We greatly appreciate the increases Congress has 
provided for public safety programs and justice programs. Our detention 
facility will be completed in 2014 and the President's budget shows 
that staffing needs require 46 positions.
    We ask the Committee to urge appropriators to support an increase 
in funding for Tribal courts above the $1 million requested by the 
Administration, which did not factor into the FY 2014 budget the 
enactment of the Violence Against Women Act (VAWA). We recommend the 
Committee also support the $5.5 million amount requested by the 
Administration to hire additional law enforcement personnel. Our two 
million acre reservation requires additional personnel to respond to 
domestic violence and other crimes. If both the Law Enforcement and 
Tribal Courts line items are increased proportionally, Tribal courts 
would receive additional funding to properly handle the anticipated 
increased case load work as more law enforcement officers patrol the 
reservation and enforce tribal laws.
    We also support fully funding the programs authorized under VAWA in 
FY 2014. Funding should be increased in the Human Services line item to 
prevent domestic and child abuse, as well as the BIA's Public Safety 
account to permit Indian tribes to exercise the authority conferred 
under VAWA through stepped up law enforcement and social services work 
to identify at-risk Native American women and families.
    The President's Budget also includes an increase of $13.4 million 
for staffing ``recently constructed'' detention centers. The Fort Peck 
Tribes, with a grant from the Justice Department, are constructing a 
new adult detention facility. Under the Tribal Law and Order Act, the 
BIA, IHS, Department of Justice and the Department of Health and Human 
Services' Substance Abuse and Mental Health Services Administration 
(SAMHSA) are required to work with Tribal governments to facilitate 
services to incarcerated tribal members and promote best practices. At 
the local level, however, there do not seem to be adequate resources 
for BIA and IHS officials to play as active a role in coordinating the 
substance abuse, mental health and family counseling, education and 
related services.
    We further request that the Committee urge appropriators to support 
adequate operation and maintenance funding to the BIA or Office of 
Facilities, Environmental and Cultural Resources Management (OFECRM) 
within Indian Affairs, to ensure that tribally-constructed facilities, 
including those partially financed with Justice Department grants, are 
properly maintained. In the Rocky Mountain Region, facilities that are 
not properly maintained will deteriorate at a rapid rate. With limited 
infrastructure on the Fort Peck Reservation, it is important that 
existing and future facilities last in excess of their planned useful 
life.
Contract Support Costs
    The Fort Peck Tribes appreciate this Committee's support to fund 
contract support costs. We strongly support full funding for contract 
support costs. The President's proposed increases will not close the 
gap in our contract support cost needs.
    We strongly oppose the Administration's proposal to alter the 
manner in which contract support costs are paid to Indian tribes 
beginning in FY 2014. Under the Indian Self-Determination Act (ISDA) 
the United States is required to pay the full amount of contract 
support costs Indian tribes require to properly administer ISDA 
contracts.
    The United States Supreme Court has held that if the BIA or IHS 
fails to pay Indian tribes their full contract support cost amount, 
tribes may file a claim to recover the underpayment. The BIA and the 
IHS propose to cap each Indian tribe's contract support cost payment 
for FY 2014 by including a contract-by-contract table in the 
appropriations bill. The Administration's action would deny us the 
ability to bring such claims against the agencies that pay less than 
our full contract support cost amount.
    The Administration's proposal was made without any consultation of 
tribal governments, contrary to the agencies' respective Indian 
consultation policies and to the President's own statements and 
memorandum concerning the importance of government-to-government 
consultation. We therefore ask the Committee to oppose the 
Administration's proposal. Congress must fully fund all contract 
support costs and direct the agencies to honor the ISDA and the terms 
of our contracts and agreements with them.
    Thank you for providing the Fort Peck Tribes the opportunity to 
share our comments concerning the President's proposed budget for FY 
2014.
                                 ______
                                 
  Prepared Statement of David Z. Bean, Councilman, Puyallup Tribe of 
                                Indians
    Ms. Chairwoman and members of the Committee, thank you for the 
opportunity to provide testimony on the President's FY 2014 budget for 
American Indian and Alaskan Native programs. My name is David Z. Bean, 
Tribal Council Member for the Puyallup Tribe of Indians. The Puyallup 
Tribe is an independent sovereign nation having historically negotiated 
with several foreign nations including the United States in the 
Medicine Creek Treaty of 1854. This relationship is rooted in Article 
I, Section 8, of the United States Constitution, federal laws and 
numerous Executive Orders. The governing body of the Puyallup Tribe of 
Indians is the Puyallup Tribal Council, which upholds the Tribe's 
sovereign responsibility of self-determination and self-governance for 
the benefit of the 4,416 Puyallup tribal members and the 25,000 plus 
members from approximately 355 federally recognized Tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061-acre 
reservation is a ``checkerboard'' of tribal lands, Indian-owned fee 
land and non-Indian owned fee land. Our reservation land includes parts 
of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood and Federal Way).
    The following written testimony being submitted to the Senate 
Committee on Indian Affairs documents the Puyallup Tribe's views on the 
President's FY 2014 Federal Budget. On April 10, 2013, President Obama 
delivered his delayed FY 2014 Budget to Congress. The Budget proposal 
focuses on job creation and the beginning steps to reducing the nations 
projected deficits. Within the budget, $2.183 billion is provided for 
the Operation of Indian Programs. This represents an overall increase 
of $37.2 million over the FY 2012 enacted level. For the Indian Health 
Services, $5.5 billion is provided, an increase of $116 million over 
the FY 2012 enacted level. We appreciate the increased funding provided 
for the operation of Indian programs within the Bureau of Indian 
Affairs and the Indian Health Services. However, years of inadequate 
funding, negative effects of inflation, and the impacts of 
sequestration on the FY 2013 and FY 2014 funding levels will impact the 
Tribe's ability to fully exercise self-determination and self-
governance. As negotiations proceed on the FY 2014 budget and future 
appropriations, the Committee's support to ensure adequate funding is 
provided for the operation of Indian programs will be paramount. To 
preserve increased funding levels realized in recent years and 
contained in the proposed FY 2014 budget for the Bureau of Indian 
Affairs and the Indian Health Service, Congress and the Administration 
should view these increases as new ``base funding'' and be held 
harmless from across the board cuts to programs that have been 
historically underfunded. Specific issues and needs are:
Department of Interior--Bureau of Indian Affairs
Public Safety & Justice
    The FY 2014 Budget request includes $363.4 million for BIA Public 
Safety & Justice. This represents a $19.9 million increase over the FY 
2012 enacted level, which is fully supported by the Puyallup Tribe. The 
$96.9 million for Tribal and BIA detention and corrections funding is 
of great importance to the Puyallup Tribe. Within this amount, $13.4 
million increase will be directed to fund staffing, training, 
operations and O&M costs at newly-constructed tribally operated 
detention facilities. While this increase is supported by the Puyallup 
Tribe, it is of concern that current and ARRA funded facilities will 
remain understaffed and underfunded. The Department of Justice funded 
13 tribes for the construction and/or expansion of detention 
facilities. According to the BIA Greenbook, five new or expanded 
facilities will become operational by the end of FY 2013, with 
additional facilities coming on-line in FY 2014. It is estimated that 
291 additional staff will be needed to operate these facilities. In FY 
2009, the Puyallup Tribe received a Department of Justice ARRA grant, 
in the amount of $7.9 million to construct a 28 bed adult corrections 
facility. The Tribe has addressed all special Terms and Conditions of 
the Grant Award, completed facility environmental documentation, 
design, executed final construction contracts and performed the 
Groundbreaking Ceremony on March 28th, 2013. The Project will be 
completed and be coming on-line by the end of the 2nd Quarter of Fiscal 
Year 2014. Over the past four years the Puyallup Tribe has been working 
closely with national and regional staff of the BIA-Office of Justice 
Services on identifying the future operating and staffing costs 
associated with the Puyallup Tribe's new adult corrections facility. We 
have submitted a P.L. 93-638 contract request to the BIA for Operations 
and Maintenance funding for the new facility, including Pre-Award, 
Start-up, Transitional funding, Staffing and O&M funding. We are 
requesting support from the Committee on our contract request to the 
BIA for O & M funding for the Tribe's Adult Corrections facility, 
estimated at $3.2 million annually. Further, the Puyallup Tribe 
requests the Committee support increasing funding for BIA Detention/
Corrections by $32.2 million to reflect actual funding need. In 
addition, we have submitted a P.L. 93-638 contract request to the BIA 
for Tribal Court funding, including pre-award and start-up funding. In 
FY 2012, the BIA was able to fund only one-third of actual need of pre-
award and start-up funding requests. We continue to encourage the 
Committee to support an increase in Tribal Court funding at $73.2 
million, an increase of approximately three times the FY 2012 base 
funding. Increased funding would be used for judges, prosecutors, 
public defenders, probation officers, court staff and development of 
diversion programs designed to reduce recidivism within the tribal 
judicial system.
Natural Resources Management
    The Puyallup Tribe as stewards for land and marine waters in the 
Usual and Accustomed fish, shellfish and wildlife areas has treaty and 
governmental obligations and responsibilities to manage natural 
resources for uses beneficial to the Tribal membership and the regional 
communities. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Native and 
non-Native fishermen and surrounding communities. Our resource 
management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, non-anadromous fish, shellfish and 
wildlife resources. Existing levels of support are inadequate to 
reverse the trend of resource/habitat degradation. For FY 2014, $9.613 
million is provided for BIA Western Washington Fisheries Management, a 
small increase over the FY 2012 enacted level of $8.256 million. As the 
aboriginal owners and guardians of our lands and waters it is essential 
that adequate funding is provided to allow tribes to carry-out our 
inherent stewardship of these resources. The Puyallup Tribe will 
continue to secure increased funding for Hatchery Operations and 
Maintenance. The President's FY 2014 budget contains $6.842 million for 
Tribal Hatchery Maintenance, compared to the FY 2012 enacted budget of 
$4.83 million and $1.85 million for Tribal Hatchery Operations, 
compared to the FY 2012 enacted budget of $1.6 million. The Puyallup 
Tribe supports the President's FY 2014 funding requests for Tribal 
Hatchery Operations and Maintenance. The Timber, Fish and Wildlife 
(TFW) Supplemental and U.S./Canada Pacific Salmon Treaty programs has 
allowed for the expansion of tribal participation in the state forest 
practice rules and regulations and participation in inter-tribal 
organizations to address specific treaties and legal cases, which 
relate to multi-national fishing rights, harvest allocations and 
resource management practices. We strongly support providing funding 
for the T.F.W. at the President's FY 2014 request of $3.082 million and 
U.S./Canada Pacific Salmon Treaty program funding at $4.844 million, an 
increase of $640,000 above the FY 2012 enacted level. The Puyallup 
Wildlife Management program has been the lead agency in management 
activities to benefit the South Rainier elk herd since 2004. The South 
Rainier elk herd is the primary stock of elk harvested by the Puyallup 
Tribe. The Tribe has not only established more reliable methods for 
population monitoring, but has also been proactive in initiating 
habitat enhancement projects, research and land acquisition to ensure 
sustainable populations of elk for future generations. Funds that are 
available to the Tribe have been on a very competitive basis with a 
limited amount per program via USFWS Tribal Wildlife grants and the BIA 
Unresolved Hunting and Fishing Rights grant program. The Tribe supports 
providing base funding to the Tribes Wildlife Management Program in the 
amount of $100,000 through the BIA Unresolved Hunting and Fishing 
Rights program in FY 2014 Appropriations.
Education
    The FY 2014 Budget requests funding of $802.7 million for the 
Education program, an increase of $7.2 million, less than a 1 percent 
increase above the FY 2012 enacted level. We operate the pre-K to 12 
Chief Leschi Schools which include a verified 2011-2012 School student 
enrollment of 910 + students, including ECEAP and FACE programs. With 
an increasing number of pre-kindergarten enrollment, Chief Leschi 
Schools will exceed design capacity in the near future. Additional 
education facility space will be required. The Puyallup Tribe is 
concerned and strongly disagrees with the proposed elimination of 
funding for the Replacement School Construction line item. We do not 
believe that the underfunded Facilities Improvement and Repair program 
will be able to address the growing need for new education facilities. 
Additional, the cost of operation and maintenance of the Chief Leschi 
School facilities continues to increase in the areas of supplies, 
energy and student transportation costs. The Tribe will work with 
Congress and the BIE to increase funding in FY 2014, including; Tribal 
Grant Support Cost for Tribally Operated Schools--$23 million above the 
FY 2012 enacted level; Replacement School Construction--$17.8 million; 
Student Transportation--$52.796 million; and Elementary and Secondary 
Programs--$526.4 million.
Operations of Indian Programs & Tribal Priority Allocations
    The President's FY 2014 budget is in drastic need for increased 
funding for the BIA Operations of Indian Programs. Within the 
Operations of Indian Programs is the Tribal Priority Allocations (TPA). 
The TPA budget functions include the majority of funding used to 
support on-going services at the ``local tribal'' level, including 
natural resources management, child welfare, other education, housing 
and other tribal government services. These functions have not received 
adequate and consistent funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases ``TPA'' has received over the past few years has not been 
adequate to keep pace with inflation. The Puyallup Tribe supports 
funding for the Operation of Indian Programs at the FY 2014 request of 
$2.183 billion and Tribal Priority Allocations at a minimum of $894 
million, an increase of $15.5 million above the FY 2012 enacted level. 
We further support an increase in funding for Indian Child Welfare 
(TPA) by $45 million; Increase Urban Indian Child Welfare programs by 
$15 million; and increase BIA Child Welfare Assistance by $55 million.
Department of Health and Human Services--Indian Health Service
    The inadequate funding of the Indian Health Service is the most 
substantial impediment to the current Indian Health system. The 
Puyallup Tribe has been operating healthcare programs since 1976 
through the Indian Self-determination Act, P.L. 93-638. The Puyallup 
Tribal Health Authority (PTHA) operates a comprehensive ambulatory care 
program to the Native American population in Pierce County, Washington. 
The current patient load exceeds 9,000, of which approximately 1,700 
are Puyallup Tribal members. There are no Indian Health Service 
hospitals in the Portland Area so all specialties and hospital care 
have to be paid for out of our contract care allocation. The contract 
care allocation to PTHA has been significantly inadequate to meet 
actual need since FY 2004 when the Puyallup Tribe subsidized Contract 
Health with a $2.8 million contribution. For FY 2013 the tribal subsidy 
had reached a staggering $6 million. Given that the PTHA service 
population is only comprised of 17 percent Puyallup Tribal members, 
Tribal budget priorities in FYs 2012 and 2013 have made continued 
subsidies to the PTHA financially difficult for the Puyallup Tribe. The 
FY 2014 Budget requests $5.5 billion in discretionary budget authority 
for the Indian Health Service. This represents a $116 million increase 
over the FY 2012 enacted level. For Health Services programs the FY 
2014 budget request is $4.43 billion, an increase of $112 million over 
the FY 2012 enacted level. Included within the increases are funding 
for Contract Support Costs ($477.2 million--$100 million short of 
actual need), Purchase/Referred Care ($878.5 million), IHS Facilities 
($448.1 million) and Alcohol and Substance Abuse funding ($196.4 
million). The Puyallup Tribe fully supports funding increases for 
existing IHS programs and will work with Congress to increase funding 
for IHS and the critical programs administered by this Agency. However, 
if the Congress and the President do not agree to an alternative to the 
existing sequestration, any increases to IHS funding in the FY 2014 
budget will be eliminated.
Sequestration
    Finally, it is the Tribe's sincere hope that the FY 2014 bill 
language remedy the drastic cuts to FY 2013 appropriations implemented 
under the sequester. As we have already stated, tribal programs have 
been historically underfunded-and this is in spite of the fact that the 
Federal Government maintains a sacred trust responsibility over Indian 
affairs. Should sequestration go into effect October 1, 2013, the 
proposed FY 2014 Interior Department could be reduced to $10.966 
billion, a $467.6 million decrease below the FY 2012 enacted level for 
the Interior Department, taking Indian Country and the Nation in the 
wrong direction. The across the board 5 percent cuts to already 
underfunded tribal programs will have devastating impacts on Indian 
Country and reverse or delay tribal efforts, such as my Tribe's, to 
improve our economies and the health and well-being of our Tribal 
members.
                                 ______
                                 
  Prepared Statement of Hon. Dennis Smith, Chairman, Shoshone-Paiute 
                    Tribes, Duck Valley Reservation
    Chairwoman Cantwell, Vice Chairman Barrasso, and members of the 
Committee, my name is Dennis Smith. I am the Chairman of the Shoshone-
Paiute Tribes of the Duck Valley Indian Reservation. On the Tribes' 
behalf, I am pleased to submit testimony concerning the FY 2014 Budget 
for the BIA, BLM and IHS.
    I am here today with a heavy heart. Earlier this month, my Tribe 
suffered a great loss. On April 4, 2013, my predecessor, Terry Gibson, 
walked on. He was only 52 and suffered a heart attack. He was a proud 
member of the Shoshone-Paiute Tribes and a strong defender of our 
sovereignty. He worked very hard to improve the health and spirit, 
education and economic condition of our Tribal members. That is where 
he devoted his considerable energies, including time here in 
Washington. We will carry on, but he will be deeply missed.
    I will focus my testimony on the following priorities, priorities 
that were important to Terry:

  <bullet> Support and build on the President's budget request and 
        increase funding within the Public Safety and Justice, Human 
        Services, Education, Indian Guaranteed Loan and Construction 
        accounts for BIA to adequately staff, operate and maintain 
        juvenile detention facilities, and support and increase the 
        President's budget for the IHS Services account so that Indian 
        tribes may better coordinate health, substance abuse, mental 
        health and related programs and services in such facilities 
        under the Tribal Law and Order Act, Violence Against Women Act 
        and related Federal laws.

  <bullet> Support an additional $1 million above the President's 
        request for the Bureau of Land Management to fund Tribal 
        cultural activities and to protect cultural sites and resources 
        important to the Tribes under the Owyhee Public Land Management 
        provisions of the Omnibus Public Land Management Act, Pub. L. 
        111-11, and support the President's FY 2014 Budget request to 
        fund our Water Settlement ($12 million) under the same Act.

  <bullet> Support an increase to Contract Support Costs (CSC) funding 
        within the IHS budget of $140 million above the President's 
        request;

  <bullet> Oppose the Administration's unilateral proposal to cut off 
        our contract support cost rights under the Indian Self-
        Determination Act (ISDA)--rights we currently hold in common 
        with every other government contractor in America.

    The Duck Valley Indian Reservation is a large, remote and rural 
reservation that straddles the Idaho-Nevada border along the east fork 
of the Owyhee River. The Reservation encompasses 450 square miles in 
Elko County, Nevada and Owyhee County, Idaho. Over 1,700 tribal 
members, out of 2,000 enrolled members, reside on the Reservation. 
Tribal members make their living as farmers and ranchers, though many 
are employed by the Tribes. Since the mid-1990s, we have contracted the 
duties of Bureau of Indian Affairs (BIA) and Indian Health Service 
(IHS) under Self-Governance compacts that we negotiated under the ISDA. 
We also carry out other federal programs on behalf of HUD and the 
Federal Highway Administration.
    We owe it to our members to provide them with a safe community with 
adequate programs, services and facilities to meet their needs. We are 
quite different from other communities as we do not have nearby 
localities to shore up services and programs when Federal 
appropriations are cut. The obligations of the United States to the 
Nation's federally recognized Indian tribes are not discretionary acts 
by the United States; these obligations are a direct product of the 
trust responsibility arising from our treaties, as well as statutes, 
executive orders, and Federal court decisions that protect and 
strengthen tribal governments and our members.
Sequestration
    I am very concerned about sequestration because it dishonors the 
Federal trust responsibility. This year, Indian tribes are taking a 
hard hit. Our Federally-funded programs--which do not have enough money 
to begin with -are hit with a 5 percent sequestration cut. This is 
money we cannot replace. We do not have a tax base, and when our ISDA 
monies are cut, we lose other matching funds and third party 
collections. If Congress does not replace sequestration by October 1, 
2013, larger cuts will wipe out the President's proposed FY 2014 
funding increases, and drop our funding levels below FY 2012 levels. 
Already we see the early retirement of many Federal agency personnel 
who are not being replaced. How does the Federal Government honor the 
trust responsibility when no one answers the phone or returns an email?
    1. Fund the Owyhee Initiative. The Owyhee Initiative is a joint 
effort by ranchers, recreationalists, County and State officials, and 
the Shoshone-Paiute Tribes to protect, manage and appropriately use 
Bureau of Land Management (BLM) administered lands in Owyhee County, 
Idaho by designating the lands Wilderness Areas and the waters Wild and 
Scenic Rivers. In 2009, Congress passed the Omnibus Public Land 
Management Act of 2009, Pub. L. 111-11. Our subtitle of that Act is the 
Owyhee Public Land Management ( 1501-1508); another is our Water 
Settlement ( 10801-10809). We are about to exhaust non-recurring 
funding and require $1 million to support important cultural resource 
protection activities.
    One of the objectives of the Owyhee Initiative is to allow the 
Tribes to protect cultural and religious sites located on BLM lands in 
Owyhee County through coordination with BLM and County officials, and 
to permit the Tribes to gather native plants for food or ceremony and 
to hunt and fish on these lands as we once did. Section 1506 of the 
Omnibus Act requires the Secretary of the Interior to coordinate with 
the Shoshone-Paiute Tribes to implement our Cultural Resources 
Protection Plan, and to enter into agreements with us to ``protect 
cultural sites and resources important to the continuation of the 
traditions and beliefs of the Tribes,'' and to share in the management 
of cultural resources. Section 1508 authorizes such sums ``as are 
necessary.'' With $250,000 in non-recurring funding that we received 
from BLM in 2010, and an additional $500,000 in non-recurring funding, 
we purchased equipment (pickup trucks, an ATV, a UTV and two airplanes, 
a Cessna 150 (2-seater trainer) and a Cessna 182 (4 seater), which we 
hanger outside Boise, to patrol the wilderness lands and notify BLM 
when we see activities near sacred sites. We hired a Chief Tribal 
Ranger (the former Owyhee County Sheriff) and Tribal Cultural Director. 
Owyhee County and Owyhee Initiative officials support our efforts. Due 
to lack of funds, our activities have been severely curtailed.
    It was Terry's wish to fund a Reserve Ranger Program for Tribal 
youth this summer, so that Tribal youth could experience the wilderness 
areas, be educated about the importance of these lands to the Tribes, 
let them gather native plants for ceremonies, and enhance their 
understanding and appreciation of the Shoshone-Paiute people, our 
traditions and culture. In his last visit here, he asked for help to 
fund the Youth Ranger Program with FY 2013 funds. The FY 2014 Budget 
includes a $1.5 million increase in the Wildlife Management Program and 
$1.3 million increase in the Soil, Water, and Air Management to support 
BLM's Youth in the Great Outdoors program. The Reserve Ranger Program 
was Terry's way to help Tribal youth connect to their roots. Please 
support additional funding to appropriate programs within the BLM, BIA 
and Fish & Wildlife budgets to support Shoshone-Paiute cultural 
programs and activities under the Owyhee Initiative and make Terry's 
wish come true.

    2. Duck Valley Juvenile Services Center. Infrastructure is in short 
supply on the Duck Valley Reservation. Due to a black mold infestation, 
we must replace our Tribal government buildings at a total estimated 
cost of $15-$16 million (2012 dollars). We now work out of trailers. To 
make the project affordable, we have divided the project into six 
phases. We are also renovating the Duck Valley Juvenile Services 
Center, a secure, detention and treatment facility, our first youth 
detention/treatment facility on the Reservation. We were selected by 
the BIA this year to participate in a pilot project under the Tribal 
Law and Order Act to design and implement best practices to deliver 
appropriate serves to incarcerated Tribal adults and juveniles. 
However, both program and construction funds are inadequate. We need 
help to finance construction to build infrastructure on the Duck Valley 
Reservation. We oppose the President's cuts and ask for increases for 
BIA Construction (cut $17 million), Federal loans/guarantees, and IHS 
Mental Health ($80 million), Alcohol & Substances Abuse ($196 million) 
and Purchased/Referred Care programs.
    As for construction, very few projects in Indian country can be 
built or reconstructed with only BIA or IHS construction funds alone. 
And when they are built, and certificates of occupancy issued, it is 
critical that staffing, operation and maintenance funds be available to 
us so that the facilities open and operate and do not sit idle. It is 
therefore critical that Congress increase funding in the FY 2014 Budget 
for the BIA's Public Safety and Justice, Human Services, Education, 
Indian Guaranteed Loan and Construction accounts, and IHS and other 
DHHS programs to ensure that agency funds are available to permit 
Indian tribes to deliver all required program services in a 
comprehensive manner. This is especially important for juvenile 
facilities.
    We are 140 miles south of Boise, Idaho, and 98 miles north of Elko, 
Nevada. Poverty and unemployment are widespread. As a result, some of 
our members struggle with alcohol and substance abuse, including our 
youth. For over a decade, it has been our goal to construct a secure, 
juvenile detention and treatment service center on our Reservation, 
rather than having our young members sent hundreds of miles to non-
Indian detention facilities, far from home, family and culturally 
appropriate treatment. These transports also remove BIA law enforcement 
officers from the Reservation, which contributes to crime and delayed 
response times.
    Next month, we will put out to bid the renovation of our existing 
Duck Valley Juvenile Services Center. When built, it will provide a 
modern and safe 19-bed youth detention and treatment facility so that 
Tribal youth can be housed on the Reservation. We were selected by the 
BIA for a pilot program (to provide for a much needed improvement of 
juvenile treatment service) under the Tribal Law and Order Act to 
design and implement best practices to deliver appropriate services to 
incarcerated Tribal adults and youth. But Federal funding is inadequate 
to help coordinate Tribal, BIA, BIE, IHS, Justice Department and DHHS's 
Substance Abuse and Mental Health Services Administration (SAMHSA) 
stakeholders, and to implement these programs for adult and youth 
offenders. Secretarial-level Memoranda of Agreements between Justice, 
IHS and BIA will not work at the project level when there are 
insufficient funds appropriated to the agencies and Tribes to deliver 
well-coordinated programs and services.
    IHS personnel have not been sufficiently engaged to coordinate 
substance abuse, mental health and related health services for 
incarcerated adult and youth offenders. SAMHSA officials are taking a 
lead with BIA Law Enforcement officials, but a scheduled meeting on the 
Reservation was postponed due to sequestration cuts. We need additional 
health resources to recruit, hire and house substance abuse and mental 
health counselors to treat Tribal youth when the detention facility 
opens, as well as to house detention and law enforcement personnel. 
Only by pooling available resources in a coordinated manner can we halt 
and treat the behavioral issues that contribute to the cycles of 
substance abuse, crime and recidivism on our Reservation.
    We support the President's proposed increases of $17.8 million for 
Public Safety and Justice, including $13.4 million to staff newly-
constructed detention facilities; we oppose $10 million cuts to the 
Human Services and construction budgets, which could fund more domestic 
and child abuse programs, especially with enactment of VAWA. We oppose 
the elimination of the BIA HIP Program ($12 million cut) as housing is 
in short supply on the Reservation.

    3. Contract Support Costs. This Committee understands the 
importance of CSC to tribal governments. The President's Budget for FY 
2014 again provides far too little for CSC funding for IHS. By not 
paying the full CSC amount, IHS forces us to cut program services or 
cut staffing to pay our fixed administration costs. This only penalizes 
the people we serve. At last count, we were underpaid over $600,000 in 
CSC funding--a huge sum in lost health care in our small community.
    The IHS (and the BIA) would compound the problem for FY 2014. 
First, IHS has requested only $477 million when it admits it needs at 
least $617 million to honor all contracts. Second, the IHS and BIA 
propose to individually cap FY 2014 payments of each tribe, meaning we 
would lose all the damage claims we have under existing law for the 
underpayments. This irresponsible and radical idea was developed in 
secret and without any prior tribal consultation whatsoever. We have 
already accumulated $3,154,312 in past losses, following the $4 million 
settlement of our original claims in the Cherokee--Shoshone-Paiute 
Supreme Court 2005 litigation; why in the world would we agree to allow 
the government to repeat past travesties?
    Over a decade ago, I walked the halls of Congress to increase CSC 
funding for Indian tribes. We were among the first to file suit against 
the United States. We won in the Supreme Court, with a ruling that our 
self-governance compacts are every bit as solid as any other government 
contract. It is bad enough that tribal contractors are the only 
government contractors that are regularly underpaid; it would add grave 
insult to that injury to now cut off all recourse in the courts-
especially if the only reason is that we are Indians. This 
Administration is bound by its obligations to consult with Indian 
tribes before making policy changes that impact tribes. This Committee 
should oppose the Administration's CSC proposal and insist that the BIA 
and IHS consult with Indian tribes first before changing in any manner 
the means by which CSC funds are paid to tribes. Thank you.
                                 ______
                                 
Prepared Statement of Hon. Joseph Pavel, Vice-Chairman, Skokomish Tribe 
                          of Washington State
    I am Joseph Pavel, Vice-Chairman of the Skokomish Tribe of 
Washington State. I would like to thank the Committee for the 
opportunity to present testimony on the President's 2014 budget 
regarding American Indian/Alaska Native programs within the Interior 
Department, Indian Health Service and Environmental Protection Agency. 
The Skokomish Indian Tribe is responsible for providing essential 
governmental services to the residents of the Skokomish Indian 
Reservation, a rural community located at the base of the Olympic 
Peninsula with a population of over 2,000 people, including 
approximately 700 Tribal members. The Tribe provides services through 
various departments--Tribal Administration, Community Development, 
Information Services, Early Childhood Education (including Head Start), 
Education, Health Clinic, Housing, Legal, Natural Resources, Public 
Safety, Public Works, and Tuwaduq Family Services. The Tribal 
government also works closely with community members to identify needs 
and prioritize services. Adequate federal funds are critical to the 
Tribe's ability to address the extensive unmet needs of our community.
I. Bureau of Indian Affairs
Law Enforcement
    We support the President's proposal to increase funding for BIA 
Public Safety and Justice Programs. The Skokomish Department of Public 
Safety (SDPS) provides 24/7 law enforcement services for the Tribe. 
SDPS is responsible for patrolling and enforcing justice both within 
the Tribe's 5,300-acre Reservation, and throughout the Tribe's 2.2 
million-acre Treaty area where the Tribe has Treaty-protected hunting, 
fishing and gathering rights. SDPS currently has a Chief of Police, 7 
full-time officers, and 1 part-time officer. Despite SDPS's best 
efforts, it cannot meet all of its responsibilities unless staffing is 
increased.
    Officers respond to all manner of calls for police services 
including a wide range of felonies and misdemeanors. They patrol both 
land and water in Hood Canal Basin, enforcing Tribal laws, treaty 
rights, court orders, and federal and state statutes. Staff is 
stretched thin. In addition to its primary responsibilities in 
patrolling the Reservation and the usual and accustomed areas where 
Tribal members make their living fishing and hunting, the SDPS performs 
other necessary duties. For example, the SDPS officers (who are cross-
deputized) assist the Mason County Sheriff's Office and the Washington 
State Patrol. The SDPS is also tasked with first response in the event 
of a natural disaster or emergency management situation.
    But with only 4 officers available for day-to-day patrol duties, 
individual officers often work alone. Understaffing exposes both the 
community members in need of assistance and SDPS officers to undue 
danger. Unfortunately, this is SDPS's reality. To meet mandated 
responsibilities, staffing must be increased. Vacancies due to illness, 
training and other leave force the Chief of Police to handle patrol 
duties. Budget limitations severely restrict overtime. Often gaps in 
shift coverage go unfilled relying on an ``On Call'' response. This 
gravely increases the risk to the safety of the community and creates 
service gaps affording opportunities for increased criminal activity. A 
memorandum of understanding with the Mason County Sheriff's Office 
helps to fill some of these gaps on an as-needed basis. However, the 
costs are significant and there are times when a Deputy simply is not 
available.
    The SDPS strives to get the most from every dollar spent and is 
constantly working to improve in every aspect. An outdated Records 
Management System (RMS) was recently replaced. The new RMS will provide 
more succinct statistical crime data and will be instrumental in the 
proactive deployment of SDPS personnel. A new community policing plan 
is also in place, as well as a new training plan. But because of 
limited funds, progress is slow.
    Today, the Skokomish Reservation faces many of the same issues as 
other communities. Domestic violence and substance abuse critically 
impact the Tribe. The Skokomish Tribe also hosts visitors from the 
surrounding communities as well as a large tourist trade. This is the 
avenue through which narcotics are brought into the Reservation. With 
the drug trade comes many other associated undesirable issues--theft, 
burglary and poaching, to name a few. There is a sense of helplessness 
in the community, resulting in crimes often going unreported. SDPS does 
not have the resources to effectively stem the tide of this illicit 
activity.
    In order for the Skokomish Tribe to ensure safety, service and 
protection of the community, an immediate and dramatic increase in 
staff is needed. To properly carry out its responsibilities SDPS needs 
another 7 officers. Dedicated resources for investigations, community 
policing and crime prevention alone require a minimum of 3 additional 
officers. The Tribe simply cannot provide these resources so necessary 
for the protection of our community without the additional funding 
assistance of the Federal Government.
Tribal Court
    The Skokomish judiciary handles a high volume of cases relative to 
our community's population. The Court currently has over 262 open 
criminal, civil, and family court cases. The Skokomish Tribal Court is 
in the midst of a major restructuring project as a result of the 
Tribe's unwavering commitment to providing meaningful access to justice 
for all of its community members. Specifically, the Tribe has recently 
begun providing public defense services to its Tribal members who are 
facing criminal charges. In addition, the Tribe has recently recruited 
a new prosecutor, probation officer, and a pool of Tribal Court judges 
who are actively working to encourage alternatives to incarceration, 
while reducing criminal recidivism.
    We support the President's proposal to increase funding for Tribal 
Courts, but the increase proposed is not enough. To protect the tribes 
from the adverse impacts of sequestration and the demands on our 
courts, Congress must increase funding substantially so that the Tribal 
Court in cooperation with the Public Safety Department can continue its 
momentum in improving our judiciary to reflect the needs and values of 
the Skokomish community. This includes fully implementing the Tribe's 
retrocession from Public Law 280, consistent with the standards for 
implementation of the Tribal Law and Order Act of 2010, and ensuring 
that our most vulnerable community members are fully protected through 
proper implementation of the newly amended Violence Against Women Act.
Natural Resources
    We strongly support the President's proposal to increase funding 
for Trust-Natural Resources Management programs by $34.4 million over 
FY 2012 levels. Increased funding to foster sustainable stewardship and 
development of natural resources and support fishing, hunting and 
gathering rights on and off-reservation, is essential to our people who 
depend on natural resources for their livelihood.
    For example, the Pacific Salmon Treaty grant supports the Tribe's 
federally mandated salmon sampling program. Throughout the entire 
salmon season, and to ensure proper management of the resources, we 
must collect scale and coded-wire tag samples from Chinook and Coho, 
and scale samples from Chum on 20 percent of our catch. This 
information is used to determine run size and allows fisheries managers 
to properly structure the fisheries. Current funding levels have been 
sufficient to achieve this goal; however, with sequestration, we are 
facing cuts in FY 2013. Without proper funding for this program, it 
will become very difficult, if not impossible, for the Tribe to ensure 
the safety of ESA-listed salmon which may result in a loss of a Treaty-
reserved resource and our members' ability to support themselves from 
that resource. We support an increase to the current level of funding 
for this vital program.
    Hatchery cyclical maintenance funds are also invaluable for 
supporting the Federal Government's investment in tribal hatcheries. 
Most tribal hatcheries are underfunded and each year brings more decay 
to the facilities. Here too, adequate funding for hatchery maintenance 
is imperative to prevent these important pieces of the salmon 
restoration puzzle from crumbling away. Because of habitat destruction, 
the only reason we continue to have salmon for Treaty-harvest 
activities is the operation of salmon hatcheries. The main pillar of 
this all important Treaty right cannot take a reduction in funding.
    Five years ago the Tribe was able to cobble together a wildlife 
program consisting of one biologist and one technician. The program is 
partially funded by Timber, Fish, and Wildlife funds of about $95,000; 
the Tribe supplements the program with an additional $35,000. The 
Tribal program needs additional funding to staff three dedicated 
wildlife enforcement officers who will not only enforce the Tribe's 
regulations, but ensure that poaching of the Tribe's wildlife resources 
does not occur from outside entities who sometimes fail to recognize 
the Tribe's Treaty rights. Sequestration will make it all but 
impossible for us to continue to properly manage our resources. We 
support additional funding in the amount of $240,000, so we will have 
stable funding for a complete wildlife program.
Transportation
    The Moving Ahead for Progress in the 21st Century (Map-21) bill was 
enacted in July 2012. The legislation requires that federal grant funds 
be awarded through State DOTs. In the past, we had the option of 
receiving funding through the BIA as a 638-contract. We are finding 
with our two current Scenic Byways grants that going through the State 
DOT costs more and the projects take twice the amount of time to 
complete. The Tribe would like to see an amendment to MAP-21 that 
reinstates our right to either directly receive funds or have the funds 
come through the BIA.
II. Indian Health Service
    The Skokomish Tribe supports the President's proposal to increase 
funding for the Indian Health Service. We have a Tribally-operated 
Ambulatory Health Center located in a relatively remote geographic area 
and continue to face financial barriers to the effective provision of 
health care services. Our Contract Health Service (CHS) funds are 
insufficient to meet needs and we urge that federal funds be increased 
in light of the rising cost of health care and the serious health 
issues our patients face such as cancer, diabetes, and heart disease.
    Among the problems are the increases we are seeing in oral health 
costs on the Reservation. Federal funding has not kept pace. Dental 
problems are common among low income households and drug users. In many 
instances, when dental problems are finally dealt with they require 
specialized dental care, which the Tribe lacks resources to provide. 
Further compounding the problem is if our CHS funding is spent, Tribal 
members without dental insurance are more likely to forego the 
necessary specialized dental care. Instead, we are seeing an increase 
of individuals with oral health issues seeking alternative relief 
through over-the-counter analgesics or visiting the emergency room of 
the local hospital. Since emergency rooms are not staffed for dental 
treatment, Tribal members are given narcotics to control their pain, 
but the need for treatment still remains. Poor oral health can lead to 
negative effects on general health. With an already stretched CHS 
budget here at Skokomish we are in need of funding to address the rise 
in negative health care costs.
    The increase in oral health care problems further confirms the 
extensive on-going health problems arising from substance abuse. 
Federal funds are needed not only for drug and alcohol treatment, but 
also to address the medical and dental needs that the addiction has 
caused.
    In addition, related to mental health, we have identified a need 
for a youth mental health facility. While there are youth substance 
abuse treatment facilities, there are no facilities available to treat 
mental health issues for youth who do not have any substance abuse 
issues. We urge Congress to direct the IHS to report on its effort to 
develop a youth behavioral health facility to meet the growing mental 
health needs of our Native youth.
III. National Park Service, Tribal Historic Preservation Programs
    In 1995, Congress began encouraging tribes to assume historic 
preservation responsibilities as part of self-determination. These 
programs conserve fragile places, objects and traditions crucial to 
tribal culture, history and sovereignty. As was envisioned by Congress, 
more tribes qualify for funding every year. Paradoxically, the more 
successful the program becomes, the less each tribe receives to 
maintain professional services, ultimately crippling the programs. In 
FY 2001, there were 27 THPOs with an average award of $154,000. 
Currently there are 141 tribes operating the program, each receiving 
less $51,000. We fully support the President's proposal to increase 
funding for the Historic Preservation Fund.
IV. Environmental Protection Agency
    EPA has long lacked sufficient funds for State and Tribal 
Assistance Grants (STAG). These funds provided grant money for a 
wastewater treatment plant. We still need approximately $12 million to 
fully build our core Reservation plant. The President's FY 2014 budget 
would reduce funding for some STAG grants with small increases to 
others. We support an increase in funding for these grants as that 
would be a tremendous benefit to the tribes.
V. Contract Support Costs--BIA and IHS
    We are very concerned that the President's proposed budget would 
cap contract support costs for tribally contracted services with the 
BIA and IHS in this and future years. We urge this Committee to support 
fully funding all contract support costs and to encourage BIA and IHS 
to resolve all outstanding contract support costs claims.
Conclusion
    The Tribe thanks the Committee for the opportunity to present 
testimony on these important issues.
                                 ______
                                 
 Prepared Statement of Dr. Donna Galbreath, Medical Director--Quality 
                   Assurance, Southcentral Foundation
    Southcentral Foundation (SCF) is a tribal organization that 
compacts with the Secretary of Health and Human Services under Title V 
of the Indian Self-Determination Act. Under SCF's compact we carry out 
various Indian Health Service programs across our region. SCF acts 
pursuant to tribal authority granted by Cook Inlet Region, Inc., an 
Alaska Native regional corporation designated by Congress as an Indian 
Tribe for purposes of Indian Self-Determination Act activities. Once 
again, SCF requests that in FY 2014 Congress (1) fully fund our Mat-Su 
Clinic joint venture staffing requirements, as required by our joint 
venture contract agreement with IHS since last year, and (2) fully fund 
SCF's and all other contract support cost requirements at $617 million, 
as the Supreme Court and other courts required last year.
    For more than 25 years SCF has carried out IHS programs under Self-
Determination Act agreements. In accordance with its self-governance 
compact with the Department of Health and Human Services, SCF currently 
provides medical, dental, optometric, behavioral health and substance 
abuse treatment services to over 45,000 Alaska Native and American 
Indian beneficiaries living within the Municipality of Anchorage, the 
Matanuska-Susitna Borough, and nearby villages. SCF also provides 
services to an additional 13,000 residents of 55 rural Alaska villages 
covering an area exceeding 100,000 square miles and larger than the 
State of Oregon. Finally, SCF provides statewide tertiary OB/GYN and 
pediatric services for 110,000 Alaska Native people. To administer and 
deliver these critical healthcare services, SCF employs over 1,400 
people.
    Today I will focus my remarks on two issues, joint venture funding 
and contract support cost funding.
1. Joint Venture Funding
    The first issue I need to address concerns our joint venture (JV) 
contract with IHS. Under Section 818(e) of the Indian Health Care 
Improvement Act, IHS is authorized to enter into JV contracts under 
which: (a) a Tribe borrows funds to build a facility to IHS 
specifications, and (b) IHS agrees ``to provide the equipment, 
supplies, and staffing for the operation and maintenance of such health 
facility.'' The agreements are contracts; they are enforceable as 
contracts.
    Three years ago SCF and IHS entered into a binding joint venture 
contract. SCF agreed to construct a new 88,451 square-foot Primary Care 
Clinic in the Mat-Su Valley of Alaska, using borrowed funds from non-
IHS sources. In return, IHS agreed that it ``shall provide the supplies 
and staffing for the operation and maintenance of the Facility . . . 
subject to appropriations by the Congress.'' At the same time, IHS only 
agreed to fund 85 percent of our staffing requirements, explaining 
that, on average, IHS facilities are only funded at 85 percent of their 
need. See Art. VIII.A. See also Art. VIII.G (``IHS will staff, operate 
and Maintain the Facility in accordance with Articles XI through XIV of 
this Agreement.''); Art. XI (``As authorized by Section 818(e)(2) of 
P.L. 94-437 (``subject to the availability of appropriations for this 
joint venture project, commencing on the beneficial occupancy date IHS 
agrees to provide the supplies, and staffing necessary for the 
operation and maintenance of the Facility. The IHS will request funding 
from Congress on the same basis as IHS requests funding for any other 
new Facility.'')
    Last July we received our certificate of beneficial occupancy. IHS, 
in turn, provided $2 million of our $27 million annual staffing 
requirement. We appreciate IHS's action, since IHS had not anticipated 
SCF opening our doors in FY 2012. But now we have been operational all 
of FY 2013, at an IHS-calculated staffing need of $27 million. Yet, in 
FY 2013, IHS's Budget only requested 50 percent of the Clinic 's 
staffing requirement ($13.5 million).
    But, we must be perfectly frank with the Committee: the amount and 
timing of this payment have caused severe cutbacks in Clinic 
operations. Since we remain $12 million short in Clinic funding--
remember, that is at the IHS 85 percent funding level--SCF has only 
been able to provide about 50 percent of the medical service capacity, 
30 percent of wellness and physical therapy services, only minimal 
behavioral health services, and nothing in the way of dental, lab, 
optometry, audiology, OB-GYN, pediatrics, home health care, or 
specialty clinics. Three-quarters of the Clinic has not been operated 
this fiscal year, though we expect that to improve when this year's 
funds arrive. Once those funds arrive, we will be able to begin to 
expand existing services as originally intended. Still, most of the 
Clinic will remain unused.
    It appears the President's Budget request is still insufficient to 
fully fund SCF's Clinic with the remaining $12 million that is due, 
even two years late, in 2014. The Budget request is insufficient and 
does not honor the joint venture contract under which we built it. It 
is legally and morally wrong.
    Our message is simple: Before IHS requests, and before Congress 
funds, discretionary increases in other IHS accounts--even an important 
account like Contract Health Care (which in recent years has already 
seen a 40 percent increase)--discretionary increases should be 
suspended until IHS honors its contracts and pays its staffing packages 
in full.
2. Contract Support Cost Funding
    The second problem is the Budget's inadequate request for contract 
support cost funding--another contractually required payment to self-
governance Tribes like SCF.
    The Budget requests an insignificant CSC increase for FY 2014: 
bringing the total to $477 million. This is the case, despite 
projections that the total requirement in FY 2014 is $617 million. 
Worse yet, IHS is defying the Supreme Court's Salazar vs. Ramah 
decision: IHS is imposing a cap on contract payments to each contractor 
when no caps have ever existed in those payments, reaching back to 
1975. This would be a radical change in the law. Worse yet, we don't 
even know what those caps will be for us--everything is being done in 
secret, and won't be known until long after the appropriation is 
finalized and we are already performing our contracts.
    If IHS is going to underpay us, we should at least have the right 
to go to Court to vindicate our contract rights. This is how it has 
always been. To now cap our contract by statute is to essentially kill 
the principal of tribal self-governance and convert us into grantees--
an enormous step backward in the Nation's dealings with Indian tribes. 
It is a radical step back, and one we are confident this Committee 
would never support.
    Contract support cost funding reimburses SCF's fixed costs of 
running its contract with IHS. If IHS fails to reimburse these costs, 
SCF has no choice but to cut positions, which in turn cuts services, 
which in turn cuts down on collections from Medicare, Medicaid and 
private insurers, which in turn cuts off even more staffing and 
services for our people. The reverse is also true. When in FY 2010 
Congress appropriated an historic increase in contract support cost 
funding (thanks to this Committee's leadership), SCF opened 97 
positions to fill multiple healthcare provider teams and support staff.
    Our fixed contract support costs are largely ``indirect costs.'' 
Those costs are set by the IIHS Division of Cost Allocation. The 
remainder of our contract support costs (about 20 percent) are set 
directly by IHS. These costs include federally-mandated audits, and 
such items as liability and property insurance, workers' compensation 
insurance, and payroll and procurement systems. We have to buy 
insurance. We need to make payroll. We have to purchase supplies and 
services. We have to track property and equipment. All of these costs 
are independently audited every year by Certified Public Accountants, 
as required by law.
    SCF's contract support cost shortfall in FY 2014 will be $8.95 
million, including the cost of operating the new Clinic ($5.1 million) 
on top of our existing contract support cost shortfall ($3.85 million). 
The loss of almost $9 million in contract support costs, plus the 
remaining $12 million in new Clinic staff funding, totals $21 million. 
That is well over 150 health care positions.
    This Committee has always supported fully funding contract support 
cost requirements. The Supreme Court agreed with this Committee. Yet, 
the IHS budget justification reflects the view that these contracts are 
not binding at all, and are just another priority to be balanced 
against something else.
    No other government contractors are treated this way. IHS only 
treats its contracts with Indian tribes this way--as optional, 
discretionary agreements that it can choose to pay or not to pay. We 
provide a contracted service for a contracted price, but IHS only pays 
us what it chooses to pay. That is not the law, and this Committee 
should oppose IHS's effort to rewrite the law.
    In fiscal year 2014 IHS should finally pay its contract obligations 
in full, even if this means forgoing other increases, and even if this 
means cutting IHS's internal bureaucracy. Either the contract support 
cost line-item should be fully funded at $617 million, or the capped 
contract support cost earmark should be eliminated altogether (as was 
the case prior to 1998). The Committee should certainly oppose the 
Administration's shocking new proposal to cap individual contracts. 
This way, remedies will be preserved by existing statutory law in 
instances where contractors suffer contract underpayments.
    As SCF has said here before, underfunding contact support costs 
disproportionately balances budgetary constraints on the backs of 
tribal contractors. Worse yet, it punishes the people being served by 
forcing reductions in contracted programs. If Congress is going to cut 
budgets or limit increases, fairness demands that such actions occur in 
those portions of the budget that are shouldered equally by IHS and the 
tribes (as sadly occurred with the sequester). Tribes should not 
shoulder the full burden of a cut.
    Again, SCF respectfully calls upon Congress in FY 2014 to eliminate 
all existing caps on contract payments. Alternatively, SCF respectfully 
calls upon Congress to provide $617 million in contract support cost 
funding. Every Tribe has contracts with IHS to carry out some of the 
agency's healthcare services, and most are still being penalized for 
taking that initiative. Closing the contract support cost gap will 
eliminate that penalty and directly benefit the vast majority of Indian 
and Alaska Native communities served by IHS.
3. Data Disclosure
    On a related note, SCF requests that Congress direct IHS to resume 
promptly disclosing to tribes and to Congress all IHS data on contract 
support cost requirements and payments. Up until 2011, IHS disclosed 
such information to the tribes, albeit informally. Then suddenly IHS 
stopped--because IHS was embarrassed by errors in its data. IHS claims 
the data is protected from disclosure until it is approved by the 
Secretary. But, the Secretary then holds the report back from Congress 
for years. The fiscal year 2011 data is now one year late, even by 
IHS's own calculations. The FY 2009 data was two years late. The 2014 
Budget keeps secret the agency's projected total CSC requirement.
    Contract support cost appropriations belong to the tribes. Tribes 
have a right to know what is happening to these funds on a timely 
basis. So does this Committee. We therefore respectfully urge that the 
Committee eliminate all privileges against disclosure of IHS data if 
that data is not timely released to Congress under existing law. This 
way, the Committee can properly hold the agency accountable.
    Thank you for the opportunity to testify on behalf of the 
Southcentral Foundation and the 58,000 Native American people we serve.
                                 ______
                                 
Prepared Statement of Charles Clement, President/CEO, SouthEast Alaska 
                       Regional Health Consortium
    My name is Charles Clement and I am the President and CEO of the 
SouthEast Alaska Regional Health Consortium (SEARHC). Chairwoman 
Cantwell, Vice Chairman Barrasso, and members of the Committee, it is a 
pleasure to provide this testimony to the Committee.
    I have been involved in the provision of Alaska Native health care 
for over 15 years. Prior to my employment at SEARHC I worked for the 
Southcentral Foundation in Anchorage, Alaska, as the vice president/
chief operating officer; vice president--operations; director of 
information technology/chief information officer; and special assistant 
to the president. I have been the President/CEO of SEARHC for over a 
year, and am continually amazed at the positive impact our tribal 
consortium has on the health of Alaska Natives.
    SEARHC is an inter-tribal consortium of 18 federally-recognized 
Tribes situated throughout the Southeast panhandle of Alaska. Our 
service area encompasses over 35,000 square miles, an area larger than 
the State of Maine. With no road system connecting our communities, the 
challenges to deliver robust health services are considerable.
    SEARHC meets these challenges through a network of community 
clinics anchored in the Mt. Edgecumbe Hospital. Our services include 
medical, dental, mental health, physical therapy, radiology, pharmacy, 
laboratory, nutritional, audiology, optometry and respiratory therapy 
services. We also provide supplemental social services, substance abuse 
treatment, health promotion services, emergency medical services, 
environmental health services and traditional Native healing.
    We administer over $42 million in IHS facilities and related 
programs and services, and average over 115,000 patient encounters each 
year. These are federal services, which we operate on behalf of the 
Federal Government, through a self-governance compact and associated 
funding agreement.
    To carry out IHS programs under this contract requires us to incur 
many fixed costs, including a number of costs mandated by the Federal 
Government. These costs include substantial annual audit costs, 
insurance costs, and an array of administrative costs to operate our 
personnel and financial management systems.
    Only a small portion of these contract support costs are covered in 
the direct service budget which IHS contracts to pay. This is because 
IHS either does not incur these costs at all (in the case of audit 
expenses and insurance costs,) or because IHS receives resources to 
carry-out these functions from other parts of the Government, including 
other DHHS divisions, and even other departments of the Federal 
Government. Still, these are mandatory fixed costs which SEARHC must 
incur every year. Each year the DHHS Division of Cost Allocation, 
Western Field Office sets these costs for SEARHC, and under our 
contract and the law, IHS is then required to pay them--in full.
    But IHS does not pay these costs in full. It does not even budget 
to pay them in full. In fact, it is never even clear how much IHS will 
honor under the contract until the contract is already performed. Even 
this year--nearly half way through the year--we have no idea what IHS 
will pay us.
    SEARHC has no tax base. Most Tribes have no tax base. Therefore, 
the only way for SEARHC to make up for the difference is to divert 
resources that would otherwise support the delivery of services. Every 
year this shortfall severely impacts our ability to serve the Alaska 
Native community. What is worse is that in no other area of government 
contracting does the United States fail to pay its contractors in full.
    SEARHC is a member of the National Tribal Contract Support Cost 
Coalition, and we fully endorse the NTCSCC's testimony. Full funding of 
contract support costs in FY 2014, at a $99 million increase above the 
President's request, would honor SEARHC's contract and stop the 
bleeding of direct service funds to compensate for IHS's contract 
support cost shortfalls.
    One final word. It has been nine years since the Supreme Court 
required the Government to honor its self-determination contracts with 
tribal healthcare providers. That was the landmark case of Cherokee 
Nation v. Leavitt. It has now been ten months since the Court 
reaffirmed that decision in the Ramah Navajo and Arctic Slope cases. In 
light of those decisions it is stunning that IHS would dare to defy the 
Court, and dare to overtly discriminate against Indian tribal 
contractors, by now suggesting a new strategy for avoiding its 
liability. If IHS devoted a fraction of the time it spends trying to 
avoid its contract obligations to instead meeting those obligations, we 
would not be here.
    But one thing is clear: We have a deal with Congress and with IHS, 
and now is not the time to unilaterally change it. Our contracts, and 
the law under which they are executed, require IHS to pay us for the 
work we do--not to pay us in part but in ``full''. That is what the law 
says. ``Full.'' The law also says we can file a claim with IHS if 
payments fall short. We absolutely oppose IHS's insertion of new 
appropriations language to unilaterally change our contracts and 
unilaterally change the law by insulating IHS from any future liability 
for its underpayments. It is a shocking reaction-in-avoidance to 
multiple losses in the courts. It is insulting to Indian people and 
tribal governments. And it is just plain wrong.
    I thank you for the opportunity to provide testimony to the 
Committee on these important matters.
                                 ______
                                 
  Prepared Statement of Frank White Bull, Tribal Councilman, Standing 
                            Rock Sioux Tribe
    On behalf of the Standing Rock Sioux Tribe, I submit testimony 
concerning the President's FY 2014 budget for the American Indian/
Alaska Native programs within the Department of the Interior and Indian 
Health Service. I would like to express our appreciation to this 
Committee for its support of Indian tribes and to focus my remarks on 
public safety, education, housing, health care, and infrastructure.
    The Standing Rock Sioux Reservation encompasses 2.3 million acres 
in North and South Dakota. The Reservation's population--approximately 
8,500 Tribal members and 2,000 non-members--reside in eight districts, 
and in smaller communities. The Tribe's primary industries are cattle 
ranching and farming. The Tribe struggles to provide essential 
governmental services to our members. When the Tribe ceded millions of 
acres of land to the United States, the government promised to provide 
us with the means to sustain ourselves on our Reservation. The Tribe 
strives to provide jobs and improve the standard of living on our 
Reservation. We operate two modest Tribal casinos; Rock Industries, a 
small parts-on-demand operation; Standing Rock Propane; Standing Rock 
Telecommunications; and a sand and gravel operation, which helps the 
Tribe supplement services and programs for our members. Despite these 
measures, our unemployment rate remains above 50 percent. In fact, over 
40 percent of Indian families on our Reservation live in poverty--more 
than triple the average US poverty rate of 13.8 percent. The disparity 
is worse for children, as 52 percent of the Reservation population 
under age 18 lives below poverty, compared to 16 percent and 19 percent 
in North and South Dakota, respectively. The federal programs 
established to aid tribes and their members are essential. We ask the 
government to honor its commitments by maintaining federal programs 
enacted for our benefit, so that our members may live at a standard 
equal to that enjoyed by the rest of the Nation. Our specific 
recommendations are as follows:
BIA--Public Safety and Justice
    We strongly support the President's proposal to increase funding 
for Public Safety and Justice by $17 million above the 2012 enacted 
level, and urge the Committee to support an increase by at least that 
amount. Increased funding is needed to hire more law enforcement 
officers and to staff detention facilities. Standing Rock has seen 
first-hand that adequate law enforcement staffing is the key to 
reducing crime.
    Before 2008 at Standing Rock, there were only 7 law enforcement 
officers to cover the Reservation (an area close to the size of 
Connecticut), and crime was rampant. Crime decreased as a result of 
BIA's Operation Dakota Peacekeeper initiative which, in 2008, added 20 
law enforcement officers on the Reservation. When that initiative 
ended, the number of supplemental officers assisting the permanent law 
enforcement officers was reduced and crime increased. Fortunately, 
Standing Rock is one of the few Indian reservations where the High 
Prior Performance Goals initiative (HPPG) has been implemented. In 
2009, when HPPG started, the then 12 permanent law enforcement 
positions were gradually supplemented by an additional 22 positions. 
These 34 positions currently consist of a Chief of Police, 3-4 
Lieutenants, 3 Criminal Investigators/Special Agents, 2 School Resource 
Officers and 24 police officers.
    Although not all 34 positions are filled at all times (due to 
turnover and training leave), the increase in law enforcement has had a 
significant positive impact. It facilitated police officer assignment 
to each Reservation community, which means quicker response time to 
calls. The increased law enforcement presence and patrols has deterred 
crime and resulted in our members feeling safer. The data confirms 
this. When compared to the number of violent crimes (homicide, rape, 
robbery, assault) that occurred between 2007 and 2009, the additional 
staffing reduced such crimes by approximately: 7 percent in 2010, 11 
percent in 2011, and 15-19 percent in 2012.
    These initiatives demonstrate the critical importance of adequate 
law enforcement staffing. But HPPG is presently scheduled to end after 
FY 2013. More than 3,000 arrests were made during the 2012 calendar 
year. Data this year demonstrates that Reservation law enforcement 
continue to receive more than 900 calls for assistance each month. 
While the Tribe is fortunate to have 34 law enforcement positions for 
the Reservation, an analysis of the number of officers needed to 
provide effective 24-hour coverage indicates there should be more. At 
current staffing levels, officers typically work 12-hour shifts, 5 days 
a week, leading to officer burn-out and increased costs for overtime. 
Only proper staffing levels will ensure the safety of our communities 
and officers. We strongly support an increase in funding for law 
enforcement personnel.
    Funding is also essential for law enforcement equipment and 
facilities maintenance. In December 2010, the Tribe successfully 
completed construction of a secure 18-bed juvenile detention facility 
on our Reservation so that Tribal youth offenders may remain on the 
Reservation and receive culturally appropriate services while 
incarcerated. The Tribe contributed $2 million of Tribal funds to 
supplement $5 million in Justice Department funds to build this 
facility. Over time this facility will save the BIA a great deal of 
money that now pays other public authorities to house our youth 
offenders. Unfortunately, while the BIA, in January 2011 and many times 
thereafter, advised the Tribe that the facility was to be among those 
BIA-operated facilities to receive operation and maintenance funding, 
BIA delays have meant that, to date, the facility is not operational 
and has received no maintenance funds. As a result, problems have 
surfaced. Various systems in the building require repair but warranties 
have expired. The Tribe is taking active steps to remedy these matters 
using Tribal resources. Once these matters are cured, the BIA must act 
promptly to assume operation of the facility and secure a share of the 
operation and maintenance (O&M) funds needed to pay for utilities and 
routine maintenance. Adequate levels of O&M funding are essential to 
safely house our youth and safeguard the Tribe's and Federal 
Government's investment in this facility.
BIA--Tribal Courts
    We support an increase to the modest funding appropriated for the 
Tribal Courts Program. Our Tribe cannot effectively carry out criminal 
proceedings, let alone civil cases, with our small BIA allocation, even 
when heavily subsidized by the Tribe. Our Tribal courts are crowded, 
cramped and outdated and limit our ability to administer a 
comprehensive criminal justice system on the Reservation.
Bureau of Indian Education (BIE)
    We further support an increase to FY 2014 funding for BIE programs. 
As President Obama has stated, education is the key to ending the cycle 
of poverty and lower wages. Despite this, the Administration's FY 2014 
budget would hold constant or otherwise cut funding for programs that 
are critical to the education of our youth.
    Standing Rock relies on BIE funding for three Tribal grant 
schools--the Standing Rock Community School (K-12), Sitting Bull School 
(K-8), and Rock Creek School (K-8). The Standing Rock Community School 
is jointly operated by the Tribe and a state entity, Fort Yates Public 
School District, which, like other public schools on the Reservation 
(Cannonball, Selfridge, McLaughlin, McIntosh, and Wakpala), depends on 
federal impact aid to cover the costs of the public school's share of 
the school operations. The children in the schools on the Reservation 
are among the most at-risk students in the Nation. At the Rock Creek, 
Cannonball, Selfridge, and Wakpala schools, 100 percent of the students 
receive free or reduced price school lunches because their families 
live at or below poverty. At other schools, the percentage of children 
receiving free or reduced price lunch is comparable--Sitting Bull, 98 
percent; McLaughlin, 85 percent; Fort Yates, 80 percent; Standing Rock, 
80 percent.
    A critical source of funds for the operation of our Tribal grant 
schools are the Indian School Equalization Program (ISEP) Formula 
funds. They cover salaries for teachers, teacher aides, school 
administrative staff and other operational costs. ISEP has not seen any 
meaningful increase in years, and as a result, it has become more 
difficult to attract and retain qualified staff. Despite the clear 
need, the Administration proposes to cut ISEP funding by $16.4 million, 
apparently to offset the cost of a new pilot program. We do not object 
to a new pilot program, but no such program should be created at the 
expense of existing needs. If the schools serving Indian children are 
to be effective, ISEP funding should be increased.
    The Administration's near flat line funding for virtually all 
aspects of BIE programs does not account for population growth, 
increased costs, or inflation. Student Transportation funding, intended 
to cover the costs of buses, fuel, maintenance, vehicle replacements, 
and drivers, has stayed at the same level for years. The substantial 
increases in fuel costs alone make it impossible to cover these costs. 
For Standing Rock, funds are further strained because we are a rural 
community, where bus runs for many of our students may take 1\1/2\ to 2 
hours each way and can include travel on unimproved roads. These 
factors result in higher maintenance costs and shorter vehicle life. A 
substantial increase in funds for Student Transportation is long 
overdue.
    The same is true for School Facility Operations and School Facility 
Maintenance which is nowhere near fully funded. In fact, O&M budgets 
are currently constrained at 40 percent. With the constraint and the 
cuts resulting from sequestration, it will be impossible for the 
schools to operate. We urge this Committee to support an increase, or 
at least maintain funding for Education Construction and reject the 
Administration's proposal to cut Education Construction funding by $18 
million. While the Administration claims this will allow it to 
eliminate replacement school funding and redirect funds to Minor 
Improvement and Repair (MI&R) programs, its budget contains no 
comparable increase to MI&R. Without adequate funds for maintenance or 
facilities repair our schools will deteriorate and pose serious safety 
risks for our children. Indeed, part of one of our Tribal grant 
schools, the Rock Creek School, is more than 100 years old and badly 
needs to be replaced. Federal funds to replace ancient schools--like 
Rock Creek--are essential. Funding for School Facility Operations and 
School Facility Maintenance, as well as Education Construction should 
be substantially increased.
    We also urge the Committee to support an increase in funding for 
Scholarships. Because of the unmet need, the Tribe spends $1 million in 
Tribal funds annually to supplement this program and gives grants of 
$3,000-$3,500 to aid our students attending colleges and vocational 
schools. But even with this, most of our scholarship recipients have 
unmet financial need varying from $100 to $17,000.
BIA HIP (Housing Improvement Program)
    The Tribe opposes the Administration's proposal to completely 
eliminate funding for HIP. HIP has long played a very important role in 
providing funds to low income persons who have emergency or other 
specific needs to make home repairs. While the Administration states 
that Tribes can use HUD NAHASDA funds to cover these costs, our Tribal 
members' needs for safe and affordable housing are staggering. Even 
with both HUD and HIP, there are now over 200 families on the waiting 
list for housing, 150 families living in overcrowded conditions, and 
another 300 families in substandard housing.
Indian Health Service
    We support the Administration's FY 2014 requested increase in IHS 
funding. We depend on IHS to care for our 15,500 enrolled Tribal 
members, many of whom suffer from diabetes, heart disease and 
hypertension. With 5 percent cuts due to sequestration, and 2 percent 
decrease in Medicare reimbursement, we estimate there will be at least 
$800,000 in unmet need in FY 2013. Unmet need will be more severe if 
sequestration recurs in FY 2014.
    We recommend Congress prioritize the IHS preventive health care 
service programs, such as the diabetes grant program, and increase 
funding for these programs above the Administration's $150 million, 
while supporting and protecting the Administration's other IHS funding 
priorities, especially funding for health care personnel. In many 
instances, if additional funding for clinical services and preventive 
health programs can be made available, illnesses and injuries could be 
treated at their initial stages, or prevented altogether. This is 
especially important at Standing Rock, where many of our members' 
health problems could be addressed if timely preventive care were 
available. We also support the Administration's request for increases 
in Dental Health (as there is considerable need for dental care) and 
Purchased/Referred Care (previously known as Contract Health Services), 
which has been historically underfunded.
Infrastructure
    Infrastructure, like safe drinking water, utilities, and well-
maintained roads are essential to the well-being of our people. But the 
primary funding source for road maintenance, the BIA's Road Maintenance 
Program, has for the last 30 years, been funded at only $25 million, 
making it impossible to carry out routine, much less, emergency road 
maintenance. We strongly oppose the Administration's current proposal 
to again cut funding for this program.
    Equally vital is safe drinking water. Congress authorized the 
Standing Rock Sioux Tribe's municipal, rural, and industrial (MR&I) 
water system by the Garrison Diversion Unit Reformulation Act of 1986 
and the Dakota Water Resources Act of 2000. Substantial progress has 
been made on the project: construction is nearly complete for core 
facilities including a deep water intake and pump station, 13 miles of 
raw water transmission pipeline, a main storage reservoir, a state-of-
the-art water treatment plant, and 49 miles of main transmission 
treated water pipelines. Three treated water pipeline contracts 
approach the bidding stage. When completed, they will connect the 
Reservation's existing water infrastructure to the new facilities so 
that over 75 percent of the Reservation population will receive clean 
drinking water. However, further pipeline construction, including to 
residents currently without treated water supply, is in jeopardy due to 
the recent dramatic cuts in appropriations. Proposed future 
appropriations levels threaten to completely stop construction on the 
project leaving a significant portion of the Reservation's residents 
without access to safe, clean, and dependable drinking water. We 
encourage this Committee to support restoring funding to the Dakota 
Water Resources Act FY 2010 levels, to allow for the completion of this 
critical project within a reasonable time.
                                 ______
                                 
  Prepared Statement of Julie Roberts-Hyslop, Vice President, Tanana 
                           Chiefs Conference
    Members of the Committee, thank you for the honor of presenting 
this testimony.
    My name is Julie Roberts and I am the Vice President of the Tanana 
Chiefs Conference and the President of Tanana Tribal Council. TCC is a 
non-profit intertribal consortium of 39 federally recognized Tribes 
located in the Interior of Alaska. TCC serves approximately 13,000 
Native American people in Fairbanks and our rural villages. Our 
traditional territory and current services area occupy a mostly 
roadless area almost the size of Texas, stretching from Fairbanks clear 
up to the Brooks Range, and over to the Canadian border.
    TCC is a Co-Signer of the Alaska Tribal Health Compact, awarded 
under Title V of the Indian Self Determination Act. I will be 
testifying on two matters. First, I will provide an overview of the 
Joint Venture Construction Program and specially address TCC's Joint 
Venture staffing needs. Second, I will explain the impact suffered by 
TCC and others from the contract support cost shortfall, and how that 
shortfall will have the most impact for those entities starting to 
operate replacement or joint venture facilities in fiscal year 2013.

        1.  TCC requires its full staffing package in FY 2014, which is 
        already one year past what was contractually agreed to in our 
        Joint Venture Agreement.

    The Joint Venture Construction Program is authorized in Section 
818(e) of the Indian Health Care Improvement Act, Public Law 94-437. 
The authorization directed the Secretary of HHS to make arrangements 
with Indian tribes to establish joint venture projects. The program is 
executed through a JVCP agreement--a contract--in which a tribal entity 
borrows non-IHS funds for the construction of a tribally owned health 
care facility, and, in exchange, the IHS promises to lease the 
facility, to equip the facility and to staff the facility.
    In the Conference Report which accompanied the Department of the 
Interior, Environment, and Related Agencies Appropriation Act, 2010, 
the conferees explained the importance of the Joint Venture program. 
That program is a unique way of addressing the persistent backlog in 
IHS health facilities construction projects serving American Indians 
and Alaska Natives. The conferees reported, ``The conferees believe 
that the joint venture program provides a cost-effective means to 
address this backlog and to increase access to health care services for 
American Indians and Alaska Natives. The conferees are aware that IHS 
is currently reviewing competitive applications from Tribes and Tribal 
organizations to participate in the 2010 joint venture program and 
encourage the Service to move forward with the process in an 
expeditious manner.''
    IHS followed the direction of Congress and the Conference Report. 
In 2010, IHS signed a legally binding Joint Venture Construction 
Agreement with TCC. In the agreement, IHS agreed to ``request funding 
from Congress for Fiscal year on the same basis as IHS requests funding 
for any other Facilities.'' Given that IHS has requested funding for 
the various JV projects across the country at different percentages and 
not in correlation to clinic opening dates, it appears that IHS has not 
requested funding on the same basis across all facilities.
    At the same time, it is a fact that funding for our Joint Venture 
project in FY 2013 will only be 1/3rd of the total staffing package IHS 
owes TCC (or around $10 million). TCC had to invest in new program 
staffing to be ready to open our doors--including staffing for labs, 
radiology, facility maintenance and support--which does not include the 
additional clinical staffing that was added to meet the current demand. 
The additional staffing cost TCC approximately $9 million. When added 
to the $5.4 million bond payments and the $600,000 in utility payments, 
TCC's total deficit is $15 million this year. Even accounting for the 
$10 million for TCC in this year's budget, we will still have $5 
million in operational deficit.
    According to the agreement with IHS, TCC's staffing package funding 
should be $29.4 million- requiring an increase of $19.4 million above 
our FY 2013 funding level. If the President's proposed $77 million 
staffing increases for FY 2014 are supported and applied to the FY 2013 
increases, this will make right the wrong TCC experienced. But if, as 
IHS indicates, they are above the FY 2012 levels, they are woefully 
insufficient.
    Last year IHS justified paying less because it believed we would 
not be able to staff up fast enough to spend the funds. But we have 
long been fully operational and the only barrier to hiring staff is 
IHS's failure to honor its commitment. This is clear from the fact 
that, in order to open our doors, TCC invested $9 million in new 
staffing and several providers are currently interested in working for 
us.
    IHS has written that our Joint Venture partnership is a model for 
what can be achieved between Tribal Health Organizations and IHS to 
improve access to care for American Indian and Alaska Native people. 
TCC is holding up our end of the Joint Venture agreement. We need IHS, 
and Congress, to hold up the government's end. This will require $19.4 
million in FY 2014. This will be one year late, but at least the 
commitment will finally be honored.

        2.  The Administration's contract support cost request will 
        worsen the national CSC shortfall and require further program 
        cuts for Self-Determined Tribes; the burden will fall 
        especially hard on Tribes operating recent new facilities.

    Related to the Joint Venture Construction Program is our concern 
with IHS's requested funding for contract support costs. These costs 
are owed to Tribes and tribal organizations like TCC that perform 
contracts on behalf of the United States pursuant to the Indian Self-
Determination Act. ``Contract support costs'' are the fixed and fully 
audited costs which we incur and must spend to operate IHS's programs 
and clinics. The law and our contracts say that these costs must be 
reimbursed. The Supreme Court, twice, has so ruled.
    The Indian Self-Determination Act depends upon a contracting 
mechanism to carry out its goal of transferring essential governmental 
functions from federal agency administration to tribal government 
administration. To carry out that goal and meet contract requirements, 
the Act requires that IHS fully reimburse every tribal contractor for 
the ``contract support costs'' that are necessary to carry out the 
contracted federal activities. (Cost-reimbursable government contracts 
similarly require reimbursement of ``general and administrative'' 
costs.)
    Full payment of fixed contract support costs is essential: without 
it, offsetting program reductions must be made, vacancies cannot be 
filled, and services are reduced, all to make up for the shortfall. In 
short, a contract support cost shortfall is equivalent to a program 
cut.
    Funding contract support costs in full permits the restoration of 
Indian country jobs that are cut when shortfalls occur. The FY 2010 
reduction in the contract support cost shortfall produced a stunning 
increase in Indian country jobs. Third-party revenues generated from 
these new positions will eventually more than double the number of 
restored positions, and thereby double the amount of health care tribal 
organizations like ours will provide in our communities.
    The problem is that for 2014, IHS has requested only a $5.8 million 
increase over FY 2012 levels, up to $477 million. Yet, the current 
shortfall is $140 million, with a total projected $617 million due all 
tribal contractors. At that, the IHS projected shortfall does not 
include contract support costs associated with facilities staffed up in 
FY 2013 and FY 2014. Against these numbers, a $5.8 million increase is 
not just inadequate; it is shameful.
    When contract support costs are not paid, we have no choice but to 
take the shortfall in funding out of the programs themselves. Letting 
the CSC shortfall increase, on top of underfunding TCC's JV staffing 
requirements, will end up punishing tens of thousands of Native 
beneficiaries in Alaska. The government has a legal duty and trust 
responsibility to provide for the full staffing packages and the full 
contract support costs which the government, by contract, has committed 
to pay. We are not expecting a favor; we are expecting the government 
to hold up its end of the bargain.
    It is not only illegal but immoral for IHS (and BIA, too) to 
structure their budgets in such a way that they cut only tribally-
administered IHS and BIA programs--not IHS-administered or BIA-
administered programs, but only tribally-administered programs--in 
order to meet the agencies' overall budget targets. The thousands of 
Alaska Native patients and clients who we serve should not be punished 
because those services are administered under self-governance compacts 
instead of directly by IHS or the BIA.
    As I mentioned last year, I am particularly concerned about this 
issue as we plan for FY 2014. In FY 2014 TCC projects an increased 
contract support cost requirement of $6 million associated with the new 
clinic. As it is, remember that IHS has only committed to staff TCC's 
clinic at 85 percent of capacity. If none of TCC's contract support 
cost requirements to operate the new clinic are covered, the resulting 
$6 million cut in staffing will drop the clinic to 65 percent of 
staffing capacity--even if the full JV staffing package is funded, and 
much less if it is not. This will severely compromise TCC's ability 
both to administer the new facility and to meet our debt obligations. 
Worse yet, services to our people will be gravely compromised.
    We understand that the dollars required to finally close the gap in 
contract support cost requirements are large, but this is only because 
the problem has been allowed to snowball over so many years. Once a 
budget correction is made to finally close the contract support cost 
gap inside both agencies, maintaining full funding of contract support 
costs on a going-forward basis will be much more manageable.
    This is why TCC respectfully requests that the IHS appropriation 
for CSC be increased by $140 million above the President's recommended 
level, to $617 million, and that the BIA appropriation for CSC for FY 
2013 be similarly increased to $242 million.
    Whatever Congress chooses to do, the answer is, unequivocally, not 
to legislatively amend the Indian Self-Determination Act to cut off our 
rights to compensation for IHS's contract under-payments. Yet that is 
precisely what the President's Budget proposes--cutting off the rights 
which currently exist under section 110 of the Act to sue the 
government when we are not paid.
    This is rank discrimination--racial discrimination--and it must 
stop. No other contractor in the United States performs work for the 
government only to be told that it has no right to be paid. The very 
suggestion is ludicrous. Last year the Supreme Court in the Ramah and 
Arctic cases said so, and they said that our contracts are just as 
binding as any other contract. That is the law. The answer to those 
rulings is not to change the law. The answer is to honor the contracts.
    We are shocked to see the Administration unilaterally propose 
changing the law so radically, and to see the Administration actually 
suggest that we be paid only what the Administration tells Congress it 
will pay us, in a secret table it will provide sometime next year. The 
very suggestion is enough to make us consider turning these contracts 
back over to IHS. Let's see if IHS can do as good a job for our Tribal 
people as we do.
    The fact is, IHS cannot do this work. All we ask is to be treated 
fairly, just like other contractors. The government sets our indirect 
cost rates--not us--and just like other contractors the government 
should pay those rates in full. If it cannot, or will not, prioritize 
those payments, then just like other contractors we must continue to be 
able to vindicate our rights under the Contract Disputes Act. Anything 
else is un-American, forcing us to do work without paying us what is 
due.
    The Supreme Court has not once, but twice, told the government what 
to do: honor our contracts. The time is here to do just that.
    Members of the Committee, thank you for the honor of presenting 
testimony today.
                                 ______
                                 
  Prepared Statement of Hon. Arlen Quetawki, Sr., Governor, Zuni Tribe
Background
    Pre-Public Law 93-638, Indian Self-Determination and Education 
Assistance Act, the Zuni Tribe, Pueblo of Zuni, acting on a commitment 
for success, contracted with the Bureau of Indian Affairs (BIA) and 
Indian Health Services (IHS) to perform functions previously carried 
out by the Federal Government. Namely these functions/programs are: 
Housing Improvement, Law Enforcement, Tribal Courts, Higher Education-
Scholarship, Road Maintenance and Social Services/Welfare Assistance 
and allied health care programs. Performance of these functions by the 
Tribe was authorized under the authorities of the 1934 Indian 
Reorganization Act with the promise of self-determination to operate 
programs fitting tribal needs.
    Subsequent enactment of the Indian Self Determination Act the Zuni 
Tribe believed that the congressional action would assist the tribe in 
securing tribal economic security and effectively deals with community 
social issues with sustained Federal commitments. However, since the 
1970's the Zuni Tribe continues to experience drastic fund reductions 
in these contracted programs. Not to mention the challenges the Tribe 
is facing in receiving proper payments for Contract Support Cost which 
is a binding contractual obligation due all Tribes that operate BIA and 
IHS contracts. The Tribe should be provided full funding for Contract 
Support Costs by both the BIA and IHS consistent with the 2012 Supreme 
Court decision in the Salazar v. Ramah Navajo Chapter case. To do 
anything less would deliver a strong message that Indian Tribal Self 
Determination contracts can be manipulated and can be treated as 
second-class contracts and Indian Tribes are second-class contractors
    The Zuni Tribe understands the United States' fiscal difficulties 
and challenges at this time and acknowledges the administration is 
focused in reducing the deficit, however, the Zuni Tribe is requesting 
the administration keeps its promise to the Indian country by 
protecting and increasing funding provided under the BIA Tribal 
Priority Allocations (TPA) process in FY 2014. Protecting and 
increasing TPA for the Zuni Tribe will assist in effectively 
administering programs which would otherwise be performed by the 
Federal Government. Not only will the tribe carry out programs 
effectively which affects their respective community, it will also 
continue to be partners in a mutual commitment to strengthen not only 
the tribal, but national economy as well. Furthermore, it will have a 
major impact on the health and social well-being of other communities 
as a whole. This effort has a ripple effect on generation of jobs, and 
improvement of economies which leads to self-reliance.
    The Zuni Tribes request under the Department of Interior (DOI), BIA 
FY 2014 President's Budget request a total of $9,240,000 to administer 
core programs under the TPA categories operated by the BIA and under 
the authorities of P.L. 93-635 and $2.0 million for IHS community 
health programs and contract health programs administer under the IHS 
direct allocation. The following are the amounts specifically 
identifying programs and their respective amounts.
Tribal Government-Road Maintenance (TPA) BIA Operated
    This program requires a minimum level of $1.0 million to carry out 
the program responsibilities. This funding level will get closer to the 
2009-2010 target units under a Level of Services rating of 2 or better 
for the Zuni Indian Reservation. The Road Maintenance program supports 
411.2 miles of Indian Reservation Roads in a remote reservation, 
approximately 150 miles from a metropolitan area of Albuquerque, New 
Mexico.
    A 2009 assessment of paved routes in the Zuni community shows that 
at a minimum four miles of pavement overlay, and 20 miles of pavement 
surface treatment of major traveled routes with high average daily 
traveled counts. Providing funds for improvement of the Zuni 
Reservation roads will reduce the potential liability of tort claims 
from the traveling public in Zuni. Improvements to the above identified 
miles of roads do not include maintenance of unpaved roads, including 
school bus routes, ingress and egress to homes for medical service 
vehicles such as ambulances, transportation services for patients who 
are on dialysis and need medical care, etc.
    If funds are not provided at a bare minimal level the Zuni Tribal 
Road Maintenance program will continue to incur annual increases of at 
least ten percent of deferred maintenance backlog on reservation roads 
and bridges. Since Fiscal Year 2007, this program has been grossly 
underfunded and range in funding for the past several years in the 
amount of $246,642 to a high of $274,116 in Fiscal Year 2007.
Human Services--Social Services and Indian Child Welfare Act--TPA P. L. 
        93-638 Tribal Contract
    A minimum level funding for the Tribal Social Services program in 
the amount of $260,000 is needed to maintain programs at a current 
level. A minimum level of $100,000 is needed for the Indian Child 
Welfare Act program. These two programs are critical to assist the 
social-economic programs of the community. Program personnel works with 
various agencies in and outside the community which includes child care 
places-foster home placements and domestic violence with the Tribal and 
outside courts-judicial systems, the Zuni Tribal Police Department, 
etc. Once again this program has not been adequately funded for a 
number of years.
Human Services--Welfare Assistance--TPA P. L. 93-638 Tribal Contract
    A minimum level of $300,000 is required to operate this program at 
a ``bare minimum'' level. With the isolation of the Zuni Reservation 
and lack of employment and other full service programs, these funds are 
needed to deal with socio-economic issues/problems of the community.
Public Safety and Justice--Community Fire Protection--TPA P. L. 93-638 
        Tribal Contract
    A minimum of $250,000 is required to operate this program. Minimum 
funds requested will allowed the program to maintain 3 tribal employees 
on staff and provide operation expenses that services the community 
which includes a hospital operation, high school, junior high school, 
two elementary schools, a community college, BIA agency and tribal 
infrastructure, two parochial schools and other community facilities.
Public Safety and Justice Tribal Courts--TPA P. L. 93-638 Tribal 
        Contract
    A minimum of $580,000 is needed to operate the Zuni Tribal Court. 
This level of funding will allow the tribal court of access training 
needs and filling positions that will assist in handling an increasing 
number of criminal, civil, juvenile and child welfare cases which are 
referred to the Tribal court for resolution. The number of cases the 
Tribal court handles range from a low of 4,144 adult cases to a high of 
7,000 cases. The children's court also ranges in a low of 455 to a high 
of 566 cases.
Natural Resources--Fish and Wildlife Management--TPA P.L. 93-638 Tribal 
        Contract
    A minimum of $200,000 is required to operate the Zuni Fish and 
Wildlife program. This program manages activities associated with 
cultural and academic biological wildlife management. It also works 
with the other federal and state agencies including the states of New 
Mexico, Arizona and other customer base clientele from the private 
sector.
Natural Resources--Forestry and Fire Management--BIA Operated
    This program requires a minimum funding level of $250,000 to 
maintain program operations.
Trust Services--Real Estate Services--TPA P. L. 93-638 Tribal Contract
    This program requires a minimum level of funding in the amount of 
$200,000 to carry out program responsibilities associated with trial 
trust and individual allotments, tribal fee lands and tribal land 
assignments for the purpose of: Leasing and Permitting, acquiring and 
disposal of lands and promotion of development of mineral resources and 
renewable energy resources, maintenance of existing contractual 
agreement and assurance in recording of all encumbrances in the Tribal 
Trust Assets Accounting Management System and Land Titles and Records 
Office. The Program is responsible for land base protection of 
537,055.55 acres of land. (Included in the level of fund request is 
Probate and Rights Protection along with the Real Estate Services.)
    The program also promotes and encourages consolidation of 
fractionate interests of trust allotments by providing estate planning 
holding outreach efforts to provide information on the American Indian 
Probate Reform Act.
Law Enforcement--Zuni Police Department--P. L. 93-638 Tribal Contract
    A minimum funding level of $2.9 million is required to maintain law 
and order on the Zuni Reservation, which include the immediate 
community and the surrounding reservation lands. Over several years the 
tribal law enforcement program has not received adequate funding for 
the size of reservation lands and the growing population they are 
responsible for serving and protecting There has been an increase in 
violent crime, gang activities, methamphetamine and other drug uses, 
not to mention violence in the schools. Other unfunded mandates such as 
the Adam Walsh Act and the enactment of the Federal Tribal Law and 
Order Act, Violence Against Women's Act, Sex Offender registry and 
other like compliances requirements also requires that funds be 
provided to meet these mandates.
    The Zuni Tribal wage scale grossly lags behind other agencies' wage 
scales to maintain law enforcement officers in Zuni. Additional funds 
are also required to maintain a stable trained staff with proper 
equitable compensation. It is critical the Department and BIA consider 
full funding for this critical program.
Detention Center P. L 93-638 Contract Program
    A minimum of $1.5 million is required to operate the Zuni Tribal 
detention center. Additional personnel with equitable funding are 
required to maintain the detention center operations. The Zuni 
Detention center is a 24-hour 7-days a week operation. Like other 
organizational programs, the Zuni Tribe needs to bring the wage scale 
to a comparable level with other agencies to maintain/retain qualified 
trained personnel. This is a crucial operations that is not only 
associated with stress-related duties, but requires commitment and 
dedication of a workforce.
Detention Facilities Operations and Maintenance--P. L. 93-638 Contract 
        Programs
    These two programs have traditionally been funding on a formula, 
square foot basis which does not provide adequate funds to operate and 
maintain infrastructure. Serious considerations need to be made to 
adequately fund operation and maintenance programs of facilities. A 
minimum of $150,000 is needed for the operations portion of the 
facility and a minimum of $50,000 is needed for the maintenance of the 
facility.
Education and Adult Vocational Training Program
    $1.0 million is requested for the Education Tribal Scholarship 
program and $500,000 is requested for the Adult Vocational Training 
Program. These two programs have been part of the ``477'' program which 
is not part of the TPA program considerations. However, these two 
programs are critical and are abridge to ensuring viable future for the 
Zuni Community. These two programs will provide scholarship funding 
assistance to students pursuing college degrees and vocational type 
training to acquire marketable skills should they seek employment off 
the Zuni Reservation.
Indian Health Service Contract Program
    An increase of $1.5 million to the IHS contracted programs will 
assist in administering the following programs the Zuni Tribe has been 
contracting for over several decades: Audiology, Otitis Media, Client 
Services, Public Health Nurse for the Detention Center, Wellness 
Center, Teen Health Clinic and Alcohol and Substance Recovery Program. 
All these programs assist in working towards promoting healthy and 
socially acceptable lifestyles. $500,000 increase in contract health 
care for the Zuni Service Unit will assist in obtain other critical 
specialized care which the Zuni Service Unit cannot perform due to 
staff shortage and recruitment and retention of specialized health care 
professions.
    The Zuni Tribe also requests that funds for be maintained/increased 
for the Indian Guaranteed Loan program to assist the Zuni Tribe in 
pursing economic development ventures which would also assist in 
economic self-sufficiency and self-determination.
    As stated the Zuni Tribe is aware of the national economic 
conditions, however, in order for the Zuni Tribe to foster self-
determination, including, self-governance, we request you seriously 
consider the Zuni Tribe's funding request.
    The Zuni Tribe extends our appreciation for the opportunity to 
present our funding needs.
                                 ______
                                 
 Prepared Statement of Tom Miller, President, Association of Community 
 Tribal Schools Inc. (ACTS); Superintendent, Hannahville Indian School
    My name is Mr. Tom Miller; President of the Association of 
Community Tribal Schools Inc. (ACTS) and Superintendent of Hannahville 
Indian School located on the Potawatomi tribal lands in the upper 
peninsula of Michigan.
    The tribal school movement started in 1966 with Rough Rock 
Demonstration School. Now, there are over 28,000 students in 125+ 
tribal elementary and secondary schools. The schools are in the states 
of Maine, Florida, North Carolina, Mississippi, Louisiana, South 
Dakota, Minnesota, North Dakota, Michigan, Iowa, Wisconsin, Kansas, 
Wyoming, Oklahoma, Montana, California, Washington, Idaho, Nevada, 
Arizona, and New Mexico. ACTS represents a significant number of the 
over 125+ tribally controlled elementary and secondary schools. ACTS's 
mission is to ``assist community tribal schools toward their mission of 
ensuring that when students complete their schools they are prepared 
for lifelong learning and that these students will strengthen and 
perpetuate traditional tribal societies.''
    The following charts illustrate the stagnant, and in most cases 
diminishing revenues over the past 5 years. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Requested Action
Eliminate
    BIE--Elementary/Secondary Programs--ISEP Program Adjustments
    BIE--Elementary/Secondary Programs--Education Program Enhancements
    BIE--Advancing Indian Education Initiative--Pilot Turnaround Model

    (These funds are used to control schools and hamper progress, the 
BIE uses Program Elements to dictate what schools should do to improve 
and has nothing to do with school improvement; no need for another 
expensive unproven Pilot Program) $ 35,000,000
Increase
    BIE--Elementary/Secondary Programs--Facility Maintenance--
$3,000,000
    BIE--Elementary/Secondary Programs--Tribal Grant Support Costs--
$5,000,000
    BIE--Elementary/Secondary Programs--Facility Operations--$6,000,000
     BIE--Elementary/Secondary Programs--ISEP Formula Funds (restore)--
$16,000,000
    BIE--Elementary/Secondary Programs--Student Transportation--
$5,000,000
    Total--$35,000,000

Restore the Construction--Education Construction Activity to the FY 
        2010 Levels
    The BIA reports a nearly $ 75,000,000 annual facility deterioration 
rate and also reports a $3.4 billion school replacement need. The 
schools will not be able sustain a cut from Education Construction.
Eliminate
    The following Administrative Provisions language to allow current 
schools to expand grade level offerings and allow tribes to apply to 
operate a Grant School:

         ``Appropriations made available in this or any other Act for 
        schools funded by the Bureau shall be available only to the 
        schools in the Bureau school system as of September 1, 1996. No 
        funds available to the Bureau shall be used to support expanded 
        grades for any school or dormitory beyond the grade structure 
        in place or approved by the Secretary of the Interior at each 
        school in the Bureau school system as of October 1, 1995.''
                                 ______
                                 
Prepared Statement of Hon. Edward K. Thomas, President, Central Council 
            of the Tlingit and Haida Indian Tribes of Alaska
Introduction
    GREETINGS FROM ALASKA! My name is Edward K. Thomas. I am the 
elected President of the Central Council of the Tlingit and Haida 
Indian Tribes of Alaska (Tlingit Haida), a federally recognized Indian 
tribe of 27,000 tribal citizens.
    I am honored to provide this written testimony on the FY 2014 
budget request for the Department of the Interior and Indian program 
funding.
    I commend Congress, and especially this Committee, for holding this 
hearing and giving tribal leaders an opportunity to provide you our 
perspective on federal funding for Native American programs. I also 
appreciate the Committee's efforts to obtain a more transparent budget 
story from the federal officials at this hearing.
    One of the most important legal principles in defining the 
relationship between the Federal Government and the Indian and Alaska 
Native Tribes is that of the fiduciary responsibility the United States 
has to Tribal governments. This hearing, and your appropriations 
decisions, are very important tools for you to (a) strengthen the 
Federal Government's Trust relationship to Tribal governments, and (b) 
bend federal priorities toward Tribal priorities and needs.
Federal Funding has not Been Based on Needs, Which are Much Greater in 
        Rural Areas
    I have been involved in managing federally-funded tribal programs 
since 1976, and from that experience, I have concluded that the method 
of formulating federal budgets for the benefit of needy Native 
Americans is deficient and ineffective. Each year federal budgets are 
mostly based upon the previous year's funding; this totally disregards 
the level of unmet needs in Indian Country. This becomes an even bigger 
problem when it becomes necessary to reduce overall federal funding.
    Our nation's poverty level is at the highest level since 1993. 
Twenty-two million Americans live in poverty. That is 1 in every 6 
Americans. 22 percent of all American children live in poverty. These 
national poverty levels are much higher in rural, tribal communities.
    In rural Alaska, higher energy costs have compounded the already 
depressed economy in these remote areas. The cost of living in certain 
parts of rural Alaska is nearly twice that of the average cost of 
living elsewhere in the United States. Electricity costs are often 4 to 
5 times higher. Over the past decade funding for Native American 
programs has not even kept pace with national inflation rates let alone 
the dramatic inflationary costs in rural Alaska.
Non-BIA Agencies Have Received Funding Priority in the Interior 
        Department
    Between FY 2004 and 2012 the Bureau of Indian Affairs (BIA) budget 
grew 8 percent. Over that same period of time funding for non-BIA 
programs in the Department of the Interior grew at a much greater rate: 
Fish & Wildlife by 30 percent; Park Services by 27 percent; Geological 
Surveys by 18 percent; and Bureau of Land Management by 13 percent. It 
stands to reason that funding to needy tribal communities could be 
increased to meet our shortfalls in the FY 2014 budget if these non-BIA 
agencies were reduced to the 2004 funding levels plus 8 percent.
    Under sequestration, the Federal Government insisted that FY 2013 
budget cuts be applied ``across-the-board'' in order to be equitable. 
But that approach perpetuates the inequity of the past decade, when the 
Executive and Legislative branches have de-prioritized Indian funding 
in favor of non-Indian programs at the Interior Department. It would 
have been far more equitable to apply greater sequester cuts to those 
Interior agencies which enjoyed greater increases during the past 
decade. BIA and tribal programs did not equitably participate in 
funding growths but are forced to equally participate in budget cuts.
    While President Obama and Secretary Salazar are to be commended for 
many of their initiatives toward Indian Country, I must say the 
President's FY 2014 Interior budget request is extremely disappointing 
and unfair. The FY 2014 Interior budget request turns the President's 
priorities for Indian Country upside down.
    While he says he supports tribal governments, President Obama's FY 
2014 budget requests an increase of $455.1 million for non-Indian 
programs at Interior. That's an increase of 5.112 percent over last 
year for Interior's non-Indian programs. Compare that to his $31.3 
million increase for Indian programs at Interior. That's only a 1.236 
percent increase over last year for Indians. How is this fair? How can 
this be called equitable? How is this putting the needs of Indian 
Country first? Our tribal programs provide core governmental services 
to Indian and Alaska Native families, but we somehow rate less than a 
fourth of the funding increases that are requested for rocks, critters, 
fish, water, and parks at Interior? In all fairness, the Congress must 
correct the Administration's misjudgment and inequitable FY 2014 budget 
request.
    At the very least, I ask that the Congress increase the Indian 
tribal budget funding levels to match the Administration's budget 
request of increases for Interior. But beyond that, I additionally ask 
that the Congress reverse the Administration's budget priorities 
towards vital tribal programs and instead apply catch up increases that 
make up for the past decade of disproportionately lower funding to 
tribal programs in the face of growing unmet needs.
    I have attached some charts at the end of my written statement 
which portray the actual, unfair priorities of the Administration in 
its FY 2014 budget request. I ask that you push the Administration to 
produce a fairer FY 2015 budget request, a budget that is currently 
being shaped within the Administration.
BIA Central Office has Grown at the Expense of Tribal Programs
    Between FY 2002 and 2008 the BIA Central Office budget grew from 
$58 million to $175 million; a $117 million (301 percent) increase. In 
the same period, funding for Tribal Priority Allocations (TPA) was 
reduced from $752 to $695 million; a $58 million (7.6 percent) 
decrease. I respectfully request that tribal FY 2014 budgets within BIA 
be increased commensurate to the 5.112 percent increase in the overall 
Interior FY 2014 budget request but that you strictly apply the 
increase to tribal government programs and services and not to BIA 
administrative operations.
Tlingit Haida Tribal Trust Funds Should not Have to Pay for Federal 
        Responsibilities
    The single biggest factor that financially undermines Tribal Self-
Determination and Self- Governance is the federal practice of 
underfunding or putting caps on indirect costs or Contract Support 
Costs (CSC). The CSC shortfalls and underfunding have cost my Tribe a 
total $4,443,438 from 2006 through 2012; an average of $555,430 per 
year. During this same period, my Tribal government provided $214.7 
million ($26.4 million annually) in contractual program services to 
assist our needy Tribal citizens.
    While our people are grateful for the programs designed to help our 
needy Tribal citizens, we cannot afford to continue to pay this amount 
of Tribal money to manage these important federal service contracts. 
Simply put, the difference between the way indirect costs are 
calculated and the way they are paid by the United States creates an 
ever-tightening chokehold on my Tribe's ability to administer federal 
programs. If we follow the law and spend the administrative costs we 
are required to spend, federal law provides us less and less money to 
meet these federally-required expenditures. The more we spend, the less 
we get. The less we spend, the less we get. Both Congress and the 
federal agencies have caused this crisis. Together we can solve it.
    Federal law specifically states that a tribe who contracts for the 
management of a federal contract is entitled to the same administrative 
support as the Federal Government itself would have were it to retain 
the management of that contract. Appropriations legislation that 
underfunds contract support costs violates this provision of federal 
law and severely undermines the concept of tribal Self-Determination.
    Tlingit Haida diligently tries to abide by federal laws that set 
our indirect cost rates and to live within other federal appropriations 
laws that provide us much less than the Federal Government's own audits 
say we should collect from each agency to manage contracts for them. We 
were forced to pull more than $4 million over the past four years out 
of our modest Trust Fund earnings in order to meet the CSC shortfall 
costs we were stuck with by the United States. We cannot continue to 
afford to pay for these federal responsibility costs going into the 
future. There are no gaming tribes in Alaska; the economy in rural 
Alaska is weak to non-existent; and unemployment rates in some of our 
villages often exceed 50 percent.
Indirect Costs are Fixed Cost Requirements
    If indirect costs were not primarily ``fixed'' costs, the recurring 
problem of a shortfall in BIA CSC funding would, perhaps, be 
survivable. But most of our actual indirect costs are ``fixed''. For 
example, typically the most cost-effective way to acquire facility 
space or equipment is through a long-term lease with locked-in costs. 
Similarly, package deals for telephone and some forms of transportation 
offer significant cost savings over time. And obviously, the salary and 
benefit costs of accounting, administrative, and management staff must 
be treated as ``fixed'' or else we cannot hire or keep employees. When 
federal agencies do not send us 100 percent of the funds required by 
our federally-set indirect cost rate, we have a shortfall associated 
with our operation of BIA programs and something has to give.
    We refer to tribal CSC funding as a ``requirement''--not a 
``need''. CSC costs are requirements because they are derived from 
audits conducted by the National Business Center (NBC) on behalf of the 
Federal Government who sets rates that are used uniformly by all 
federal agencies with which Tlingit Haida manages a contract or grant. 
The rates use actual expenditures from prior years to project costs in 
the future year. Once our federally-established indirect cost rate is 
set, federal law requires that our Tribe apply that federal rate 
uniformly to all the programs we administer. In other words, federal 
law requires us to spend money on administrative costs but will not let 
us charge all of that spending to the federal grants and contracts.
    Another problem is that the Single Audit Act requires a tribal 
contractor's cognizant agency (e.g., Department of the Interior) to 
audit the indirect costs of the tribal contractor and establish an 
indirect cost rate that must be applied to all programs the tribal 
contractor administers. If that rate is 25 percent, and a program like 
Head Start caps administrative cost recovery from its funding at 15 
percent, the law requires the tribal contractor to pay the difference 
from non-federal funds or through a rate increase the following year 
that will obtain a higher recovery from BIA's contract support cost 
fund in future years.
    Let me be clear. We would spiral into complete financial disaster 
as a Tribe if we chose to not spend at the budgeted amounts. Failing to 
pay certain fixed costs would actually increase our costs (breaking 
leases, terminating employees, breaching contracts). The P.L. 93-638 
language which supposedly protects Tribal contractors against 
theoretical under-recovery does work with respect to BIA funds, but 
historical underfunding of CSC has caused our Tribe very serious 
difficulties in dealing with shortfalls in non-BIA programs for which 
we must, by law, use the same indirect cost rate. If in year one we 
don't spend uniformly on all programs, BIA and non-BIA alike, this will 
increase the approved rate for the following year because the amounts 
not collected from the agencies are available to add on to the CSC for 
the subsequent year. Tlingit Haida, in our efforts to keep our CSC 
indirect cost rates lower has chosen not to carry all of those costs 
forward and so has had to pay the shortfalls out of non-federal 
sources. But Tlingit Haida, and many other tribes, have very few non-
federal sources of funding. For these reasons, we have asked that the 
appropriations committees include the following bill language in the FY 
2014 Interior appropriations law. It would provide flexibility to 
Tlingit Haida and other tribes caught by a crushing, unfunded federal 
mandate.
Proposed New FY 2014 Bill Language
         ``Notwithstanding any otherwise applicable administrative cost 
        limitations, federal funds made available under this or any 
        other appropriations act for fiscal year 2014 to an Indian 
        tribe may, at the option of the tribe, pay for approved 
        indirect costs associated with the administration by the tribe 
        of federal programs under authority other than Pub.L. 93-638, 
        without limiting any claim of the tribe for shortfalls in 
        contract support cost funding pursuant to Pub.L. 93-638, 
        provided that such costs are calculated in conformity with the 
        federally-determined indirect cost rate agreement of that tribe 
        and the relevant OMB circulars.''

         [Intent and Effect Of Bill Language: The proposed amendment is 
        intended to apply a tribal contractor's uniform indirect cost 
        rate established under the Single Audit Act to recover costs 
        required by that uniform indirect cost rate from each 
        federally-funded award or agreement without regard to any 
        otherwise applicable administrative cost cap limitations 
        otherwise governing those awards or agreements. The proposed 
        amendment would expand existing authority to permit a tribal 
        contractor an additional tribal option--it would provide tribal 
        authority to use any federally-funded award to meet up to all 
        of a tribe's approved indirect costs that are calculated in 
        conformity with its federally-established indirect cost rate 
        agreement and the relevant OMB circulars without regard to any 
        otherwise applicable administrative cost cap limitations. This 
        would not require any increase in overall federal funding. The 
        funding level of each award would not be affected. It would 
        simply extend flexibility to a tribal contractor to apply its 
        federally-awarded funds to meet federally-required 
        administrative costs. This would be a huge benefit to tribal 
        contractors, like Tlingit Haida, who are providing services in 
        high-cost areas with few or no financial resources other than 
        federal awards and grants.]

We Endorse the NCAI Position Opposing the Administration's Request to 
        Cap CSC
    We join with NCAI in opposing the President's request to place 
individual statutory tribal caps on the payment of contract support 
costs. We have asked the appropriations committees to maintain in FY 
2014 and FY 2015 the status quo statutory language on CSC enacted in FY 
2013, until there is full tribal consultation on the Administration's 
proposed new language on individual statutory tribal CSC caps.
Conclusion
    We respectfully request that the Federal Government reimburse the 
Central Council of the Tlingit and Haida Indian Tribes of Alaska the 
$4,163,350 that we spent out of the trust fund pockets of our people to 
manage federal programs from FY 2006 to FY 2012. This is money that the 
Federal Government would have spent on administration had it managed 
those programs themselves.
    I very much understand the serious financial challenges facing the 
Federal Government. It is vitally important that there be a balanced 
approach in addressing federal budget deficits. But balancing our 
nation's budget on the backs of the programs serving the needy will not 
work.
    I thank you for the opportunity to share my views with you. I wish 
you well in your deliberations and I trust you will make the right 
decisions on the issues of grave concern to our people.
    GUNALCHEESH! HOWA! THANK YOU! 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
Prepared Statement of Gloria O'Neill, President/CEO, Cook Inlet Tribal 
                                Council
    Chairwoman Cantwell and Members of the Committee, thank you for the 
opportunity to submit this testimony as a part of the hearing on the FY 
14 Budget for Tribal Programs. My name is Gloria O'Neill and I am the 
President and CEO of Cook Inlet Tribal Council (CITC), an Alaska Native 
tribal non-profit organization that serves as the primary education and 
workforce development center for Native people in Anchorage. CITC has 
been designated tribal authority through Cook Inlet Region Inc., 
organized through the Alaska Native Claims Settlement Act and 
recognized under Section 4(b) of the Indian Self-Determination Act and 
Education Assistance Act, P.L. 93-638. CITC builds human capacity by 
partnering with individuals to establish and achieve both educational 
and employment goals that result in lasting, positive change for 
themselves, their families, and their communities.
Demographics and Expanding Service Population
    CITC's programs serve Alaska Native and American Indian people in 
the Cook Inlet Region, which includes Alaska's most urbanized and 
populated communities, and is home to an Alaska Native/American Indian 
population of more than40,000, approximately 40 percent of the Native 
population of the state of Alaska. In Anchorage alone, the Native 
population is approximately 22,000, about 20 percent of the total 
Native population in the state. CITC's programs address many of the 
social, economic, and educational challenges faced by Alaska Native 
people. For example, Alaska Native students are twice as likely to drop 
out as their non-Native peers; 33 percent of Alaska's unemployed are 
Alaska Native people, and almost 20 percent of Alaska Native people 
have incomes below the federal poverty line--nearly three times the 
rate of non-Native people.
    In-migration from rural, largely Alaska Native communities to the 
urban areas in the Cook Inlet Region is accelerating as Alaska Native 
people find it increasingly difficult to make a living in rural Alaska. 
59 percent of CITC's participants have been in Anchorage for five years 
or less; and employment, training, and education are frequently cited 
as reasons for moving to Anchorage. In contrast, the current Bureau of 
Indian Affairs funding formula for CITC is based on the population 
figure of 14,569--from the 1990 Census--which leaves CITC with a 
funding shortfall to meet the needs of the 40,000 Alaska Native and 
American Indian people currently residing in our service region.
Public Law 102-477 is Essential to Effective Service Provision
    The Indian Employment Training and Related Services Demonstration 
Act, Pub. L. 102-477, as amended, 25 U.S.C.  3401-3417 (or the ``477 
program''), currently administered by the Office of Indian Energy and 
Economic Development in the Department of the Interior, provides a 
critical foundation for maximizing the effectiveness of CITC's 
programs. The law allows the consolidation of funding streams from the 
U.S. Departments of Interior, Health and Human Services, and Labor into 
a single education, employment and training program. The 477 program 
enables flexibility on the part of the receiving tribal organization to 
plan the programming to best fit the needs of the community and 
minimize administrative redundancy by merging reporting requirements, 
while still adhering to the Government Performance Results Act's 
stringent accountability standards. 267 tribes and tribal organizations 
operate through 63 plans under the 477 program, making this a program 
of national significance.
CITC 477 Programs
    The 477 Program allows CITC to increase effectiveness and 
innovation, enhance interoperability, and eliminate inefficiency while 
maximizing program outcomes. CITC's Employment & Training Services 
Department (ETSD) provides comprehensive services to assist Native job 
seekers, including job training and placement, TANF, and child care.
    CITC is the sole provider of Tribal TANF in Anchorage, and TANF is 
a key component of our 477 program. Our TANF program is built on an 
integrated service model that connects participants to the range of 
programs offered throughout CITC's departments. Through our integrated 
service model, CITC has reduced caseloads as well as effectively 
implemented TANF prevention. This type of innovation and 
interoperability would be impossible without the flexibility provided 
by the 477 program.
    Furthermore, efficiencies gained within the TANF program resulted 
in a 5-year savings of $8.4 million--savings that have been re-invested 
in supportive services and programs that directly benefit TANF 
participants. 477 allows Tribes and Tribal entities to administer 
federally funded employment and job training programs as a single 
program, with a single budget and a single set of reporting 
requirements.
    Over the Past 5 Years CITC 477-supported Programs Have:

  <bullet> Provided 9,329 job seekers with career exploration, training 
        and job search assistance; 5,905 (63 percent) of these 
        individuals were placed in jobs.

  <bullet> In 2010, the average hourly wage (AHW) of a job seeker 
        coming to CITC for services was $9.95--upon leaving CITC their 
        AHW was $17.23.

  <bullet> Transitioned 1,989 TANF recipients from welfare to work, 
        entering with no job experience or income, and leaving with an 
        AHW of $11.53.

    CITC has demonstrated that the 477 program is very successful in 
connecting people to long term, meaningful jobs. In short, the 477 
program is a ``win-win'' for the federal funders and CITC, since it 
eliminates wasteful inefficiency while maximizing program outcomes.
    Nationally, the 477 program, according to the 2012 477 national 
report, helped Tribes serve over 41,000 people, of whom only 4 percent 
did not complete their objectives. More importantly, of those who 
obtained employment:

  <bullet> Adults gained $9.25 per hour;
  <bullet> Youth gained $6.40 per hour;
  <bullet> People on cash assistance gained $7.60 per hour.

    The 477 program is critical to our effectiveness, especially in 
this environment of shrinking funding sources.
    In 2011 and again last year, the Tribes sought assistance from the 
House and Senate Appropriations committees to address two problematic 
changes to the 477 program that the agencies proposed to the 
Administration: (1) ending the practice of transferring 477 program 
funds to participating Tribes and Tribal organizations through PL 93-
638 contracts or Self-Governance agreements, as authorized by the 
Indian Self-Determination and Education Assistance Act (ISDEAA); and 
(2), a new requirement that 477 Tribes and Tribal organizations report 
their 477 expenditures separately by funding source number for audit 
purposes. These changes would significantly undermine the program's 
success.
    Congressional intervention directing agencies to work their 
concerns out with Tribes and Tribal organizations resulted in the 
formation of the P.L. 102-477 Administrative Flexibility Work Group. 
This group, which included representatives from the Departments of the 
Interior (DOI), Health and Human Services (HHS), Labor (DOL) and the 
Office of Management and Budget (OMB), as well as representatives from 
10 affected Tribes and Tribal organizations, has met almost weekly for 
18 months. In the meantime, the agencies agreed to temporarily allow 
funds to continue to be transferred through ISDEAA and have suspended 
the reporting requirements instituted in the March 2009 OMB Circular.
    The Work Group has had some successes, including: (1) effective 
collaboration on interim OMB circular language that has kept the status 
quo while discussions continue; (2) developing a new draft 477 program 
guideline for the agencies in reviewing tribal plan proposals; (3) 
agreeing to certain components of the draft narrative, statistical and 
financial reporting; and (4) agreement that 477 funds would be 
transferred through P.L. 93-638 contract(s) or Self-Governance funding 
agreement(s).
    However, in spite of this progress, it has become clear that the 
agencies continue to question one of the fundamental purposes of the 
477 program--to allow tribes and tribal organizations to reallocate 
their funds within their approved 477 program in order to address local 
issues and needs in the most effective manner. From our perspective, 
giving this authority and responsibility to tribes to meet their own 
needs is exactly the point and strength of the 477 program. It is 
precisely this flexibility that has allowed CITC to be so successful.
    Given this disagreement of fundamental principle, we believe that 
it is vital that Congress weigh in again in support of the 477 program. 
Specifically, we have requested that the Appropriations Committees 
expedite the negotiations by clarifying the intent of the 477 program 
in the appropriations process by including following language:

         Notwithstanding any other provision of law, and 
        notwithstanding any auditing or reporting circular of the 
        Office of Management and Budget or related compliance 
        memoranda, hereinbefore and hereinafter (1) any funds supplied 
        by any Federal department or agency to carry out a plan under 
        Public Law 102-477 (the Indian Employment, Training and Related 
        Services Demonstration Act), as amended, shall be consolidated 
        and made available to the applicable Indian tribe or tribal 
        organization pursuant to an existing contract, compact, or 
        funding agreement under title I or title IV of Public Law 93-
        638 (the Indian Self-Determination and Education Assistance 
        Act), as amended; and (2) no Indian tribe or tribal 
        organization carrying out such a plan shall be required to 
        separately account for the expenditure of the funds of each 
        Federal department or agency after the date on which the funds 
        are consolidated and paid to the Indian tribe or tribal 
        organization; (3) all funds transferred under an approved 
        Public Law 102-477 plan may be reallocated and rebudgeted by 
        the Indian tribe or tribal organization to best meet the 
        employment, training and related needs of the local community 
        served by the Indian tribe or tribal organization.

    We urge this Committee to consider forwarding this language to the 
Senate Appropriations Committee with a request from this Committee for 
action in support of the 477.
Contract Support Costs
    Many of the services provided by Tribes and Tribal organizations 
are provided under contract with the Federal Government. P.L. 93-638, 
the Indian Self-Determination and Education Assistance Act of 1975, 
allowed the Federal Government to contract out to Tribes and Tribal 
organizations the responsibility for running the programs required to 
meet federal trust obligations. Today under P.L 93-638, Tribes and 
Tribal organizations across 35 states run over $2.3 billion in services 
on behalf of the government. Every Tribe in the United States runs at 
least one program for the government under a self-determination 
contract. CITC runs substance abuse treatment, 477, recovery services, 
education, job training and placement, and child and family services 
programs under self-determination contracts. These contracts have 
allowed Tribes and Tribal organizations to take control of the welfare 
of our own people.
    P.L. 93-638 requires the government to pay Tribes in full for the 
``contract support costs'' the Tribes incur when administering the 
contracts. The costs, which are fixed and annually established by the 
government, cover such expenses as federally mandated audits, worker's 
compensation and property. When these costs aren't paid, the programs 
suffer.
    In spite of multiple court decisions clarifying that payment of 
contract support costs is a binding contractual obligation due all 
Tribes and Tribal organizations that operate BIA and IHS contracts, the 
Administration's budget for FY14 underfunds contract support accounts, 
and even more outrageously, proposes a new mechanism for funding these 
costs.
    First, the Administration's budget requests $140 million less than 
is needed to honor all tribal contracts with the Indian Health 
Services, and falls $12 million short of the amount necessary to honor 
all BIA contracts. Second, the new mechanism proposed to fund these 
costs proposes giving legal effect to a yet-to-be-published table 
specifYing the maximum amount each tribal contractor would be entitled 
to be paid. Since each tribal contract is ``subject to the availability 
of appropriations'' this change would in effect cut off all future 
contract rights. It is important to note that the Administration is not 
proposing that a Tribe or Tribal organization cut back the services 
they are contracted to provide, but only to cut the amount the 
government would pay a Tribe to provide the same services. These 
changes are extremely troubling and would challenge CITC's ability to 
continue providing the quality programs that we currently run.
    We oppose the Administration's proposed restructuring of the 
payment of these costs, the overall statutory caps on contract support 
costs, and we are adamantly opposed to changes that would deny Indian 
Tribes and Tribal organizations the same contract remedies that every 
other government contractor possesses.
    We urge the Committee to make the following recommendations to the 
Senate Appropriations Committee:

        1)  Congress should reject the Administration's proposed 
        restructuring of the annual appropriations Acts.

        2)  Congress should either eliminate the current earmarked caps 
        on the contract support cost payments, or raise the IHS cap to 
        $671 million and the BIA cap to $242 million.

        3)  Congress should not deny Indian Tribes the same contract 
        remedies that every other government contractor possesses, and 
        that the Supreme Court confirmed, in Ramah and Cherokee, apply 
        to 638 contractors.

        4)  The Administration should be directed to engage in true and 
        thoughtful government-to-government consultation, and that to 
        ensure thorough vetting, the Administration should be directed 
        not to bring a proposal back to the Appropriations Committee 
        sooner than FY 2016.

        5)  In an effort to encourage agencies to disclose accurate and 
        timely sh01tfall reports, Congress should insert language 
        waiving the ``deliberative process privilege'' provided under 5 
        U.S. C. 552(b)(5) for all contract supp01t cost date not 
        disclosed on or before May 15.

        6)  Congress should direct the agencies to include projections 
        for IHS and BIA contract payments.

Conclusion
    Madame Chair, CITC is grateful for this Committee's interest in and 
support for the 477 program, and Contract Support Costs. We urge the 
Committee to act quickly action on both issues. These programs are 
essential to our ability to meet the needs of our people in innovative 
and efficient ways.
    Thank you for your time and consideration.
                                 ______
                                 
 Prepared Statement of Hon. Robert Shepherd, Tribal Chairman, Sisseton 
               Wahpeton Oyate, Lake Traverse Reservation
    Chairwoman Cantwell and Committee members, Thank you for giving us 
the opportunity to present testimony regarding the 2014 budget.
    The House Appropriations Committee is listening to testimonies from 
Indian Country for the next two days. In my testimony submitted to them 
I reminded them that as a committee they were representing 29 states 
with a total of 247 Federally Recognized Tribes located within their 
states. 340 Federally Recognized Tribes, have representation today at 
the table of this Committee.
    As the Senate Committee of Indian Affairs you are well aware of the 
continuous challenges Indian Country faces. With the proposed 2014 
budget and sequestration these challenges have and will only become 
more difficult to overcome. One of the certain results will be future 
testimony from Indian Country stating the high increase of death due to 
suicide, poor health and violence-related causes. That is a fact I can 
assure this Committee of today.
    For our Committee members who are familiar with and work closely 
with the tribes in your state, I applaud your efforts. To be in 
proactive support of a nation who is not always popular in their state 
due to lack of knowledge of what federal obligations entail is a strong 
reflection that they are in fact working for all people and not a 
political agenda.
    For our Committee members who are in support of the proposed cuts 
that will affect Indian Country, these proposed changes will only bring 
drastic effects to all tribes. One of the most significant reminders I 
can state today is the federal obligation to all federally-recognized 
tribes and that obligation should be considered as exempt from these 
cuts and sequestration.
    As one of the 567 Federally Recognized Tribes and as one of the few 
remaining Treaty Tribes, my testimony today is to speak not only behalf 
of the Sisseton-Wahpeton Oyate and our Great Plains Region but to also 
remind the Committee of the federal obligations to the federally 
recognized tribes that are not and cannot be considered as a category 
or program under discretionary, entitlement nor as a hindrance to the 
budget.
    The Sisseton Wahpeton Oyate is in strong opposition of the 
Administration's FY 2014 budget proposal. The following components will 
be drastically affected without any kind of consultation or prior 
input.
Sequestration
    Trust and treaty obligations to tribes should not be subject to 
sequestration. The sequester reductions to tribal programs undermine 
Indian treaty rights and obligations--treaties which were ratified 
under the Constitution and are considered the ``supreme law of the 
land.''
    Our treaty specifically binds the United States Government to 
provide health care to the people of the Sisseton-Wahpeton Oyate. The 
United States Constitution itself states in Article VI., ``This 
Constitution . . . and all treaties made . . . under the authority of 
the United States, shall be the Supreme laws of the land.'' Enforcing 
the continuation of these services are the Snyder Act of 1921 and the 
Transfer Act of 1955 for continuation of services and appropriation of 
funds to provide health services to Indian people for as long as the 
Federal-Indian trust relationship continues. The Indian Health Care 
Improvement Act enacted in 1976 is a legal cornerstone for providing 
health care to American Indian/Alaskan Native people. As chronically 
underfunded Indian Health Service is, it is unconscionable to not be 
exempt from the sequestration. In fact, it needs to fall under the 
exempt categories such as Social Security, Medicaid, CHIPs and Veteran 
benefits.
    Tribal nations provide ongoing contributions of natural resources 
of the land and water to the U.S. economy. In exchange, the United 
States agreed to protect tribal treaty rights, lands, and resources, 
including provision of certain services which is known as the federal 
Indian trust responsibility.
    To agree and suggest such budget cuts without the conversation and 
consultation is blatant disregard of not only the trust obligations, 
but it thwarts tribes' ability to promote economic growth or plan for 
the future of Native children and coming generations. We have been 
historically underfunded leading to the domino effect of impoverished 
reservations, high crime and suicide rates, and inadequate healthcare.
Expected Impact
    Inadequate funding has already resulted in evidence-based poor 
health and early death. Because of anticipated cuts Contract Health 
Service will be limited to Priority I. which is life or loss of limb 
threatening services only. Preventative and primary care also known as 
``womb to tomb'' care will not be available which will only increase 
the already high early death rate. In South Dakota, the life expectancy 
for a Caucasian is 81 years of age, for an ``Indian'' it is 58 years of 
age.
    The expected impacts to our P.L. 93-638 Programs that work with our 
local Indian Health Service are;
Community Health Representative Program
    An estimated reduction of 1,075 less people served in the areas of 
diabetes, maternal and child health, health education, transportation, 
home patient care and monitoring through the Community Health 
Representative Program. This impact will only increase the already high 
infant mortality rates and further reduce life expectancy of our tribal 
members.
Dakota Pride Treatment Center
    The difficult decision to choose between discontinuing youth 
intervention and aftercare services or transitional services for adults 
in the halfway house can only be considered as detrimental. Our 
treatment facility is a 30 day cycle, 12 bed in house, eight bed 
transitional housing State accredited chemical dependency service 
program for adults. In addition there is also outpatient treatment, 
aftercare and prevention services for youth and adults. Currently only 
outpatient services are available to juveniles.
    Knowing the critical challenges and long term effects we have taken 
the initiative to battle these issues locaJly with our own resources to 
promote healthier lifestyles with available grants and tribal resources 
for example;

  <bullet> We are working towards building a Community Justice and 
        Rehabilitation center that will include juvenile treatment 
        capabilities for adolescence in-patient and aggressive drug and 
        alcohol preventative measures for our youth. With the rapid 
        increase of serious drugs such as meth coming into the 
        communities we cannot allow any of these services to lapse.

  <bullet> Our health and fitness center offers preventative programs 
        to community members including non-tribal citizens. A variety 
        of fitness programs, diabetes prevention and nutrition classes 
        are offered.

  <bullet> Suicide prevention and awareness targeting our high risk 
        youth have been increased by 100 percent.

  <bullet> In-home health care services through our tribal elderly 
        program, assists with medication, monitoring of vital signs, 
        blood pressure, blood sugar and make referrals to IHS if there 
        are any urgent health issues.

    These examples are presented so the Committee Members understand 
that we are not only bringing problems to the table but we are also 
working towards solutions.
    In closing, I would like to stress to the Committee Members, the 
federal obligations agreed to by the United States Government, we as 
Federally-recognized Tribes should be exempt from such budget cuts and 
sequestration.
    Pidamiyado
                                 ______
                                 
  Prepared Statement of James E. Zorn, Executive Administrator, Great 
           Lakes Indian Fish and Wildlife Commission (GLIFWC)
Agencies--Bureau of Indian Affairs and Environmental Protection Agency
    1. BIA Rights Protection Implementation: $36,722,000. Great Lakes 
Area Resource Management: $7,067,000 (Administration's proposed 
allocation).

    Agency/Program Line Item: Dept. of Interior, Bureau of Indian 
Affairs, Operation of Indian Programs, Trust-Natural Resources 
Management, Rights Protection Implementation, Great Lakes Area Resource 
Management.

    Funding Authorizations: Snyder Act, 25 U.S.C. s. 13; Indian Self-
Determination and Education Assistance Act, (P.L. 93-638), 25 U.S.C. 
ss. 450f and 450h; and the treaties between the United States and 
GLIFWC's member Ojibwe Tribes. \1\
---------------------------------------------------------------------------
    \1\ Specifically, the Treaty of 1836, 7 Stat. 491, Treaty of 1837, 
7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 Stat. 
1109. The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities have been affirmed by 
various court decisions, including a 1999 US Supreme Court case.

    2. BIA Contract Support: At least the $231,000,000 amount requested 
by the Administration, provided this amount meets the full contract 
support funding required by the Indian Self-Determination and Education 
---------------------------------------------------------------------------
Assistance Act.

    Agency/Program Line Item: Dept. of Interior, Bureau of Indian 
Affairs, Operation of Indian Programs, Tribal Government.

    Funding Authorization: Indian Self-Determination and Education 
Assistance Act, (P.L. 93-638), 25 U.S.C. ss. 450f and 450h.

    3. EPA Great Lakes Restoration: $300,000,000. Tribal Need: 
$25,000,000. GLIFWC Need: $1,200,000 (estimated annual need).

    Agency/Program Line Item: Environmental Protection Agency, 
Environmental Programs and Management, Geographic Programs, Great Lakes 
Restoration.

    Funding Authorizations: Clean Water Act, 33 U.S.C. s. 1268(c); and 
treaties cited above.

GLIFWC'S Goal--A Secure Funding Base to Fulfill Treaty Purposes
    For nearly 30 years, Congress has funded GLIFWC to meet non-
discretionary treaty obligations and to comply with associated federal 
court orders. GLIFWC implements comprehensive conservation, natural 
resource protection, and law enforcement programs that ensure member 
tribes are able to exercise their treaty reserved rights to hunt, fish, 
and gather throughout the ceded territories, and that ensure a healthy 
and sustainable natural resource base to support those rights. These 
programs also provide a wide range of public benefits and assure full 
participation in management partnerships in Wisconsin, Michigan, and 
Minnesota.
    GLIFWC and its member tribes appreciate the Administration's and 
Congresses' strong support of these treaty obligations for the past 30 
years and for their continuing recognition of the hard work undertaken 
to implement the RPI program. They also appreciate this Committees' 
request for testimony on the FY 2014 proposed budget. Despite an 
increase in support for treaty rights protection in FY 2012, GLIFWC's 
FY 2012 funding, leveraged with other funding sources, still results in 
unmet needs of $2,636,000. Funding at the proposed FY 2014 level would 
begin to address these unmet needs. For more detail, the three elements 
of this FY 2014 funding request are:
    1. BIA Great Lakes Area Management: $7,067,000. This program falls 
within the Rights Protection Implementation (RPI) line item, which the 
Administration proposed at $36,722,000 for FY 2014. Funds provided to 
GLIFWC under the RPI program ensure that GLIFWC's member tribes 
continue to comply with federal court orders by ensuring effective 
implementation of tribal self-regulatory and co-management systems.
    In previous fiscal years, GLIFWC and other Treaty Commissions 
testified about chronic underfunding of the Rights Protection 
Implementation line item and the impacts of that underfunding on 
GLIFWC's programs. The increases in the Great Lakes Area Resource 
Management line item in FY 2010 allowed the Commissions to restore some 
program cuts that had resulted from previous funding shortfalls. 
Sequestration will undo many of these restorations. For example, for 
GLIFWC, sequestration threatens its long-standing fish contaminant and 
consumption advisory program, fall juvenile walleye recruitment 
surveys, tribal court and registration station funding, and Lake 
Superior lamprey control and whitefish assessment programs. Any of 
these cuts will have a greater impact now, when demand for GLIFWC's 
services across the ceded territories is increasing as more tribal 
members are exercising their rights to put food on their tables during 
difficult economic times. Funding at the proposed FY 2014 level would 
protect GLIFWC programs from these cuts.

    2. BIA Contract Support: At least $231,000,000, consistent with the 
Indian Self- Determination and Education Assistance Act's requirement 
for full contract support funding. GLIFWC does not support the 
Administration's proposal to institute individual statutory caps, in 
part because there is no funding to cover any shortfalls without 
undermining service capacity.

    3. EPA Environmental Programs and Management: $300,000,000. GLIFWC 
supports continued funding for the Great Lakes Restoration Initiative 
(GLRI) at the Administration's proposed FY 2014 level of $300,000,000. 
It also recommends that at least $25 million be provided to the BIA for 
tribes, to ensure they are able to undertake local projects that 
contribute to the protection and restoration of the Great Lakes.
    Sustained funding for GLIFWC at approximately $1.2 million will 
enable GLIFWC to maintain its protection and enhancement activities 
throughout the ceded territories. These activities are especially 
important at a time when state and federal agencies are stepping back 
from on-the-ground protection work due to budget constraints. 
Protection activities are imperative--protecting resources from 
degradation is much more effective and cost-efficient than restoration 
activities. It makes no sense to let resources degrade, only to spend 
more money on restoration. The benefits of GLIFWC protection and 
restoration activities are not only felt by its member tribes, but 
benefit all communities that use the ceded territories.
    Funding provided through the BIA should be made available under the 
Indian Self- Determination and Education Assistance Act (ISDEAA). In 
2010, GLRI funding awarded through the ISDEAA was virtually the only 
GLRI funding that was available before the 2010 field season. This 
enabled tribes to begin project implementation much earlier and realize 
substantial ``on-the-ground'' ecosystem benefits early.
Ceded Territory Treaty Rights--GLIFWC'S Role and Programs
    Established in 1984, GLIFWC is a natural resources management 
agency of eleven member Ojibwe Tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
over a 60,000 square mile area that extends to Minnesota, Wisconsin, 
and Michigan.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Through its staff of 66 full-time biologists, scientists, 
technicians, conservation enforcement officers, policy specialists, and 
public information specialists, GLIFWC's mission is to: i) ensure that 
its member tribes are able to exercise their Treaty-protected rights to 
meet subsistence, economic, cultural, medicinal, and spiritual needs; 
and ii) ensure a healthy, sustainable natural resource base to support 
those rights. GLIFWC is a ``tribal organization'' as defined by the 
Indian Self-Determination and Education Assistance Act, governed by a 
Constitution that is ratified by its member tribes and by a Board 
composed of the Chairs of those tribes.
Justification and Use of the Requested Funds
    1. Maintain the Requisite Capabilities to Meet Legal Obligations, 
to Conserve Natural Resources and to Regulate Treaty Harvests: Although 
it does not meet all GLIFWC's needs, sustained funding at the FY 2014 
level would go a long way in facilitating continued tribal compliance 
with various court decrees and intergovernmental agreements governing 
the tribes' treaty-reserved hunting, fishing and gathering rights. It 
also enhances GLIFWC's capability to undertake work and participate in 
relevant partnerships to tackle ecosystem threats that harm treaty 
natural resources, including invasive species, habitat degradation and 
climate change.

    2. Remain a Trusted Environmental Management Partner and Scientific 
Contributor in the Great Lakes Region: GLIFWC would maintain its role 
as a trusted environmental management partner and scientific 
contributor in the Great Lakes Region. It would bring a tribal 
perspective to the interjurisdictional mix of Great Lakes managers \2\ 
and would use its scientific expertise to study issues and geographic 
areas that are important to its member Tribes but that others may not 
be examining. \3\
---------------------------------------------------------------------------
    \2\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Restoration 
Initiative, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \3\ With the requested FY 2014 funds, GLIFWC would: (i) continue a 
ceded territory wild rice enhancement project; (ii) facilitate tribal 
input and participation in the implementation of the revised Great 
Lakes Water Quality Agreement; (iii) continue to participate in the 
development and implementation of the Lake Superior Lakewide Management 
Plan; (iv) build upon its long-standing fish contaminant analysis and 
consumption advisory program by testing additional species, testing in 
a wider geographic range, and testing for chemicals of emerging 
concern; (v) enhance its invasive species and animal disease 
prevention, monitoring and mitigation programs, particularly given the 
potential impacts of climate change, the recent discovery of viral 
hemorrhagic septicemia (VHS) in Lake Superior and the potential 
migration of the Asian Carp into the Great Lakes, and (vi) enhance its 
capacity to protect ceded territory natural resources by responding to 
development proposals such as those related to mining.

    3. Maintain the Overall Public Benefits That Derive From Its 
Programs: Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management. Because of its institutional 
experience and staff expertise, GLIFWC has built and maintained 
numerous partnerships that: (i) provide accurate information and data 
to counter social misconceptions about tribal treaty harvests and the 
status of ceded territory natural resources, (ii) maximize each 
partner's financial resources and avoid duplication of effort and 
costs, (iii) engender cooperation rather than competition, and (iv) 
undertake projects that achieve public benefits that no one partner 
could accomplish alone, as the Department of the Interior highlighted 
in its FY 2014 Budget in Brief. \4\
---------------------------------------------------------------------------
    \4\ The FY 2014 Budget in Brief highlights GLIFWC's wild rice 
restoration and management activities, done in partnership with the 
states of Wisconsin, Minnesota, and Michigan, as well as GLIFWC's 
participation in joint fisheries management on Lake Superior. See pages 
DH-84 and DH-85.
---------------------------------------------------------------------------
Other Related Appropriations Concerns
    1. Rights Protection Litigation Support: Litigation support funds 
are used to defray costs associated with litigation to affirm and 
implement treaty reserved rights. Defraying these costs, such as those 
associated with ongoing negotiations with states in on-going co-
management activities preserves base funding for GLIFWC's program 
costs.

    2. Rights Protection Evaluation and Research Activities: GLIFWC 
supports the Administration's proposed $3.5 million for evaluation and 
research activities in the Rights Protection Implementation line item, 
provided this funding goes to RPI tribes and intertribal commissions to 
carry out the evaluation and research activities that will lead to the 
development of implementation and management strategies to deal with 
the many changes that are occurring throughout the ceded territories.
                                 ______
                                 
            Prepared Statement of St. Francis Indian School
    St. Francis Indian School is located on the Rosebud Sioux 
Reservation in South Central South Dakota. Our school is funded as 
follows for the 566 students enrolled; with our weighted student unit 
(WSU) at $5,339.51 per student count. The tables show the 5 percent 
decrease in funding that was directed by the Bureau of Indian Education 
for the next school year. As of this year 2012-2013 we were funded at 
$8,920,675 but for the 2013-2014 school year we had to cut $430,479. In 
all actuality if our Administrative Cost Grant was fully funded as well 
as our Operations and Maintenance at 100 percent, transportation was 
funded to meet our needs at $1,000,000 and we didn't have to cut the 5 
percent out of programs we should actually be funded at $9,627,699 per 
school year to maintain the needs of our students.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The sequestration 5 percent cuts on our school has had a 
devastating impact in the areas of:
    Indian School Equalization Program (ISEP): The impact as such has 
been that we have had to cut 10 teaching positions and 8 support 
personnel in the areas of school safety, human resources, teacher 
mentors/coaches and food services.
    Due to those cuts class sizes have to increase which impacts 
student achievement directly as research has proven that smaller class 
sizes increases student achievement.
    School safety has always been a priority for our schools, with the 
terrible tragedy that occurred in this year in the elementary school in 
Newtown, Connecticut, it is vital for us to have hall monitors to aide 
us in keeping our school buildings safe and giving us the first line of 
defense in any school safety issue occurs preempting us to lock down or 
evacuate suddenly.
    Our teacher mentor/coaches give on site technical assistance to our 
teachers and come highly trained for what their job duties are in 
various subject in reading/math/classroom management techniques, we 
spent staff development dollars getting them highly trained to assist 
those teachers in those areas so that we don't have to spend those 
precious dollars on sending people to training.
    The human resource impact is huge in the fact that this individual 
handles our background checks and drug testing of our staff to be in 
compliance with our funding agencies requirements and allows our staff 
to meet those guidelines to be around our students. It gives our 
stakeholders a peace of mind in that they are comfortable sending their 
students to us on a daily basis.
    The food service staff that are employed for the high school; as we 
just recently opened a food serving center in that building along with 
the gymnasium under the ARRA stimulus money to complete our 
construction project, are necessary to school safety and keeping our 
elementary students apart from the middle and high school students and 
their behaviors, which sometimes can be detrimental to our elementary 
kids and their social growth. We have to find another avenue to fund 
the 4 positions at the High School for next year.
    Several of our support office staff went from 52 week contracts to 
46 weeks to reduce the contracted amount we pay them to reach the 5 
percent decrease which will begin this summer of 2013. We will have to 
use creative ways to keep the community informed during the summer 
months.
    We are asking the supplemental programs for the first time assist 
in Operations and Maintenance expenditures as we always have done in 
ISEP general education to keep the maintenance of the buildings falling 
in to total disrepair and maintaining cleanliness for student use. 
Further explanation will be forthcoming in the O & M section.
    Finally we capped all coaching salaries and reduced them for the 
upcoming year of 2013-14.
    In order for us to continue funding the necessary school operations 
such as curriculum purchases, textbooks, supplies and materials, common 
core implementation, MAPS assessment, athletics and offices expenses 
and Operations and Maintenance purchases and keep from overspending in 
spite of the 5 percent cuts this is how St. Francis Indian School took 
action in ISEP.

    Transportation: Out of the 566 students enrolled this year exactly 
414 students ride our transportation system daily, that is exactly 2/3 
of our student population that we service. Our drivers cover 6,516 
miles weekly or 260,640 in a school year in a 100 mile radius that 
covers the Rosebud Reservation. Only 3 routes out of 11 are on paved 
roads while the other 8 go on non-paved side roads or country roads to 
pick up students. These figures do not reflect our transporting of 
students for athletic events, student field trips and other educational 
transportation endeavors. Our last bus purchase was in 2007 at $60,000 
for a new bus and the other busses we operate are becoming too old to 
operate although we continue to fix them and a great expense to the 
already stressed transportation budget. We historically spend $160,000 
on gas and diesel our maintenance costs were $30,000 last year. The 
cuts are devastating in this area if we are to continue to have 
transportation services for our vehicles and busses at a safe rate for 
our students.

    Administrative Cost Grant: These appropriations have not been 
sufficient as the BIE has funded this at below 60 percent of what is 
actually needed to operate our school. The essentials needs such as 
grant administration, program planning, human resources, insurance, 
fiscal, procurement and property management, required annual audits, 
recordkeeping, legal, security and overhead services are paid for out 
of the Administrative Cost Grant.
    The inadequacy of ACG funding was documented in the 2003 GAO report 
(Expenditures in Selected Schools are Comparable to Similar Public 
Schools, but Data are Insufficient to Judge Adequacy of Funding and 
Formulas, GAO-03-955. In that year ACG were funded at 72 percent but as 
the level of funding eroded year to year since then, the cost of the 
ACG has not kept up in response to that level of funding needed to 
operate our school.
    The schools have had to make difficult decisions such as delaying 
purchases of ISEP items as those funds have had to assist in the ACG to 
pay for audits or other essential priorities to stay in compliance with 
our grant requirements.
    This grant would also have to help the O & M budget as they have 
never been funded at 100 percent just to keep personnel on to maintain 
our school buildings or buy priority items such as school boilers to 
keep our buildings heated.
    No institution can or should be expected to operate prudently and 
productively if only 60 percent of its overhead costs are being met.

    Operations and Maintenance: This has always been underfunded at 
only 43 percent of what is actually needed for our school to maintain 
and operate our school heating and cooling systems as well as stay 
ahead of repairs from the daily use of the schools systems by our 
students and staff. Our schools have to cost share with other already 
stressed budgets to keep these operations going from ISEP and 
Administrative Cost Grants to get through each school year. The cut has 
already shown a devastating impact with no other revenue to assist 
these budgets.

    Facility Operations

    The Facility Operations funding provides funding for 21,430,000 
square feet of education space. Expenses for operation of BIE-funded 
schools include electricity, heating fuels, communications, grounds 
maintenance, GSA vehicle rental, refuse collection and disposal, 
custodial services, pest control, water and sewer service and fire/
intrusion monitoring, as well as operations program administration.

    Facility Maintenance

    The Facility Maintenance funding provides funding for 21,430,000 
square feet of education space. Expenses for operation of BIE-funded 
schools include electricity, heating fuels, communications, grounds 
maintenance, GSA vehicle rental, refuse collection and disposal, 
custodial services, pest control, water and sewer service, and fire/
intrusion monitoring, as well as operations program administration.
    The Great Plains Tribal Leaders and Tribal Educators as well as St. 
Francis Indian School oppose taking any funding from the scarce funds 
going to our Tribal Schools. (ISEP ($16.5 M). If DOE wants a Pilot 
Project, let DOE Fund it our Tribal Schools need the ISEP dollars to 
operate our schools which already have been devastated with the 5 
percent cuts for next year. As this is on the agenda for discussion 
this week we want to go on record opposing this initiative and keep the 
money with the schools:

        BIE Pilot Program
         --President has proposed a $15 million for a pilot program 
        based on the Department of Education turnaround schools model 
        and concepts. The increases are offset by a $16.5 million 
        reduction in Indian School Equalization Program funds.

    Conclusion: The Obama Administration has the opportunity to correct 
years of neglect for the tribally operated schools in the BIE school 
system, and to demonstrate that the promise of Indian Self-
Determination extends to the schools for our Native American children 
for which the Federal Government has sole responsibility. It is ironic 
that schools were the first BIA programs to be taken over through 
exercise of Indian self-determination rights, but now, nearly 38 years 
after enactment of the Indian Self-Determination and Education 
Assistance Act, tribally-operated schools receive the lowest level of 
funding by a wide margin. That level of support is so dangerously low 
that it threatens the ability of these schools to function.
                                 ______
                                 
  Prepared Statement of Billy Frank, Jr., Chairman, Northwest Indian 
                          Fisheries Commission
    Dear Senator Cantwell:

    On behalf of the Northwest Indian Fisheries Commission and our 
member tribes, I would like to thank you for all of your past efforts 
to protect, sustain and enhance our natural resources. Not only is the 
protection and restoration of our natural resources important to our 
tribes but it is also important for all citizens of the state of 
Washington. It is because of champions like you that allow us to 
protect and restore the state's resources which are essential to our 
tribal communities and their economies.
    As you are aware, we have been pursuing our Treaty Rights at Risk 
initiative for almost two years. The treaty-reserved right to harvest 
salmon continues to decline due to ongoing loss of habitat. The Federal 
Government has an obligation to protect these treaty-reserved natural 
resources. The treaties and the treaty-reserved right to harvest are 
the supreme law of the land under the U.S. Constitution. For the tribes 
to fully exercise their treaty rights it will take sustained financial 
support for us to properly manage the resource. Funding that is 
provided to tribes allows us to perform the necessary management 
responsibilities to protect these resources. We are sensitive to the 
budget challenges that Congress faces. However, we believe the 
management work that we perform to protect our valuable resources and 
to help fulfill the trust obligation of the Federal Government 
continues to be worthy of your support. Without this continued support 
the treaties will have no meaning as these natural resources disappear.
    As you know, the President released his Fiscal Year 2014 (FY14) 
Budget earlier this month. We are pleased to see the continued strong 
advocacy of tribal programs, particularly natural resources. If there 
is any normalcy to the appropriations process this year, we are 
presented with a great starting point with the President's budget and 
an opportunity with your continued support. Even with the financial 
constraints placed on the Federal Government with the overall spending 
reductions, we feel there is much congressional and agency support in 
upholding the federal trust responsibility.
    We would like the opportunity to comment upon portions of the FY14 
Interior, Environment and Related Agencies' budget. We specifically 
would like to address the budgets of the Bureau of Indian Affairs (BIA) 
and the Environmental Protection Agency (EPA) and identify our 
appropriations request as Congress begins to deliberate funding 
priorities for FY14.
Bureau of Indian Affairs
Rights Protection Implementation Sub-activity
    There are several accounts within the Rights Protection 
Implementation (RPI) Sub-activity which affect our member tribes. These 
include Western Washington Fisheries Management, U.S./Canada Pacific 
Salmon Treaty, Washington State Timber-Fish-Wildlife and Salmon 
Marking. The President's FY14 budget contains $36.722 million, an 
increase of $8.746 million over the FY12 enacted level. We support 
funding RPI at $36.722 million. However, there remains a continued, 
unmet need and we therefore have the following requests.

  <bullet> Provide $17.146 million for BIA Western Washington Fisheries 
        Management

    Over the past several years, the tribes and the NWIFC have 
requested an increase of $12.0 million in the base Western Washington 
program. The increase in FYIO was very much appreciated, however, we 
once again ask Congress to address the remaining identified needs of 
the NWIFC and our member tribes. The President's FY14 budget contains 
$9.613 million. We respectfully request $17.146 million. Funding for 
this program allows for continued treaty harvest management, population 
assessment, habitat protection and data gathering for finfish, 
shellfish, groundfish, wildlife and other natural resource management 
needs. Funds provide the necessary capacity for the treaty tribes to 
co-manage the resources with the state of Washington and to meet court 
required mandates.

  <bullet> Provide $3.082 million for BIA Washington State Timber-Fish-
        Wildlife

    The Congressional increase to Rights Protection Implementation in 
FY10 of $12.0 million was allocated to all programs within this sub-
activity including the Washington State Timber-Fish-Wildlife (TFW) 
program. The President's FY14 budget contains $3.082 million. We 
support funding this account at $3.082 million. Funding for this 
program is provided to improve forest practices on state and private 
lands while providing protection for fish, wildlife and water quality. 
This will provide the necessary funding to tribal TFW programs to fully 
participate in the TFW process.

  <bullet> Provide $4.844 million for BIA U.S./Canada Pacific Salmon 
        Treaty Implementation

    The Pacific Salmon Treaty (PST) Act of 1985 charges the United 
States Section of the Pacific Salmon Commission with the responsibility 
for implementation of the PST, a bilateral treaty with Canada. Tribes 
assist in meeting the Federal Government's obligations in implementing 
the treaty by participating in cooperative research and data gathering 
programs. The President's FY14 budget contains $4.844 million. We 
support funding this account at $4.844 million. This will provide 
sufficient funding to ensure that the tribes can continue to 
participate effectively in the bi-lateral PST process.

  <bullet> Provide $2.4 million for BIA Salmon Marking

    Funding for this program is required to meet the 2003 mandate by 
Congress that required all salmon released from federally funded 
hatcheries be marked so they could be uniquely identified. This allows 
tribes to mark salmon at tribal hatcheries and to use these marked fish 
to scientifically monitor salmon populations and watersheds in Western 
Washington. The President's FY14 budget contains $1.171 million. We 
respectfully request $2.4 million. This amount is required to fully 
implement more extensive selective fisheries targeted at these marked 
fish. This request is also important in part because marking costs are 
increasing as tribal hatchery production continues to increase.
Other BIA Sub-activity Accounts

  <bullet> Provide $6.843 million for BIA Fish Hatchery Maintenance

    Tribal fish hatcheries in western Washington are part of the 
largest fish hatchery system in the world. These hatcheries provide 
fish that significantly contribute to both non-Indian recreational and 
commercial harvest, as well as for tribal fisheries. The President's 
FY14 budget contains $6.843 million. We support funding this account at 
$6.843 million. Funding for this program is provided to tribes 
nationwide based on the ranking of annual maintenance project 
proposals. Today, hatcheries also play a large role in recovering 
pacific salmon, many of which are listed under the Endangered Species 
Act. A comprehensive needs assessment study was conducted in FY06 by 
the BIA at the request of Congress which identified a level of need of 
over $48.0 million in necessary hatchery maintenance and rehabilitation 
costs.

  <bullet> Provide $2.6 million for BIA Fish Hatchery Operations

    Funding for this program is provided to tribal hatcheries to 
support the rearing and releasing of salmon and steelhead for harvest 
by Indian and non-Indian fisheries. The President's FY14 budget 
contains $1.85 million. We respectfully request $2.6 million. This 
increase reflects the needs of the western Washington treaty tribes. 
Hatcheries are a necessary part of fisheries management because of the 
lack of wild salmon production due to habitat degradation. Without 
hatcheries tribes would have very few fisheries and their treaty rights 
would be rendered meaningless.

  <bullet> Provide $230.0 million for BIA Contract Support

    Funding for this function is provided to tribal organizations to 
ensure they have the capacity to manage federal programs under self-
determination contracts and self-governance compacts. Historically 
Indirect Contract Support has been drastically underfunded, yet this is 
a critical funding source as it directly supports our governmental 
functions, which allow us to fully exercise our right to self-govern. 
The President's FY14 budget contains $230.0 million. We support funding 
this account at $230.0 million, assuming this covers 100 percent of 
need. Direct Contract Support is also an important piece of this 
funding.

  <bullet> Provide $10.0 million for BIA Cooperative Landscape 
        Conservation

    Funding for this program will provide the tribal capacity needed to 
develop adaptation mechanisms to adjust to environmental challenges. 
The President's FY14 budget contains $10.0 million. We support funding 
this account at $10.0 million, of which $2.0 million is respectfully 
requested for the western Washington treaty tribes. This will allow 
tribes to provide their perspective on climate change adaptation in the 
form of traditional ecological knowledge necessary to protect their 
treaty rights.

  <bullet> Provide $725,000 for BIA Watershed Restoration

    Funding for this program supports our Salmon and Steelhead Habitat 
Inventory and Assessment Program. The FY12 appropriations provided a 
total of $390,000 to western Washington treaty tribes. We respectfUlly 
request $725,000 for the Northwest Indian Fisheries Commission. This 
will allow us to continue to provide environmental data management, 
analysis, and reporting support to our member tribes. These services 
and functions would continue to support our tribes' ability to 
adequately participate in watershed resource assessments and salmon 
recovery work.
Environmental Protection Agency
Tribal General Assistance Program (GAP)

  <bullet> Provide $96.375 million for EPA General Assistance Program

    This funding has built essential tribal capacities and remains 
critical to the tribes' ability to sustain their important water 
quality programs. The President's FY14 budget contains $72.631 million. 
We respectfully request $96.3 75 million. Funding for this program 
continues to provide the capacity for tribal environmental protection 
programs nationwide. This allows tribes to address their most 
fundamental needs such as inadequate drinking water and basic 
sanitation.
Geographic Program: Puget Sound

  <bullet> Provide $50.0 million for EPA Puget Sound

    The Puget Sound Geographic Program provides essential funding that 
will help protect, restore and enhance Puget Sound. Tribes will 
continue to seek funding from this EPA account, in coordination with 
the Puget Sound Partnership. Such funding will allow the tribes to 
participate in the necessary scientific work, implementation measures, 
and policy discussions on issues that affect our treaty rights. The 
President's FY 14 budget contains $17.15 million. We respectfully 
request $50.0 million. Funding for this initiative allows tribes to 
participate in implementing the Puget Sound Action Agenda and a wide 
range of projects aimed at improving the health of Puget Sound by 2020.
    Thank you for your attention to our requests.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                          Hon. Jefferson Keel
    At the Committee's oversight hearing on April 24, 2013, entitled, 
The President's Fiscal Year 2014 Budget for Tribal Programs, Assistant 
Secretary for Indian Affairs Kevin Washburn testified that one 
justification for eliminating replacement school construction funding 
is that due to budget constraints there are currently more buildings 
than can be properly maintained. He further testified that the 
Department should not build more buildings if it cannot take care of 
existing ones.
    Question 1. What are your views on the Assistant Secretary's 
rationale for eliminating this funding?
    Answer. While Bureau of Indian Affairs' (BIA) focus on routine 
maintenance is helpful, construction projects other than total 
replacement do not address the overwhelming concerns for student health 
and safety across the BIA school system. Additional resources must be 
available to fund total replacement projects for those schools in 
disrepair. Furthermore, the current process to piecemeal repair unsafe 
school buildings complicates the schools ability to gain priority on 
the school replacement list. Often when single maintenance projects are 
completed the schools total replacement is delayed or removed from the 
priority list despite the continued danger within the facility.
    Additionally, tribes, federal officials, and congressional members 
are not able to make educated decisions about what areas are funding 
priorities due to lacking data. The last index of BIA schools in poor 
condition was released in 2009 with more than 60 schools. That list is 
sure to have grown over the last four years. Even more troubling is 
that the most recent BIA Education Facilities Replacement Construction 
Priority List, citing schools most in need of repair, was last released 
in 2004--nearly a decade ago. These outdated lists do not allow 
Congressional members to make sound decisions about funding, nor do 
they accurately capture the current environment Native children are 
experiencing more than 180 days a year.
    Despite inadequate data, replacement projects identified in 2004 
were expected to be completed in five years. However, lack of funds 
extended the construction program beyond that timeframe and many still 
remain incomplete. The funding shortfall has left three schools from 
the 2004 list under construction, two in design, and one in the 
planning phase. In a February 28, 2011 letter to Congress, former 
Assistant Secretary of Indian Affairs, Larry Echo Hawk included the 
anticipated date for a revised priority list was to be announced in May 
2012. To date no list has been released.
    It is increasingly difficult to address the needs of the BIA school 
system without updated School Construction Priority Lists. Eliminating 
the budget line item will not solve this problem and inevitably permits 
the government to evade the federal trust responsibility. Federally 
operated facilities do not have the ability to raise additional outside 
funds to support these projects and it is the duty of Congress to 
provide oversight and adequate maintenance and operations funding. 
Especially when the agency does not provide updated information to 
Congress regarding the necessary funding to complete a replacement 
project.
    The Federal Government must protect the trust responsibility to 
Indian education and uphold its sacred obligation to educate Native 
children. This education must include a safe learning environment. 
Children must have a safe, structurally-sound facility that is free 
from distraction. Native students cannot be expected to increase 
student achievement unless there are adequate conditions in which to 
learn and eliminating replacement construction does not uphold the 
Federal Government's responsibility to Indian children.
    While tribal leaders and education stakeholders understand the need 
to focus on repair due to funding issues, we must remain vigilant in 
the accurate data collection and meeting basic funding needs for 
federally operated facilities. The Bureau of Indian Affairs should be 
held accountable and request appropriated funds that adequately fund 
the program to replace the most deteriorated facilities, so that 
congressional appropriators understand the need and allocate funding 
for school replacement construction.

    The Indian School Equalization Program (ISEP) funds constitute the 
primary funding for educational programs for Indian students at Bureau 
of Indian Education (BIE) elementary and secondary schools. The 
President's FY 2014 Budget Request includes a proposed $16.5 Million 
reduction in funding for the ISEP to fund a pilot program modeled after 
the Department of Education's Turnaround School Program.
    According to the Department, these ISEP funds would be reduced for 
all schools, including those who are maintaining average or higher 
achievement, to fund this pilot program. The proposed reduction in ISEP 
funds would translate into an estimated decrease of approximately $180 
per Weighted Student Unit at each school.
    Question 2. How do you think this proposed pilot program will 
improve academic achievement at the BIE schools?
    Answer. Utilizing flexible intervention models to create rigorous 
school turnaround models in the lowest performing schools could be an 
advantage for Indian students who are some of the country's most at-
risk students. These models could help schools and teachers utilize 
local strategies to better address their unique, cultural needs. 
However, this new pilot program does not justify a reallocation of 
funds from ISEP. If the Administration is looking to utilize methods 
that use unique intervention models to address local concerns, 
providing tribes more authority in education would be a better 
solution.
    Tribes and their tribal education agencies are in the best position 
to address the unique needs of Native children. As such, tribes should 
be granted funds to manage education programs similarly to states and 
districts. Tribes should be able to operate ESEA title programs in 
public schools that are located on Indian lands and primarily serve 
Indian students. The Department of Education would then work with 
tribes to identify appropriate title programs for tribal 
administration, and tribes would work with the local educational agency 
on their respective reservations to implement the title program(s) in 
qualifying schools.

    Question 3. Do you think the ISEP funds of the higher performing 
BIE schools should be reduced to fund this pilot program?
    Answer. NCAI does not support the reduction of ISEP funds for a 
new, unproven, pilot program. Reallocating any ISEP funds to a new 
priority of the Administration is unacceptable without the full 
confidence and support of tribes. This FY 2014 budget request priority 
did not go through meaningful tribal consultation and tribes do not 
support moving the funds to a new turnaround program until consultation 
protocol is utilized and Indian Country understands the pilot program.
    ISEP is a formula based system of funding that provides the core 
budget account for BIE elementary and secondary schools by covering 
teacher salaries, aides, principals, and other personnel. These funds 
directly impact the lives of our students by paying for the onsite 
services that have the most impact on Indian children's lives. Tribes 
could support a new grant initiative if it was not reallocating funds 
from a widely supported program and tribes had been engaged by the 
Administration. It is critical that the Federal Government upholds the 
trust responsibility and works with tribes on a government-to-
government basis and the current lack of consultation on this budget 
issue is a cause for concern.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                            Lloyd B. Miller
    On June 18, 2012, in Salazar v. Ramah, the Supreme Court held that 
the government is liable for full funding of the contract support costs 
for tribal contracts and compacts, pursuant to the Indian Self-
Determination and Educational Assistance Act. The Supreme Court noted 
the conflict between insufficient appropriations to pay each tribal 
contractor in-full and mandates in this Act requiring the agencies to 
accept every qualifying tribal contract or compact and provide full 
funding for contract support costs.
    The Court made several suggestions for Congress to address this 
conflict. In the President's FY 2014 Budget Request, the Administration 
proposes to establish specific amounts for these contract support costs 
for each tribal contract or compact.
    Question 1. Does this proposal in any way circumvent the Supreme 
Court's ruling? Please explain.
    Answer. The Administration's proposal circumvents the Supreme 
Court's ruling in Salazar v. Ramah. The core ruling in that case was 
that government contracts awarded to Indian Tribes under the Indian 
Self-Determination Act are to be treated identically to all other 
government contracts. The Administration does not propose to deal with 
ISDA contracts on an identical basis with other government contracts. 
To the contrary, the Administration seeks to limit its payments to 
tribal contractors for carrying out contracts whose operation will cost 
a fixed amount. In other words, the government now proposes not to pay 
its contracts in full, and to avoid liability for doing so. In effect, 
the government seeks free services from the Tribes, amounting to an 
improper augmentation of the proposed appropriation.

    Question 2. Could the Administration's proposal make the government 
more vulnerable or less vulnerable to future lawsuits by tribal 
contractors? Please explain your answer.
    Answer. The Administration's proposal is likely to generate 
additional litigation as Tribes challenge the legality of the new 
appropriations formulation, and contest whether it effectively 
insulates the government from liability for the cost of contract 
performance borne by the Tribes to operate government facilities and 
carry out the government's programs. In contrast, continuing the 
existing appropriations structure is unlikely to spawn additional new 
litigation, although it will lead to additional claims for any unpaid 
contract support costs.

    Question 3. How much money could this potentially cost the 
government in the long run?
    Answer. It is impossible to estimate the government's liability 
either in a status quo situation (i.e., continuing with the current 
appropriations structure) or in shifting to the Administration's 
proposed structure. Ultimately, the government will likely be held 
liable for unpaid contract support costs. However, on remand from the 
Supreme Court, in both the Ramah (BIA) and companion Arctic Slope (IHS) 
cases, the government has argued that any liability the government may 
shoulder in this respect is limited to the amount of the unreimbursed 
costs the tribal contractor incurred at the time. This is significantly 
different from the approach taken by the tribal contractors, which is 
that the government owes the balance of each Tribe's contract support 
cost requirement, as calculated at the time the contract was awarded 
(and, typically, as contemporaneously reported to Congress in 
``Shortfall Reports'' as the amount due the contractor under 25 U.S.C. 
 450j-1(c)).
    The government's approach essentially views the contracts as cost-
reimbursable contracts, so that if the agency did not pay in full the 
amount of the Tribe's contract support cost requirement, and the Tribe 
therefore did not incur the additional costs that it would have 
incurred had the funds been paid in full, then the government has no 
liability for the additional payments it failed to make in the first 
place. In contrast, the Tribes generally view the contracts as fixed-
price contracts, where the amounts agreed upon at the time the contract 
was awarded, and which would have been paid in full and spent had the 
government not breached its contract obligations, are the proper 
measure of damages today. With no court having resolved this issue, it 
is not possible to project the government's potential liability.

    Question 4. Is the proposal consistent with the Supreme Court's 
suggestion in Ramah that Congress could provide line item 
appropriations for contract support costs on a contractor-by-contractor 
basis? Please explain your answer.
    Answer. Although the Supreme Court's opinion in Ramah spoke 
generally of line item appropriations (132 S. Ct. 2194), there is no 
indication that the Court contemplated a regime under which an 
appropriation would be improperly augmented by volunteer tribal 
services--which is the effect of the Administration's proposal.
    Nor did the Court appear to contemplate the current proposal, where 
individual contract caps for FY 2014 are developed based upon 
projections from two-year-old data (taken from FY 2012), without 
adjustment for intervening decreased or increased contract requirements 
caused by changed indirect cost rates or changed direct contract 
support cost requirements (the two components of contract support 
costs). Under the Administration's proposal, if a tribal contractor's 
contract support cost requirement is lower in 2014 than the amount 
specified in the list--the list which the Administration proposes the 
Committee will incorporate into law by reference--then that excess sum 
will lapse to the Treasury because no mechanism is provided for 
reallocating that sum to other contractors.
    Finally, there is no indication in Ramah that the Court 
contemplated an arrangement where a list would be developed after an 
appropriation level was adopted by Congress. Such a list cannot have 
the force of law because it would not be in existence at the time 
Congress adopted the appropriation. Yet, it would appear to be 
impossible for the agencies to develop the necessary final lists until 
the agencies know the final appropriations levels. Significantly, the 
lists the agencies recently submitted to Congress are (in addition to 
being incomplete) premised upon Congress agreeing with the 
Administration's overall proposed BIA and IHS funding levels for 
contract support costs, an assumption which seems risky at best given 
recent history.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                            Hon. John Sirois
Economic Development
    In your written testimony you state that economic development 
programs are underutilized in Indian Country.
    Question 1. What is the most significant barrier Indian tribes and 
individual Indians face in utilizing Federal economic development 
programs?
    Answer. In the CCT's view, there are several barriers, but the most 
significant is the scattershot nature of how economic development 
programs are situated and administered in agencies and departments 
outside the Department of the Interior.
    The Department of Energy (DOE), for example, has many different 
programs and activities under its umbrella that Indian tribes are 
eligible to apply for but are largely unknown or go unnoticed in Indian 
country. For example, for many years the primary DOE competitive energy 
grant programs for tribes was administered under DOE's Weatherization 
program. Prior to the establishment of the Office of Indian Energy 
Policy and Program, this program largely operated in a vacuum.
    In contrast, the economic development programs within DOI are 
relatively easy to identify and apply for because they are situated 
under the Office of Indian Energy and Economic Development (OIEED). As 
noted in our written testimony, the CCT have had success utilizing 
OIEED programs because its notices of funding availability are easy to 
locate and track.
Indian Education
    The Indian School Equalization Program (ISEP) funds constitute the 
primary funding for educational programs for Indian students at Bureau 
of Indian Education (BIE) elementary and secondary schools. The 
President's FY 2014 Budget Request includes a proposed $16.5 Million 
cut for the ISEP to fund a pilot program modeled after the Department 
of Education's Turnaround School Program.
    According to the Department, these ISEP funds would be reduced for 
all schools, including those who are maintaining average or higher 
achievement, to fund this pilot program. The proposed reduction in ISEP 
funds would translate into an estimated decrease of approximately $180 
per Weighted Student Unit at each school.
    Question 2. How would this pilot program improve academic 
achievement at the Pascal Sherman Indian School on your reservation?
    Answer. Based on the description in the FY 2014 request, we are not 
sure that the Turnaround Pilot Program (TPP) would benefit Pascal 
Sherman Indian School (PSIS). The request states that after ``an 
objective review of data by the BIE . . . grants will be awarded to 
schools that demonstrate the strongest commitment for using the funds 
to substantially raise the achievement of students.''
    If Congress were to approve this proposal in the FY 2014 spending 
bill, much would depend on how BIE implemented the program, what data 
it considered relevant, and what it considered ``achievement'' for 
purposes of making awards. The request also does not describe the type 
of data BIE would focus on in establishing the pilot program.
    The CCT supports innovative approaches to Indian education, 
including competitive grant programs that give BIE schools the 
opportunity to develop new approaches to educating Indian students and 
distinguishing themselves with such approaches.

    Question 3. Do you think the ISEP funds of the higher performing 
BIE schools should be reduced to fund this pilot program?
    Answer. In the CCT's view, it is counterintuitive to reduce the 
funds of high performing BIE schools to fund a competitive grant 
program that is intended to benefit schools that are undergoing 
restructuring. As the statistics demonstrate, there are very few BIE 
operated or BIE funded schools that make Adequate Yearly Progress 
(AYP). Schools meeting AYP would likely not benefit at all from the TPP 
at all, yet they stand to have their funding reduced under the 
Administration's proposal.
    Conversely, given the high number of BIE operated or BIE funded 
schools that do not make AYP, it would make more sense to fund the TPP 
through sources other than the ISEP funds of schools that make AYP or 
are high performing.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Yvette Roubideaux
Forward Funding of the Indian Health Service
    Background: Tribes have requested that Congress provide forward 
funding for Indian Health Service facilities. This forward funding 
would follow action by the Veteran's Administration to provide forward 
funding to their facilities in 2009. Providing advanced appropriations 
for the Indian Health Service would better prepare the agency to budget 
its resources and allow the Indian Health Service to better address 
challenges including recruitment and retention of health care 
providers, planning for maintenance and replacement of facilities, and 
providing health care to American Indian and Alaska Native patients.
    Recently there has been an effort by tribes requesting that 
Congress provide the Indian Health Service with advanced annual 
appropriations similar to the manner in which the Department of 
Veterans Affairs provides forward funds.

    Question 1. Does the Indian Health Service support advanced 
appropriations? What would the one-time cost be to implement advance 
appropriations?
    Answer. The IHS is currently reviewing the concept of advanced 
appropriations, which Congress provided the VA Medical Care accounts in 
2009, and plans to consult with Tribes on this proposal during its 
Tribal budget formulation process this fall.
Sanitation Facilities Funding
    Background: The Indian Health Services reports that approximately 
60 percent of Indian and Alaska Native homes are in need of sanitation 
facilities. This represents 240,000 Indian/Alaska Native homes. Of the 
homes in need of sanitation facilities, 30,273 are without potable 
water. According to the Indian Health Service, the estimated cost to 
address this need is $2.9 billion. On April 9, the Indian Health 
Service, Environmental Protection Agency, the Department of Interior, 
the Department of Housing and Urban Development, and the Department of 
Agriculture signed a Memorandum of Understanding to improve the 
interagency cooperation in providing safe drinking water and basic 
infrastructure. As part of this Memorandum of Understanding, the 
Agencies formalized the goal of reducing the backlog of Tribal homes 
lacking safe drinking water and basic sanitation by 50 percent by 20 
15. The Indian Health Service reports that the cost to address this 
backlog is $2.9 billion, but that of this $1.64 billion is considered 
economically and technically feasible to accomplish. Nevertheless, 
across the four Agencies, the Administration is requesting only $155 
million for water and sanitation needs in FY 2014.

    Question 2. Is the Agencies' goal to reduce the water and 
sanitation backlog by 50 percent a realistic goal, given that by the 
Indian Health Service's own estimation it would require approximately 
$820 million to reduce the backlog by 50 percent, and given that the 
four Agencies have collectively requested only $155 million to address 
this need in the FY 2014?
    Answer. IHS is committed to working to achieve the United Nations 
Millennium Development goal of reducing the number of American Indian 
and Alaska Native Homes lacking access to safe drinking water and basic 
sanitation by 50 percent by 2015. To help meet this goal, IHS 
participates as part of the Infrastructure Task Force (ITF) formed in 
2003 and effective June 2007 via Memorandum of Understanding (MOU). The 
ITF combines resources from all participating agencies to fund these 
needed projects to provide water infrastructure, wastewater 
infrastructure, and solid waste management services to tribal 
communities. Additionally, the ITF is leveraging their ability to 
provide technical assistance and operator training opportunities to the 
tribes to assist the tribes in providing or sustaining improved access 
to safe drinking water and basic sanitation to their people. The Indian 
Health Service, Environmental Protection Agency, the Department of 
Interior, Department of Agriculture, and the Department Of Housing and 
Urban Development renewed their commitment to the ITF on April 9, 2013 
by signing an updated MOU.
    The total required to address all sanitation needs according to the 
2013 IHS Sanitation Facilities Construction data is $2.9 billion and of 
this total amount $1.64 billion is considered to be economically and 
technically feasible. These cost estimates represent approximately 
240,000 homes; however, 48,000 of these homes have the highest need, 
either lacking adequate sanitation services or having no sanitation 
facilities. The total technically and economically feasible cost to 
serve homes with these needs is approximately $540 million.
    There has been significant progress toward reaching the ITF goals. 
In December of 2010 the Infrastructure Task force developed a report 
entitled ``Meeting the Access Goal Progress to Date'' and that report 
states that the baseline need was established as FY 2003 data from IHS. 
The data showed that there were 44,234 homes without water and/or basic 
sanitation and the proposed target was to serve 22,118 with water and/
or basic sanitation. From 2003 through 2009, 80,941 tribal homes were 
provided access to safe drinking water and 43,562 tribal homes were 
provided with basic sanitation. These results were better than 
anticipated; his is nearly 4 times the goal for safe drinking water and 
3.5 times the goal for basic sanitation established in 2003 under the 
Millennium Development Goal. The ITF has continued to serve additional 
homes since 2009.
    Despite this progress, IHS anticipates exponential growth in the 
need for sanitation facilities construction appropriations in the 
future for several reasons, including a continually growing population 
and increased costs of construction due to inflation and changing 
environmental laws. Homes are served using a priority system based on 
health impact, need and unit cost. Thus, the proposed request may serve 
a larger percentage of these homes than expected based on the funding 
levels.
Contract Support Costs and Legislative Recommendation
    Background: Tribes are able to contract or compact with the 
Department of the Interior or the Indian Health Service to take over 
the operation of programs that were previously administered by Interior 
or the Indian Health Service. When tribes assume control of these 
functions of the federal government, tribes have continuously not 
received the full amount of funds to operate and administer these 
programs, known as contract support costs.
    Several lawsuits have been filed by tribes to recoup funds spent to 
administer these programs. In the most recent decision, Ramah, the 
Supreme Court held that the government must pay each tribe's contract 
support costs in full. In Ramah, the Court did note, however, that 
although Congress mandates agencies to enter into self-determination 
contracts with tribes, Congress has also failed to provide sufficient 
funding for the agencies to cover all of the contract support costs 
owed to tribal contractors. The Court made it clear that it is up to 
Congress to address the Indian Self-Determination and Education 
Assistance Act mandate by amending the law, or by fully funding this 
program. To fully fund this program at the Indian Health Service would 
require $615 million (the fiscal year 2014 request was $477 million).
    The Indian Health Service has requested an increase of $5 million 
for Contract Support Costs, however, it is estimated that fully funding 
Contract Support Costs would require approximately $138 million.

    Question 3. Given the Supreme Court's decision that the government 
is required to fully fund contract support costs, why has the agency 
not requested more funding for this program?
    Answer. To balance the priorities of all tribes with the available 
appropriations, and in accordance with the Supreme Court's decision in 
Salazar v. Ramah Navajo Chapter in June 2012, the President's FY2014 
Budget proposes new appropriations language for both IHS and the Bureau 
of Indian Affairs to provide a specific amount for contract support 
costs (CSC) funding for each Indian Self Determination and Education 
Assistance Act contract. Funding for CSC must be balanced with funding 
for direct health care services for tribes. Providing a specific CSC 
amount on a contract-by-contract basis is an interim approach, and one 
of the options identified by the Court. The Administration looks 
forward to working with tribes and Congress to develop a balanced, 
long-term solution.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                         Hon. Yvette Roubideaux
Contract Support Costs
    On June 18, 2012, the Supreme Court held in Salazar v. Ramah that 
the government is liable for the full funding of the contract support 
costs for tribal contracts and compacts pursuant to the Indian Self-
Determination and Education Assistance Act.
    In response to this decision, the Administration proposes to set 
forth specific amounts for these contract support costs for each tribal 
contract and compact. These amounts would be incorporated by reference 
into Appropriations Acts.

    Question 1. Please explain how this proposal would fully fund all 
of the contract support costs that each tribal contractor is entitled 
to pursuant to the Indian Self-Determination and Education Assistance 
Act and the Supreme Court decision in Salazar v. Ramah.
    Answer. To balance the priorities of all tribes with the available 
appropriations, and in accordance with the Supreme Court's decision in 
Salazar v. Ramah Navajo Chapter in June 2012, the President's FY 2014 
Budget proposes new appropriations language for both IHS and the Bureau 
of Indian Affairs to provide a specific amount for contract support 
costs funding for each Indian Self-Determination and Education 
Assistance Act contract. In Salazar v. Ramah Navajo Chapter, the 
Supreme Court found that the current appropriations language did not 
limit the government's responsibility to fully reimburse tribes for 
CSC. The Court identified five Congressional options to remedy the 
situation:

        1. Amending the ISDEAA to remove the mandate to contract;

        2. Amending the ISDEAA to give flexibility on the amount paid 
        for CSC;

        3. Passing a moratorium on the formation of new self-
        determination contracts, as done before;

        4. Making a line-item appropriation, allocating funds to cover 
        tribe's CSC on a contractor-by-contractor basis; and

        5. Appropriating sufficient funds to meet the tribes' total CSC 
        needs.

    The President's Budget is consistent with the Court's proposed 
solutions and maintains longstanding policy that funding for CSC must 
be balanced with funding for direct programmatic funding for tribes, 
such as health care services and law enforcement, and other tribal 
priorities. The Administration looks forward to working with tribes and 
Congress to develop a balanced, long-term solution.

    Question 2. Please clarify who would determine the contract support 
cost amounts to be paid on each contract.
    Answer. Congress determines the not-to-exceed amounts of CSC for 
each contract. In accordance with the President's Budget, IHS and BIA 
have provided Congress with lists identifying CSC amounts for each 
contract. The not-to-exceed amount reflected for each contract is 
determined consistent with the IHS CSC Policy, which was created with 
input provided by tribes and tribal organizations during Tribal 
consultation. The IHS Office of Finance and Accounting, in coordination 
with each IHS Area, used the Policy to calculate the specific CSC 
amounts identified in the list.

    Question 3. Please describe how and when these amounts would be 
determined.
    Answer. Congress will make the final determination of the not-to-
exceed amount for each tribe when an appropriations bill is enacted. 
The amounts identified by IHS in the list transmitted to Congress were 
determined consistent with the IHS CSC Policy. The list was transmitted 
by the Secretary of the Department of Health and Human Services, to the 
House and Senate Interior Appropriations Subcommittees on June 14, 
2013. IHS will provide technical assistance to Congress as they 
finalize their decision on appropriations for FY 2014.

    Question 4. Please explain how your agency will consult with tribes 
on determining the amounts to be paid to the individual contractors.
    Answer. Under the President's Budget proposal, the amounts to be 
paid to individual contractors would not exceed the amounts identified 
in the list provided to Congress and incorporated into the 
appropriations act. The amounts in the list were determined consistent 
with the IHS CSC Policy, which was developed in coordination and 
consultation with tribes and tribal organizations. As noted above, the 
proposal for Congress to appropriate a not to exceed amount of CSC on a 
contract-by-contract basis is an interim approach.
    The Indian Health Service provides multiple consultation 
opportunities to tribes, and the involvement of tribal governments in 
IHS activities is mandated by Executive Order 13175, HHS policy, and 
IHS policy. IHS conducts a variety of consultation activities with 
tribal leaders and representatives of tribal governments, including 
national meetings, regional inter-tribal consultation sessions, 
meetings with delegations of leaders from individual Tribes, Area 
consultation sessions, and tribal advisory workgroups. IHS has been 
consulting with Tribes on CSC-related issues regarding both 
appropriations and past claims prior to and since the Ramah decision. 
IHS will continue to engage in consultation with Tribes on these 
matters.

    In his written testimony received by the Committee for the hearing 
on the President's FY 2014 Budget Request on April 24, 2013, Mr. Lloyd 
Miller notes constitutional concerns with the Administration's proposal 
regarding contract support costs.

    Question 5. What are your views on the constitutional concerns 
raised in Mr. Miller's testimony? Please be specific in your response.
    Answer. Mr. Miller implies that the Administration's proposal is 
unconstitutional for two reasons. First, he states that it is 
discriminatory for the Administration to propose a special limitation 
applicable to Indian contracts only. Second, he states that it may be 
unconstitutional under the Fifth Amendment because it is 
``confiscatory.''
    We do not believe the President's Budget proposal raises 
constitutional concerns. The Supreme Court identified contract-by-
contract appropriations as an option for Congress in the Ramah 
decision. In addition, Ramah Navajo Chapter counsel raised this option 
in their brief and in oral argument before the Supreme Court and did 
not suggest any concerns with the constitutionality of the approach.

    Under the Indian Self-Determination and Education Assistance Act, 
an annual shortfall report on contract support costs is required to be 
submitted to Congress by May 15th of each year. As Mr. Lloyd Miller 
notes in his written testimony for the hearing on the President's FY 
2014 Budget Request on April 24, 2013, these annual shortfall reports 
have been lagging. The report with FY 2011 data has still not been 
submitted to Congress.

    Question 6. Please describe any problems or obstacles your agency 
has encountered in collecting accurate, timely data and providing these 
reports to Congress in a timely manner.
    Answer. The Reports to Congress for FY 2011 and 2012 were completed 
and transmitted to Congress on May 22, 2013. These Reports will be 
posted on the IHS Website in the near future. IHS identified the need 
to work with individual Tribes to revalidate the data submitted by 
Tribes for these Reports, which required additional time for further 
analysis. The Reports for 2003-2010 were submitted and are available on 
the IHS website. IHS is currently working on the Report for FY 2013.

    Question 7. What has your agency done to address these problems or 
obstacles?
    Answer. IHS has updated business practices to centralize data 
collection efforts from both the IHS Area and Headquarters levels. 
Streamlining the process for data gathering will assure timely 
responses. IHS has also instituted particular practices to help with 
data collection. These practices include: identifying a CSC team lead, 
increasing CSC Shortfall training efforts to staff, providing CSC 
training to IHS Areas, and implementing a new verification process of 
shortfall calculations on a Tribe-by-Tribe basis.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                         Hon. Yvette Roubideaux
    The Department of the Interior, Indian Affairs has a New Tribes 
program which provides resources for regional and agency offices to 
service and support newly acknowledged tribal governments. These 
efforts are intended to provide tribes with resources to foster strong 
and stable tribal governments. Once a tribal government attains Federal 
recognition, IA formulates a recurring funding level by using the 
established tribal population. For tribes with a population of 1,700 
members or less, a TPA funding level of $160,000 would be recommended; 
tribes with populations of 1,701 to 3,000 members, a TPA funding level 
of $320,000 would be recommended; and for newly recognized tribes with 
more than 3,000 members, the funding level would be determined on a 
case-by-case basis.

    Question 1. What additional annual resources are provided by the 
Indian Health Service for newly acknowledged tribal governments, at a 
facility level, for the area or region, for Purchased/Referred Care, or 
any other types of funding? What variables are considered by IHS in 
making such funding decisions? How many quarters or years does it take 
on average to integrate the needs of New Tribes into the IHS budget and 
health care system? If a new recognized tribal government has no 
reservation land base or tribal lands are not located within an 
established service area, what options are available to tribal members 
in terms of IHS services or programs?
    Answer. Similar to the DOI process described above, the IHS 
formulates recurring funding to establish health care services for 
Tribal members residing in a local service delivery area. The required 
funding amount is calculated from prevailing health insurance costs per 
capita, less existing resources such as Medicare, Medicaid and private 
health care insurance, and adjusted to the average level of funding 
provided by IHS to all Tribes. Funds are requested during the annual 
budget formulation process. The process--data collection, calculation & 
verification, budget formulation, and annual appropriation--typically 
takes three years to complete. In the interim, IHS may provide limited 
non-recurring Purchase/Referred Care funds for basic services.

    Question 2. DOI, IA, has requested New Tribes funding for three 
newly acknowledged tribal governments in FY14: The Shinnecock Indian 
Nation, Wilton Rancheria and Tejon Indian Tribe. Is there any amount of 
funding added or allocated to help serve these three Tribes in the IHS 
FY14 request? If so, what is the amount? If not, can you describe the 
process needed to determine if additional funds are needed? What 
services or programs would be available for these three tribes in 
coming years?
    Answer. Funds for new Tribes are requested during the annual budget 
formulation process when all Tribal priorities as presented during 
Tribal Consultation are considered. The funding request amount varies 
as IHS applies the process described above in question one to all newly 
recognized Tribes.
    IHS may provide limited resources during the interim period until 
additional funds are appropriated.

    Question 3. Purchased/Referred Care resources, used to purchase 
essential health care services not available in IHS and Tribal 
healthcare facilities, have been requested in the amount of 
$878,575,000 for FY 14 and proposed allocations are provided for each 
of the 12 Area Offices and to Headquarters. Will any of these P/RC 
funds, if appropriated, be available to tribal members of the three new 
tribes listed above? Can you please explain the priority of care under 
the P/RC program and what tier or priority of care is available in each 
region? Also, can you provide, by Area, the month of the fiscal year 
when funding has been exhausted since FY10?
    Answer. The FY 2014 request includes approximately $850,000 in the 
Purchased/Referred Care (formerly Contract Health Services) base budget 
to address limited health care needs of new federally acknowledged 
tribes until recurring funds are appropriated for each new tribe. These 
funds will be used to purchase care or support direct care if the tribe 
operates a health care program. In addition, tribal members or 
descendants of tribal members of new federally acknowledged tribes are 
eligible for direct health care from any IHS or Tribal health care 
program, consistent with basic IHS eligibility regulations.
    To identify ongoing resource needs specific to a new federally 
acknowledged tribe, IHS works with the tribe to establish a projected 
user population base and then determines the funding amount to provide 
health care services for the population on a similar level as all other 
tribes. These amounts are considered during the budget formulation 
process and incorporated into the budget request when feasible.
    The list of IHS medical priorities is found in the Indian Health 
Manual on the P/RC website. (Tribal programs that elect to follow IHS 
procedures may use the priorities in the Indian Health Manual as 
guidelines.)
    There are five levels in the IHS Priority System.

        I) Emergent or Acutely Urgent Care Services,
        II) Preventive Care Services,
        III) Primary and Secondary Care Services,
        IV) Chronic Tertiary and Extended Care Services, and
        V) Excluded Services

    Priority levels are determined at the local facility level 
depending on funds available. There are sixty-six Federal PRC programs. 
Twenty-nine of these programs report they provide beyond medial 
priority I level care and the remaining thirty-seven report they 
provide medical priority I care only.
    IHS-managed PRC programs are to maintain a weekly spending plan by 
prorating their allocations by the appropriate amount of weeks for each 
allocation to assure funds are available throughout the year to cover a 
certain level of care. Therefore, funds do not run out in a particular 
month of the year as they are allocated to be spent throughout the year 
according to medical priority.
    The Catastrophic Health Emergency Fund (CHEF) fund, which is part 
of the PRC program, provides reimbursement to offset high cost cases 
(after meeting a threshold) at the local PRC program level. These high 
cost cases were already paid for by the local facility with PRC 
funding. When CHEF funds are depleted the PRC program must absorb the 
entire cost of the high cost case, which limits their ability to fund 
additional PRC care. CHEF funds were used to reimburse high cost cases 
on a rolling basis until they were depleted in August during FY 2010, 
FY 2011, and FY 2012.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Kevin Washburn 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Response to Written Questions Submitted by Hon. John Barrasso to 
                          Hon. Kevin Washburn


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Hon. Kevin Washburn 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Kevin Washburn 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



     Response to Written Questions Submitted by Hon. Mike Crapo to 
                          Hon. Kevin Washburn 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
